<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                   MICHAEL K. SIMPSON, Idaho, Chairman
 JERRY LEWIS, California            JAMES P. MORAN, Virginia
 KEN CALVERT, California            BETTY McCOLLUM, Minnesota
 STEVEN C. LaTOURETTE, Ohio         MAURICE D. HINCHEY, New York
 TOM COLE, Oklahoma                 JOSE E. SERRANO, New York    
 JEFF FLAKE, Arizona                
 CYNTHIA M. LUMMIS, Wyoming         
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              David LesStrang, Darren Benjamin, Jason Gray,
                     Erica Rhoad, and Colin Vickery,
                            Staff Assistants

                                ________

                                 PART 7
                                                                   Page
 Major Management Challenges at the U.S. Forest Service...........    1
 U.S. Forest Service FY 2012 Budget Oversight Hearing.............   97
 Fish and Wildlife Service FY 2012 Budget Oversight Hearing.......  165
 U.S. Geological Survey FY 2012 Budget Oversight Hearing..........  272
 Bureau of Ocean Energy Management, Regulation and Enforcement 
(BOEMRE) and Office of Natural Resources Revenue (ONRR) FY 2012 
Budget Oversight Hearing..........................................  333
 Bureau of Indian Affairs FY 2012 Budget Oversight Hearing........  451
 Indian Health Service FY 2012 Budget Oversight Hearing...........  511
 National Endowment for the Arts FY 2012 Budget Oversight Hearing.  567
 National Endowment for the Humanities FY 2012 Budget Oversight 
Hearing...........................................................  609
 Smithsonian Institution FY 2012 Budget Oversight Hearing.........  635

                                ________

         Printed for the use of the Committee on Appropriations
?


                                 PART 7

                                 MMCFS

                                   FS

                                  FWS

                                  USGS

                                BOEMRE/

                                  ONRR

                                  BIA

                                  IHS

                                  NEA

                                  NEH

                              Smithsonian

  INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2012
                                                                      ?

                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                   MICHAEL K. SIMPSON, Idaho, Chairman
 JERRY LEWIS, California            JAMES P. MORAN, Virginia
 KEN CALVERT, California            BETTY McCOLLUM, Minnesota
 STEVEN C. LaTOURETTE, Ohio         MAURICE D. HINCHEY, New York
 TOM COLE, Oklahoma                 JOSE E. SERRANO, New York    
 JEFF FLAKE, Arizona                
 CYNTHIA M. LUMMIS, Wyoming         

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              David LesStrang, Darren Benjamin, Jason Gray,
                     Erica Rhoad, and Colin Vickery,
                            Staff Assistants

                                ________

                                 PART 7
                                                                   Page
 Major Management Challenges at the U.S. Forest Service...........    1
 U.S. Forest Service FY 2012 Budget Oversight Hearing.............   97
 Fish and Wildlife Service FY 2012 Budget Oversight Hearing.......  165
 U.S. Geological Survey FY 2012 Budget Oversight Hearing..........  272
 Bureau of Ocean Energy Management, Regulation and Enforcement 
(BOEMRE) and Office of Natural Resources Revenue (ONRR) FY 2012 
Budget Oversight Hearing..........................................  333
 Bureau of Indian Affairs FY 2012 Budget Oversight Hearing........  451
 Indian Health Service FY 2012 Budget Oversight Hearing...........  511
 National Endowment for the Arts FY 2012 Budget Oversight Hearing.  567
 National Endowment for the Humanities FY 2012 Budget Oversight 
Hearing...........................................................  609
 Smithsonian Institution FY 2012 Budget Oversight Hearing.........  635

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 66-897                     WASHINGTON : 2011

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman
 
 C. W. BILL YOUNG, Florida \1\      NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\        MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia            PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia             NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New JerseyJOSE E. SERRANO, New York
 TOM LATHAM, Iowa                   ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri           JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                 ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho          DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas        MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida            LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana             SAM FARR, California
 JOHN R. CARTER, Texas              JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana        CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California            STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                 SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio         BARBARA LEE, California
 TOM COLE, Oklahoma                 ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida         BETTY McCOLLUM, Minnesota         
 CHARLES W. DENT, Pennsylvania      
 STEVE AUSTRIA, Ohio                
 CYNTHIA M. LUMMIS, Wyoming         
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    
                                    

               William B. Inglee, Clerk and Staff Director

                                  (ii)

 
DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2012

                              ----------                              

                                          Thursday, March 10, 2011.

         MAJOR MANAGEMENT CHALLENGES AT THE U.S. FOREST SERVICE

                               WITNESSES

ANU K. MITTAL, DIRECTOR, NATURAL RESOURCES AND 
    ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE
PHYLLIS K. FONG, INSPECTOR GENERAL, U.S. DEPARTMENT OF 
    AGRICULTURE

                  Opening Remarks of Chairman Simpson

    Mr. Simpson. The committee will come to order. Once again, 
I would like to welcome the members of the subcommittee as well 
as our panel of witnesses this afternoon from the Government 
Accountability Office and the Department of Agriculture's 
Office of Inspector General to present testimony on the major 
management challenges of the Forest Service.
    The Forest Service manages a great deal of land for the 
public, including several national forests in my district. 
There is certainly no lack of issues to discuss, so I would 
like to keep my comments to a minimum and focus on the 
testimony. This hearing will help prepare the subcommittee's 
members for tomorrow morning's Forest Service budget hearings.
    Before introducing our witnesses, I would like to yield to 
Mr. Moran for any opening statement he might have.

                      Opening Remarks of Mr. Moran

    Mr. Moran. Thanks so much, Mr. Chairman. We invariably 
schedule these hearings at the same time as Defense, but there 
is nothing we can do about it when we compress 4 weeks into 3. 
Thanks for having the hearing, and it is nice to see Ms. Mittal 
again, and of course, the Inspector General for the Agriculture 
Department. I do not know if you know Ms. Fong is a special 
Inspector General because she is the Inspector General of 
Inspector Generals. Yes. She is the first chairperson of the 
Council of Inspectors General on Integrity and Efficiency.
    Mr. Simpson. I did not know that.
    Mr. Moran. Oh, there you go. Seventy-three different 
Federal Inspectors General, and she is the boss of all of them. 
I appreciate the fact that the chairman is having these 
hearings which, whether it be a Democratic or Republican 
majority, we found that the Inspector General's enlightenment 
serves us very well in subsequent hearings and the General 
Accounting Office as well. I guess it is General 
Accountability. It will always be General Accounting to me.
    But there are forest management issues that are worth 
looking at. Last week I was down at the Agriculture Department 
with Secretary Vilsack where we were recognizing the centennial 
anniversary of the Weeks Act. That was a situation where we had 
so many denuded forests, particularly in the east, and they 
were just being allowed to lie fallow. The folks who had clear-
cut those forests would not even pay taxes, so the states and 
localities picked it up and that enabled the Federal Government 
to pick it up, and that led to 52 national forests in the east 
and 26 different states. So the Forest Service has a great 
record of oversight and management, but it can always be 
improved, and that is what we want to talk about today.
    So, again, thanks to both of you for being here. I look 
forward to your testimony.
    Mr. Simpson. Our first witness is Ms. Anu Mittal, Director 
of Natural Resources and Environment Division of the GAO. She 
will be followed by Ms. Phyllis Fong, the Inspector General of 
the Department of Agriculture and the Chief Inspector General. 
We appreciate you appearing before the subcommittee this 
afternoon. We will give you each 15 minutes to outline your 
concerns, followed by questions from committee members.

                       TESTIMONY OF ANU K. MITTAL

    Ms. Mittal. Thank you, Mr. Chairman and members of the 
subcommittee, for the opportunity to be here today to discuss 
management challenges facing the Forest Service.
    As you know, in 2009, we testified before this subcommittee 
on three areas where the Forest Service faced major management 
challenges. These included the lack of strategies to 
effectively use wildland fire funds, the lack of data on 
programs and activities, and inadequate financial and program 
accountability.
    Based on the work that we have undertaken since 2009, we 
believe that these three areas are still challenges today, and 
we have added a fourth area relating to the lack of program 
oversight and planning. I would like to briefly summarize each 
of our concerns in these four areas for you.
    As we reported in 2009, the Forest Service still lacks key 
strategies needed to effectively manage wildland fires. As you 
know, over the past decade wildland fires have dramatically 
worsened, and their associated costs have substantially 
increased. Likewise, for over a decade we have made numerous 
recommendations to improve the Forest Service's efforts in 
fighting these fires.
    While the agency has taken some steps to implement our 
recommendations, much work remains to be done in all of the 
areas that we have highlighted in the past. For example, the 
Forest Service and Interior still have not completed the 
Cohesive Wildland Fire Strategy that we have recommended since 
1999, and that Congress mandated in the Flame Act of 2009. 
Congress required this Cohesive Strategy to be completed within 
1 year of the Act's passage, however, according to the agency, 
while the first phase of the strategy has been drafted, it has 
not yet been finalized, and it is unknown when the second 
phase, which will include the development and analysis of 
different options for wildland fire management as we have 
called for, will even be completed.
    Similarly, the Forest Service has not yet clearly defined 
its wildland fire cost containment goals. Without taking the 
fundamental steps of defining its cost-containment goals or 
developing a strategy for achieving those goals, the agency 
cannot insure that it is taking the most important steps first, 
nor can it be assured that it is taking the right steps first.
    The agency also has not fully implemented all of the 
improvements we have recommended for allocating fuel reduction 
funds and still lacks a measure to ensure that fuel reduction 
funds are being directed to those areas where they can best 
minimize the risk to people, property, and resources.
    And, finally, in the wildland fire area, we continue to be 
concerned that the Forest Service is several years behind 
schedule in developing an interagency fire program budgeting 
and planning tool known as FPA. The development of FPA has been 
characterized by delays and revisions, and the project has not 
yet been subject to peer review as we had recommended.
    It is, therefore, unclear to us whether the tool will meet 
one of its original objectives which was to identify cost-
effective combinations of assets and strategies to fight 
wildland fires.
    The second major management challenge that we have 
repeatedly identified in the past and which continues to be a 
concern today is the Forest Service's lack of complete and 
accurate data on its program activities and costs. Over the 
last few years we have continued to encounter shortcomings in 
this area during our audits of Forest Service programs that 
reinforce our concerns.
    For example, we recently reviewed the data in the agency's 
Planning Appeals and Litigation System, and we determined that 
these data were not always complete or accurate. As a result, 
we have to conduct our own survey of field office staff to get 
the information that we needed.
    Similarly, on our review of abandoned hard rock mines, we 
found that the Forest Service had difficulty determining the 
number of such mines on its land, and the accuracy of the data 
that it did have was also questionable.
    The third area that we have been and remain concerned about 
relates to financial management and performance accountability 
shortcomings. While we moved the Forest Service's financial 
management issue from GAO's high-risk list about 6 years ago, 
there are lingering concerns about financial management at the 
agency, especially in the wake of recent reports from the 
Department of Agriculture and the IG.
    For example, in its 2010 performance and accountability 
report the Department concluded that the Forest Service needed 
to improve controls over its expenditures for wildland fire 
management, and it identified the Wildland Fire Suppression 
Program as susceptible to significant improper payments.
    In addition, the Forest Service has not fully resolved the 
performance accountability problems that we have identified in 
the past. According to the IG, the longstanding problems that 
we have identified with the agency's inability to link its 
planning, budgeting, and results reports continues to be an 
issue today.
    The final area that I would like to talk about relates to 
challenges that the Forest Service faces in delivering its 
programs because it lacks adequate oversight or strategic 
planning. Our recent work provides a number of examples in this 
area.
    For example, as part of its land management 
responsibilities, the Forest Service acquires and disposes of 
lands through its Land Exchange Program. However, we recently 
reported that the Forest Service needed to improve oversight of 
its Land Exchange Program because it lacked a national strategy 
and process for tracking costs, and it did not require its 
staff to take mandatory training.
    Similarly, we have been concerned about the ability of the 
Forest Service to maintain an effective workforce because it 
has not clearly aligned its workforce plans with its strategic 
plan and has not monitored and evaluated its workforce planning 
efforts.
    Because of this lack of planning and monitoring, we 
concluded that the Forest Service remains at risk of not having 
the appropriately-skilled workforce it needs to fulfill its 
mission.
    Finally, our recent work has raised concerns that the 
Forest Service, like other federal land management agencies, 
lacks a risk-based approach for managing its law enforcement 
resources. In 2010, we reported that the Forest Service needed 
a more systematic method to assess the risks posed by illegal 
activities that are occurring on its lands, and if it developed 
such an approach, it could better insure that it is allocating 
its limited law enforcement resources in the most effective 
manner.
    Mr. Chairman, we recognize that these are not easy issues 
for the Forest Service to resolve, but we also recognize that 
these are not new issues for the agency and that many of them 
have been very well documented for a very long time. In light 
of the Nation's long-term fiscal condition, we believe that it 
is imperative for the agency to expeditiously address these 
management challenges now so that it can insure that going 
forward it is fulfilling its mission in the most cost-effective 
and efficient manner.
    That concludes my prepared statement. I would be happy to 
respond to any questions.
    [The statement of Anu Mittal follows:] 

    [GRAPHIC] [TIFF OMITTED] T6897A.001
    
    [GRAPHIC] [TIFF OMITTED] T6897A.002
    
    [GRAPHIC] [TIFF OMITTED] T6897A.003
    
    [GRAPHIC] [TIFF OMITTED] T6897A.004
    
    [GRAPHIC] [TIFF OMITTED] T6897A.005
    
    [GRAPHIC] [TIFF OMITTED] T6897A.006
    
    [GRAPHIC] [TIFF OMITTED] T6897A.007
    
    [GRAPHIC] [TIFF OMITTED] T6897A.008
    
    [GRAPHIC] [TIFF OMITTED] T6897A.009
    
    [GRAPHIC] [TIFF OMITTED] T6897A.010
    
    [GRAPHIC] [TIFF OMITTED] T6897A.011
    
    [GRAPHIC] [TIFF OMITTED] T6897A.012
    
    [GRAPHIC] [TIFF OMITTED] T6897A.013
    
    [GRAPHIC] [TIFF OMITTED] T6897A.014
    
    [GRAPHIC] [TIFF OMITTED] T6897A.015
    
    Mr. Simpson. Ms. Fong.

              TESTIMONY OF INSPECTOR GENERAL PHYLLIS FONG

    Ms. Fong. Thank you, Chairman Simpson and Ranking Member 
Moran and members of the subcommittee. I really appreciate this 
opportunity to come up here today and talk about our audit and 
investigative work concerning the Forest Service, and at the 
outset I want to express our appreciation, the OIG's 
appreciation for the agency's mission of sustaining the health 
and diversity of the Nation's grasslands and forests. We deeply 
respect the Forest Service's dedicated efforts in this area and 
the very many professional employees that they have across the 
country.
    In that context, we offer our remarks. We are here to try 
and help the Forest Service address the issues that we have 
identified. You have my full written statement for the record, 
so I just want to offer a few brief comments on the three areas 
that are of concern to us that we have been focusing on in the 
last year.
    These three areas are basically: Improving the health of 
the forest system and fighting wildfires; secondly, 
implementing strong management controls; and third, delivering 
the Recovery Act programs as effectively as possible.
    So let me just start out with the firefighting topic. We 
have done quite a bit of work in fighting wildfires and how the 
Forest Service manages that because it is such a key part of 
the agency's mission. We recently completed a couple of reviews 
in this area that I want to draw your attention to.
    First off, we looked at the workforce at the Forest Service 
and concluded that the Forest Service really needs to focus on 
developing, recruiting, and retaining its very critical 
firefighting management jobs. As our report identifies in great 
detail, we see that that workforce is turning over very 
quickly, and we do not believe that the agency has adequately 
addressed that situation. The Forest Service has generally 
agreed with our recommendations in this area.
    The other topic that we looked at which is related to that 
deals with the usage by Forest Service of contract labor crews 
to fight forest fires. We took a quick look to see how the 
agency was overseeing that program, and we found that there 
were a number of things that the Forest Service could do better 
in terms of assessing how effective contract labor crews are. 
And we have made a number of recommendations, which, again, the 
agency has generally agreed with us on.
    Turning to the issue of management controls in the Forest 
Service programs, I know management controls is a topic that 
people say, ``what is a management control?'' We IG's, we like 
to talk about that. Very simply put, what we are trying to get 
at here is does the Forest Service have in place the ability to 
effectively manage its programs, to deliver the programs the 
way Congress intended, and to report on how it is doing.
    As an example, we took a look at the Invasive Species 
Program, which is intended to address the problem of invasive 
species in the forests, and we found that this program is 
illustrative of the challenges that the Forest Service faces. 
We concluded that the program lacks a lot of the kinds of 
controls that you would expect in a federal program. The Forest 
Service, for example, does not have an inventory of all the 
different kinds of invasive species that are out there in the 
forests. The Forest Service has not assessed the various risks 
associated with different species, and it has not really 
assessed the efficacy of the different treatments that are 
available to deal with different species.
    And so when you take all of that together as a whole, we 
felt that the Forest Service really needed to focus on how it 
is delivering that program and tighten up its management 
controls, and we made a number of recommendations, which, 
again, the agency generally agreed with.
    Let me turn to our work in the Recovery Act arena. Congress 
saw fit to make available $1.5 billion in recovery money to the 
Forest Service for capital improvement and maintenance, and for 
wildland fire management. As part of our oversight 
responsibilities, we are charged with looking at the 
expenditure of those funds to make sure that the Forest Service 
is delivering those programs as effectively as possible.
    We have already issued 18 fast reports on this. We have 
taken a look, and we plan to look at every program within 
Forest Service that received recovery money. We are right in 
the middle of all of that, but I can give you right now a 
general sense of where the Forest Service is.
    With respect to the wildland fire management funds, we took 
a look at a number of grants and contracts that the Forest 
Service made to non-federal entities, namely state and local 
entities, private entities, and we found some instances where 
recipients were getting reimbursed for expenditures that were 
not appropriate. We found that the grant agreements did not 
include all the right terms that they should have included. So 
there is room there for some improvement.
    In the area of capital improvement and maintenance 
projects, we took a look at those and again found that there 
were some instances of inappropriate purchases where those 
grantees have sought reimbursement. We also questioned some of 
the sub-grants to some recipients, and we have found some 
issues with the execution of contract awards.
    And so overall, as we look at the Recovery Act, I would say 
that the Forest Service has done a good job of putting the 
money out. They have done a very fine job of getting the money 
out into the country and the local jurisdictions. We found a 
few issues with regard to grant and contract awards, and by the 
end of this coming year we should be able to give you a pretty 
good assessment of how that all looks from a macro perspective.
    I think I will stop at this point and just say that we, 
again, thank you for the opportunity to be here, and I would be 
very happy to address any questions that you might have.
    [The statement of Phyllis Fong follows:] 

    [GRAPHIC] [TIFF OMITTED] T6897A.016
    
    [GRAPHIC] [TIFF OMITTED] T6897A.017
    
    [GRAPHIC] [TIFF OMITTED] T6897A.018
    
    [GRAPHIC] [TIFF OMITTED] T6897A.019
    
    [GRAPHIC] [TIFF OMITTED] T6897A.020
    
    [GRAPHIC] [TIFF OMITTED] T6897A.021
    
    [GRAPHIC] [TIFF OMITTED] T6897A.022
    
    [GRAPHIC] [TIFF OMITTED] T6897A.023
    
    [GRAPHIC] [TIFF OMITTED] T6897A.024
    
    [GRAPHIC] [TIFF OMITTED] T6897A.025
    
    [GRAPHIC] [TIFF OMITTED] T6897A.026
    
    [GRAPHIC] [TIFF OMITTED] T6897A.027
    
                 IMPLEMENTATION OF OIG RECOMMENDATIONS

    Mr. Simpson. It has been a couple of years since the GAO 
and IG testified before this subcommittee, and we find that a 
lot of the issues seem to repeat and repeat and repeat. What 
percentage of the recommendations that you make do you feel are 
addressed by the Department and which ones find themselves on 
the shelf? Any idea?
    Ms. Fong. Well, let me just preface by saying that when we 
work with the Forest Service, we start out our audit 
engagements and try to reach a very clear understanding with 
the agency as to what we are looking at. We try to ascertain 
what their concerns are so that whatever report we come out 
with is useful to them and useful to the Hill and to the 
Secretary as well and addresses the issues that we have 
identified.
    And what we have found generally is that we have a very 
good professional working relationship with the agency. By and 
large, when we sit down and issue our reports and our 
recommendations, they by and large agree with them. There will 
be a few areas where we may not have agreement, and that is to 
be expected, but generally they see the value in our 
recommendations, and they agree to take action.
    Where we start to perhaps lose the bubble, as they say, is 
that it takes a lot of effort to implement recommendations, and 
some of these recommendations do involve quite a bit of work to 
think through. It may involve some staff time. It may involve 
the need for independent looks. It may involve quite a bit of 
focus on the part of the agency, and so if the fix is not 
something that can be done quickly, we have seen the 
recommendations that involve more long-term analysis tend to 
take quite a bit of time, and those, of course, are the big 
issues.
    Mr. Simpson. Yes.
    Ms. Fong. Those are the very difficult issues.
    Mr. Simpson. And wildfire management is a big issue.
    Ms. Fong. Exactly.

                       ALBUQUERQUE SERVICE CENTER

    Mr. Simpson. The Albuquerque Service Center, specifically 
the IT and HR functions, have been problematic and, frankly, 
demoralizing for many Forest Service employees as I have talked 
to Forest Service employees over the years that I have been in 
Congress. I was surprised when the report came out in 2009, 
maybe not so much surprised after talking to many of them, that 
out of the 216 agencies--in terms of the best place to work--
the Forest Service ranked 206, which you would have thought, 
you know, anybody that ought to be happy with their job is 
working in the forests and stuff.
    And it seemed like a lot of it came back to the Albuquerque 
Center and the centralization of a lot of those efforts there. 
Have you looked at that at all?
    Ms. Mittal. We actually have a review ongoing right now at 
the request of this subcommittee and the Senate Subcommittee on 
Appropriations, and we are doing a comprehensive review of the 
Albuquerque Service Center consolidation. We are looking at how 
much it has cost to consolidate all of the business services in 
Albuquerque. We are looking at the savings, if there have been 
any, as a result of the consolidation. We are also taking a 
very thorough look at the effects that it has had on agency 
operations.
    So we are looking at effects across the agency, both at the 
agency-wide as well as the field office level, of course, 
paying particular attention to the field offices and the field 
staff.
    And, finally, we are looking at how the Forest Service is 
measuring progress in implementing the consolidation and 
centralization. So that review is ongoing. We are in the 
process of completing our audit work. We should be done by the 
end of April in terms of our audit work, and at that point we 
should be able to sit down with the staff, the committee, and 
give them a pretty good overview of our preliminary findings. 
The report will be issued later this summer.
    Mr. Simpson. Later this summer.
    Ms. Mittal. Uh-huh.

                INTEGRATED RESOURCE RESTORATION PROGRAM

    Mr. Simpson. The 2012 budget request of the Forest Service 
proposed combining several operating line items such as wild 
fire or wildlife, forest products, watershed, hazardous fuels, 
and road funding to create a large bucket of funding for the 
Integrated Resource Restoration Account. Presumably this line 
item would pay for projects that would achieve numerous goals 
such as road maintenance, foresting projects that would also 
improve the watershed and produce wood products.
    In concept this sounds like a good idea. I am concerned, 
however, that if the Forest Service in your findings lacks, or 
you have concerns about their oversight and strategic planning 
process and their financial management systems that currently 
exist, throwing all of these different line items into a big 
bucket of funding may, in fact, do more harm than good in terms 
of being able to do that strategic planning and financial 
oversight.
    Is that a concern? Would that be a concern to you?
    Ms. Mittal. I can start by saying that we have not actually 
looked at how they are going to do this consolidation, so I 
cannot comment on the IRR, but what I can say is that you are 
absolutely right. Given how much difficulty they have in 
providing oversight over individual programs and ensuring that 
they are tracking costs, which they oftentimes do not do, it 
really is a concern that if they bundle everything together and 
lump it together in this account, then how are they going to 
manage it. It does raise some concerns given their past 
management control issues.
    Mr. Simpson. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman. That is an ongoing 
issue we have in so many agencies, you know. We worry about 
duplication and overlap, but then on the other hand when we 
consolidate programs, we have difficulty in tracking and 
auditing the money as well. I would like to kind of see what 
the Integrated Resource Restoration Program is able to achieve.
    But I share the chairman's concern on the other hand if we 
can achieve the economy to scale and efficiencies, then 
management and operational, that would be good.

                    STEWARDSHIP CONTRACTING PROGRAM

    There is a Stewardship Contracting Program in the Forest 
Service that allows it to trade goods like timber for services 
to improve the condition of the public lands. The Forest 
Service wants to do a lot more of that with its forestry and 
restoration projects using these in-kind swap contracts.
    Can we be assured that the various field units are getting 
a fair return for the timber that they are trading for 
services? I would think that would be a difficult thing to 
monitor, and either the GAO or the Inspector General can 
respond.
    Ms. Mittal. We did a comprehensive review of the 
Stewardship Contracting Programs a couple of years ago and 
generally what we found is that the, again, and I hate to sound 
like a broken record, but the agency did not have comprehensive 
data on the stewardship contracts that it had used, and it was 
hard to figure out what they had used them for, and they did 
not have a national strategy for the use of stewardship 
contracts.
    What we did find is that they have been using stewardship 
contracts for very small projects. They have not been using it 
for some of the more complicated, multi-year types of projects 
that it has the potential to be used for.

                            FIRE SUPPRESSION

    Mr. Moran. Has the Forest Service adjusted its fire 
programs to fit the new reality of changed climates and 
increased suburbanization of the wildlands? We know that the 
last decade has been the hottest on record with some of the 
most volatile temperature changes and temperature events.
    Has there been a change to reflect what has happened in 
terms of climate and its impact upon the forests of the 
country? I guess I will ask the Inspector General. I know each 
year we get lip service to it saying that we are going to, but 
I do not know whether it has actually been done.
    Ms. Fong. Well, we had done an audit a couple of years ago 
on large fire suppression and wildland fire and the ways, the 
different ways that the Forest Service addresses that, and we 
identified a number of concerns with respect to fire 
suppression and the WUI, the Wildland Urban Interface, and we 
made a lot of recommendations on how the Forest Service could 
improve how it manages that program.
    We understand from the Forest Service that they agreed with 
our recommendations, and they have told us that they have taken 
action. Now, we have not gone in yet to verify. We do have two 
audits on our books that we have planned to start later this 
year that will go in and take a look at whether those 
recommendations have been successfully implemented, and we 
should have a better view on that probably in the next year.

                          SPECIAL USE PERMITS

    Mr. Moran. Okay. One other area of questioning. The IG 
mentions the work that has been completed on special use 
permits; 74,000 authorizations for over 180 different kinds of 
land uses. Can you give us a sense of what you found and 
whether or not the Service is providing adequate oversight, 
public resources, and seeing that the public gets a fair share 
of revenues?
    In your testimony you talked about 15.7 million, in 2008, 
and that the funds go to the Treasury. You know, at Interior 
funds stay with the bureaus, and I wonder if an incentive 
program would serve us better in which the agency can reinvest 
some of the funds in managing the program or restoring natural 
resources. They would have a greater incentive, and I wonder if 
that would not be beneficial to all of us, Ms. Fong.
    Ms. Fong. Well, I think you have really hit the nail on the 
head. I think you make a very good point about the program as 
it is run at the Forest Service compared to how it is run at 
the Department of Interior. As you point out, the monies that 
come in, the Forest Service spends quite a bit of time on that 
program, but the monies all must be delivered over to the 
Department of the Treasury, and so they do not benefit the 
Forest Service.
    We are getting ready to issue that report, and it should be 
out in the next month or so, and at that point I think you will 
find those recommendations very helpful to you. We will make 
sure that the committee gets a copy of that.
    Mr. Moran. Very good. Thank you. I am fine, Mr. Chairman. 
Thank you.
    Mr. Simpson. Mr. Calvert.

                             BORDER PATROL

    Mr. Calvert. Thank you, Mr. Chairman. I appreciate it. 
Thank you for coming today, Ms. Fong. I appreciate that. I 
represent the Cleveland National Forest out in southern 
California, and we have had a lot of challenges with the 
Cleveland National Forest, especially as a smuggling route up 
from Mexico. I was wondering in your investigation did you look 
into how the Forest Service works with DHS and with the Border 
Patrol? Do they coordinate their activities and work well 
together?
    Ms. Mittal. We actually did look at all of the land 
management agencies and how they are working with the Border 
Patrol along the southwest border, and what we found is that 
they have established a number of MOUs, memorandums of 
understanding, to increase cooperation and coordination with 
Border Patrol but not in all cases does that coordination and 
cooperation actually occur.
    And so we made a number of recommendations to encourage 
them to enhance the coordination and cooperation with Border 
Patrol. Some of the concerns that we had is that they do not 
receive the threat assessments from Border Patrol, they have 
not developed joint budgets for operations in those areas, they 
have not developed strategies and joint operations for their 
law enforcement to work together.
    Mr. Calvert. Does the Forest Service allow access for the 
Border Patrol, for DHS and for local law enforcement into those 
areas?
    Ms. Mittal. Yes, it does. If Border Patrol requests it and 
they are required under the MOU to grant them access as long as 
they comply with the environmental laws.

                             LAND EXCHANGES

    Mr. Calvert. Okay. On the issue of land exchanges, there 
have been a number of land exchanges, usually for public 
benefit. Usually for roadways or some other purpose. Trying to 
get these land exchanges done virtually in every case is time 
consuming. It seems that the process is never ending, and even 
when it is to a mutual benefit to the Forest Service and to the 
public agency. Why is that the case? From my anecdotal 
information, people say it is generally the fault of the Forest 
Service. Why do these land exchanges take so long to complete?
    Ms. Mittal. Land exchanges are a very complex process. One 
of the challenges that the land management agencies have shared 
with us, including the Forest Service, is the fact that they do 
not have the adequate staffing with the right types of training 
to conduct all of the different aspects of a land exchange. It 
is generally a lower priority within the agency so it does not 
get the attention it deserves.
    In addition to that, we found that they do not have a 
national strategy on how they are going to go about doing land 
exchanges. So they have not set priorities for what land 
exchanges they should be focusing on, and in terms of the 
training for the staff, they have not made mandatory training 
available to the staff, and they do not track that training. So 
even though they have these challenges, they have not taken the 
steps that would help move the program forward.
    Mr. Calvert. I assume fees are paid for these land 
exchanges. Has the Forest Service looked into bringing in 
outside help to move these things along, or do they have the 
authority to do so?
    Ms. Mittal. I do not have the answer to that question. I 
would have to check.

                         INVENTORY OF RESOURCES

    Mr. Calvert. Okay. You mentioned inventory of invasive 
species, and certainly we have a significant amount of invasive 
species throughout the national forests, but what about an 
inventory of resources? Over the years has the Forest Service 
kept an inventory of those resources? Some as you know are 
abandoned hard rock mines or abandoned resources of one kind or 
another. For potential future benefit, do they keep an 
inventory of that?
    Ms. Fong. I am taking from your question that you are 
talking generally about whether the Forest Service has an 
inventory of all its capital assets and property.
    Mr. Calvert. Right. Well, like the Bureau of Land 
Management supposedly has an inventory of their resources that 
they are able to call up at any moment. Is that the case in the 
Forestry Service?
    Ms. Fong. I am not sure that we have done specific work on 
that, but I do recall a few years ago that there were some 
questions about inventory of capital property within the Forest 
Service, and that may address your question. If you would like, 
I could provide information for the record.
    [The information follows:]

    Forest Service has many systems to track its resources and assets. 
Specifically, Forest Service's fixed asset system(s) track and account 
for its property for inventory and financial management. This was the 
system I referenced during the hearing where I recalled a few years ago 
that there were some questions about inventory of capital property 
within Forest Service. The issue related to capital property and 
inventory has been resolved over the years and there are currently no 
outstanding reported deficiencies related to property attributed to the 
financial statement audit. The most recent deficiency reported in FYs 
2008 and 2009 (but closed in FY 2010) was related to the plan to 
improve the quality of the 5-year pooled real property physical 
inventories.
    Forest Service does track the quality and number of abandoned mines 
on Forest Service property. Currently, we are conducting audit work 
reviewing the use of Recovery Act funds for remediation of abandoned 
mines on Forest Service lands. This work was referred to in our written 
testimony.
    In regard to resource deployment, Forest Service does maintain 
systems to manage and provide resources for its various missions. 
Specifically, there are various systems to deploy human and tangible 
resources in relation to its wildland fire management and related 
mission lines. Some of these systems are fully in-house, while others 
are multi-organizational systems linked to other Federal and State 
agencies. Additionally, Forest Service employs many systems to manage 
assets related to the National Forest lands. These include timber 
growth, sales, revenue, and recreational assets used by visitors to 
National Forests and other Forest Service-managed lands.

    Mr. Calvert. That would be helpful. Thank you.
    Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Flake.

                          RECOVERY ACT FUNDING

    Mr. Flake. Thank you, Mr. Chairman. Thank you for the 
testimony.
    With regard to the Recovery Act funds, you mentioned that 
there were problems, some inappropriate expenditures and what 
not. Obviously that is from a lack of some kind of controls 
there. It seems that these things seem to come up routinely. 
Why has it been so hard to get them to put these controls in 
place? Why do we have to discover it with an IG report or GAO 
report?
    Ms. Fong. I would say generally that grants management and 
contract management is a very specialized area, and it is an 
area that within the Department of Agriculture as a whole we 
need to spend a lot of time on, because the expertise there 
really needs to be further developed and refined.
    We are seeing that coming out in our work in the Forest 
Service because the money for the Recovery Act had to be put 
out very, very quickly; there were some statutory requirements 
on that.
    Mr. Flake. We are finding that in a lot of areas.
    Ms. Fong. Exactly. It is not an issue that is confined to 
the Forest Service, and so as we go through and do our 
oversight work, we are seeing at the back end controls that 
really should have been addressed at the front one. I think 
that would be very useful to the Forest Service moving forward 
as it administers its grant and contract programs, that they 
will have benefited from the experience that they are going 
through right now with Recovery, and this will enable them to 
put in effective controls for the future.
    Mr. Flake. What percentage of the 1.5 billion that was 
provided was subject to these lax controls or whatever else? A 
big chunk of it, all of it? What are we looking at here?
    Ms. Fong. From the IG's perspective we are looking at all 
of the funds that the Forest Service received under the 
Recovery Act. We are in the middle of our work. We have done, 
we have reviewed field work on about half of what we need to 
look at, and we are in the middle of the rest of it. At this 
stage of the game what we are seeing is individual instances 
here and there of inappropriate claims for expenditures, 
inappropriate documentation. We will probably have a more 
comprehensive overview and can give you a better sense of it in 
about 6 months when we finish all of our fieldwork.
    Right now all I could give you would be bits and pieces, 
anecdotal evidence.
    Mr. Flake. All right. Thank you.
    Mr. Simpson. Thank you. Mr. Lewis.

                       LAW ENFORCEMENT TECHNOLOGY

    Mr. Lewis. Thank you, Mr. Chairman. I am sorry about 
arriving late and going to be leaving early, but in the 
meantime I very much appreciate both of you being here.
    The Forest Service and San Bernardino National Forest 
dramatically impacts at least two of us here in the room and 
the work over the years, our relationship with the agency has 
been overall extremely positive. You know, the fire problems 
and the challenges, the difficulties have been very, very real.
    I want to ask two questions quickly. One takes me back to 
an early day when another guy and I went to visit some of the 
forests in northern California, and part of the reason for this 
overflight was to have the Forest Service show us an example of 
the way the forest oftentimes is abused. And we landed our 
helicopter somewhere nearby and then we went up to visit the 
fields of one of those growth ag products that are not 
automatically a part of the forest work.
    And what occurred to me at that point in time as you are 
dealing with invasive species, if you will, I wonder just how 
well we have developed our IT programming to be able to 
automatically be in a position to get response to challenges 
like that without the Forest Service becoming the police 
officers for the world.
    It would seem to me it would be software programming that 
would say when something like this occurs, the first thing that 
happens is you plug it into your computer, and you notify the 
appropriate agencies, not just federal but local and otherwise, 
about, hey, we got 16 acres of pot growing out here, and why do 
you not do something about it.
    Do we have that kind of software interaction? I mean, does 
the Forest Service think aggressively in terms of that sort of 
use of resources? I think the answer is no. Right?
    Ms. Fong. You know, let me just comment generally. I know 
the Forest Service is trying very hard to bring its IT systems 
up to date and current. They face a lot of challenges. Funding 
is one, design is another.
    Mr. Lewis. Well, we have heard a lot about their not being 
very good at being able to get one piece of the agency to 
communicate with another and using the IT, why do we have 
computers in the first place. But this is just kind of a 
fundamental rifle shot at an example of how we might be able to 
accelerate the value of these computer assets. I am sorry.
    Ms. Fong. Well, I think it is a very good point, and I 
believe we have some work that we will be doing shortly on law 
enforcement issues within the Forest Service, and I will make a 
note that we should take a look at their IT systems.
    Mr. Lewis. I would be very interested in your response.
    Ms. Mittal. If I could just add to that, when we did look 
at the law enforcement programs at the Forest Service, we did 
not see any indication that they were using that sort of 
software or IT facility. They could not even tell us how many 
incidents were occurring on Forest Service land, they could not 
tell us what the effect of those incidents were. They knew in 
certain places they knew it was happening, like the marijuana 
growing and things like that.
    Mr. Lewis. Correct.
    Ms. Mittal. They knew about it, but they could not quantify 
that for us.
    Mr. Lewis. Which is an indication of potentially a very 
serious problem that we tend to build walls between our sub-
agencies of a department like Interior, then we build walls 
between their law enforcement people and their responsibilities 
to see that the reports are used appropriately. And if we are 
not exercising simple things like computer programs, man, we 
have got a long ways to go.

                           PERSONNEL TURNOVER

    One other very brief thing, Mr. Chairman. I will be very 
interested in your report regarding what the thoughts are about 
turnover of personnel, young people being hired, trained, and 
bang, somebody else locally or otherwise hires them out the 
door. I hope we have some imaginative ideas besides just pay as 
to how we can have these agencies not be 106th on the list or 
whatever--206th. Yes.
    Ms. Fong. We have issued a report on firefighting 
succession plans, and I think you might have noticed it in my 
testimony today that we have identified this as a very 
significant challenge for the Forest Service because their 
turnover rate, their rate of retirements is very, very high, 
and the length of time it takes to train somebody to be an 
incident commander, for example, averages 23 years, which is 
just not a good thing.
    And to my thinking, I think one of the most critical issues 
facing the Service right now is to get that pipeline going, or 
we are going to have major problems in the next few years.
    Mr. Lewis. Mr. Chairman, I think we need to look carefully 
at both the--GAO has to say about a subject like that personnel 
turnover critical to our being successful. We should not be 
training people for the local government takeover or something.
    Mr. Simpson. Well, it is certainly an issue when we have 
the Forest Service in to talk to them about what they are doing 
to address that turnover. I have met some marvelous incident 
commanders that have done fantastic jobs, but as you said, they 
are not going to be around forever, and it bothers me. I mean, 
most people that have not been out on a forest fire do not 
understand it is not just picking up a shovel like it used to 
be in 1910 and going and throwing dirt on it. When I was first 
elected, we had one that burned 1.8 million acres up in Idaho, 
and I took my chief of staff and said, let's go fight a forest 
fire, and he thought I was nuts.
    But we called the local Director of the Forest Service and 
said we were going to come up, we wanted them to treat us like 
a forest firefighter so that we knew that it took. And we spent 
a couple days up there with them, and it is huge. You have 
5,000 people out there to fight one of these fires to make sure 
that the personnel are in the right place the next morning, 
that they have the food and water they are going to need. I 
mean, it is a huge undertaking.
    And incident commander is a hell of a responsibility.
    Mr. Lewis. By the way, Mr. Chairman, as I was closing that 
out, I really am appreciative as well as you are, but I wanted 
the Forest Service to know there is a lot of interest in this 
subject here. I am sure you will make sure that is available.
    Mr. Simpson. Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman. I am always hesitant 
when we get on this subject. When you are from Oklahoma, if we 
see three trees together, we think it is a conspiracy, and that 
they are talking to one another. We do not know a lot about 
forests, but I wanted to pick up on an area, I had actually 
marked this in your testimony, and I apologize for arriving 
late.
    But the same concerns that Mr. Lewis expressed, just about 
the aging of the workforce that you mentioned in your 
testimony, which those are really striking figures about what 
percentage, 64 percent within a few years of retirement. And 
when you say they have not planned adequately, before you asked 
the questions was there any plan? Were people thinking about 
this? Were people recognizing it, or did you say, hey, look 
around the table you guys are getting old here. Anybody 
thinking about who would be here next?
    Ms. Fong. My sense is that there is an awareness of the 
issue, and it is certainly not an issue that has taken anybody 
by surprise. You know, throughout the Federal Government there 
has been this whole issue of the baby boom generation all 
approaching retirement, and so it is an issue of general 
concern to every agency in the Federal Government.
    I think where perhaps we have added some useful thinking to 
the subject is that we have tried to identify what is going on 
within the Forest Service that tends to act as a disincentive 
to people to get their training done more quickly, and we have 
tried to point out to the Forest Service things that they can 
do to actually address these issues, to create some incentives, 
to perhaps require people to serve on fires, perhaps direct the 
training to be done much more quickly.
    And I think all of those things will spawn a debate within 
the Forest Service as to whether this works for their 
organization, culture, and mission.
    Mr. Cole. In the Forest Service how do they identify how 
they want to recruit people? Let me give you sort of an example 
where I have seen a similar problem addressed I think pretty 
well.
    Tinker Air Force Base has an aging workforce. That is one 
of the big depots and getting mechanics is difficult and it is 
a very skilled profession, particularly when you are 
rehabilitating air frames that are 50 years old. It is almost a 
craftsman. It is not an industrial process of mass production.
    And they literally saw this coming, went to local community 
colleges, sat down with the state government, helped them 
design the training programs that would begin to produce people 
because they are good jobs. They are well-paying jobs, and the 
schools produced the kind of worker that they wanted to hire. 
Literally went into the high schools in some places, sat down 
with retiring military personnel who acquired the skills 
working on aircraft, did a really masterful job and now have an 
ongoing training program, and we are not going to miss a beat. 
And that was all driven by the institution. That is by the Air 
Force and by the folks that saw this coming.
    Do we have anything like that in the Forest Service? Did 
somebody say there has got to be community colleges in Idaho 
and places like that where here is this promising career or a 
career tech-type situation, sit down and develop programs for 
those people so they would actually direct their graduates 
towards you?
    Ms. Fong. Well, I think you have a terrific idea there, and 
I think it makes a lot of sense for agencies to be thinking 
very creatively about how they can partner with educational 
institutions.
    In the case of our work, we focused on the senior fire 
management positions, which are the incident commander and the 
position that coordinates all of the support services, which 
would not necessarily be entry-level types of jobs. And I 
think, you know, some of your ideas perhaps we should explore 
with the Forest Service to see if they would apply to the way 
the Forest Service is addressing its issues at the senior level 
as well.
    Mr. Cole. Well, I would just assume since you pointed out 
that this is a generational problem. It is a problem across 
federal service. There ought to be a sort of best practices 
almost agency by agency. When you have got this problem, here 
are some of the things you should be thinking about. They are 
not my ideas. They are just ideas I saw applied by one 
institution.
    Ms. Mittal. If I could add to that, when we looked at their 
workforce planning efforts, one of the things that we noted is 
that the Forest Service had identified key competencies that it 
needs to conduct its mission, but one of the things that they 
had not done was a gaps analysis. And that actually feeds into 
exactly what you were saying, that if they do a gaps analysis 
which tells them where the competencies that they do not have 
and what are the types of people and what are the types of 
skills they need to hire, then they can start making those 
kinds of decisions and looking for those relationships with 
community colleges, with other places where they can start 
getting those skills and those abilities into the organization.
    But because they have not done that critical gaps analysis, 
they are not there yet where they can start implementing those 
strategies.
    Mr. Cole. Have they committed to do that, though, in their 
discussions with you?
    Ms. Mittal. They have told us that they are going to do the 
gaps analysis. Another area that we found that there are 
limitations is they have not used all of their human capital 
flexibilities available to them, and that would also help, you 
know, things like retention bonuses or paying back tuition for 
the new hires, those types of things.
    So those things are available to them as well, and they 
have not used them as effectively as they could, but they do 
plan to do so in the future.

                           RECOVERY ACT FUNDS

    Mr. Cole. I do not want to overuse my time, Chairman. I 
have one or two other areas. Well, the other area that 
interested me in just looking at the testimony was your 
discussion and your analysis about what had happened with the 
Recovery funds.
    And I want to ask a very general question, and you just 
sort of take it where you want. I look on this whether you were 
for it or not, this was an enormous, one-time opportunity that 
is unlikely to ever come again to really focus on big capital 
items or some, the one that you just cannot deal with on a 
yearly basis.
    If you had to judge broadly how well has the Forest Service 
used the money to deal with big one-time problems as opposed to 
here is my kind of wish list, and I want to get this IT thing. 
That is just dealing with immediate need. It is sort of like 
money comes in, this is your chance to put all the money back 
to educate your kid, or we can go to Bermuda. There is just no 
plan to it.
    And I know they had to move very rapidly, but were they 
able to do that sort of thing?
    Ms. Fong. Well, looking at the money that the Forest 
Service got, they got two pots of money: half for capital 
improvements and half for wildland fire and hazardous fuels. 
And as you mentioned, they got the money out very quickly.
    As we are starting to look at it, we are identifying 
questions in our own mind as to whether or not the money went 
to the areas where it was intended to go. In particular, we are 
asking questions like, ``did the money really go to communities 
that were underserved?'' I think that was one of the 
requirements that was put on by the Recovery Act, to send the 
money to the communities that really were economically 
distressed.
    And we have some initial findings on that. As we move 
through the next year and we look at the results of the 
Recovery money to see where the money ultimately went and what 
was accomplished with that money, I think we will be able to 
give you an assessment as to whether or not the Forest Service 
was able to effectively use that money.
    Mr. Cole. At GAO are you doing that across the board so to 
speak? Because I suspect again whatever problems we find with 
the Forest Service, if there are any, you are going to see in 
other places.
    Ms. Mittal. Right. Most of the GAO Recovery Act work has 
focused on funds that were provided to the state and local 
governments. So we have not looked agency by agency at the 
Recovery Act spending. We have been primarily focused on the 
money that passed through to the state and local governments.
    Mr. Cole. Is there a plan to do that at some point? I know 
the volume of work we are talking about here is enormous.
    Ms. Mittal. Right now I am not aware of it. Most of the 
work that we are doing on the Recovery Act has been requested 
by individual committees where they are concerned about their 
particular department or agency, and so we do not have a 
government-wide effort ongoing right now.
    Mr. Cole. That is something, Mr. Chairman, maybe you as 
chairman talking with the other chairmen, it would be nice to 
have, because this was massive. Again, it was one-time. We 
spent more money in one bill than we spent on the war in Iraq 
and Afghanistan, I think, combined up to that point, but that 
kind of effort.
    So there needs to be some sort of sense of whether or not 
this huge one-time investment got us something that was 
tangible and long-lasting.
    Anyway, I yield back. Thank you very much.
    Mr. Simpson. Mrs. Lummis.
    Mrs. Lummis. And I apologize for being late. It is Ms. 
Mittal?
    Ms. Mittal. Yes.

                       FIRE PROGRAM ANALYSIS TOOL

    Mrs. Lummis. It is very nice to meet you. Thanks. You noted 
that the GAO has consistently been concerned about the 
interagency development of the Fire Program Analysis tool that 
is intended to allow agencies to analyze asset combinations and 
strategies for fuel reduction and, you know, determine a more 
cost-effective approach or the most cost-effective approach.
    What do you recommend as a path forward here so the fire 
program can develop a tool to analyze that?
    Ms. Mittal. Well, they have been working on this tool for 
almost a decade now. Congress required them to develop the Fire 
Program Analysis tool in 2001, and in 2002, the agency started 
working on the tool. They were supposed to be done with the 
tool in 5 years, and it is about 10 years later, and they are 
still not done. What we would like to see is that they have 
science that underlies the tool, be peer reviewed so that we 
have some assurance that the tool will be developing good 
analysis and the data that comes out of this tool is reliable. 
So we think that that is a very important step that needs to be 
undertaken.
    We were also concerned by some of the changes that they 
made during the course of developing the tool that they did not 
document as to why they were making those changes. So that is 
an important aspect of the development that needs to be done.
    The other thing is that the way they have been rolled out, 
the tool has been a little bit confusing, because even before 
it was ready they were starting to use it, and so I think what 
that did is it raised some concerns about the effectiveness of 
the tool.
    So not only has the development been a little bit choppy, 
but then you have got the management of the tool has been not 
very effective.
    Mrs. Lummis. Would you care to comment on that?
    Ms. Fong. No, thank you.
    Mrs. Lummis. Okay. That is fine. Well, do you think we are 
going to be able after this investment of time, Ms. Mittal, to 
get a useful tool that is worth all the time and effort that is 
being put into it?
    Ms. Mittal. Honestly, I cannot answer that question right 
now. There is so much uncertainty about what this tool is going 
to be able to provide in terms of results that I cannot answer 
that question at this point in time. I mean, it had a lot of 
promise. There were a lot of things that they were doing. It is 
a very complex modeling process that they are going through. We 
recognize that, but it has also been a very long time and a lot 
of money that has gone into it, and at this point in time we 
are not sure about the results that are going to come out of 
this tool.
    Mrs. Lummis. Thank you. Thanks, Mr. Chairman.
    Mr. Simpson. Let me ask just a couple other questions.

                            INVASIVE SPECIES

    You mentioned something near and dear to my heart, invasive 
species. I have had several organizations, groups, county WEED 
personnel, others meet with me about trying to change the way 
we do invasive species, and their argument was, and I think the 
number that they gave me, I might be off, but it was like only 
about 5 percent of the funds being spent on invasive species 
actually killed invasive species, those that are used on the 
ground to spray invasive species.
    Do you know if that is true or accurate or anything like 
that?
    Ms. Fong. Yes. In our work on invasive species we did not 
look at that, and I am looking at my staff here, and I am not 
sure that we can provide you any additional information.
    Mr. Simpson. Okay. I will ask the Forest Service that.

                             CLIMATE CHANGE

    One other issue that I have been concerned with over the 
last several years, and I do not know if you have done any work 
on it yet or not, deals with climate change, in that in this 
budget we are spending about $500 million, close to half a 
billion dollars, on climate change studies, and the Forest 
Service gets some, you know, namely the agency within the 
Interior budget, gets some money to study climate change.
    My concern is not that we are spending money on studying 
climate change, but that I do not see any coordination between 
all the other agencies. It has become the key phrase, as I like 
to say after 9/11 the key phrase was homeland security if you 
wanted to increase your budget. Now the key phrase is climate 
change, so everybody is putting in money for climate change. I 
suspect some of the science that is actually being done is 
science that was being done before, but now we are going to 
define it as climate change science because it is easier to get 
money for that because everybody is concerned about climate 
change.
    Have we done anything--have either of your agencies done 
anything--to look at the coordination of the amount of money? I 
mean, it is hard to tell how much just within our budget we are 
spending in climate change, but government-wide it is 
incredible how much we are spending.
    And I do not mind doing that. I just want to know that 
there is some coordination between all of it, and that it is 
not just how agencies are rebuilding science programs that they 
would like to rebuild.
    Has anybody done any study of that or anything related to 
it?
    Ms. Mittal. We do have an ongoing engagement looking at the 
total amount of money being spent by the Federal Government on 
climate change, and that report is going to be issued at the 
end of April, early May. And it looks at how the strategic 
priorities are being set for climate change funding and whether 
the funding is actually going to those strategic priorities.
    At the Forest Service we have looked at their R&D Program, 
and climate change research is one of the five emerging issues 
that they are focusing on. We also looked at coordination 
between the Forest Service and other agencies that do similar 
research, and we actually found that the Forest Service R&D 
Program had put in improved coordination mechanisms with these 
other agencies so that they were not duplicating one another 
but were actually complimenting each other's research.
    Mr. Simpson. That is good to know. My impression in just 
talking to all the different agencies, and I do not have 
anything to back it up--it was just my impression--is that the 
Forest Service probably does a better job of overseeing their 
climate change science than just about any of the other 
agencies.
    Ms. Mittal. Well, I think overall we were very surprised, 
pleasantly surprised that the Forest Service R&D Program is a 
very well-managed program. Usually when we go in we always find 
negative things, but for the R&D Program over at the Forest 
Service we were surprised by how well they are managing that 
program.
    Mr. Simpson. I have thought seriously about putting 
together a line item within the budget, and it would take some 
authorizing legislation, too, that, say, within the Interior 
budget puts the money not into each specific agency, but into a 
climate change budget and then has, I do not know, a panel, I 
have not considered yet who that would be, and that different 
agencies might apply to that panel with their research projects 
of what they want to do and how they want to spend it. Then 
somebody coordinates it centrally to make sure that it is being 
done wisely, and we are using it in the highest priority areas 
that we should.
    So, anyway, those are some discussions that I think will 
probably be coming up over the next year.
    Any other questions, Mr. Cole? Mrs. Lummis?
    Mrs. Lummis. No, thank you, Mr. Chairman.
    Mr. Simpson. Thank you both for being here today. Your 
reports are actually very valuable to us in that they form the 
basis for a lot of the inquiry we will have with the 
Department. I hope that the Department, I am sure the 
Department knows that we are looking at your reports also and 
will ask them questions about why some of the things are being 
implemented and why some of them are not, but I appreciate the 
work you do, and thanks for being here today.

[GRAPHIC] [TIFF OMITTED] T6897A.028

[GRAPHIC] [TIFF OMITTED] T6897A.029

[GRAPHIC] [TIFF OMITTED] T6897A.030

[GRAPHIC] [TIFF OMITTED] T6897A.031

[GRAPHIC] [TIFF OMITTED] T6897A.032

[GRAPHIC] [TIFF OMITTED] T6897A.033

[GRAPHIC] [TIFF OMITTED] T6897A.034

[GRAPHIC] [TIFF OMITTED] T6897A.035

[GRAPHIC] [TIFF OMITTED] T6897A.036

[GRAPHIC] [TIFF OMITTED] T6897A.037

[GRAPHIC] [TIFF OMITTED] T6897A.038

[GRAPHIC] [TIFF OMITTED] T6897A.039

[GRAPHIC] [TIFF OMITTED] T6897A.040

[GRAPHIC] [TIFF OMITTED] T6897A.041

[GRAPHIC] [TIFF OMITTED] T6897A.042

[GRAPHIC] [TIFF OMITTED] T6897A.043

[GRAPHIC] [TIFF OMITTED] T6897A.044

[GRAPHIC] [TIFF OMITTED] T6897A.045

[GRAPHIC] [TIFF OMITTED] T6897A.046

[GRAPHIC] [TIFF OMITTED] T6897A.047

[GRAPHIC] [TIFF OMITTED] T6897A.048

[GRAPHIC] [TIFF OMITTED] T6897A.049

[GRAPHIC] [TIFF OMITTED] T6897A.050

[GRAPHIC] [TIFF OMITTED] T6897A.051

[GRAPHIC] [TIFF OMITTED] T6897A.052

[GRAPHIC] [TIFF OMITTED] T6897A.053

[GRAPHIC] [TIFF OMITTED] T6897A.054

[GRAPHIC] [TIFF OMITTED] T6897A.055

[GRAPHIC] [TIFF OMITTED] T6897A.056

[GRAPHIC] [TIFF OMITTED] T6897A.057

[GRAPHIC] [TIFF OMITTED] T6897A.058

[GRAPHIC] [TIFF OMITTED] T6897A.059

[GRAPHIC] [TIFF OMITTED] T6897A.060

[GRAPHIC] [TIFF OMITTED] T6897A.061

[GRAPHIC] [TIFF OMITTED] T6897A.062

[GRAPHIC] [TIFF OMITTED] T6897A.063

[GRAPHIC] [TIFF OMITTED] T6897A.064

[GRAPHIC] [TIFF OMITTED] T6897A.065

[GRAPHIC] [TIFF OMITTED] T6897A.066

[GRAPHIC] [TIFF OMITTED] T6897A.067

[GRAPHIC] [TIFF OMITTED] T6897A.068

[GRAPHIC] [TIFF OMITTED] T6897A.069

[GRAPHIC] [TIFF OMITTED] T6897A.070

[GRAPHIC] [TIFF OMITTED] T6897A.071

[GRAPHIC] [TIFF OMITTED] T6897A.072

[GRAPHIC] [TIFF OMITTED] T6897A.073

[GRAPHIC] [TIFF OMITTED] T6897A.074

[GRAPHIC] [TIFF OMITTED] T6897A.075

                                          Friday, March 11, 2011.  

                   U.S. FOREST SERVICE FY 2012 BUDGET

                               WITNESSES

TOM TIDWELL, CHIEF, U.S. FOREST SERVICE
KATHLEEN ATKINSON, DIRECTOR, STRATEGIC PLANNING, BUDGET AND 
    ACCOUNTABILITY

                  Opening Remarks of Chairman Simpson

    Mr. Simpson. The committee will come to order.
    Today we meet to discuss the President's fiscal year 2012 
budget for the Forest Service. I would like to start out by 
saying that we are very happy to have the chief with us here 
today and thankful that you are healthy and clearly on the 
mend.
    Mr. Tidwell. Thank you.
    Mr. Simpson. First, I would like to highlight a positive 
story in Idaho. On the Salmon-Challis National Forest, the 
Salmon Valley Collaborative has made some great progress 
putting together projects to protect communities, improve 
forest health and reduce the threat of catastrophic wildfires. 
The Forest Service has been working with the BLM, Fish and 
Wildlife Service, state agencies, the community, industry, 
environmental groups and numerous others to solve problems. To 
me, this is exactly what the Forest Service should be doing. 
Chief, I applaud these efforts and hope to work with you to 
expand and build upon these success stories.
    This is one of many positive examples of things the Forest 
Service is doing in my state and across the country. I am 
concerned, however, that the Forest Service's fiscal year 2012 
budget reflects a major shift in priorities by putting land 
acquisition before fulfilling the agency's mission to manage 
forest health. I support the President's America's Great 
Outdoors initiative and recognize the value of providing 
opportunities for people to connect with our forests, National 
Parks and amazing natural resources. But it does not make sense 
to me that we would use this initiative to dramatically 
increase land acquisition instead of focusing our limited 
resources on desperately needed efforts to improve forest 
health and address the maintenance backlog, grazing permit 
backlog and numerous other problems across the country.
    At a time when our forests are significantly overstocked 
and unhealthy, the Forest Service proposes reducing spending on 
hazardous fuels, forest health, grazing and fire suppression. 
Many of these programs support private jobs in rural 
communities from ranching and forestry to recreation and 
wildlife management. These important programs, so valuable to 
rural communities, should be a priority.
    The budget also proposes taking $328 million out of 
discretionary funds for the Secure Rural Schools Act, which up 
until this proposal has been a mandatory program. This program 
is critical for many rural counties in the West, and I 
appreciate your recognition of that. I am concerned, however, 
that this proposal moves this program from mandatory to 
discretionary spending, essentially taking funding away from 
fire and hazardous fuels to make counties whole. I would like 
to work with the Administration on a better solution that does 
not sacrifice firefighting for the counties.
    I have a couple other concerns about this budget. The 
combination of line items under the National Forest System, 
known as the Integrated Resource Restoration budget line item 
is also concerning to us, mostly because the Forest Service has 
difficulties explaining how the fiscal year 2010 and fiscal 
year 2011 funding and line items would be changed as a result. 
The Forest Service needs to demonstrate accountability and 
robust performance measures before the subcommittee can support 
this proposal. We are the stewards of taxpayer dollars and need 
to accurately report them.
    As you know, the travel management plans were defunded in 
H.R. 1, mostly because Members of Congress are hearing 
complaints from their constituents. I do not think defunding 
travel management plans is the solution, but I do know this 
issue will continue to come up again, very likely on the House 
floor. I know there are forests that have done a good job 
handling travel management plans, including some forests in my 
own district, but others have ignored the public and concern 
from local officials. That is not right and, in my opinion, 
when the Forest Service has not adequately addressed the 
concerns of the community, they should redo these plans. Chief, 
again, I would like to work with you on solutions to this 
problem.
    In closing, I would like to commend the Forest Service 
employees in Idaho and really across the Nation. They do a 
great job in an environment that is making it increasingly 
difficult for them to do so. I reiterate my concern about the 
report that came out a few years ago ranking Forest Service 
employees as some of the most dissatisfied employees in the 
Federal government, and I hope that you are taking steps to 
address these issues. If anyone should love their job, it is a 
Forest Service employee. I look forward to working with you on 
many of these issues and thank you and your staff for their 
hard work that you are doing and for your assistance.
    Mr. Simpson. With that, I am happy to yield to the 
gentleman from Virginia, Mr. Moran.
    Mr. Moran. Well, thanks very much, Mr. Chairman.

                      Opening Remarks of Mr. Moran

    Good morning, and we are delighted to see you, Chief 
Tidwell and Director of Budget Ms. Atkinson.
    The Forest Service as we know manages substantial land in 
43 states and Puerto Rico. It has national responsibilities as 
well with the state and private forestry and research branches. 
It is a terribly important agency. The open space and water 
produced in these forests is of tremendous importance, even to 
the Bronx where while we have some large windowsills, we do not 
have a lot of national forests, and Mr. Hinchey has a few more, 
but all of us have a stake in the health of our forests whether 
we live in urban or rural areas.
    Last week, as I mentioned yesterday, I joined the 
Agriculture Secretary Vilsack and Chief Tidwell and a number of 
conservation leaders to celebrate the centennial of the Weeks 
Act. That was an act that was passed 100 years ago this month 
that allowed the Forest Service to work with counties and 
states to acquire denuded lands in the East and restore forests 
and watersheds. At that time the timber industry had gone 
through and clear cut hundreds of thousands of acres and just 
left them, and as a result the water was blocked from running. 
It had begun to toxify. There were no navigable waters in much 
of the East as a result, and people knew something had to be 
done but they did not know what to do, and it was Congressman 
Weeks that went forward in a time that the political context 
was very much like it is today. There was an aversion to 
federal activity and yet he was able to get that legislation 
through, and it has been a tremendous success. It allowed 52 
new national forests to be developed in 26 Eastern United 
States, and it covers more than 27 million acres today.
    Now, with this budget we are being asked to continue 
funding forest and watershed restoration activities. And as 
strongly as we support the concept, obviously the devil is in 
the details. There are some issues that I know we want to 
pursue and we are going to pursue it often-times from different 
perspectives.
    Mr. Chairman, I know you would be disappointed if I did not 
share with you a quote.
    Mr. Simpson. I wait for it every morning.
    Mr. Moran. Thank you. The chairman has a real affinity for 
John Muir particularly, so we are going to quote John Muir. He 
wrote in his opening to American forests, and I am quoting, 
``The forests in America, however slighted by man, must have 
been a great delight to God for they were the best he ever 
planted. The whole continent was a garden and from the 
beginning it seemed to be favored above all the other wild 
parks and gardens of the globe,'' and he continued, ``Every 
other civilized nation in the world has been compelled to care 
for its forests and so must we if waste and destruction are not 
to go on to the bitter end leaving America as barren as 
Palestine or Spain.''
    Now, he wrote that a long, long time ago but certainly the 
wisdom is just as needed today, so while we move ahead with the 
watershed and restoration agenda, we want to remember that our 
job is to improve the environment and the forests for the next 
generation and for all generations to come. Foresters and 
biologists are trained to be a patient lot, much more than 
Members of Congress, I might say, but the Congress also needs 
to oversee the activities on the public lands because so much 
is at stake. And as we heard from the GAO and Inspector General 
yesterday, the Forest Service does have some room for 
managerial improvement in some areas.
    With that, again, Mr. Chairman, thanks for holding the 
hearing and we look forward to the testimony.
    Mr. Simpson. Thank you, and thank you for the quote. I am 
not sure that Palestine and Spain like that quote.
    Mr. Moran. You have to call it like you see it.
    Mr. Simpson. Chief Tidwell, thank you for being here today, 
and the floor is yours.
    Mr. Tidwell. Well, Mr. Chairman, members of the 
subcommittee, it is a privilege to be here today to discuss the 
President's 2012 budget request for the Forest Service. I am 
here today with Kathleen Atkinson, our budget director, and she 
will be ready to answer your very specific budget questions 
once we get into those.
    I really appreciate the support that this subcommittee has 
shown the Forest Service in the past, and I look forward to 
continuing to work with you for us to be able to provide more 
of the things that the American public want and need from the 
Nation's forests and grasslands.
    The President's budget is designed to support the 
Administration's priorities for maintaining and restoring the 
resiliency of America's forests. Additionally, this budget 
request reflects our commitment to fiscal restraint with 
significant reductions to ensure that we are spending 
efficiently and focusing on the priorities of the American 
public. The budget request supports these priorities through 
four key objectives.
    The first is to restore and sustain the forest and 
grasslands by increasing our collaborative efforts, Mr. 
Chairman, that you referenced, to build more and more support 
for the restoration activities that need to occur that create 
jobs. The budget requests full funding for the Collaborative 
Forest Landscape Restoration Fund. It increases the emphasis on 
protecting and enhancing watershed health with a request of $80 
million for a new priority watershed and jobs stabilization 
initiative that would really help us focus on funding large-
scale projects. It does propose a revised Integrated Resource 
Restoration budget line item to align our budget structure with 
the work that we are doing on the ground. This will help 
facilitate a more integrated approach to developing project 
proposals that will result in more work and more jobs. We will 
continue to track the traditional targets such as board feet, 
miles of stream improved, but we also will track the overall 
outcomes of restoration and watershed improvement so that we 
can show you that based on the investments that we are making, 
we are making a difference at a landscape scale. We are going 
to continue to incorporate our climate change adaptation and 
mitigation strategies that have been developed by Forest 
Service research to determine how our management needs to 
change, to be able to increase the ecosystem's resistance to 
increased frequency of disturbances like fire, insects and 
disease, invasives, flood and drought.
    The second objective is the budget request's funding for 
wildland fire suppression that includes a level of preparedness 
that will continue our success to suppress 98 percent of the 
wildland fires during initial attack. It is also a realignment 
of our preparedness and suppression funds to more accurately 
display cost. It provides for the FLAME fund to increase 
accountability and transparency for the cost of large funds, 
and to further reduce the threat of wildfire to homes and 
communities, we want to do more of the hazardous fuels in the 
wildland-urban interface.
    The third objective is to increase support for community-
based conservation with the America's Great Outdoors 
initiative, and we want to do this by helping America reconnect 
with the outdoors by increasing our conservation education and 
volunteer opportunities through our youth programs. We want to 
build on the success of our 28 Job Corps centers by supporting 
the creation of a 21st Century Conservation Service Corps 
program that will help build skills and provide work 
experiences for more of our youth. We want to continue to work 
with our states to use their state and private programs to 
promote conservation and to help keep private forests forested, 
and we are requesting an increase in LWCF funding and our 
Forest Legacy program so we can use conservation easements and 
land acquisition to protect critical forests and acquire public 
access.
    And the fourth objective is to further support the economic 
opportunities in rural communities by supporting our 
recreational opportunities that not only add to the quality of 
our lives but support these communities with over $13 billion 
in annual spending by recreation visitors. We want to encourage 
biomass utilization and other renewable energy opportunities 
while we explore ways to be able to process oil and gas permit 
applications and energy transmission proposals more 
efficiently.
    And then, Mr. Chairman, as you mentioned, we are proposing 
a framework for a five-year reauthorization of the Secure Rural 
Schools Act with $328 million in our budget request to fund the 
first year. We want to work with the subcommittee to consider 
options for mandatory funding and also with the overall 
legislative proposal. Our goal is to increase the collaborative 
efforts to encourage public involvement in management of their 
national forests and grasslands. To maintain and restore 
healthy landscapes, we need to take care of the ecosystem but 
we also need to support healthy, thriving communities and 
provide jobs in rural America.
    Again, thank you for the opportunity to address the 
subcommittee, and I look forward to answering your questions.
    [The statement of Tom Tidwell follows:]

    [GRAPHIC] [TIFF OMITTED] T6897A.076
    
    [GRAPHIC] [TIFF OMITTED] T6897A.077
    
    [GRAPHIC] [TIFF OMITTED] T6897A.078
    
    [GRAPHIC] [TIFF OMITTED] T6897A.079
    
    [GRAPHIC] [TIFF OMITTED] T6897A.080
    
    [GRAPHIC] [TIFF OMITTED] T6897A.081
    
    [GRAPHIC] [TIFF OMITTED] T6897A.082
    
    [GRAPHIC] [TIFF OMITTED] T6897A.083
    
    [GRAPHIC] [TIFF OMITTED] T6897A.084
    
    [GRAPHIC] [TIFF OMITTED] T6897A.085
    
                           GRAZING ALLOTMENTS

    Mr. Simpson. Thank you. I appreciate that opening 
statement.
    Let me first ask a couple of specific questions relative to 
Idaho. Last year, the Payette National Forest made a formal 
decision to end sheep grazing on a number of allotments because 
of concerns about possible impacts that domestic sheep have on 
wild bighorn populations. I recognize that this was a difficult 
decision for the agency, and I commend the leadership and 
supervisors of both Payette National Forest and Boise National 
Forest. Chief Tidwell, I know that you share my concern not 
only about the impact of this decision on wool growers directly 
impacted by eliminating these permits but also about the larger 
impact the decision would have on domestic sheep grazing 
throughout our national forest system.
    One of the concerns I often hear from the wool growers is 
that there has not been enough research done to determine with 
certainty that bighorn sheep were dying as a result of contact 
with the domestic sheep. Could you tell me what research is 
being done by the Forest Service or the USDA to provide sound 
science, what efforts are being undertaken to provide a vaccine 
that might mitigate any impacts with the domestic-wildlife 
interface, and is the Forest Service working to find 
alternative grazing allotments for those impacted by this 
decision and would it be helpful for Congress to include 
language directing that this issue be addressed quickly?
    Mr. Tidwell. Mr. Chairman, I do share your concern with 
this issue and it is one that I have tracked not only in my 
current job but also when I was a regional forester in our 
northern region where one of the sheep permittees grazed in 
both regions. This has been a longstanding, difficult issue 
with bighorns and domestic sheep, and it is an area where there 
is a need to develop probably more science. Our research 
scientists are working with at least one effort at a university 
to be able to do a better job considering what is going on with 
disease transmission between domestic sheep and the bighorns, 
so there is a need for us to be able to continue to do that 
research and we are working in conjunction with the 
universities on that.
    In the near term, the best solution is to find some 
alternative allotments that we continue to work on to be able 
to find places that are substantial, and I know both forests 
have been working on this, and it is a difficult situation 
because some of the other sheep allotments have been closed 
because of grizzly bear habitat, for instance. So it is one of 
the things we want to continue to work on, but I tell you, I 
cannot stress enough how important it is for us to be able to 
find solutions and not so much just for this particular 
situation. The livestock industry is very important to help us, 
not only the economic opportunities that come from that but 
also it helps us to be able to maintain open space. What I am 
talking about is on the private lands because when these 
ranchers go out of business, almost always they sell out to a 
developer. Instead of having a ranch that provides wildlife 
habitat, and in this case some bighorn sheep habitat, what we 
will get is some really nice, beautiful cabins built there 
instead that will complicate not only our job as far as 
providing wildlife habitat but then also it really complicates 
our mission when it comes to wildfire too. There are just 
tremendous benefits for us to be able to maintain the livestock 
industry for a lot more reasons than just the direct economic 
benefits. And so we are going to continue to focus on that to 
expand the research but then also do everything that we can to 
maintain the industry.
    Mr. Simpson. There are people who suggest that we should 
remove all grazing from public lands, who attempt to get cows 
and sheep and so forth off of public lands. There are a lot of 
ways to reduce wildfires, fuels mitigation and those types of 
things. Is grazing an important aspect of reducing the 
likelihood of wildfires?
    Mr. Tidwell. That is not a dominant tool. It is more of an 
opportunity that comes along with it. But the focus that we 
have is to be able to work with our permittees to manage the 
resource and to lay out that these are the conditions that the 
resource needs to be in when your livestock are removed. These 
are the conditions that we are striving for over the next five 
or ten years so that we can maintain that resource so that the 
forage is there for the livestock, the forage is there for 
wildlife, and that it is sustainable. That is always going to 
be our primary focus on this. I know there has been criticism 
in the past with some of our grazing allotments, but I can take 
you out and show you places where the permittees are just doing 
an excellent job of management and those issues are not there. 
They work--as far as provide for the wildlife habitat, they do 
a good job to maintain the riparian areas and they understand 
that goes with the job. And I will tell you, on those 
allotments we do not have the issues. Throughout the country, 
the industry is doing a very good job, but it is like 
everything, there is always one or two. I mean, we have over 
10,000 allotments, and I am not going to tell you that every 
one of them is in great shape, but I tell you, we have made 
great strides and we are going to continue to work on that.

                          WILDFIRE SUPPRESSION

    Mr. Simpson. One other question you brought up in your 
testimony, you said you put out 98 percent of all wildfires 
when they start, keeping them very small, right?
    Mr. Tidwell. Yes.
    Mr. Simpson. You know, as I have studied wildland fires, 
you have to ask yourself, do we have the right strategy? I know 
it is tough to say ``let things burn'' but if some of these 
things do not periodically burn, the fuels build up and then 
the likelihood that when a fire starts it is a catastrophic 
sort of fire increases. How do we balance that?
    Mr. Tidwell. Well, we are balancing it through our approach 
to wildland fire. We recognize that there are places where fire 
needs to play its role in the ecosystem. Then there are also 
places, often because of the wildland and urban interface, 
where we do not have those options. So when I talk about the 98 
percent success rate, and actually last year it was 99 percent, 
I am focusing on the fires that we take initial attack on. It 
is the ones where we make a decision that we have a fire that 
is burning in the back country, in the wilderness, where we 
want to manage that. We do not count those because we are not 
taking initial attack, we are applying a management strategy. 
So we are doing a combination of suppressing the fires that 
need to be suppressed but at the same time recognizing the 
benefits of fire in the ecosystem and being able to manage 
both.
    And it works out very well except once in a while on some 
of the fires that we are managing, weather conditions change 
from what is forecasted and they become larger or they leave 
the area that we were trying to keep them in, and that is 
usually when we receive the criticism. I understand that, but 
we are doing a really good job working with our communities and 
getting folks to understand when we are going to suppress, the 
location of fires, and the set of conditions that it is okay 
for us to manage. We are doing it with our communities so that 
they also have, I believe, a higher confidence level; they 
understand what is going on so they feel a little bit better 
about it. We are going to suppress the fires that need to be 
suppressed.

                             COST RECOVERY

    Mr. Simpson. One other question. In 2006, the Forest 
Service finalized regulations that allow them to recover costs 
for the processing and monitoring of special-use permits 
including those that are issued to outfitters and guides. 
Outfitters and guides in Idaho are deeply concerned about the 
impact that these requirements will have on their businesses, 
especially during an economic downturn that has hurt the 
recreation industry. I have appreciated the Forest Service's 
willingness to engage with these small business owners to find 
solutions that are mutually beneficial. In particular, Regional 
Forester Harv Forsgren has committed to sitting down with the 
outfitters and guides in June to discuss this and other issues 
facing the recreation industry.
    However, I still have some concerns about the Forest 
Service's cost recovery policy. As we have looked into this, 
the Forest Service has indicated that it implemented its cost 
recovery regulations in order to better coordinate these 
policies with, the policies that the BLM has been using for a 
number of years. When we spoke to the BLM, however, they 
indicated the cost recovery structure they use is entirely 
different. Can you tell me why the Forest Service decided it 
needed to implement cost recovery and why it chose this system 
rather than one similar to the BLM's?
    Mr. Tidwell. Well, Mr. Chairman, the reason we pursued cost 
recovery is to be able to address the backlog of applications 
that we receive every year. We have over 75,000 special-use 
permits on the national forests. We receive over 6,000 annual 
applications, and in the past we had a tremendous backlog where 
folks were coming in and it might be a year or two before we 
could even address their application. Many of these are like a 
one-year permit they are looking for. So doing the cost 
recovery has helped us to significantly reduce that backlog, 
and we have taken the approach that if processing the permit 
and doing the environmental analysis that is necessary takes 
less than 50 hours of staff time, then there is no cost to the 
applicant. But if it takes more than that, then there is a 
cost.
    I recognize that with our current approach, it works really 
well for the large operations. Where the trouble is, is with 
those folks that maybe it only takes between 50 and 100 hours. 
They are the smaller operators, some of them are outfitters and 
guides that we have in Idaho and around the country. That is 
where the impact occurs. So it is one of the things where we 
need to take another look at what we are doing to see if there 
is a better way to do this. I would love if we did not have to 
have cost recovery. I wish that we could just have the staff to 
be able to process these permits as they come in and do it very 
efficiently and that people would not have to wait, but the 
reality is, that is not the case. So this is what we have tried 
to do to find this balance and it is one we need to continue to 
look at to be able to find the right split between the small 
operators and the large operators.
    And then the other thing we are focused on is looking at 
our processes so that we are making sure we can be as efficient 
and as effective as we can with doing the processing, and so 
those are the things we are going to focus on.
    Mr. Simpson. Well, I am not opposed to cost recovery. I 
think it is the right thing to do. The process that the Forest 
Service has chosen, as I said, is substantially different than 
the BLM's and you can understand why some outfitters are saying 
if it takes less than 50 hours, I am exempt, I do not have to 
pay, but if it takes over 50 hours, I do not start paying at 50 
hours, I go back to hour one. So 51 hours, you pay the full 
cost recovery; 49 hours, you pay nothing, which is a little 
strange. But I look forward to working with you to try to 
resolve this because I do not think the outfitters and guides 
are opposed to a cost recovery program either.
    Mr. Tidwell. We will look at what the Bureau of Land 
Management is doing and take another look at that and see if 
there are ways that we can improve this to make it consistent, 
make it fair and allow us to be more responsive.
    Mr. Simpson. Thanks, Chief.
    Mr. Moran.

                     CONTINUING RESOLUTION IMPACTS

    Mr. Moran. Thank you, Mr. Chairman. It is a good issue and 
a good point.
    We have gone though six months now, half a fiscal year, an 
unprecedented time of uncertainty for every federal agency, not 
really knowing from week to week how much money you are going 
to have to deal with or even if you are going to have any funds 
at all. We are now approaching the end of another Continuing 
Resolution period. There are certain things that you do every 
year that I cannot believe are not adversely impacted. For 
example, you hire a number of summer temporaries and have 
contracts that are seasonal. Has the uncertainty that 
accompanies the C.R. affected your ability to do that?
    Mr. Tidwell. Congressman, it has. We are not able to enter 
into our larger contracts that we would normally be awarding at 
this time of year. We are not able to make the commitments to 
our seasonal workforce that we normally would be able to do, 
especially this late in the year. Each week, it is down to each 
week now, as this continues, it is becoming more and more 
difficult as we are struggling to find ways to be able to make 
the commitments to our firefighting resources, for our air 
tankers and our helicopters that we bring on. We need to be 
able to make commitments. These folks want a commitment for the 
rest of the year, and as each week goes on, it is getting more 
and more difficult to be able to find the resources to be able 
to make those commitments. We are really focused on the ones we 
absolutely have to do but it leaves no flexibility to move 
forward with the contract work, the restoration work that we 
would like to get done.

                           TRAVEL MANAGEMENT

    Mr. Moran. Thank you. I was afraid that would be the case 
and I guess it is fairly obvious.
    During the extended debate on the full year Continuing 
Resolution known as H.R. 1, there are any number of 
environmental riders, some affecting the Forest Service, and 
one of them, thanks in large part to Chairman Simpson, an 
amendment was defeated that attempted to cut funding for your 
international program. Another case, though, an amendment by 
Mr. Herger, was passed that stops the Forest Service from 
managing its roads. I would like for you to talk about your 
off-road vehicle management program and the road system 
generally through the forests and what impact this amendment 
would have. And let me just mention the larger context. The 
Forest Service has been talking about comprehensive forest 
transportation plans for years, identifying which roads should 
be saved, which removed and where people ought to be able to 
travel with off-road machines. I guess it is fair to ask why it 
has not been done yet and when it will be done, but I do 
specifically want to know what is the impact of that amendment 
if it were to be legislated in final form. What it would do to 
Forest Service?
    Mr. Tidwell. Congressman, thank you. I first also want to 
thank the support for our international programs, and I just 
appreciate everyone's help on that.
    When it comes to travel management, I understand the 
concerns and I understand some of the concerns that you folks 
are hearing from your constituents. Travel management is always 
by far the most controversial issue that we deal with. It 
affects everyone whether you are an active user of the national 
forest or an occasional user. The purpose of our travel 
management planning when it came to determining a motorized 
vehicle use map, there is one reason for that, and that was to 
be able to sustain motorized recreation on our national 
forests. When we started this process, there was tremendous 
opposition that was forming against motorized recreation. We 
were in court constantly. And so we made this decision a few 
years ago to move forward and have a system of roads and routes 
and travels on all of our national forests and grasslands that 
would have consistent signing. We would take a fairly 
consistent approach to reaching out to the public to be able to 
determine what the system should be and the sole purpose is to 
be able to sustain motorized recreation. We did pretty well 
early on and there was a lot of support for folks to come to 
the table, and we got about 65 percent of the forests and 
grasslands that have completed the work but there is still a 
significant portion that has not. I recognize the controversy 
that comes from this, and the thing that I would ask your 
support is to encourage us, direct us if you need to, to really 
reach out and embrace collaboration to be able to find 
solutions because that is the way forward with these issues. 
Bring people to the table, keep them at the table until they 
can work out their differences and then we can go forward with 
a system so that folks who want to ride their motorcycles, 
their ATVs, their Jeeps or whatever, they will know that they 
have not an opportunity this year to do it but they also know 
that they will next year, the year after and so forth.
    And the other key part of it is that we can go from one 
forest to another and see the same system of maps, so it is 
very clear and easy for folks to understand which roads and 
routes are open and which ones are not so that the users can 
follow the regulations and further reduce the overall 
controversy.
    The other key part of this that I need to mention is that 
before we started this, there were many of our forests and 
grasslands that allowed cross-country travel. You could just 
take your ATV, your motorcycle, your Jeep and go anywhere you 
possibly could. It was resulting in a significant amount of 
impact to the environment, which just added to the opposition. 
That was something that we felt we had to basically put an end 
to and so not only did they identify the system of routes and 
trails but they also identified areas. There may be a specific 
area where it is fine to be able to have cross-country travel. 
Those are going to be fairly limited and well signed, but we 
try to provide every opportunity we can.

                            LAND ACQUISITION

    Mr. Moran. Thank you, Chief. That is basically the 
discussion that we had on the Floor.
    I wanted to ask you about the Federal Land Acquisition 
program because the Forest Service is such a big player in 
that. You have got a 41 percent increase to a total of $91 
million in the President's America's Great Outdoors initiative. 
It is a reasonable concern that we should not be buying more 
land when we cannot afford to take care of what we have, but I 
understand you are not really talking about buying new national 
forests as much as it is a different kind of purchasing to 
improve management efficiency and protect what we have. You 
might also touch on the Forest Legacy program. That is up 78 
percent to $135 million. Give us your philosophy, if you will, 
why this is not subject to the concern that we are acquiring 
more that we cannot manage but it is in fact improving our 
ability to manage what we have.
    Mr. Tidwell. Well, Congressman, I appreciate the concern 
with our additional request with LWCF funding. I can understand 
where that is coming from. On the other hand, the reason that 
we have increased our request is based on what we heard from 
the public in the meetings that we had and the listening 
sessions that we had across the country with the America's 
Great Outdoors initiative. There was strong, strong support for 
our LWCF programs, and the reason for that is, these are 
relatively small parcels. In fact, with the total LWCF program 
for 2012, we would look at acquiring about 33,000 acres across 
the country. These are usually small inholdings that are a 
critical habitat in some cases but also provide public access. 
One of the things we focus on is acquiring those properties 
that for a variety of reasons, the landowners feel they have to 
shut down public access. And so that is why we feel we need to 
continue it.
    With our Forest Legacy program, and especially in these 
economic times, there are folks that are faced with tough 
decisions about leaving their land and selling it to some form 
of developer, some form of development, or being willing, or 
wanting to work with us. It is not willing. These are folks 
that want to work with us to acquire a conservation easement on 
their land so they can continue to ranch, so they can continue 
to manage forestry on their private lands. Those are the key 
benefits. It also reduces our cost in almost every situation, 
especially when we acquire an inholding, a 40-acre, 160-acre 
inholding, it reduces our costs. It reduces the cost of 
boundary-line administration. It reduces our management costs, 
especially with things like with fire. When we no longer have 
to deal with an inholding, it gives us more flexibility with 
our fire management so there is also a direct reduction in 
those costs.
    So I think folks need to understand that these actually 
help us reduce our cost of administration, but I sure do 
understand the concern that especially in these economic times 
that we have, why we would be asking for this increase.
    Mr. Moran. Well put, Chief Tidwell. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Lewis.

                            HAZARDOUS FUELS

    Mr. Lewis. Thank you, Mr. Chairman.
    Welcome, Chief Tidwell and Ms. Atkinson. We very much 
appreciate the work that you are about. I think maybe the major 
story in the news this morning reminds us that Mother Nature is 
a little bit difficult to predict, let alone control. Over the 
years I have been involved in public affairs, one of the more 
controversial agencies because of the proximity of the San 
Bernardino National Forest has been the Forest Service. Early 
on, my predecessor was constantly, it seemed, in lines of 
attempted communication with the Forest Service, oftentimes our 
constituents felt with very little or no result. I must say, 
Chief Tidwell, that environment, if the original reflection was 
accurate, has changed radically. We have had an endless series 
of floods, fires, bark beetle, et cetera, in our region. With 
that, there has developed an amazing level of cooperation 
between the various agencies involved with these 
responsibilities--law enforcement, the Forest Service, people 
who control the highways, et cetera, really phenomenal 
willingness to work together that has helped to improve 
people's sense that we are attempting to maintaining managing 
the forests adequately and at the same time make sure that we 
recognize that these are the people's lands after all.
    In southern California, as you know, we have recently had a 
series of flooding problems. One of the major highways of 
access into two of our major communities in the San Bernardino 
Mountains, Highway 330, essential got washed out. Some of the 
questions that you have already discussed relative to the need 
to ensure that we are being careful about environmental 
considerations, et cetera, could very well be a part of the 
discussion but I am pleased to say that there is great work 
going on between the Forest Service and Cal Trans to solve that 
problem. We have already discussed the fact that you are moving 
rather quickly on that and I very much appreciate it.
    An interesting and important note is the way we manage the 
forests and especially manage those portions around the urban 
centers as it relates to hazardous fuels. Especially around 
Lake Arrowhead and Big Bear, people are concerned that a 
backing off of availability of funding as well as priority 
could very well lead to potential disaster in pretty 
significant population centers. Could you give me an idea--I 
know there has been some shifting of management monies back and 
forth. Can you give me an idea of how we are going to deal with 
this 25 percent reduction of hazardous fuels and what it means 
to the management of that portion of my forest?
    Mr. Tidwell. Mr. Lewis, there is not a 25 percent reduction 
in hazardous-fuels funding request. We did do a couple things 
that would maybe lead folks to see that, and one of them is 
that we wanted to increase our focus on the wildland-urban 
interface, as you mentioned how important that is, and so we 
have kept that fund and I think there is about $250 million 
that will be focused just on that with a target of about 1.2 
million acres to be treated. The rest of our hazardous-fuels 
funding we did put into our Integrated Resource Restoration. 
This is outside of the wildland-urban interface. So there is 
another, I think, $85 million, $87 million that was put into 
that Integrated Resource Restoration, and we felt that by 
putting that fuels funding into that budget line item, it would 
help us to do a better job to integrate the overall program, so 
when we are looking at a landscape, it is not only to look at 
what we need to do for forest health, what we need to do for 
watershed conditions but almost always there is a hazardous-
fuels component to every project that we do. It just made sense 
from our view and for the way projects are actually designed to 
actually have some hazardous-fuel funding.
    Now, there is about a $9 million reduction in hazardous-
fuel funding from fiscal year 2010 to what we are proposing in 
2012, and it just reflects our commitment to fiscal restraint. 
These are just tough budget times, and really the majority of 
our budget line items except for about three actually do go 
down. It is just one that we felt looking at the overall 
balance that we could take a little bit out of there. But the 
other thing we want to do is continue our focus to work with 
other agencies, the counties and the states, but there is that 
$9 million reduction in our request.

                           EMPLOYEE RETENTION

    Mr. Lewis. As you know, in our own forestry region, the 
interplay with the BLM and the Park Service as well, we often 
talk about people in different shades of green uniforms. 
Specifically, I am concerned about the turnover problems that 
we have in the Forest Service, the number of people, as the 
chairman indicated, and it ought to be the most popular 
possible place to want to work and yet it would seem that we do 
have this turnover constantly. It would be easy to say that is 
simply because other agencies pay them more money and hire 
them. What do you think we are going to be able to accomplish 
in terms of the 2012 budget relative to that problem?
    Mr. Tidwell. Especially in southern California, we did have 
higher attrition there, especially in our firefighter ranks, 
and over the last couple of years we have made some changes to 
that. We have done two things. One, we have provided a 
retention, a pay increase similar to what we have been doing 
for decades there in southern California to be more competitive 
salary-wise, and this is with our firefighters. And then we 
also converted many of our temporary positions to full time and 
that is full time that where they are working just four or five 
months they have the option to work more like eight months to 
maybe a full year, and we give them the option of having a 
permanent job which has benefits. I think the combination of 
these two programs has significantly reduced the number of 
vacancies that we have. We have dropped that by way over 50 
percent from what we have had in the past. So those are two 
things that we are doing directly.
    The other thing, and the chairman brought this up, is with 
the survey that was done a couple years ago about the overall 
morale. You know, we have the most dedicated, committed 
workforce, I think in Federal Government by far, and I may be a 
little biased but I truly believe that. For the most part, they 
are happy but there are certain things that they would like to 
see improved and they should expect to see things improved. 
Those are some of the administrative operations and functions 
that we did, some things that have actually asked all of our 
employees to do more administrative tasks, and those are the 
things we have been working on, to reduce that and address 
those concerns. So I meet once a month with employees who 
represent a cross-section of our agency so I can hear directly 
from them. These are folks who represent every level of the 
organization and I can hear from them directly about what is 
going on, what they are concerned about and that sort of thing. 
So I feel that we are making some progress.
    The biggest challenge that we have and many federal 
agencies have the same challenge is that our folks do get 
frustrated because they are not able to do everything, and they 
are so dedicated, they want to do it all and they will donate 
their weekends, their evenings. They will do just about 
anything to be able to do that, and so there is always going to 
be this concern of needing more resources to be able to get 
more work done, and we really stress that we want them to 
really just feel good about what we are getting done because it 
is tremendous. At the same time, every time that survey is 
going to be taken, that frustration will be reflected, and it 
is not all bad. I think most corporations would line up to have 
our workforce.

                LAW ENFORCEMENT-INTERAGENCY COORDINATION

    Mr. Lewis. Frankly, that is a very interesting response. I 
think it kind of adds to the flavor of what we have been 
discussing.
    If I could, Mr. Chairman, just briefly, recently when we 
met with the Inspector General and GAO, I talked about a trip 
to the forest one time by way of helicopter where we saw some 
very interesting crops being grown in the national forest, and 
I knew that this was not a Forest Service effort to raise 
funding across the budget, but in the meantime it does raise 
the question about the need for us to not only oversee these 
challenges but to effectively be able to communicate not just 
with other federal agencies but also local law enforcement, 
etc. I am sure you are aware of GIS, that whole communication 
system that is improving all of our ability to communicate with 
one another. Are you involved in a project to attempt to figure 
out better ways for your agency and your personnel to 
communicate with other agencies whether they be local law 
enforcement or USGS or otherwise?
    Mr. Tidwell. Yes, we are, and we are probably doing the 
most in the law enforcement arena and in the drug control 
arena. I feel very good about the willingness of all the 
agencies that deal with marijuana growth on our public lands 
and in this country and we are sharing radio frequencies, we 
are entering agreements. For instance, we have an agreement on 
the southern border where the border patrol will actually take 
over road maintenance on some of the roads that we really do 
not need to have it be a fairly high-level road for Forest 
Service activities but they do for their role and to carry out 
their mission and so they are willing to actually then take 
through this agreement, they will take over the maintenance 
responsibilities because they need certain roads to be at a 
little higher standard so they can be more responsive. And then 
also when it comes to not only communications but just sharing 
information, we are doing this not only with our federal 
partners but also with our states and counties, and that is 
just essential and especially in your part of the country. I 
believe we have a model of cooperation down there but we still 
need to improve on that and so those are the things we want to 
continue to work on so that we can share information between 
the various agencies so we can all be more effective in 
carrying our specific missions but also the missions that we 
share.
    Mr. Lewis. Mr. Chairman, I learned that Chief Tidwell is 
not the son of a former sheriff of San Bernardino County. But 
in the meantime, we are concerned about using forest product 
for biofuels and the like. Berkeley is providing a serious 
opportunity to experiment with that. Thank you.
    Mr. Simpson. Thank you, Mr. Lewis.
    One other point that I just want to make before we go on, 
on the personnel management. This has been an issue for a 
number of years regarding the morale of the Forest Service. One 
other issue that always comes up when I talk to Forest Service 
personnel is most people enter the Forest Service because they 
love the outdoors. They want to be out managing the forests and 
so forth and they find themselves more and more spending time 
behind a computer preparing for defense of certain decisions 
against lawsuits instead of out doing what they love to do, and 
I think that adds to the morale problem that many of them have, 
and it takes away the resources that we should be using to 
manage the national forests and their time personally, so that 
is something that I continue to hear from personnel as I talk 
to Forest Service employees around the country.
    Ms. McCollum.

                         INTERNATIONAL FORESTRY

    Ms. McCollum. Thank you, Mr. Chair. And as was pointed out, 
I think a lot of our thoughts and prayers are with the people 
in Japan and that part of the world and what is about to fall 
on the West Coast of the United States.
    I want to put out there, I do not always agree with 
President Obama. I agree with him quite often. It is not too 
often I disagree with him. And I want to express my strong 
disappointment that the Administration proposed terminating the 
international forestry program, and that has been brought up 
here in testimony before Congress. I think that shows that it 
feels very strongly about this. It is a small, but vital agency 
and it has done a lot of valuable work over the past decades. 
It plays a very unique role as one of the two federal agencies 
working internationally with NGOs to address very critical 
natural resource issues that are vital to jobs and the economy 
right here in the United States.
    The international forestry program is the sole provider of 
technical expertise on timber and logging issues. The 
international trade agreements, you are the representative for 
the United States. You are there. It is not the State 
Department, it is the international forestry department. You 
work to stop the global flow of illegal wood that is 
undercutting our timber industry, and for this reason alone, 
the American Forest and Paper Association has also expressed 
criticism of the Administration for eliminating this program, 
citing the uncertainty of the agency would have technical 
capacity to really tackle a lot of these illegal-logging 
issues.
    But along with that, in addition to stopping the illegal 
flow of timber, the international forestry program has also 
worked tirelessly with Ducks Unlimited to protect the Canadian 
boreal forest for future generations to ensure that our hunters 
have waterfowl habitat. This is an area that is second to none 
for the breeding ground for ducks and migratory birds in the 
United States, and that means real money for jobs in our 
economy in Minnesota. The waterfowl industry in Minnesota alone 
contributes over $43 million to our local economy.
    Now, the Administration claims that the work of the 
international forestry program is not central to the mission of 
the Forest Service, but I fail to see how we are going to 
address invasive species if we do not work across international 
borders. The emerald ash borer, which originates in Asia, 
threatens millions of acres of forest in my home State of 
Minnesota and across this country. The West Coast salmon 
migrates to Russia, making the protection of the Russian 
watershed vital to the U.S. fishing industry, and the 
international forestry programs works on those issues. And as 
was pointed out, there was an amendment that we worked in a 
very bipartisan fashion to defeat to cut off funding.
    So my questions are, without the international forestry 
department intact, where it is identifiable out there, who will 
be the U.S. representative when it comes to international trade 
and protecting our forestry projects? Who will be the 
international interlocutor with the world, but particularly 
with Mexico and Canada with migratory birds? Who will be the 
person, the entity out there to track and coordinate invasive-
species research and movement? Who will be there collectively 
for Congress to look to for answers and where the international 
community engages, but also where our hunters, our fishermen 
and women both commercially and recreationally and our timber 
people look to? What will happen if we do not fund this? And I 
am very, very concerned about what will happen if this program 
disappears. It is small but boy, it is effective.
    Mr. Tidwell. Thank you. First of all, thank you for your 
support, and I may need to apologize if we have misled the 
subcommittee on what we want to do with our international 
programs because it is not to zero it out. It is to eliminate 
the separate budget line item for international programs but 
still be able to continue that incredibly essential work, as 
you have so well described. I mean, I could not do it better 
myself. And so we were looking at increasing some efficiencies 
within just our budgeting systems so we looked at several of 
the smaller budget line items that we have and looked at some 
opportunities to reduce some of those with the full intent to 
be able to continue that program.
    And I do know that there is some questioning if we have the 
authority to fund international programs out of a variety of 
budget line items versus having just one, and we want to work 
with the committee to address that issue through either making 
sure that they have the authority or if the committee feels we 
just need to have the budget line item in there, we definitely 
want to work with you on that.
    But as you look at everything that this agency does and 
when I look at our international programs and the amount of 
funding that we request each year and the outputs, it is 
probably one of the most effective, efficient programs that we 
have, and granted, a majority of the funding comes from the 
State Department and USAID because of what we are able to 
accomplish, but as you mentioned, the work that we have done to 
reduce illegal logging has a direct benefit to the industries 
in this country. The work that we do with migratory species has 
a direct benefit to this country. There is also, I believe, a 
direct and somewhat indirect benefit of helping some of the 
developing countries to be able to move toward sustainable 
conservation and sustainable forestry. It will have tremendous 
benefits not only today but for the future. And so I just want 
to thank you for your support of this program and we want to 
work with the committee to be able to find ways that we can 
continue our international programs work and we are open to 
have that discussion.
    Ms. McCollum. Well, Mr. Chair, here is my concern. You are 
authorized to have this entity and the authorization, what it 
does is, it allows Congress when we are doing our oversight to 
look at what State, USAID and you are doing all in one area. 
When this gets divided up into different line items, it becomes 
very difficult for us to do our oversight and it also makes it 
very, very tempting when agencies are fighting for crumbs, as 
many will be with what I am seeing here happening in Congress, 
it is like well, this is pretty small and, maybe we will hold 
somebody else to do it so we will do it here and if this is 
important, somebody else will do it. And it starts to fall 
through the cracks. By having this located in the way that it 
is, it puts a lot of sunshine. I think that is one of the 
reasons why it is so efficient and why it is so effective 
because you know are getting so much scrutiny under it. It also 
allows us to kind of in our oversight capacity really see what 
we are doing in the areas of protecting our habitat as well as 
protecting the species that go across our borders.
    I am very concerned, and I do not take great comfort in the 
fact that this is going to be micro-divided in other parts of 
the budget--other agencies. If this is important work, I guess 
you are hearing from this Member of Congress that this is a 
tension between us and the Administration and that Congress 
wants to be able to see how these programs are working and we 
want to be able to have more direct oversight on it. I think we 
have that when we have an international program which was 
authorized by Congress. I really see that the President maybe 
needs to kind of think this over, and I encourage you to have 
discussions with the Administration. I think the House of 
Representatives has spoken very clearly on this.
    Mr. Moran. Would the gentlelady yield?
    Ms. McCollum. I would be happy to yield.
    Mr. Moran. I would like to just put myself on record in 
total agreement with the gentlelady for what it is worth. Thank 
you for raising this, Ms. McCollum.
    Mr. Tidwell. You have my commitment to work with the 
committee in ways necessary to maintain your confidence and 
support for this program, so we are open to work with you and 
your staff to find ways so that we can assure that you can 
carry out your oversight responsibilities and be able to do it 
in a way that you can track how the money is being spent and 
the performance that is occurring.
    Ms. McCollum. I do not doubt for a second that you are a 
man of your word with that, but congressionally directed 
legislative funds earmarks, authorizations that Congress does, 
this is a way in which Congress has a direct voice on how money 
is appropriated and how it is spent. The more power agencies 
have, the more power the Administration has to determine where 
every single penny is going. That takes power away from the 
people and I actually see this as part of a constitutional 
tension between the Administration and Congress. The President 
is doing his job. I do not blame the President for wanting to 
have more total control over the dollars, but we are also doing 
our job in saying that there will be oversight, there are 
statutory authorizations and we expect those to be at a minimum 
discussed before they are totally eliminated out of the budget.
    Thank you, Mr. Chair.
    Mr. Simpson. Mr. Hinchey.

                      GAS DRILLING--HYDRO FRACKING

    Mr. Hinchey. Thank you, Mr. Chairman, and thank you very 
much for the important jobs you are doing. This is a very 
important set of circumstances.
    I wanted to ask a question first of all about gas drilling 
on national forest lands. As you know, earlier this year there 
were several scientists in the Forest Service who published a 
report about the effects of natural gas drilling on the Fernow 
Experimental Forest located in West Virginia. The Fernow was 
established, as you know, back in 1934. Research there has 
focused on forest management and watershed research. This 
drilling was significant. It followed just shortly after the 
expiration of a very important law here by this Congress, a law 
that was in effect for a long time which oversaw the way in 
which drilling was taking place to make sure that it was not 
being done in contaminated ways, ways which were going to be 
deeply dangerous. Unfortunately, that expired here. Congress 
expired it back in 2005.
    So two years later in 2007, construction began on a new 
natural gas well and pipeline, and this report evaluated, this 
report that they put out evaluated the impact that this 
development had on the natural and scientific resources in that 
drilling on the Fernow. Some of the findings were pretty 
remarkable, and here are some of them as they were. Loss of 
control of the drill bore resulted in drilling fluid spewing 
uncontrollably into the air, turning foliage brown, causing 
leaves to fall off trees and killing vegetation. Fracking waste 
that had been deposited in pits was sprayed into the air to 
dispose of it. And there were many other unexpected impacts 
that were not carefully controlled or planned for in the--well, 
that were not really cared about in the way in which this 
drilling took place and was not cared about because of the fact 
that that law was revealed. They could just do whatever they 
wanted to. So the report also made several recommendations 
including the need for a better knowledge of the chemical 
makeup of the drilling and hydro fracking fluid and more 
thorough risk assessment that consider a variety of scenarios 
to help prepare for such unexpected effects of natural gas 
development. So these seem to be like very commonsense 
recommendations.
    So I was wondering if this is something that you have 
looked into, and if so, what was your reaction to this report, 
the report that was put out earlier this year by these 
scientists? And have any effects been taken on steps to respond 
to those recommendations and to try to do whatever can be done 
to make sure that this kind of thing does not continue to 
happen?
    Mr. Tidwell. Just yesterday I met with Michael Rains with 
our northern research station to be able to discuss not only 
what occurred there on the experimental forest with this 
approval of the well but also what we need to do to address 
this overall issue as there is more and more activity, 
especially with this hydro fracturing technique that is being 
used by the industry right now. So we have made the commitment 
to dedicate some additional scientists to work with our 
managers to be able to evaluate the cumulative effects of this 
activity so we can do a better job to be able to understand 
what the tradeoffs are going to be and what the consequences 
are going to be.
    When I saw that report, I too was concerned. I mean, some 
of those things should have been addressed just through us 
doing our job to be able to monitor the activities of the drill 
rig, etc., and those are just unacceptable under any situation 
and so I have no response for that. I mean, those things should 
not occur. But we are really focused on the larger issue and to 
be able to move forward and to make sure we are using the best 
science to really understand the hydrology, especially with 
this different technique that seems to be quite popular now.
    Mr. Hinchey. Well, this is something that should be 
corrected by this Congress because it was a big mistake that 
was made, pushed by the previous Administration, the Bush 
Administration back in 2005. That should be changed, and I am 
hoping that this Congress is going to wise up and get that 
change into effect.
    In the meantime, when it comes to public lands, we have an 
obligation and responsibility to oversee that and make sure 
that these things are not happening on public lands.
    Mr. Tidwell. Yes.

                  RECREATION--FOREST MANAGEMENT PLANS

    Mr. Hinchey. And I hope that that is going to take place as 
an example of the kinds of things that really need to be done 
in this regard. This hydro fracking has been very, very 
damaging and dangerous on a lot of private lands, also on 
public lands, and it needs to be dealt with, and I thank you 
for your insight and your concern about it.
    I also wanted to just make a quick comment about recreation 
and national forests. I understand that the Forest Service has 
requested comments on how the agency should rewrite the rules 
to implement the National Forest Management Act of 1976. So I 
applaud that, of course. I applaud the new management vision 
that has been shown into place and articulated for the national 
forest and grasslands. Focusing in ecological restoration and 
water resource protection, it is a very welcome development, 
and I know that you feel that way too.
    An estimated 180 million visitors make use of our national 
forests and grasslands. In order to serve the needs of these 
millions of people, the Forest Service manages an existing 
investment of approximately $4.1 billion in outdoor recreation 
infrastructure. Recreation is also a key economic driver 
representing an estimated 60 percent of the Forest Service's 
total contribution to the United States gross domestic product, 
which is really remarkable, significantly more than logging and 
other resource extraction activities combined, all those things 
combined.
    So as you develop new rules, I would strongly urge you to 
make recreation a focus of any new forest management plans. So 
if I could just ask you this. What is the status of new 
management regulations that you are developing, and how do you 
intend to ensure that recreation restoration and resource 
protection are incorporated into future forest management 
plans?
    Mr. Tidwell. Mr. Congressman, we just recently released our 
proposed planning rule that would provide a new framework for 
us to complete our forest plan revisions. One of the things 
that we heard during the public meetings that we held across 
the country was the need to increase the emphasis on 
recreation. As we look back on the rule we have been using that 
was developed in 1982, back in 1982 recreation had much less 
importance for all the reasons you have laid out so well. So we 
recognized, and we also heard that very strongly, that we 
needed to really increase the emphasis on recreation and the 
importance of providing those recreational opportunities, not 
only for the economic benefits as you described but also just 
for the overall quality of life that it provides. That is one 
of the things that we focused on and now we have the proposed 
rule out. We are going through a 90-day comment period so we 
will have the opportunity for the public to comment on that. We 
will be holding basically meetings across the country to be 
able to sit down with folks and explain the intent of our 
proposed rules so that they can provide even better comments to 
us. So that is where we are in the process.
    I feel very good about the approach, some of the changes 
that we have taken when it comes to recreation, and so I know 
we will be able to improve the proposed rule with the comments 
that we receive but I think we are definitely in the right 
direction to accomplish what you are asking.
    Mr. Hinchey. Well, I thank you very much. I deeply 
appreciate the very important things that you are engaged in 
and how you are doing it.
    Mr. Chairman, thank you.
    Mr. Simpson. Mr. Serrano.

                      URBAN AND COMMUNITY FORESTRY

    Mr. Serrano. Thank you, Mr. Chairman. As I was awaiting my 
turn, I could not help but listen to my brother, Mo Hinchey, 
and I was reminded that in January of 1975, we both walked in a 
little less wrinkled and a little less gray into the New York 
State Assembly, and from day one Mo Hinchey was our person, our 
voice on the environment, on energy and other issues, and for 
those folks who sometimes get cynical about government and 
about elected officials, some people state what they believe 
in. Thirty-seven years later, again a couple of wrinkles and a 
couple of gray hairs on both of us, he is still fighting that 
fight and fighting it well.
    Mr. Hinchey. I wish my hair was the color of yours.
    Mr. Serrano. Some day I will tell you----
    Mr. Hinchey. We are envious.
    Mr. Serrano. I am on camera so I am not going to tell you. 
That was a long time ago, Mo. My son was not born yet, and now 
he is in the State Senate. Or just barely born.
    Because I represent an urban area, I am always interested 
in the Urban and Community Forestry program, and I notice that 
there is a $2 million increase over 2011 or the estimate for 
2011. Can you take a moment to discuss what you hope to 
accomplish with this increase?
    Mr. Tidwell. The reason for the additional request in 
fiscal year 2012 is our recognition of the importance of urban 
forests in this country. We have over 700 million acres of 
forests in this country but out of that 750 million acres, 
there is close to 100 million acres that is in urban settings. 
It is just essential that we recognize the importance of those 
basically for the overall quality of life they provide to folks 
who live in urban centers but also the benefits that they 
provide, the wildlife habitat, the reduction in energy costs, 
the improvements of water quality, air quality, the reductions 
in infrastructure costs that some cities are finding that by 
doing more with their urban forests, they can reduce the cost 
of dealing with stormwater drainage and actually reduce some of 
the systems, reduce the size of the pipes they have to use by 
doing more with urban forestry. And this is one of the areas we 
want to continue to work on and work with our communities.
    I was just in Philadelphia yesterday to basically see the 
signing of an MOU between the Pennsylvania Horticultural 
Society and the Forest Service, and it is really to kick off an 
effort between the State of Pennsylvania, the State of New 
Jersey and the State of Delaware to plant another million trees 
within that area where those three states come together in an 
urban environment because those leaders, those communities, 
those cities, those mayors, they understand the importance and 
they are willing to put their support behind this. What they 
look for in the Forest Service is for us to be able to provide 
the technical expertise to be able to provide some financial 
assistance, and that is the thing that we can bring to the 
table, to helps folks really understand how to go about this, 
what is the right approach and so that is why we have asked for 
an increase in that appropriation so we can do more in this 
arena.
    Mr. Serrano. Again, as a representative from the Bronx, New 
York, I wish it would be more believable to you both and to 
this committee if I told you that I remember a young man or 
young woman coming back from an overnight week, a camp in the 
outdoors, coming back and saying I never want to do that again, 
and I do not remember anyone ever saying that.
    And so with that in mind, I know that you do work with the 
young people trying to get them involved. What is happening in 
that area and what can we expect?
    Mr. Tidwell. Well, it is another area that we want to 
increase our efforts under the America's Great Outdoors 
initiative to reach out to more of the youth and find 
opportunities for them to volunteer or actually opportunities 
for them to gain work experience, and we want to do this with 
our partners. We will continue to have our youth programs that 
we have always had, but we want to be able to reach out and use 
the student conservation corps networks to be able to continue 
our partnership that we have there in New York City with the 
MillionTreesNYC effort where they are able to provide jobs for 
folks, for young adults to be able to learn how to deal with 
urban forestry, and the programs have been very successful. 
There are graduates that come out of that program who are able 
to then find jobs right in your city. Those are the things that 
we want to continue to expand. Between our programs and the 
student conservation programs across the country, there are 
close to 6,000 youth that we provide a work experience and then 
tens of thousands of volunteers that we also share this 
opportunity. This is one of the things that we need to increase 
for all the right reasons, to help our youth reconnect with the 
outdoors. Whether you spend your entire life in an incredible 
city like New York City or you are out in more of a rural part 
of the country, I think it is just essential for America to 
understand those connections, and folks need to understand why 
urban forests are connected to the most wild places in this 
country. By understanding it will help us to deal with the 
problems, and many of our forestry problems start in our urban 
areas so that is another reason we want to strengthen that 
connection.
    Mr. Serrano. Thank you.

                               EL YUNQUE

    Mr. Chairman, as a prefacing comment to my last question, I 
want to apologize for something I did to you. When I walked in, 
I looked at that map and I did what I do everywhere I go in the 
federal offices. I say where are the territories, and all these 
maps just have the 50 states, and my point being the 
territories should be included. That may be the only map that 
should not include the territories since I see it says 
Congressional districts, and that is a whole different issue. 
You are the only office that actually has the right map up.
    So speaking about the territories, El Yunque is the only 
rainforest, I believe, under the forestry system, and it is 
just one of the marvels of the world, as you know. It 
celebrated its centennial in 2003. What are we doing working 
with the Commonwealth of Puerto Rico through the Forest Service 
to make sure that we can enjoy it for at least another 100 
years?
    Mr. Tidwell. Well, we enjoy very good relationships down 
there and to be able to share the benefits, and one of the big 
benefits of that forest is not only the incredible habitat that 
is protected there but also the recreational opportunities that 
come with that, the economic opportunities that are tied to the 
recreation. Our tropical institute that is also located in 
Puerto Rico provides us the opportunity to continue our 
research in tropical forestry, and not only does that help 
there in Puerto Rico but it also helps around the world. So in 
combination between the forest and that institute, it is just a 
really good package of us not only being able to continue to 
provide for that forest itself and all the wildlife and 
recreational benefits but also for our tropical institute to be 
able to continue our research that not only helps this country 
but it is also a key part of our international programs.
    Mr. Serrano. I understand, and correct me if I am wrong, 
that there good are small wildlife there and orchids, for 
instance, orchids that are not found anywhere else under the 
American flag. Is that correct?
    Mr. Tidwell. That is correct.
    Mr. Serrano. Now, aside from the one you oversee, where 
else do we have rainforests under the American flag?
    Mr. Tidwell. Well, part of the Tongass National Forest is 
also a rainforest and there are also some locations along our 
West Coast, relatively small, but the Tongass would be the 
other place.
    Mr. Serrano. Thank you. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Simpson. Thank you.

                    INTEGRATED RESOURCE RESTORATION

    A couple of other questions. Secure Rural Schools, we have 
talked about a little bit during your testimony and during my 
opening statement and other individuals have mentioned it. As 
you know, it is a concern to all of us in the West. We 
appreciate the fact that the President's budget has the funding 
for the Secure Rural Schools program. We are concerned that it 
shifts it from mandatory to discretionary funding. I want to 
work with you to see if we can address that in the future. The 
concern is this, that school districts out there that depend on 
this and in some school districts it is like 50 percent of 
their funding, or even greater in some areas. They are planning 
now for next year and in negotiations with teachers and 
contracts and sometimes they do not have a clue what is going 
to happen, and before we did this reauthorization a few years 
ago in Congress, those numbers would go up and down and up and 
down and they had no certainty of what they were going to do, 
how much they were going to have when they were doing their 
negotiations and so forth with teachers, so it created a great 
deal of havoc. We would like to see that in a more stable 
footing and more predictable footing, so I want to work with 
you on that issue, and I know it is a concern to you also.
    Integrated Resource Restoration--overall, the concept 
behind the IRR line item makes sense to me. That said, a number 
of groups are concerned that their specific needs, whether it 
be wildlife, watershed or timber, will not be met because their 
specific line item will have been deleted and put together in 
this package. How is the Forest Service going to ensure that 
all of these needs are met? I am pleased to see the proposed 
shift of $86 million in non-wildlife urban interface hazardous 
fuels into the Integrated Resource Restoration line item, that 
$86 million is put into that. In an October 19th press release, 
you discussed emphasizing mechanical treatment over prescribed 
burning with hazardous fuels to stimulate job creation. Any 
idea what percentage of the $86 million is going to be spent on 
mechanical thinning rather than prescribed burns?
    Mr. Tidwell. Mr. Chairman, I will answer that last question 
first. It depends on the projects that will be developed for 
fiscal year 2012 but I expect the mix between prescribed 
burning and mechanical will be the same it has been in the 
past.
    You know, with the Integrated Resource Restoration, we 
listened to the criticism that we heard last year when we first 
proposed this, and I feel that we have addressed many of those 
concerns and primarily through continuing to have targets, the 
traditional targets for board feet, miles of stream improved, 
et cetera, and so each region is going to have a similar set of 
targets from what they have had in the past and then they will 
also have this BLI to be able to accomplish all of that work, 
and so we will be able to show you how we are performing. We 
will show you how you can hold us accountable. And at the same 
time, it is my belief that by my pursuing this that the agency 
can become more efficient in some of our processes and thus 
provide more people to be out there on the ground getting more 
work done, providing more jobs.
    But I understand your concerns and the need for you to be 
able to do your oversight responsibilities and we need to work 
with you so we can satisfy your concerns and do this in a way 
that you can feel that you are holding us accountable, that we 
clearly can show how we are performing and that you can see 
what we plan to do at the start of each year so that you have 
the confidence that we are able to carry out our 
responsibilities in a way that you can then show the American 
public that you are holding us accountable.
    Mr. Simpson. There is a tendency I think for Congress or 
any legislative branch of government to line-item things down 
more and more so that we kind of direct funding more and more, 
and I have always been one who thought that we were better off 
if we sat here and set goals of what we expect from the Forest 
Service with a certain amount of appropriations and allowed you 
the flexibility to use that how you could best achieve those 
goals and then next year when you come in we will hold you 
accountable for the goals that you have achieved or not 
achieved. That seems to me like this is kind of the direction 
that this is headed in to some degree even though it causes a 
great deal of concern to some people who depend on those 
individual line items.
    Mr. Tidwell. Well, it does, and we appreciate your support 
in this arena and your thinking, and I understand the concern 
whether it is from the timber industry or for some of our 
wildlife groups that they want to make sure that we are doing 
the complete job and that we are not just focusing on any one 
portion of our mission. I do believe that by including the 
targets, and these will be targets that we distribute to the 
regions and there will be the commensurate amount of funding 
that will go with those targets, we will be able to show you 
that you will be able to hold us accountable and that we will 
be able to show that we are performing and that overall this 
will be a better approach. I understand we are going to have to 
be able to show you how, to the point that you feel confident 
as we can move forward.
    But when I think about the work, the way the work is done 
in the field, we want to take a look at a landscape and decide 
what needs to occur out here, whether it is some hazardous-
fuels reduction, whether it is forest health work, whether it 
is watershed work, whether it is fisheries, recreation, etc. 
And the more that we can just take a look at the landscape and 
then if everyone could come together working with our 
communities to decide what activities need to occur there to be 
able to restore these areas and then we have just one fund code 
to be able to fund the majority of that, it makes it easier.
    Now, I will not tell you that we should not be able to 
accomplish this with our current budget structure. We can. But 
when I look at ways especially in these tough budget times that 
we are having and we need to be looking for ways where we can 
gain some efficiencies, this is one area where I believe we can 
gain some efficiencies without any additional costs because 
there are a lot of things that go on. I can remember in my 
various jobs that I used to do the same thing, that I would 
spend a lot of time tracking my part of the budget, whether it 
was wildlife or timber or hazardous fuels, and I had to make 
sure that we were getting X number of acres done and that we 
had X amount of money. And so when I would come to the table, I 
would make sure that my piece of the pie was taken care of. And 
then I spent a lot of time tracking that, and we are not 
talking about our budget staff, we are not talking about our 
accountants, we are talking about our foresters, our wildlife 
biologists, our hydrologists, our fire managers. They too end 
up spending a lot of time tracking the budget to ensure that we 
are accomplishing what you ask. And so one of the benefits of 
this is that we would free up our field folks, our biologists, 
our foresters so that they can focus more on that job and then 
allow the budgeting, which is so essential, to leave that to 
our highly skilled and specialized staff.
    Those are some of the concepts behind it, and it is really 
to help internal efficiencies. That is what this is about. I 
know it is kind of a tough sell to you and also to so many of 
our partners and stuff because they want to be able to see it 
on paper. They also want to be able to support those various 
activities, and what we would like to do is not only continue 
that support but also continue support for more of a watershed-
scale approach to doing all this work.
    Mr. Simpson. What I would like to see one day, I guess one 
of my goals would be that we come in and actually have a budget 
hearing on what are your goals going to be this year--if we 
give you X number of dollars, what do we expect to see for that 
in the various categories whether it is wildlife management or 
forest health restoration or wildland fire suppression or 
whatever, what do we expect to see from that, and then next 
year during the budget saying this is what we gave you, this is 
what you said you would do, did you do it, and if not, why not, 
if you did better than that, great. Because to me, I do not 
want to be the manager of the forest system. That is why we 
hire you. So I appreciate the job you do. I know it is always 
difficult but it is always hard when from every legislative 
body I have served in legislature wants to get down into 
every--you know, you cannot hire four new personnel because we 
have a freeze on hiring when that might be exactly what you 
need to accomplish the goal that we have set out here. So I try 
not to get into too much management.
    Mr. Moran.

                          SECURE RURAL SCHOOLS

    Mr. Moran. Thank you, Mr. Chairman. Mr. Chairman, I am 
going to have to address a program that I am sure is near and 
dear to your heart but I have to provide the committee and this 
hearing with a different point of view, and that is the county 
schools program. It is a program that is now mandatory. It 
would expire this year. The Administration is requesting a new 
five-year reauthorization. The money would come from that 
dwindling 12 percent of our budget which is attributable to 
domestic discretionary programs and of course virtually all of 
them are under attack. This is $328 million. It is coming from 
your Forest Service budget request but essentially it will be 
coming from all of our domestic spending and it goes for county 
school systems out of the Forest Service budget. Now, let me 
share the perspective of my constituents.
    Mr. Simpson. Sure.
    Mr. Moran. In my Congressional district, we have more 
people, almost 800,000 per district, than there are in some 
states, and I know that the cumulative amount of money they pay 
in to the federal treasury is substantially greater than what 
is paid by all the taxpayers in a number of states. Now, they 
want that money paid for national forests. In fact, one of the 
troubling things is, they want those forests preserved for 
future generations, same thing with BLM land, national park 
land and so on. They get very troubled with what they see as 
the extraction exploitation in a number of these forests. They 
probably would be troubled at the idea that one of the states 
that is represented by a member of this subcommittee gets $1 
billion a year from the Interior Department. I will not go into 
all the reasons for that.
    But the fact is that they are having to cut back the money 
that they have available for the education of their children, 
and yet $328 million is going to local public school systems 
out in the national Forest Service budget. Those counties that 
are getting this money had the economic benefits that came from 
excessive timber harvests of the 1970s and early 1980s, and now 
they are also having to pay for the restoration of those lands 
because of those past excesses, and I think it is appropriate 
to ask, how much are we paying for the restoration of excessive 
clear cutting and the like through timber harvests of the past? 
I know my constituents are happy to pay for enhancements of 
forest health and water quality. I do not think that they are 
excited about paying for local school systems where they are 
having to cut back for the education of their own children. Can 
you address that? And the chairman may want to address it.
    Mr. Simpson. Can I respond to it?
    Mr. Moran. Yes.
    Mr. Simpson. There is obviously a different perspective.
    Mr. Moran. Well, I should say.
    Mr. Simpson. And----
    Mr. Moran. Where you sit is where you stand, 
understandably, and it is our job to represent----
    Mr. Simpson. How this started is those--and this is 
probably a discussion Chief Tidwell really does not want to 
enter into. But how this all started is that how much of the 
land in your district is owned by people paying property taxes?
    Mr. Moran. Well, virtually all of it. Well, actually I take 
that back.
    Mr. Simpson. That would be the problem.
    Mr. Moran. We have got the Pentagon, we have got any number 
of federal agencies and we do not get taxes from that, but I 
understand that because----
    Mr. Simpson. You go to a county like Custer County, Idaho, 
that is 96 percent, I think it is 96 percent federally owned. 
That means 4 percent of the land is paying taxes to support the 
school system, the roads, the bridges, everything else that 
goes on in that county. When you come out and visit and get 
lost in our mountains, our search and rescue on the 4 percent 
paying for it comes and finds you. That is the problem. They do 
not have the resources and they do not have the ability to 
create the resources to pay for the public schools in some of 
these counties that are owned by the federal government, and as 
you said, people out here love to have these public lands out 
in the West. We like them too. We like public lands, frankly. 
But the problem is, you do not have the taxes to pay for them 
so there are several different programs that were set up. One 
of them was counties and schools get a share of the timber 
harvest that was created in that county. Well, that sustained 
the schools districts and the counties and the roads for many, 
many years. Now, you could say it was overharvesting or not, 
but those have gone substantially down. How do they make up for 
it? They cannot do it because 96 percent of the land is owned 
by the Federal Government. They cannot have industry come in. 
Where are they going to put them? There is no way to pay the 
property taxes to make up for that. And that is the difficulty. 
When you love the public lands in the West, you also have to 
pay for them.
    Mr. Moran. Mr. Chairman, most of my constituents are never 
going to visit the public lands in the West but they like the 
fact that they are there. They know it is the right thing. They 
know that it is an appropriate use of their tax money. But most 
of my constituents also share the feeling that I have, and I 
will be very candid: this fierce anti-Federal Government 
attitude on the part of the very people who are so dependent 
upon a government being responsive to those situations, and as 
long as that fierce anti-government attitude prevails, I think 
the idea of our funding local public school systems with 
federal money that most people do not know about I think it is 
a legitimate subject to bring up.
    You know, we want to protect our environment, we want our 
money to be used for that purpose, but I have to say in the 
interests of transparency, some of these programs I think need 
to be publicly debated. I certainly understand your point of 
view and frankly, I do not want to be debating you because you 
are reasonable. Well, you are, and I think you have done a very 
good job in terms of this Interior bill but these are issues 
that need to be considered from a national perspective and----
    Mr. Simpson. Well, there was a suggestion just the other 
day at a meeting I was at, and this was by Easterners actually, 
at least the individuals making the comments, and you know, pay 
off this national debt, sell some of those public lands in the 
West.
    Mr. Moran. I know that. That is the attitude they have, and 
frankly----
    Mr. Simpson. I do not favor that.
    Mr. Moran. No. In the long run, I do not think that is in 
our national or local interests of the states. But I raise it 
because you mentioned it, and without a response I think the 
assumption would be that there is full support of this. I think 
this is an issue that bears further discussion. I understand it 
is a controversial one. I understand we come from very 
different perspectives, different constituencies, but I think 
it is an issue that bears further discussion, particularly when 
it is going to be coming out of other domestic discretionary 
programs.
    Mr. Simpson. I understand that, and we are willing to 
discuss it and certainly have discussed it over the years and 
will continue to discuss it. There are a number of programs, 
whether it is PILT payments, Secure Rural Schools or those 
other things, that are supposed to help make up for the fact 
that, as I said, states in the West that are substantially 
federal lands do not have the resources and the ability. In 
fact, if you looked at the amount of money funding it--Rob 
Bishop from Utah has probably the best map on this--The funding 
of public schools in relationship to the amount of public lands 
that those states have, it is amazing that the lack of funding 
directly tracks those states that have public lands, and it is 
just a reality.
    That was best probably not to get involved in that 
discussion. Did you have something else?
    Mr. Moran. Well, you know, just one further comment. We 
used to have this program where the school system would be 
funded proportionate to the federal presence. What was the name 
of that? Impact. Thank you.
    Mr. Simpson. We still have Impact Aid.
    Mr. Moran. Well, but we cut back severely. We do not get 
any of that anymore. It was a program consistent with this 
program but that was eliminated.
    Mr. Simpson. That did not deal with public lands. That 
dealt with if you had air base or something like that.
    Mr. Moran. It dealt with federally owned land that you were 
compensated for because it was a payment in lieu of taxes 
basically.
    Mr. Simpson. But that only dealt with the small like air 
base or a federal reservation, an Indian reservation or 
something like that. It did not deal with the 2 billion acres 
of land.
    Mr. Moran. Okay. I am not going to pursue it any further. I 
think you understand that----
    Mr. Simpson. I do.
    Mr. Moran [continuing]. We will have further discussion, 
and I think we have taken the chief's time a good deal up. My 
very distinguished colleagues may have further questions.
    Mr. Lewis. We do not have easement to sell those lands.
    Mr. Simpson. Well, I know that. I just found it quite it 
interesting. I do not want to sell them either.
    Mr. Moran. And I do not want to.
    Mr. Simpson. In fact, you will find that most Westerners 
like public lands. It is how we access hunting, fishing, 
everything else, the recreation that we do out there. We live 
there because we love our public lands. We sometimes have some 
complaints about the land managers just as you have complaints 
about your neighbor, and that will always be the case and it is 
not an anti-government mentality that you would suggest, it is 
how can we do it better.
    Mr. Moran. Mr. Chairman, for 60 hours we debated so many 
amendments that were inspired by an anti-government attitude. 
All those environmental riders, it was this almost vehement 
attitude with regard to the Federal Government, and that is 
what inspires my reaction to the role that the Federal 
Government plays, particularly in terms of paying for local 
public school systems. It is tough to take the money and bite 
the hand that is providing it. That is all I am saying. But I 
am not going to pursue this any further.

                           TRAVEL MANAGEMENT

    Mr. Simpson. I would just disagree with one comment. Being 
anti what the government is doing is not being anti-government. 
You can change directions of what the government is doing or 
think it can do it better or be concerned about things that are 
happening with the government. That does not mean you are anti-
government.
    As an example, and it is the last question I was going to 
ask, the travel management plans, as I said in my opening 
statement, I do not believe that eliminating travel management 
plans is the correct answer. There was obviously an amendment 
to H.R. 1 dealing with a specific area. In some areas, it had 
worked well. In other areas, it has worked not so well. Is 
that, in your opinion, because of the difficulty and the 
complexities that are unique to certain areas where it is 
having difficulty or is it the personnel that do not have the 
ability to, I guess, bring together people like they do in 
other areas to develop a management plan?
    Mr. Tidwell. Mr. Chairman, in many cases it is the set of 
circumstances that occur on that local forest, whether it is 
specific issues with the need for us to recover threatened and 
endangered species, additional concerns with municipal 
watersheds. And so often there are additional factors that have 
to be considered. Where we have been successful is when 
everyone is willing to come to the table, and that is the 
motorized community and the non-motorized community, that they 
can come together, and what we try to do is create that 
environment and help facilitate those type of discussions so 
that folks can kind of find those areas of agreement and then 
we can move forward with implementing that.
    I mean, there are certain resource conditions that we will 
take care of, and we just have to--and in most cases there is 
strong support for that, but then some of these situations that 
seem to be so contentious, then it gets down to how much is 
going to be available for motorized recreation and how much is 
available for non-, and even though after we solved all the 
resource issues, you still have the social issue you have to 
deal with, and those are the ones that seem to give us some of 
the most difficulty. And when I look at those and it is easy to 
step back and be able to look at them from where I am sitting 
and I can say well, you know, people should come together and 
work out some compromises and work together on these issues, 
and at the same time I also understand the complexities of 
this, and so I do believe that what we are trying to do is the 
right course. I do think it is the very best chance to have 
sustainable motorized recreational opportunities, which are 
very important not only to the user but to the economy. There 
are a lot of economic opportunities that come from that. We can 
manage it in a way that there are very few adverse 
environmental effects that are easily mitigated and primarily 
through a system of trails and roads that are well positioned 
on the landscape and that we can maintain. That is another one 
of the challenges we have, that we have to look at what is 
sustainable.
    And so you may have a situation where yes, the resource 
could handle another 100 miles and it is not like we do not 
have a lot. I mean, our road system is 375,000 miles of road, 
and that is just our roads, and you add all the motorized 
trails on top of that. But we also have to do in a way that is 
sustainable because if we are not doing it, then we allow these 
activities to continue and then we run into--we kind of build 
opposition because folks are out there and they do not like to 
see the dirt in the stream. They do not want to see the impacts 
to the fisheries. They do not want to see the impacts to the 
municipal watersheds. And so that is the other thing that 
brings a challenge because folks will look out there and say 
well, by just doing this, building this bridge, you know, we 
can have another trail here but part of our job is to ensure 
that is sustainable, and that is the sort of thing that also 
just adds to the controversy.
    And at the same time, there are thousands of people that 
are willing to roll up their sleeves and come together and 
work, and I just marvel at the places where the non-motorized 
and motorized communities come together, and where one group 
did not want the trail in its location but they still needed a 
trail, it is the non-motorized community that is out there that 
is building that new trail for the motorized folks to be able 
to go on it and then at the same time the next weekend they are 
out there together decommissioning a road, for instance. That 
is where we solve this, and it is going to take more time but I 
think we can get there. I can understand the concern and the 
controversy but not allowing us to go forward with this 
planning is not going to be helpful to the motorized community 
in the long term.
    Mr. Simpson. Do other Members have questions?

                             CLIMATE CHANGE

    Ms. McCollum. Yes, Mr. Chairman. First, I am boldly going 
to go right in the middle of the previous discussion. We need 
to increase Impact Aid. We need to work on PILT, and Rural 
Schools and that. Minnesota, our state house, if we do not have 
those payments coming in, whether it is PILT or Impact or 
whatever other program, we have to make up for it. And we have 
national forests and we are very proud of them, and we love 
them, but they do have consequences and effects.
    I wanted to ask a question on climate change because in 
some of the other budgets--and the chair has been asking some 
very thoughtful questions on it too--line, there has been 
discussion on what is going on with climate change, and I know 
because of the unique place where Minnesota sits where we have 
prairie, forest, everything else, we are already starting to 
see of the impacts of climate change. I know our forestry 
council is very concerned about that. Could you maybe just tell 
us a little bit where you fit in with the whole climate change 
debate and how you are kind of watching what is going on? Are 
you working with universities? And this goes to my other 
question about is it embedded in other parts of your budget, 
but we cannot see where it is because of what you have done to 
my point about what happens with international forestry? Chief.
    Mr. Tidwell. Well, thank you. You know, we are very 
fortunate, and I am not speaking of the agency, I am speaking 
of the Nation, that our forest research and development staff 
are scientists that have been looking into the effects of a 
changing climate on vegetation and on the ecosystems for close 
to 30 years, long before anyone ever coined the term, and we 
are very fortunate that the folks had the foresight and that 
you provided the resources for them to be able to pursue that. 
And so when it comes to the issue of climate change, our focus 
is on understanding how this is affecting the ecosystems. We do 
not study climate change. We understand the effects on the 
ecosystem, and that is where our resources have always been 
focused on and that is what kind of drives that.
    So when it comes to climate change, it is a big piece of 
our research and development budget, and that if you ask us to 
kind of tease that out for between 2010 and 2012, there is a 
slight reduction of funding just like there is in almost all of 
our programs, but it is not a separate program. It is what we 
do, and so we are focusing on using our research scientists who 
work in conjunction with our universities very closely. It is 
one of the things that I am stressing and they have been doing 
a good job to not only look at and understand what we are doing 
but also what the universities are doing and what the other 
agencies are doing to make sure that we are not duplicating 
efforts, because this is one area that there is a lot of new 
interest in it and some expanding opportunities, and it is 
important that we look at all of that. And so that is one of 
the things that I ask our leadership and our research 
organizations, to make sure that we are factoring that in so we 
can determine where are the true gaps and we are not just 
duplicating research. But our focus is on using the science so 
that we can understand how we need to adapt our management to 
address the changes and then also how we can mitigate where we 
have those opportunities. So in this case, it is not a separate 
program. It is really just about everything that we do.
    The challenge that we have and where we are focusing is to 
make sure that our managers understand the science, they 
understand the things they need to be thinking about. It is a 
key part in our proposed planning rule. You will see the 
effects of climate change is mentioned in there numerous times 
to ensure that in our future planning, we are really factoring 
in the changes in the environment. You are seeing them in your 
state and we are seeing them throughout the country, and 
sometimes, depending where you are, there is going to be a 
larger change than others but there are definitely things that 
are going on. Often it is just to understand that when you are 
designing a road, the size of the culvert that you should put 
on that road, we need to understand that because of the 
changes, the frequency of disturbance events and how the 
climate has changed and some of the weather patterns, that we 
need to just put a larger culvert in. It may just be that 
simple.
    On another extreme is what we are seeing in some of our 
vegetative types is where we are seeing pests and insect and 
disease activity occur that we have never seen before because 
of the change in the environmental conditions, and how do we 
address that? How does our management need to change? So those 
are the things we want to continue to work on but it is just an 
essential part of our programs.
    Ms. McCollum. Thank you.
    Mr. Simpson. Mr. Hinchey, do you have something else?

                           ALTERNATIVE ENERGY

    Mr. Hinchey. I just want to compliment you again and say 
the important things that you talked about, for example, more 
restoration activities, things that have to be involved in, how 
you talked about water protection and the need for water 
protection, and in the context of water protection, of course, 
it is going to be even more different in the situation of 
climate change that you are now facing. So all of those things 
are very important and we really need to work together to make 
sure that this situation moves forward. I deeply appreciate 
what you are doing.
    And one other thing, energy. Alternative energy is another 
issue that you may have some interest in in the context of the 
energy needs that you have across this big operation and most 
of the places in this country. So if there is anything you want 
to say about that, terrific. Otherwise just thank you very 
much.
    Mr. Tidwell. Well, thank you. I would like to mention, you 
mentioned water. We have increased our emphasis on water, and 
it always has been one of the foundations of the U.S. Forest 
Service to ensure that we are providing clean, abundant flows 
of water. It goes right back to the Organic Act. One of the 
reasons that the Forest Service exists, one of the reasons for 
the Weeks Act, for the national forests we have and the eastern 
southern part of the country was focused on water, and so it is 
kind of just to increase the emphasis there because it is so 
important. So many people in this country rely on the water 
that comes off our national forests and grasslands.
    On energy, we are increasing our focus on renewable energy. 
We will continue to do our work with the more traditional oil 
and gas industry but when it comes to solar opportunities, 
wind, hydro, geothermal, those are kind of the four areas we 
are increasing our work and we want to make sure that as 
opportunities and proposals come to us that we are able to 
quickly respond to those and so we are working on this set of 
directives. We are doing some analysis, and there is about 99 
of our units throughout the country that have the potential for 
some type of utility-scale renewable energy. That will not 
occur everywhere but we do know that there are more 
opportunities out there and it is one of the things we want to 
be ready for as proponents come to the table and want to pursue 
some of these opportunities.
    Mr. Hinchey. Thank you very much.
    Mr. Simpson. Thank you, Chief, for being here today and for 
your testimony.
    For those who may not understand, Mr. Moran and I are 
actually pretty good friends and get along well, and I often 
say to people out in the West that oftentimes the debates that 
go on here are not really between Democrats and Republicans, 
oftentimes they are East-West debates where most of the public 
lands are west of the Mississippi, most of the private lands 
are east of the Mississippi, and while we in the West expect 
Easterners to try to understand the unique situations in the 
West, we have a responsibility to also understand some of the 
unique situations that exist out here in the East and working 
together, and Jim and I have talked about a lot of these issues 
before. So in spite of our disagreements sometimes, that is how 
you learn things. So I appreciate you being here during the 
testimony today and for the informal discussion that went on 
also.
    Mr. Moran. Well, and if I could, Mr. Chairman, you 
represent your constituency extraordinarily well and I hope all 
of your constituents are aware of that, and I think it was an 
appropriate discussion and I share your reaction to Mr. 
Tidwell's testimony. It was superb, and we thank him and Ms. 
Atkinson. Thank you.
    Mr. Tidwell. Thank you. Thank you for your support.
    Mr. Simpson. Thank you, and thanks for the work the Forest 
Service does and the great employees that are out there on the 
ground.

[GRAPHIC] [TIFF OMITTED] T6897A.086

[GRAPHIC] [TIFF OMITTED] T6897A.087

[GRAPHIC] [TIFF OMITTED] T6897A.088

[GRAPHIC] [TIFF OMITTED] T6897A.089

[GRAPHIC] [TIFF OMITTED] T6897A.090

[GRAPHIC] [TIFF OMITTED] T6897A.091

[GRAPHIC] [TIFF OMITTED] T6897A.092

[GRAPHIC] [TIFF OMITTED] T6897A.093

[GRAPHIC] [TIFF OMITTED] T6897A.094

[GRAPHIC] [TIFF OMITTED] T6897A.095

[GRAPHIC] [TIFF OMITTED] T6897A.096

[GRAPHIC] [TIFF OMITTED] T6897A.097

[GRAPHIC] [TIFF OMITTED] T6897A.098

[GRAPHIC] [TIFF OMITTED] T6897A.099

[GRAPHIC] [TIFF OMITTED] T6897A.100

[GRAPHIC] [TIFF OMITTED] T6897A.101

[GRAPHIC] [TIFF OMITTED] T6897A.102

[GRAPHIC] [TIFF OMITTED] T6897A.103

[GRAPHIC] [TIFF OMITTED] T6897A.104

[GRAPHIC] [TIFF OMITTED] T6897A.105

[GRAPHIC] [TIFF OMITTED] T6897A.106

[GRAPHIC] [TIFF OMITTED] T6897A.107

[GRAPHIC] [TIFF OMITTED] T6897A.108

[GRAPHIC] [TIFF OMITTED] T6897A.109

                                         Wednesday, March 16, 2011.

     FISCAL YEAR 2012 BUDGET REQUEST U.S. FISH AND WILDLIFE SERVICE

                               WITNESSES 

ROWAN GOULD, ACTING DIRECTOR, U.S. FISH AND WILDLIFE SERVICE
DAN ASHE, DEPUTY DIRECTOR, U.S. FISH AND WILDLIFE SERVICE
CHRIS NOLIN, BUDGET OFFICER, U.S. FISH AND WILDLIFE SERVICE

                   Opening Remarks of Chairman Simpson

    Mr. Simpson. The committee will come to order. Good 
afternoon, Acting Director Gould. I would like to welcome you 
along with the Deputy Director, Dan Ashe, and your Budget 
Officer, Chris Nolin, who is instrumental in providing this 
subcommittee with information it needs to do its work. Both the 
2011 and 2012 budgets have generated considerable excitement 
for better or worse.
    I have an opening statement, and I will tell you what. 
Because we are scheduled to have votes before too long, I would 
like to get to your testimony as soon as possible, so I am 
going to enter most of this for the record, if that is okay.
    [The statement of Mike Simpson follows:]

    [GRAPHIC] [TIFF OMITTED] T6897A.110
    
    [GRAPHIC] [TIFF OMITTED] T6897A.111
    
    Mr. Simpson. Mr. Moran, do you?
    Mr. Moran. Well, since you have shown the lead, it is 
incumbent upon me to do the same.
    Mr. Simpson. That was my idea.
    Mr. Moran. Shall I just give you----
    Mr. Simpson. Do you have a quote?
    Mr. Moran. I will give you a quote.
    Mr. Simpson. Please.
    Mr. Moran. This one is from John James Audubon. You 
remember him.
    Mr. Simpson. Yes.
    Mr. Moran. Yes.
    Mr. Simpson. A good friend of mine.

                      Opening Remarks of Mr. Moran

    Mr. Moran. Yes. He quotes, ``A true conservationist is a 
man who knows,'' and I am sure he meant to say a man or a 
woman, ``who knows that the world is not given by his fathers 
but borrowed from his children.''
    And with that we can move forward to the hearing. Dr. Gould 
has done a great job as the acting director. I know Mr. Ashe is 
going to do a terrific job as well once the Senate lifts those 
holds. We are anxious to have you take over as director, and we 
do thank Dr. Gould for all his good work, and Ms. Nolin, thank 
you for your work as a budget director.
    [The statement of Jim Moran follows:]

    [GRAPHIC] [TIFF OMITTED] T6897A.112
    
    [GRAPHIC] [TIFF OMITTED] T6897A.113
    
    Mr. Simpson. Is there anybody over there on that Senate 
side we could talk to? Or is that a secret?
    Mr. Moran. I will talk to you in private.
    Mr. Simpson. Welcome. We look forward to your testimony. 
The floor is yours.

                    Opening Statement of Rowan Gould

    Dr. Gould. Thank you. Good morning, Chairman Simpson, Mr. 
Moran, and members of the subcommittee. Actually, I am going to 
try to keep my remarks very short, too, in keeping with your 
situation.
    I am Rowan Gould. I am the acting director of the U.S. Fish 
and Wildlife Service, and I appreciate the opportunity to 
testify before you today on the Service's fiscal year 2012, 
budget request. This request will focus funding on the agency's 
highest-priority conservation initiatives, while containing 
costs through management efficiencies and other savings.
    This is a very difficult budget year as the committee well 
knows. It does not come without some sacrifice on the part of 
the Service. The $1.7 billion request contains $26.5 million in 
efficiency reductions, along with program reductions and 
eliminations that total $86.3 million. Program increases for 
our high-priority needs result in a net increase of $47.9 
million compared to the fiscal year 2010 enacted budget.
    The budget also includes approximately $1 billion available 
under permanent appropriations, most of which will be provided 
directly to states for fish and wildlife restoration and 
conservation.
    Our request represents an excellent investment for the 
American people. For every federal dollar spent the Service 
supports job creation and economic development at the local 
level. According to our 2006 Banking on Nature Report, 
recreational activities on national wildlife refuges generated 
$1.7 billion in total economic activity. According to the study 
nearly 35 million people visited national wildlife refuges, 
supporting almost 27,000 private-sector jobs with almost $543 
million in employment income.
    In addition, recreational spending on refuges generated 
nearly $185 million in tax revenue at the local, county, state, 
and federal level. The economic benefit is almost four times 
the amount appropriated to the refuge system in fiscal year 
2006.
    In addition, in 2010, Service economists published a peer-
reviewed report of the economic contribution of the Fisheries 
Program and attributed $3.6 billion per year to the economy 
from fishing, aquatic habitat conservation, subsistence 
fisheries, evasive species management, and other public uses. 
The total number of jobs associated with this economic input is 
over 68,000. It is clear the investment in the Service supports 
economic development and job creation throughout the U.S.
    The Service's highest-priority increases will help us use 
our resources more efficiently. Continued development of shared 
scientific capacity to obtain information necessary to 
prioritize conservation spending is reflected in our increases 
for landscape conservation.
    A requested increase of $17.4 million will enable the 
Service to continue working with partners to conduct 
collaborative landscape scale, biological information 
gathering, participate in cooperative planning and will 
complete the network of Landscape Conservation Cooperatives, or 
LCCs, initiated in fiscal year 2010.
    The LCCs will fund science to answer fundamental questions 
so that the Service, states, and others can make more efficient 
use of their resources. Within the Service, LCCs help support 
ongoing programs, including endangered species recovery, refuge 
comprehensive conservation plans, fish passage programs, and 
habitat restoration. In support of LCC development and adaptive 
science management, we requested an increase of $8 million 
within the Refuge Program to continue building the landscape 
scale long-term inventory and monitoring network that the 
Service began in fiscal year 2010.
    The budget proposes an increase for the North American 
Wetlands Conservation Act to $50 million, as well as an 
increase of $4 million for activities associated with renewable 
energy development, including $2 million for endangered species 
consultation and $2 million for conservation planning 
assistance.
    The budget contains $15.7 million, an increase of $2 
million, to support youth in the great outdoors.
    In sum, the Service has taken a very serious look at its 
budget this year and reduced our request in significant areas 
while focusing increases only on high-priority items.
    Thank you for the opportunity to testify this afternoon. 
Dan Ashe and I are happy to answer any questions the 
subcommittee may have and look forward to working with you 
through the appropriations process. Thank you.
    [The statement of Rowan Gould follows:]

    [GRAPHIC] [TIFF OMITTED] T6897A.114
    
    [GRAPHIC] [TIFF OMITTED] T6897A.115
    
    [GRAPHIC] [TIFF OMITTED] T6897A.116
    
    [GRAPHIC] [TIFF OMITTED] T6897A.117
    
    [GRAPHIC] [TIFF OMITTED] T6897A.118
    
    [GRAPHIC] [TIFF OMITTED] T6897A.119
    
    [GRAPHIC] [TIFF OMITTED] T6897A.120
    
    [GRAPHIC] [TIFF OMITTED] T6897A.121
    
    [GRAPHIC] [TIFF OMITTED] T6897A.122
    
    Mr. Simpson. Thank you. I appreciate you all being here. I 
am going to yield my time to the chairman of the full 
committee, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Thank you, witnesses, 
for being here today. We appreciate your service to your 
country and to this Congress.

                         MITIGATION HATCHERIES

    Several decades ago when the federal construction of dams 
was in its heyday, native trout streams were adversely 
affected, and through its Fisheries Program, Fish and Wildlife 
Service built a network of 14 national fish hatcheries that 
specialize in mitigating for fisheries losses as the result of 
the actions of other federal agencies.
    Today the Service is proposing a reduction of $6.3 million 
to these mitigation hatcheries, which would effectively force 
their closure unless other federal agencies continue to 
supplement funding through, ``mitigation.'' And on top of that 
the Administration is proposing an across-the-board reduction 
to supplies, translating to a $900,000 cut in hatchery 
supplies, and that would, I believe, reduce the fish 
populations.
    Fish and Wildlife has received reimbursement from other 
federal agencies like the Corps for some of those costs in the 
past, but you have never assumed reimbursement in your 
budgeting process until now. That is problematic because the 
Corps fiscal year 2012 request is insufficient to cover this 
reduction in your request.
    Why are you changing your policy in this regard?
    Dr. Gould. We have been getting to a fee-for-services 
approach to doing business for almost 30 years now, and we have 
several examples out there where that is exactly the way things 
are. Most, if not all, of our mitigation hatcheries on the 
Columbia River are Mitchell Act hatcheries and are paid for by 
the National Marine Fishery Service. We have BOR supporting our 
hatcheries in California.
    So we have examples all over the country where this is 
actually occurring. In fact, we do not look at this reduction, 
this almost a little over $6 million reduction, as a reduction. 
We see it as a transfer of funds. We have worked out an 
agreement with the Corps of Engineers to include most of the 
money that was identified specifically for these mitigation 
hatcheries, and in fact, the amount they came up with is enough 
to operate those hatcheries. It is a transfer of funds to their 
budget, so there is no real reduction.
    We are still trying to discuss with them the exact terms of 
who pays for what. There are still some issues regarding who 
pays for some of the maintenance activities in the hatchery, 
which counts for some of the difference between what we have 
agreed to for fiscal year 2012, and what we have specifically 
identified as the need.
    So, in fact, it is our view that we are looking for a 
consistent way of dealing with these mitigation hatcheries 
across the country.
    Dan, do you have anything to add to that?
    Mr. Ashe. I would just add, Mr. Rogers, that specifically 
with regard to the hatchery in your state and hatcheries that 
are operated, the mitigation functions that are to be funded by 
the Corps of Engineers, those monies are in the President's 
budget. So we believe that we are going to be able to continue 
operation of those hatcheries, and it is our goal to continue 
the operation of all of these mitigation hatcheries by working 
with the other federal agencies.
    In general, as a matter of policy, things like the funding 
for the mitigation is going to be most sustainable if it is 
closer to the action agency, the agency that is actually 
responsible for the operation and maintenance of the project in 
question.
    Mr. Rogers. Well, the core of fiscal year 2012 request I am 
told is not sufficient to cover that $6.3 reduction in your 
request.
    Dr. Gould. The amount we have agreed with the Corps is $3.9 
million, and of the need we have identified around $4.3 to $4.7 
million, and we are still negotiating that difference.
    Again, there are also other mitigation entities, fee-for-
service entities, that we are working with, and those include 
TVA and the Central Utah Project. We are in negotiations with 
those folks right now to deal with that shortfall to make sure 
that they have those funds identified in their funding 
processes.
    Mr. Rogers. Yes, but Fish and Wildlife is the lead federal 
agency with responsibility over fisheries, not the Corps, not 
anyone else. It is yours, and the Corps budget request does not 
include the money that would be required to fulfill the $6.3 
million reduction in your request. Am I mistaken?
    Mr. Ashe. The Corps portion of that is not $6.3 million. 
Six point three million dollars is the entire reduction which 
also includes funds that would come from the Central Utah 
Project, TVA, and Bonneville Power Administration. As Dr. Gould 
said, I think the Corps portion of that as we identified it 
was----
    Dr. Gould. Four point seven.
    Mr. Ashe [continuing]. $4.7 million. And included in the 
Corps budget I believe is $3.9 million.
    Dr. Gould. Right.
    Mr. Rogers. Well, there is still a difference.
    Dr. Gould. Right.
    Mr. Ashe. From a policy perspective our goal is the same, 
and that is to keep these hatcheries operating and providing 
the mitigation fish to support this function. I think in the 
long run we believe it is appropriate that the mitigation 
responsibilities be attached to the action agency. That really 
is the more common occurrence for us, that when an action 
agency proposes an action, they are responsible for the 
mitigation of the adverse affect.
    For the security of those hatcheries and that mitigation 
function in the long run, we believe that it is better to have 
that responsibility attached to the action agency, not to the 
Fish and Wildlife Service.
    Mr. Rogers. Well, that is a change in policy, is it not?
    Mr. Ashe. Yes. With regard to these hatcheries.
    Dr. Gould. We have been working on this transfer of funds 
approach as long as I have been in the Fish and Wildlife 
Service, almost for 30 years.
    We recognize the economic value of these facilities. We 
recognize that they are incredibly important to the local 
economies, and we will do everything we can to make sure that 
those economic impacts, the potential economic impacts, will be 
taken into consideration in terms of how we fund those 
hatcheries and when we fund them. But the idea is to make this 
conversion as soon as possible.
    Mr. Rogers. Well, you are, I think, in effect asking us to 
earmark monies for the Corps of Engineers to go toward Fish and 
Wildlife.
    Dr. Gould. It is their funds. These funds are, at least in 
the Corps case, for those hatcheries that are affected by the 
Corps, Wolf Creek and Arkansas Hatcheries. I just had a 
conversation with Senator Pryor yesterday about this very same 
issue. The fact of the matter is the money to fund those Corps 
hatcheries is, in effect, in the President's budget, and we 
would like there to be support for their continued funding.
    Mr. Rogers. Well, you know we cannot earmark. So what are 
we to do?
    Dr. Gould. It is in the President's budget right now.
    Mr. Rogers. Not fully.
    Dr. Gould. Yes, sir.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Moran.
    Mr. Moran. Suggest to the chairman of the full committee 
that if he wants to change that policy, I think he would find 
some receptivity on this side. I think the only guy that really 
wants it is the guy in the White House because it works to his 
favor and against ours.

                     CONTINUING RESOLUTION IMPACTS

    But, anyway, moving along. So, Dr. Gould and Mr. Ashe, you 
have been running the Fish and Wildlife Service now for 6 
months on the series of continuing resolutions. I would like to 
have you explain some of the practical impacts of what is a 
toll-booth kind of funding of the Federal Government. Are you 
able to hire summer temporaries, for example, engaging 
contracts with local rural businesses? What are some of the 
practical implications for this process that we have been 
putting you through for 6 months?
    Dr. Gould. Well, obviously, I can go through all kinds of 
examples.
    Mr. Moran. Well, just give us some of the more glaring 
ones, if you would not mind.
    Dr. Gould. Well, I can list a few because I have a few of 
them listed right here in front of me.
    Mr. Moran. Okay.
    Dr. Gould. Hiring Youth Conversation Corps employees has 
been postponed. Our Challenge Cost Share Projects, which we 
accomplish with partners, had to be put on hold because we do 
not know exactly how much money we have to deal with. Our 
wetlands and grassland restorations have been postponed in 
several regions because we have to deal with contracting and 
dealing with landowners so we meet uncertainty.
    Literally hundreds of maintenance projects have been 
delayed because we do not know exactly what we have to work 
with. We have been careful about our travel. In law enforcement 
there have been some special assignment projects that have been 
put off because we do not know exactly what we have in terms of 
funding to support those agents in investigation situations.
    Another very specific example is that $2.4 million of 
invasive species control activities have been postponed on 
Florida refuges. This impacts the Service's ability to meet 
licensing and agreements with the State of Florida regarding 
Loxahatchee Refuge, which is actually owned by the State of 
Florida.
    So there are just a few very specific examples, and we do 
look forward to, as soon as possible, some certainty in our 
budget so that we can get on with our work.

                         CLIMATE CHANGE IMPACTS

    Mr. Moran. Thank you. The fact that our climate is changing 
appears to be a contentious point for some segment of this 
Congress. Could you summarize some of the changes that your 
land managers are already seeing on the ground such as rising 
sea levels destroying refuges, drought leading to wildfire and 
disease, disruption to ecosystems that might be caused by 
invasive species?
    Dr. Gould. Well, first of all, before I came here, before I 
came to DC for my third time, I was the Regional Director in 
Alaska, and I am not ascribing it to any cause, but I know the 
ice is going away. I know that there is an incredible amount of 
erosion on the Bering Sea front. We are dealing with some of 
our Native Alaskan communities that literally, just in the last 
few years, had their houses washed out from underneath them. 
This is due to the open ice and open water situation causing 
erosion along the shore. We are seeing sea level rise.
    There are several examples of changes that are related to 
differences in temperature regimes across the country. Water 
obviously is a big issue in the southwest and California. These 
are all real issues of changes going on.
    We know change is going on, and we have to take steps to at 
least try to understand those changes. We then take adaptive 
actions where we can, working with our partners to deal with 
the situation.
    Dan, any other examples?
    Mr. Ashe. I think across all kinds of ecological regimes we 
are seeing change that is correlated to observed changes in 
temperature and in climate. Changing migration for birds and 
waterfowl, changes in the timing of green up in especially the 
higher latitudes, changes in flowering plants, and those all 
cascade through ecological systems.
    Everything the Fish and Wildlife Service does and all the 
things we and our partners are responsible for are being 
affected at some level by changing climate. That is one of the 
reasons we have placed an emphasis on learning more about the 
changing climate system and what it means for the type of work 
that we do and the things that we are responsible for. I think 
our partners appreciate that.
    The work that we have been doing has been right in the 
mainstream of the conservation community with partners like 
Ducks Unlimited, the Association of Fish and Wildlife Agencies, 
National Wildlife Federation, Wild Turkey Federation, and 
others, because all land managers and resource managers see the 
same kind of changes happening and know that we have to be 
smarter about dealing with that. We have to be smarter if we 
are going to use the taxpayers' dollars in the most responsible 
way, because the decisions that we are making today are going 
to produce the waterfowl that our hunting constituencies depend 
upon 20, 30, 40, and 50 years from now. So we have to make the 
right investments today.

                             CHESAPEAKE BAY

    Mr. Moran. That was a long answer, but it was an important 
one. I appreciate that. I just have one last issue, Mr. 
Chairman, but it does not necessarily require as extensive an 
answer.
    You mentioned in your statement the restoration efforts on 
the ecology of the Chesapeake Bay as being important. To what 
extent does the Goodlatte amendment to H.R. 1 affect the Fish 
and Wildlife Service's ability to work on the Chesapeake Bay 
restoration?
    Dr. Gould. The short answer if you broadly interpret----
    Mr. Moran. Well, it said no federal funds. It did not 
specify EPA or anything like that.
    Dr. Gould. Right. We have a lot of restoration work going 
on related to point-source pollution and coordination and 
restoration work related to wetlands habitat. Very broadly 
interpreted that work could have something to do with water 
quality. We obviously could not do that work, even though it is 
not directly----
    Mr. Moran. It was not intended, but it would include Fish 
and Wildlife Service. You would just have to stop your 
operations.
    Dr. Gould. If you broadly interpret.
    Mr. Moran. Yes. Okay. Thank you. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Lewis.

                            SANTA ANA SUCKER

    Mr. Lewis. Thank you, Mr. Chairman. I am sure that you will 
have anticipated at least a piece of that which I would like to 
discuss, but the critical habitat designation that relates to 
the Santa Ana sucker is very important to the Southern 
California region, but in a broader sense, my concern is one of 
making sure that we do not repeat the kind of fiasco that took 
place in the Bay Delta that so undermined the credibility of 
our work in this entire region. And on every side of that issue 
people quit talking to each other and began yelling about what 
the other was doing, and we need to make sure that we are 
preserving elements of our environment as well as endangered 
species, et cetera, in a sensible way that allows us to do the 
kind of planning that is necessary.
    I am very concerned that this designation, critical habitat 
for the Santa Ana sucker, could take us down that same pathway 
if there is not some really sensible effort to communicate with 
each other about where we ought to be going.
    And so in connection with that last week when we were 
discussing this, it was suggested that maybe Fish and Wildlife 
tends to want to take those analyses that agree with their 
conclusions and reject analyses that might go in a different 
direction, and in that discussion the sucker came to mind, and 
so I am interested in knowing has Fish and Wildlife on occasion 
sent economic analyses back to the contractor for additional 
work if it was found to be wanting?
    Dr. Gould. We do that often is the short answer.
    Mr. Lewis. You do that often?
    Dr. Gould. Yes, we do.
    Mr. Lewis. All right. I kind of thought that might be your 
response.
    Dr. Gould. Yes. In this situation, we understand there are 
concerns. To fully discuss the Santa Ana sucker issue you have 
to recognize it has been listed for a long time. We do not 
think this critical habitat designation is going to have a 
major effect on the ongoing discussions and collaborative work 
that has been going on there in the past.
    We have, however, talked to our Regional Director about the 
issue, and we are committed to sitting down with the county and 
the stakeholders and developing the kinds of working 
relationships that are really going to be necessary to avoid 
any of these concerns that we understand you have.
    Mr. Lewis. Would that include participating in or sharing 
information from independent local economic analyses to make 
sure that their input is directly a part of whatever policy and 
decisions we finally make going forward?
    Dr. Gould. Yes. That would include that kind of 
development.
    Mr. Lewis. Otherwise we could find disaster in the region. 
The Santa Ana River basin was developed as a result of the 1938 
flood, and it starts in the San Bernardino Mountains and goes 
all the way to the ocean. It is a magnificent area of 
potential, and if we can get the communities to really work 
together, I think it could be a display of the best. But if we 
find ourselves hung up on something like this sucker, and I do 
not see the Section 7 process going forward in a sensible way, 
it might destroy the following.
    We have recently completed the Seven Oaks Dam. There is a 
flood channel that goes down all the way to the ocean that 
probably is 300 yards across. During much of the Santa Ana, on 
my odometer right at the San Bernardino Mountain, there is a 
mile across of land, and it is my view that with the right kind 
of planning and cooperation between communities and the 
environmental community and so on, that could become a park all 
the way to the ocean, if we could sensibly get people to work 
together.
    If we start throwing time bombs in the middle of it, that 
dream will never become a possibility. So I really need 
assurance that this Section 7 designation or process will go 
forward here in a sensible way, and I would hope you keep me 
right in the middle of those discussions.
    Dr. Gould. We will, sir. We have got a problem. The Santa 
Ana sucker is not in good shape as you are aware, so it is 
important that we work together to get to where you want to be 
and do what we can to benefit the sucker itself.
    I am sure if we continue to work together, or if we set up 
better mechanisms to work together, we will avoid any problems.
    Mr. Lewis. If we had not really forced the Corps to change 
the way the Seven Oaks Dam would be used----
    Dr. Gould. Right.
    Mr. Lewis [continuing]. It would be more than just a flood 
control project. If we had not had an opportunity to build in 
preservation of water or holding water back there, et cetera, I 
would suggest that all the way down the Santa Ana many a 
species would have been dramatically and negatively affected.
    So I would certainly like to preserve that opportunity for 
cooperative spirit in the months ahead.
    Thank you, Mr. Chairman.
    Mr. Simpson. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman, and thank you to all 
of you in the Fish and Wildlife Service for all the work that 
you do. It has been real important to the Minnesota loon, who 
is calling out a great appreciation and thanks for all the work 
that you did down in the Gulf. Our state bird appreciates that 
and so do all the kids who have been watching on websites about 
what is going on.
    You have talked about creating a national network of 
landscape conservation cooperatives to collaborate landscape, 
biological planning, the whole works. Your testimony, if you 
would have given all of it, was going to talk about what is 
going on in the Chesapeake Bay, which brought up the California 
Bay-Delta, the Gulf Coast, and the Everglades.

                           MISSISSIPPI RIVER

    But there is one of our Nation's biggest landmarks, and 
that is the Mississippi River. It is one of the world's largest 
bodies of water. It is internationally recognized as well as 
treasured here nationally, and the mighty Mississippi River, 
which is getting ready to be real mighty in my neck of the 
woods and do a lot of flooding shortly, it goes all the way 
from Minnesota, as you know, all the way down to the Gulf.
    It is a large source of drinking water for over 18 million 
people, and my hometown of St. Paul probably would not have 
turned into the place that it is today, as well as Minneapolis, 
without the river.
    I am very proud of the work that the Upper Mississippi 
Natural Wildlife Refuge is doing, and I want to just kind of 
hone in here a little bit and ask you is the landscape 
cooperative going to touch on the Mississippi River to help the 
river achieve its healthy watershed? It continues to be a 
working river, and if it is going to be a working river and 
also support the wildlife and the recreational aspects of it, 
there has to be a well-calibrated balance between barge 
traffic, locks and dams, Asian carp coming in, everything else.
    You do not mention that watershed, and I know it is broken 
down into regions. Regions are fine, but what is the overall 
big picture plan for Mississippi protection?
    Dr. Gould. You mentioned LCCs, landscape conservation 
cooperatives. Those cooperatives are a system of shared 
scientific expertise and money that provides science 
information to management entities, allowing them to make the 
most efficient and most effective use of their money to do what 
they need to do.
    As you are aware, that area is covered by Joint Ventures 
for birds and many kinds of agreements with the Native American 
community in terms of management responsibilities and 
requirements. We work very closely with the states, especially 
with the refuge, in determining what kind of restoration 
activities can be most efficient and effective for wildlife 
values, while taking into consideration, obviously, the 
economic value of that area.
    So the landscape conservation cooperatives are going to 
provide the science information so people can make the best 
decisions based on the best science. I would like to say, they 
are not conservation delivery. Each of the entities involved 
have their own responsibilities, but if we can agree on the 
science, you can make individually and collectively the best, 
most-efficient decisions on how you use the money available.
    Our Great Lakes region is one of the Service's leaders in 
working in partnership with all of the interested stakeholders 
to come to management approaches to solving ecological problems 
in a very efficient and effective manner and transparent way.
    So overall, that is an area of focus, obviously because it 
is so important, and we have a lot of base money going into 
that area.
    Dan.
    Mr. Ashe. If I could just add, especially with the 
Mississippi River and the Gulf of Mexico, I think what we 
envision with the landscape conservation cooperatives is, as 
Rowan said, trying to build shared capacity.
    And so LCCs become a mechanism for the Fish and Wildlife 
Service, our state partners, the Corps of Engineers, the 
Natural Resource Conservation Service, and others to come 
together to build a shared science capacity. This is going to 
allow us to make investments in a much more coordinated fashion 
so that we are starting to link the solutions of problems like 
hypoxia in the Gulf to farm bill incentive programs. This will 
allow us to get much more bang for the buck in terms of the 
public's investment in improving the river water quality, 
attacking challenges like Asian carp, and doing that in a much 
more coordinated fashion.
    So that is exactly what we are trying to do.
    Ms. McCollum. Mr. Chair, I would like to sit down and 
follow up with you folks on what is the big picture timeline 
here? What do people have to agree on? I think I stressed it 
pretty well, this is a working river. When I grew up, if it was 
quiet enough, I could hear the guys on the barges talk up the 
hill in my bedroom back in the day before we had air 
conditioning.
    It is a working river, and it will continue to be a working 
river, but we are going to work the river to the bone, and we 
are going to destroy opportunities if we do not have an 
aggressive timeline here. I look forward to working with you to 
see how this works.
    Thank you, Mr. Chair.
    Mr. Simpson. Mr. Cole.

                            TRIBAL PROGRAMS

    Mr. Cole. Thank you, Mr. Chairman. I know we have got 
limited time and so some of these I may just submit for the 
record, but I wanted to, number one, first ask you just broadly 
speaking, I want to focus on the interaction between Fish and 
Wildlife Service and Indian Country. What is the impact of the 
2012 budget on Indian Country, and what are the impacts 
specifically on tribal-related programs?
    Dr. Gould. One of our hallmark programs that we are very, 
very proud of in the southwest specifically is our ability to 
work with tribal entities to develop youth involvement 
programs. There is a big emphasis in this budget on putting 
more youth to work and that includes a very sizable program 
working with Native American youth.
    The other program that we are supporting is our State and 
Tribal Wildlife Grants program, which we are proposing 
somewhere around $90 to $95 million. The largest portion of 
this money goes straight to the states, but also a portion of 
it goes directly to tribal restoration and recovery projects.
    Mr. Cole. Now, I was going to ask you actually about that 
specific program.
    Dr. Gould. A $1 million increase.
    Mr. Cole. It is my understanding that the state funding is 
both formula and grant-driven.
    Dr. Gould. Right.
    Mr. Cole. Tribal funding is only grant-driven.
    Dr. Gould. That is correct, sir.
    Mr. Cole. Is there any reason why there would not be a 
formula component to tribal funding as well?
    Dr. Gould. It is difficult to do. Tribes have different 
capabilities from one tribal entity to another, and as you are 
aware, there are over 500 recognized tribal entities out there. 
So what has to happen in a situation like that is we work 
through our tribal liaisons and the region to identify the 
highest priority areas where the most work can be done working 
with the entire community.
    And then there is the submission of project proposals.
    Mr. Cole. Just out of curiosity, and I do not know, and you 
may not know off the top of your head. When grants come in, 
what is the percentage of them that actually are ultimately 
funded and looked on favorably? I am just trying to get a feel 
for----
    Dr. Gould. I do not know that. We will have to get that 
information for you, sir.
    [This information follows:]

    [GRAPHIC] [TIFF OMITTED] T6897A.123
    
                           FISHERIES PROGRAM

    Mr. Cole. I would appreciate that. Just one more, and, 
again, I know Mr. LaTourette has some questions and cannot get 
back, so I just want to ask one more. I learned a great deal 
about fisheries thanks to Mr. Dicks. We do not do a lot of 
fisheries in Oklahoma, but you have a $12 million cut in the 
Fisheries Program, and that is a big deal to a lot of tribes 
actually, in different parts of the country.
    What kind of impact that has on them, and was it 
disproportionate to the tribes as compared to the states, 
because I have heard some concern that when these cuts 
happened, the state programs tend to remain funded, the tribal 
programs are not funded, and they take the bigger hit.
    I would like your observations on that.
    Dr. Gould. To the best of my knowledge, I do not know any 
specifics, but to the best of my knowledge the cuts that were 
taken beyond the hatchery cuts were earmarks.
    Mr. Cole. Well, of course, that does not mean it was a bad 
idea. I yield back my time.
    Mr. Simpson. Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Mr. Chairman.
    Mr. Simpson. I am going to try to get through both you and 
Steve before we go over. We have one vote.

                               EVERGLADES

    Mr. Hinchey. We will go very quickly. Thank you all very 
much for everything you are doing, and nice to have you down 
here from Alaska.
    I thought I would mention something way down south and very 
warm. It is the Everglades and the Restoration Act that is 
going on in the context of the Everglades, which is very 
important. The Everglades is one of the most fascinating places 
that we have, a whole host of species of all kinds, and I 
understand a great number of species that are endangered there 
may not continue unless the work that you are doing is going to 
be successful. And, of course, the Everglades has been badly 
treated in the past, almost disappeared in some way in the past 
century, almost wiped out.
    So the situation that you are engaged in there is very 
important. So I just wanted to ask you about it. I noted that 
in your budget that the Service has plans to establish a new 
wildlife refuge, as well as a new headwaters conservation area.
    So can you tell us about that, what the intentions are, 
what those plans are, and what you think they are going to 
achieve, and what we might do, what this subcommittee might do 
to participate with you in the help of bringing about this 
completion?
    Dr. Gould. Well, as you are aware, the overall goal is to 
create or recreate the river of grass, which allows all kinds 
of water quality and the kinds of economic benefit that comes 
from a very solid ecological environment. In the Everglades 
area, we are planning for expanded refuge capability up there, 
but they are not the kinds of refuges you really see normally. 
These are large areas where we work with private landowners and 
have conservation easements where we work with especially the 
large ranching community. These conservation easements allow 
them to do what they do on their ranch and still keep them in 
the kind of condition that allows the country to have the kind 
of ecological benefit that is going to be important from the 
overall Everglades point of view, especially for endangered 
species that really count on that kind of environment for their 
existence.
    This is a high priority for Secretary Salazar, extremely 
high priority. In fact, Dan has been involved in several 
projects with the Secretary. He might want to comment.
    Mr. Ashe. I would just say we are intimately involved in 
Everglades restoration, and it is probably one of the best 
examples of government agencies working together: us, the Corps 
of Engineers, the U.S. Geological Survey, the EPA, the NRCS, 
the State of Florida, and the South Florida Water Management 
District. Just excellent cooperation and a couple of weeks ago 
I was down there to a groundbreaking of a 55,000 acre wetland 
restoration project at the Picayune Strand, so lots of 
innovative, impressive work going on there.
    The northern Everglades or the Everglades Headwaters Refuge 
Proposal is one of those exciting proposals where we are 
looking at the core of fee acquisition, a relatively small core 
of fee acquisitions, surrounded by easements that will protect 
working landscapes. That is a model for conservation, and it is 
reflected in our budget proposal for this year. In proposals 
like the Flint Hills and the Rocky Mountain Front, we are 
really looking into that to be a model for conservation in the 
21st century, with much more reliance on easements to protect 
working landscapes and working ways of life that also provide 
important opportunities for habitat conservation. So proposals 
like the northern Everglades or Everglades Headwaters are very 
exciting, and I think take us in a very positive direction.
    Mr. Hinchey. And so this is one of the main focuses of 
attention right now, and is something that is going to be 
upgraded to some extent by the end of this year and then over 
the course of the next years.
    Mr. Ashe. The success of that depends upon our partners in 
the Department of Agriculture. If that vision is going to 
become a reality, certainly the Land and Water Conservation 
Fund as a traditional source of funding for a project like 
that, but also continued support for the Farm Bill Conservation 
Programs. The USDA is going to be an absolutely essential 
element of that entire proposal.
    Mr. Hinchey. Well, thank you very much.
    Mr. Simpson. Mr. LaTourette.

                        ASIAN CARP AND LACEY ACT

    Mr. LaTourette. Thank you very much, Mr. Chairman. I will 
try and be brief. I just have two Great Lakes questions. One is 
the Asian carp. Courts in Ontario now are fining people up to 
$50,000 for transporting live Asian carp over the U.S./Canadian 
border, and we are being urged to take a re-look at the Lacey 
Act and perhaps strengthen it.
    The reason for that call is that, we are being told anyway, 
that it can take up to 4 years as the average, I guess, to put 
something on the list, and one, I would ask if that is true, 
and if it is true, why does it take so long, and if it is true, 
what can we do about it to take a little less time?
    In 2007, I think the agency listed the silver, the black, 
and the large-scale silver carp, but it was not until last 
December that the big head, you know, if I was in charge I 
think I would go big head first before the sort of benign 
things.
    Dr. Gould. Right.
    Mr. LaTourette. But the big head was added in December. 
Clearly the Asian carp has the potential to be one of the 
biggest ecological disasters in the Great Lakes ever, so what 
can you tell me about the Lacey Act, should we give you 
additional resources, do you need additional resources, and can 
you speed up putting these bad things on lists?
    Dr. Gould. I am not specifically aware of exactly where we 
are in the process, but I know that it is a priority for the 
Fish and Wildlife Service to get that species on the injurious 
species list, and unless Dan knows specifically where we are in 
the process, we will have to get that information for you.
    [The information follows:]
         asian carp: status of bighead species under lacey act
    The Asian Carp Prevention and Control Act (Pub. L. 111-307) was 
signed into law on December 14, 2010, amending the Lacey Act (18 U.S.C. 
42) by adding the bighead carp to the list of injurious animals 
contained therein. The statutory prohibitions and exceptions for this 
species went into effect upon signature into law. The Service will 
publish a final rule in the Federal Register on March 22, officially 
adding the bighead carp to the federal injurious wildlife list.

    But it is a priority for the Service, and we agree with you 
100 percent about the need to take that action. We are putting 
lots of resources, both resources from EPA and our own 
resources, in place to try to deal with keeping that species 
out of the Great Lakes.
    Mr. LaTourette. Right.
    Dr. Gould. With the electric barriers and the monitoring 
that is going on. But we see this as a big, big problem for 
that area. It could be an ecological disaster, and we have got 
to do all we can do to stop it.
    Mr. LaTourette. Well, I read some place that the Asian carp 
eats like 40 percent of its body weight a day, you know. I did 
that for awhile. It was not very good, but, obviously, it can 
destroy the sports fishing industry.
    The other thing that we heard and maybe you can get back to 
me on another day is that, I think you have $2.9 million in 
this budget request to deal specifically with this issue. The 
other story that we are being told is of the money that is 
available for Asian carp efforts, only 5 to 8 percent of that 
actually makes it to the boots on the ground, taking care of 
the problem. So I would like to be dispelled of that rumor if 
it is not true, and if it is true, obviously, that is 
disturbing.
    Dr. Gould. That is disturbing. I was not aware of that, but 
we will make some telephone calls, because you are right.
    [The information follows:]

                       ASIAN CARP: USE OF FUNDING

    The Service is unaware of the basis for the rumor that only 5 to 8 
percent of funding for Asian Carp control makes it to on-the-ground 
projects. Most of the funding the Service has for Asian Carp control 
comes from the Great Lakes Restoration Initiative within the 
Environmental Protection Agency's budget. This funding has a cap on how 
much can be used for administrative overhead. Furthermore, the Service, 
along with the other Federal and State agencies, has been very mindful 
of the need to react quickly to this threat and maximize on the ground 
efforts. The Service is a member of the Asian Carp Regional 
Coordination Committee, which is made up of Federal and State agencies. 
The Committee has developed a framework strategy for the control of 
Asian Carp and approves each agency project to ensure effective use of 
the funding and prevent overlapping efforts. The 2011 list of projects 
can be found at www.asiancarp.org.

    Mr. LaTourette. Yes.
    Dr. Gould. Most of those resources need to either get to 
the barriers themselves or the active monitoring that is going 
on or the sciences necessary to be more effective in 
identifying where a problem area may be and then attacking that 
area as quickly as possible.
    Mr. LaTourette. I thank you very much. Thank you, Mr. 
Chairman.
    Mr. Simpson. We have about 4 minutes to get over and vote, 
so we are going to do that right now. We are going to recess 
for a few minutes. We only have one vote, so it should not take 
us too long to get back, and I have a whole series of questions 
which should not be too tough.
    We will be in recess for approximately 10, 15 minutes.
    [Recess.]
    Mr. Simpson. We will be back in order. Mr. Moran has to go 
to a VA hearing, I think, Appropriations hearing, and obviously 
members are headed off to different hearings. We got to do the 
first round of questioning, at least those members had the 
opportunity to ask their questions.
    Ms. Lummis, I have got a series that I am going to ask but 
go ahead if you are ready.

                         ENDANGERED SPECIES ACT

    Mrs. Lummis. Thank you, Mr. Chairman. Thank you for joining 
us today. My questions are going to be focused on the 
Endangered Species Act, and I am from Wyoming, so you can just 
about guess what I might want to discuss.
    But let's start with a general question. I would like to 
ask the acting director, over the life of the Endangered 
Species Act how much money has been spent on management? Do you 
know?
    Dr. Gould. I do not have a specific answer to that 
question. We will have to get back to you.
    Mrs. Lummis. Okay. Thank you. I would appreciate it if you 
would. I will submit these questions in writing so you have 
them in front of you.
    What has been the practical result for your agency of the 
spike in listing petitions in terms of the employee hours spent 
and the funds expended as well?
    Dr. Gould. As you are aware, we have been focusing a lot of 
our effort on litigation-driven decisions. That is based on the 
fact that we have a lot of involvement in the court system with 
the Endangered Species Act. There has been a considerable 
number of listing petitions that have been submitted in the 
form of multiple requests at one time. This, in effect, puts us 
in a position where we cannot deal with these requests nor have 
any hope of being able to deal with them in a timely manner.

                    ENDANGERED SPECIES PETITIONS CAP

    Mr. Ashe. I would just add that I think it has been more of 
a kind of redirection of effort as opposed to more hours. There 
are only so many hours in the day to work, so it has been a 
significant redirection of effort within the Service. But one 
of the things we are asking the subcommittee for in this year's 
proposal is to consider a cap on the amount we can spend to 
process petitions, and that would be an important aspect of 
helping us manage our endangered species more closely.
    Mrs. Lummis. Would it work better if the decision to pursue 
a potential listing or at least to further a study regarding 
listing could be generated only by the agency itself rather 
than by the public?
    Dr. Gould. Of course, the Act is configured the way the Act 
is configured.
    Mrs. Lummis. I might mention, though, that the 
authorization for this act expired in 1992, and that the 
authorization level that is the ceiling for authorization for 
the ESA is $41,500,000, $41.5 million, and the fiscal year 2012 
request is $282 million.
    So here we are on a five X multiple of the total 
authorization amount with no end in sight. So I am wondering 
whether this committee should be working with the authorizing 
committee to authorize or reauthorize in a way that allows the 
agency to better manage listing requests and so these multiple 
requests at one time that overwhelm the agency's budget and 
personnel will not be dominating or driving the expenditure of 
funds. Rather you will be able to concentrate dollars and human 
resources within your agency on species that are actually 
recoverable.
    Any comment on that?
    Mr. Ashe. I would reiterate that the purpose of the listing 
cap we requested is to help us better allocate workload among 
basic endangered species activities such as listing, 
consultation, and recovery. We believe a petition cap would be 
helpful for us in managing that.
    I think that the petition process itself is very compatible 
with American government in that the public has the opportunity 
to petition its government to take an action. In this case, for 
us to consider listing an endangered species. I think, in 
recent years, we have seen that the petition process has been 
beyond our ability to manage effectively, and we are asking the 
subcommittee to help us in part by considering a petition cap.
    Mr. Simpson. Would the gentlelady yield for just a second?
    How would a petition cap work? I mean, right now if there 
is a petition and it exceeds what you have appropriated for 
that amount, you have to take resources from other areas and 
look at the petition?
    Mr. Ashe. Gary Frazer is our Assistant Director for 
Endangered Species, and perhaps Gary would be best able to give 
you the specifics about how that petition cap might work.
    Mr. Frazer. Thank you, Mr. Chairman. My name is Gary 
Frazer. I am the Assistant Director for Endangered Species. The 
way it works, because there are statutory deadlines associated 
with how we must process a petition, within 90 days we must 
make a determination as to whether the petition is substantial. 
Then if it is substantial, we must make a determination as to 
whether the petition action is warranted or not warranted or 
warranted but precluded within 12 months.
    Those are deadlines that can be enforced. They frequently 
are enforced, and so the petition cap would serve to help us 
defend against lawsuits that are driving us to meet those 
deadlines. We can only do so much. We can only do as much as 
the funds appropriated by Congress allow us to do. By having a 
cap saying that Congress allows us to spend up to this amount 
of money for petition work, we would work up to that. Then we 
would essentially use that as our defense for not doing more, 
so that we can balance among the various duties that we have.
    Mr. Simpson. If you do not change the underlying law, the 
authorization law, how would a court look on that? Any idea?
    Mr. Frazer. To the extent that we have had experience in 
this in the past, we have had caps in place for our listing 
program and for critical habitat designation within our listing 
program for a number of years. It has never really been brought 
to a head, but it has been lodged as a defense before. We view 
that as our most successful line of defense for maintaining 
balance among all of our endangered species program activities.
    So the Appropriations Committee has been very helpful for 
us.
    Mr. Simpson. If you do a listing as listed but precluded, 
that is essentially saying I do not have the money to do it. 
Right?
    Mr. Frazer. That is what it means. Yes.
    Mr. Simpson. Has that ever been challenged in court?
    Mr. Frazer. We do have many challenges to our precluded 
findings. Most of those challenges are still pending.

                      ENDANGERED SPECIES LAWSUITS

    Mrs. Lummis. Thank you, Mr. Chairman, and a follow up to 
that comment.
    About how many lawsuits is the agency currently engaged in 
on ESA-related matters?
    Mr. Frazer. Right now, on what we call a Section 4 of 
listing program activities, we have approximately 41 pending 
lawsuits.
    Mrs. Lummis. No, you may not know the answer to this 
because it seems a mystery to a lot of people in government, 
but when your agency loses or settles an ESA case that results 
in a judgment or the payment of attorneys' fees, does the 
payment come from your budget or from the Treasury?
    Mr. Frazer. It depends upon what statute is the basis for 
filing the complaint. If the complaint is filed under the 
Endangered Species Act, the provision in the Act is that 
providence for citizen suits to be filed and explicitly 
provides for reasonable attorneys' fees to be awarded. Those 
fees are paid out of the Claims and Judgments Fund, and DOJ 
administers that fund.
    If the lawsuit is brought under another statute that does 
not explicitly authorize attorneys' fees to be awarded such as 
the Administrative Procedure Act, then the attorney fees, if 
they are awarded, come out of the agency funds, out of the Fish 
and Wildlife Service budget.
    Mrs. Lummis. And are you able to track those payments? Do 
you track those payments both under the ESA citizen suits and 
that APA type of case?
    Mr. Frazer. DOJ administers the Judgment Fund, so we do not 
separately track those awards. We track the funds that we 
ultimately have to pay out of the endangered species budget, 
and for the last 9 years they have averaged about $200,000 per 
year. We do not lose many cases, but when we do, they can 
amount to substantial costs. Attorneys get paid well.

                               GRAY WOLF

    Mrs. Lummis. Question for either Dr. Gould or Mr. Ashe. Do 
you believe the gray wolf in the Northern Rockies is a 
recovered species?
    Dr. Gould. I will just start out by saying, yes.
    Mrs. Lummis. Perfect. That is the answer that I was hoping. 
Now, what do you need from this committee to support 
negotiations taking place between yourselves and the governor 
of Wyoming?
    Dr. Gould. As you are aware, we have withdrawn an appeal 
regarding the lawsuit, regarding this very issue, because we 
truly believe that we can come to a common understanding of the 
kind of management plan that is necessary to deal with a wolf 
population that we all agree is in good shape.
    So what we are committed to doing, the Secretary and Dan 
Ashe, who has been very, very instrumental in dealing with the 
wolf situation, is to sitting down with Governor Mead and the 
State of Wyoming. We are confident that in a reasonably short 
period of time we can come up with a plan that will make 
biological sense and meet the needs of the State of Wyoming.
    Mr. Ashe. Patience, maybe, is the one thing needed because 
the governor, as you know, Congresswoman, has to work with the 
legislature in this case. Our immediate discussions with the 
governor are going very well, but then he will need to work 
with the legislature and then we will need to work within our 
administrative process.
    So it is not going to happen overnight, but I think we are 
making very good progress. I think we are on a good track.
    Mrs. Lummis. I appreciate that, and I strongly, strongly 
encourage you to devote a great deal of time to that as 
frequently and as soon as possible, because in the long run it 
will save your agency money, it will save my state money, and 
it will save a huge amount of aggravation and frustration 
within the State of Wyoming. So I cannot more strongly stress 
my hope that you will make that a priority.
    Mr. Chairman, I yield back.
    Mr. Simpson. Just out of curiosity, in Wyoming if a state 
management plan is approved, it has to be approved by the 
legislature?
    Mr. Ashe. Yes. The legislature has approved the previous 
Wyoming plan, and would have to enact any new plan that the 
governor might develop in cooperation with us. It is going to 
take an action by the state legislature to get to a submission 
of a new plan.
    Mr. Simpson. As you know, in H.R. 1 we added language to 
effectively, essentially overturn Judge Malloy's decision, 
which the Administration supported. It did not address Wyoming 
because they have not come to an agreement yet with Fish and 
Wildlife Service.
    Mrs. Lummis. Mr. Chairman, I would beg to differ with that 
statement, but go ahead and continue.
    Mr. Simpson. If they come to an agreement on a state 
management plan with Wyoming, would that effectively overturn 
Judge Malloy's decision? Because did his decision not say, no, 
you cannot just separate Idaho and Montana, you have to include 
Wyoming also?
    Mr. Ashe. Your legislation would allow us to get back to 
where we were in April of 2009.
    Mr. Simpson. Right.
    Mr. Ashe. With Idaho and Montana wolves de-listed and 
Wyoming wolves still listed.
    Mr. Simpson. Right.
    Mr. Ashe. And so as soon as Wyoming develops a plan that we 
can approve, then we can de-list the entire Northern Rocky 
Mountain distinct population segment of wolves. That is why we 
are, as we speak, engaged with the State of Wyoming to move in 
that direction. Governor Mead has been very forthcoming in 
working with us and expressing his concerns, but we have had 
very good dialogue. I think we are moving in a positive 
direction in Wyoming.
    Your legislation would set the stage. It would get wolf 
management back into the hands of Montana and Idaho, where we 
have previously-approved state plans, and then put us on a 
course to get a new plan from Wyoming that we could approve.
    Mr. Simpson. And once the three states have an approved 
plan, then it is time. Okay.
    Mrs. Lummis. I do have a follow-up, Mr. Chairman. I would 
reiterate that Wyoming submitted a plan that was approved by 
the U.S. Fish and Wildlife Service.
    Dr. Gould. That is correct.
    Mrs. Lummis. And so the subsequent disapprovals were not by 
the U.S. Fish and Wildlife Service. They were done in the 
courts pursuant to litigation.
    So the U.S. Fish and Wildlife Service pronouncement on the 
plan that the Wyoming legislature passed was to approve it, and 
by all measures the wolf is recovered. All measures, all three 
states. So that is why this issue continues to be a burr under 
the saddle of the State of Wyoming, as well as your states 
because of Wyoming's opinion of our plan, as reflected by the 
acting director and the deputy here today, was approved by the 
U.S. Fish and Wildlife Service based on sound science.
    Mr. Simpson. But subsequently challenged in court.
    Mrs. Lummis. Correct.
    Mr. Simpson. And ultimately what I am trying to get back to 
is a state where Idaho can manage its wolves, and ultimately I 
think that is what we all want.
    Dr. Gould. That is correct.
    Mr. Simpson. The states can manage the wolves.
    Dr. Gould. Just one additional layer of complexity, we 
approved the Wyoming plan in 2007 that was stricken down. Our 
approval of that plan was stricken down in a decision by Judge 
Malloy in the Montana District. We disapproved Wyoming's plan 
in our 2009 de-listing rule and that was challenged by the 
State of Wyoming.
    Mr. Simpson. And this is the one you have chosen not to----
    Dr. Gould. We got an adverse ruling in that case also from 
Judge Johnson in the Wyoming District, and so we essentially 
have two judges kind of telling us different things about 
Wyoming's plan.
    That is why we decided not to carry this issue any further 
in court. We decided to get this out of court and get back into 
a discussion between professionals at the state and federal 
level. We believe we can get a plan that is acceptable to both 
Wyoming and the Fish and Wildlife Service.
    Mr. Simpson. Good, because I think we all want the same 
thing here and that is to be able to have state management of 
the wolves, and anybody that believes we were going to 
reintroduce wolves into Idaho, Montana, and Wyoming and were 
not going to have some management of the wolves was living in a 
world that just does not exist.
    There are people who do not want us to do anything with the 
wolves, and that, unfortunately or fortunately, is not going to 
be the situation, that we are going to have to manage them.
    So I appreciate you working on that with me.

                  LANDSCAPE CONSERVATION COOPERATIVES

    In your opening testimony you talked about the Cooperative 
Landscape Conservation Initiative as being about biological 
planning and information gathering. What concerns me is that 
the messaging reflects the policy that somehow biological 
planning and information gathering are simply two more tools 
that the Service is adding to its toolbox, while offsetting 
cuts elsewhere in the budget suggests that other tools are 
being taken out of the toolbox.
    It seems to me that this initiative should be about the 
entire package of adaptive management, that is the application 
of science for biological planning conservation, project design 
and delivery, and outcome-based monitoring, all feeding back on 
one another.
    Please take just a few moments to comment on that, and if I 
am correct in what I just said, and I know that this initiative 
is still in its infancy, but can you give me just an example of 
how landscape conservation is changing the Service's approach 
to endangered species recovery?
    Dr. Gould. Based on your question, you understand very well 
what the Service calls strategic habitat conservation, which is 
landscape conservation with adaptive management attached to it, 
exactly as you described it. In that process, the landscape 
conversation cooperatives provide us the initial information 
and planning to start making decisions. We will then monitor 
actions taken and make any kind of course corrections that are 
necessary. This approach will allow us to keep circling good 
decisions, good outcomes, monitor the outcomes, make better 
decisions. That is the adaptive part you were talking about.
    The LCCs help us with the kind of initial good science 
information, monitoring and modeling that allows us to make 
decisions that we can eventually see if they work. It is not 
conservation delivery per se, but the beauty of the LCCs is the 
information that is developed. The money that goes into the 
LCCs is for information. The information gathered is driven by 
the input from the steering committee for each LCC. They are 
our stakeholders. Our primary stakeholders are other federal 
agencies, the states, and other entities like Ducks Unlimited, 
who have a seat at the table.
    The LCCs at least have a common understanding of the 
information needed. That is the beauty of the LCCs, because 
when you do make management decisions that you are going to 
adaptively monitor, everybody at least agrees on the science. 
Very often in the past that has been a stumbling block. You 
have got that common basis.
    Mr. Ashe. Specifically with regard to endangered species, I 
do not know so much that this approach will change the way we 
are dealing with endangered species. What it will do is allow 
us to take some of the very best examples and duplicate that 
much more consistently across the landscape.
    A good example is the grizzly bear. You are aware that this 
is another area where we are having momentary difficulty. I 
think the general notion of establishing a population objective 
across a large landscape and then doing the science that we 
need to understand the issues is needed--where do we need 
conservation, where are the threats to that species, and how 
are we going to address those threats, for example, female 
mortality in the grizzly bear population. How do we deal with 
that? One way is by educating outfitters and then another way 
is by dealing with the hot spots in terms of habitation 
mortality.
    This LCC approach will allow us to do this more 
consistently across the landscape so that we are going to be 
much more effective at dealing with issues like sage grouse and 
lesser prairie-chicken and golden eagles. Some of these issues 
we can see coming. We can see those storm clouds on the 
horizon. The LCCs are going to allow us to do that much more 
consistently and much more effectively in the future.
    Dr. Gould. In cooperation with our stakeholders and state 
partners.
    Mrs. Lummis. Mr. Chairman, may I interject.
    Mr. Simpson. Sure.

                ENDANGERED SPECIES LISTING AND RECOVERY

    Mrs. Lummis. Thank you. With regard to what you just said, 
under what authority can the agency move the goalposts? When 
there is a recovery plan put forward, there are criteria which 
determine objectively when a species is recovered, and yet with 
the grizzly bear and the wolves and others, those goalposts get 
moved as time goes on.
    So species that by the objective criteria which were 
adopted at the time of listing have already been met, are no 
longer valid, and those species stay listed when they have, in 
fact, recovered by all criteria that were scientifically vetted 
at the time of the listing. How can that happen, and why does 
that happen, and under what authority does that happen?
    Dr. Gould. We have the authority to update recovery plans 
based on the best available science. The authority for a 
recovery plan is a local plan. Our regional directors sign 
those recovery plans, and if there is new information 
available, scientifically-valid new information, they are 
required to take that into consideration in listing decisions. 
In fact, to the best of my knowledge, with wolves, that has 
occurred. New information based on genetic population, moving, 
and other factors has caused other recovery criteria to become 
important. That has not diminished the fact that they are 
recovered, but there is new information, new considerations in 
the recovery planning process.
    Mr. Ashe. I think in the case of, you know, our favorite 
subject, wolves, it is not so much that the bar has changed. 
Our recovery objective has remained the same, ten breeding 
pairs and 100 wolves per state by managing for at least 15 
breeding pairs and at least 150 wolves per state. The recovery 
objective has remained the same.
    What has happened is that people disagree with that 
recovery objective. As we have tried to de-list the wolf, we 
have to essentially put the machinery in reverse. We have to 
disprove and work backwards through the five listing factors in 
the endangered species list. People will challenge, and you 
know, have challenged the science on which we are basing those 
decisions.

                            ADAPTIVE SCIENCE

    It is not so much that the recovery standard has changed, 
rather there are a lot of people out there that disagree that 
that is a valid recovery standard. That is the crux of the 
debate we have been having. The science that we are talking 
about, that we hope to develop through this landscape 
conservation cooperative network, will help us to better defend 
our decisions in the future.
    Another example with grizzly bear is the effect of climate 
change on the availability of white pine nuts as a critical 
food supply for the grizzly bear, and one of the reasons we 
lost----
    Mr. Simpson. Grizzly bears eat nuts?
    Dr. Gould. Yes, they do.
    Mr. Ashe. Yes, they do.
    Mr. Simpson. Oh, I thought they ate people.
    Mr. Ashe. The science that we are talking about developing 
will put us in a better posture to defend our actions in the 
future.
    Mr. Simpson. We are hearing from some of your partners who 
are concerned about budget cuts to Service programs that do the 
conservation, design, delivery, and monitoring so vital to the 
entire initiative. How much of the Service's funding under this 
initiative is returning to other Service programs as opposed to 
being outsourced to partners? How much of the funding is going 
into helping partners come to the table, particularly the 
tribes, and are Service programs having to write grant 
proposals or otherwise compete with external partners for 
Service funds?
    Dr. Gould. I do not have any specific dollar figures that I 
can really point to. If we can pull that information together, 
we will.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6897A.124
    
    Mr. Simpson. Okay.
    Dr. Gould. For 2012, we are planning on $10.2 million to 
complete the LCCs and $7.2 million for science. We are not 
putting a specific earmark on that money at all. The best 
person, entity, university, or coop unit, that can collect that 
information, that is who the funding will go to.
    It could be the Service collecting that information. It 
could be a coop unit. It could be Boise State. It is wherever 
the best expertise is for that sort of information. Only by 
doing that can we have, among the steering committee members 
some comfort. Comfort that the data collected is being 
collected in a way that is not biased and people can use and 
rely on it for a long period of time. We have not put any 
specific earmark for the Service on that money.
    Mr. Ashe. Our people do not have to write grant proposals. 
The whole idea behind this is we are asking people to bring 
capacity and to manage that capacity as partners. When we bring 
our money to the table, we are essentially saying we are going 
to form a steering committee with our partners, and we are 
going to set shared priorities.
    The Service has a voice in how those monies will be 
directed, but we are asking the Forest Service, the BLM, the 
NRCS, and our state and NGO partners to bring resources to the 
table, too. It would be inappropriate for us to say we want our 
money spent on this or that. We are looking for shared 
priorities, and we think the Service will do very well in that 
context.
    This is a model that we borrowed from the Joint Ventures. 
The Service has been a tremendous beneficiary from the work of 
the migratory bird joint ventures, and we have done that by 
relinquishing some degree of authority over the resources that 
we bring to the table.
    Mr. Simpson. Okay. As many of you know, the Service tried 
and failed on a similar ecosystem effort back in the 1990s. In 
speaking with your partners my sense is that part of the 
problem back then was that new geographic assistant regional 
directors were hired in addition to existing program assistant 
regional directors and that there was no longer clear lines of 
authority.
    With the addition of the headquarters and regional science 
advisors that report directly to the director and regional 
directors respectively, what is different administratively 
about this initiative such that it will succeed where the other 
ones seem to fail?
    Dr. Gould. The geographic ARDs, as they called them back in 
that time, were eliminated because it did not work. They were 
really focusing on conservation delivery, and you need to 
remember that conservation delivery is the responsibility of 
not just the Fish and Wildlife Service. It is also the 
responsibility of the state, other federal agencies, and so on 
and so forth.
    The primary difference between this new initiative is we 
are avoiding the turf battles that would result from us 
creating jobs that, on the face of it, would be usurping, at 
least in the views of others, the responsibility for them to do 
their work. We are avoiding that whole concept by saying 
everybody maintains their responsibility. The state still has 
to make the decision the states are responsible for. We are not 
presupposing we are going to cooperatively have a 
responsibility for their work.
    What we are saying is at least we are working with a common 
scientific base. That is the basic difference and one of the 
reasons why geographic ARDs did not work in the past.
    Mr. Simpson. Do you think this new LCC will break down the 
stovepipes that traditionally exist in government agencies, and 
is everyone on board with this within the agency? What have the 
fisheries got to gain from this that are seeing, as Mr. Rogers 
said, a $12.2 million reduction in their budget? What is the 
benefit to them? What do they get out of this?
    Dr. Gould. I will turn that question over to Dan Ashe. I 
have to give him credit. This guy, as far as I am concerned, is 
kind of the father of this kind of concept. He really is the 
person that came up with the basic concepts of avoiding 
tensions between stakeholder partners based on creating the 
best science, then working forward on that premise, using the 
strategic habitat conservation process that you described. Dan 
has developed the Scientific Advisor role to the Director for 
the last few years.
    This is an innovative process. It is the way we are going 
to have to approach conservation for the future. After I have 
tooted his horn a little bit, let me answer the question by 
saying that the Fisheries program, as you are aware, has 
created these kind of fisheries joint ventures, and these joint 
ventures have seen an advantage in working with the LCCs. They 
see it as a way to obtain science so that we can do 
conservation delivery.
    Many of the major joint ventures have actually adopted LCCs 
as a way to get the information they need to make their 
decisions. Fisheries are now looking at it the same way. 
National Fisheries Habitat Boards and other joint ventures and 
similar entities that are developing across the country are now 
seeing LCCs as a resource. A resource to collect the 
information they need so that they can collectively talk about 
setting resource priorities, not doing projects by random acts 
of kindness. This allows for the focusing of resources where 
they need to be. That is the beauty of the process.
    Mr. Ashe. The concept requires everybody to give a little, 
but with the idea that you are going to get more than you give. 
As we think about an issue like sage grouse, if we develop the 
capacity to see that 11-state landscape and work with our state 
partners, we could send work randomly across the landscape and 
not achieve our end objective and still see sage grouse in 
decline.
    What we need to do is hitch everybody to the same wagon so 
that we are all working together across that landscape to 
identify those core areas that are really going to be critical 
for the persistence of the sage grouse on the landscape and 
make the investment in those areas.
    If you look at it from just the Fish and Wildlife Service 
perspective, you might say, well, we would rather spend the 
money at the national wildlife refuge, but the more important 
investment is for Dave White at NRCS to put investment in some 
of the key private landscapes or Bob Abbey at the BLM, to make 
necessary investments within the BLM land base.
    What this is going to allow us to do is identify where the 
real priorities are, and then as a government make the 
decision. As partners we will make the decisions about who is 
going to make those investments, and with aquatic resources I 
think that is absolutely essential. We are dealing with a group 
of species which on a whole are the most imperiled group of 
species in the world. We have to start making decisions much 
more collectively, not looking at those decisions from within 
the footprint of the Fish and Wildlife Service or the Corps of 
Engineers or a state fish and wildlife agency, but in a much 
more collective capacity.
    Especially given the difficult financial situation that we 
are having, it is more important than ever that we are doing 
that. It does require everybody to kind of let go a little bit 
and not look at it from the standpoint of the Fish and Wildlife 
Service or the Fisheries Program or the Refuge Program or the 
Endangered Species Program within the Fish and Wildlife Service 
but look at it from the standpoint of what is the resource 
objective that we are trying to accomplish. Maybe the BLM is 
where we need to put the resources and get people to the place 
where they can actually make those kind of decisions.

                            LAND ACQUISITION

    Mr. Simpson. Good. Let's talk about land acquisition for 
just a minute. We have got a $53 million, 64 percent increase 
in land acquisition. Are the agency's acquisitions for parcels 
already fully or mostly bordered by other federal lands?
    Dr. Gould. Yes. Our land acquisitions where we are doing 
fee title is primarily, almost exclusively, within the refuge 
boundaries as they exist. Only in one case, I think the Flint 
Hills, are we actually establishing a new refuge, and that 
project is, to the best of my knowledge, all easements work.
    So this land acquisition budget or LWCF money, which, of 
course, comes from offshore receipts, does not go against the 
budget deficit obviously, is going to make us more efficient in 
the work we do. We actually can be more effective dealing with 
access issues, prescribed burns, that sort of thing, when we do 
not have a checkerboard square way of our refuges being 
configured.
    Now, what is important to remember also is that as we move 
forward with this process we are never, ever pursuing this 
approach without willing sellers. That is just the way we are 
doing business, and we are staying within our lines.
    Mr. Simpson. As you are I am sure well aware, westerners 
get a little bit concerned when we start talking about land 
acquisition in states that are 64, 80 or whatever percent 
federal land already.
    Dr. Gould. Yes.

                     NATIONAL WILDLIFE REFUGE FUND

    Mr. Simpson. The impact that has on the state and the tax 
base of the state. National Wildlife Refuge Fund was 
essentially kind of a PILT payment for the National Wildlife 
Refuge.
    Dr. Gould. Yes.
    Mr. Simpson. Sort of like the same thing?
    Dr. Gould. It is not quite the same thing, but the fund 
itself is zeroed out, and I think that is what you are getting 
to.
    Mr. Simpson. Yes.
    Dr. Gould. But our position is that the existence of those 
refuges is an incredible economic boom for that local area, and 
in these tight budget times we had to deal with that reality. 
PILT money, I think the counties are getting approximately 5 
percent of the authorized amount, somewhere in that area.
    Mr. Simpson. PILT runs out in 2012? Expires at the end of 
2012? And I am concerned that this is foreshadowing what might 
be happening with PILT payments by the Administration saying, 
well, gee, you have such a benefit of having Forest Service 
land or BLM land or whatever federal land in your area. That 
far offsets any negative aspect of it.
    But I will tell you Mr. Moran and I had a discussion on the 
Secure Rural Schools funding, and he was wondering why people 
in Virginia are paying for schools in the western United 
States, and so I just brought him some maps that showed the 
percentage of federal land owned in the east versus the west. 
It also showed what we would receive if those federal lands 
were actually paying the very minimum in tax that they could 
pay, how our per-pupil expenditure is less than it is here, and 
our tax burden of what we tax ourselves to pay for those 
schools is actually more than it is here. It is because we do 
not have a land base.
    And so we get very, very concerned when we start looking at 
fully funding Land and Water Conservation Fund and acquire new 
lands and that kind of stuff. And, this fund, as I understand 
it, it is a little different as you said than PILT, but would 
essentially pay those counties, but the argument that while 
they benefit so much from having that wildlife refuge there 
that we should not have to make up the difference, I think is 
going to fall on some very skeptical ears among western 
members.
    That program was $14.5 million last year and is terminated 
this year. We will find that money somewhere. It might be in 
land acquisition funds or something.
    Mrs. Lummis. Mr. Chairman, I could not agree more. Every 
county I know in Wyoming would be happy to have taxes in lieu 
of payments.
    Mr. Simpson. Yes, and they would be substantially better 
off, but I am not one who is opposed to public lands. I think 
public lands provide a benefit to people, and Idaho loves 
public lands. That is how we hunt and fish and outdoor recreate 
and everything else, but there is a balance here that when 
people want to tell us how we are going to manage public lands 
that never see them from the east, you know, and say these are 
all public lands, and we should have some say in it, well, 
there is some responsibility to also pay for it.
    Mr. Ashe. I would say I think over the years this refuge 
revenue sharing has been very positive for the Fish and 
Wildlife Service and the Refuge System. I doubt there is a 
manager in the National Wildlife Refuge System who does not see 
the kind of transfer of that check every year as a positive 
with their local communities.
    I think that, however, we have been asked in the context of 
the budget to look for things and to think outside the box. 
With that, our options are always limited and I know you are 
aware of that. But it is definitely one of those things where 
we have done numerous studies on the economic benefits of 
national wildlife refuges. They all indicate that refuges are a 
benefit to local economies considering the loss of income tax. 
So, it is an attempt to look at some new ways of thinking about 
public lands.
    Mr. Simpson. I hope this is not a precursor to what the 
Administration is looking at in the reauthorization of the PILT 
payments or elimination of the PILT payments, because in some 
counties, you know, when you have got a county that is 96 
percent federal land, what the heck are they going to do?
    Mr. Ashe. I am not aware that this is connected in any way 
to any larger Administration policy. In fact, in the past we 
had the opposite discussion about should the Refuge System be 
included in the PILT System as opposed to having an 
appropriated fund.
    Mr. Simpson. Right. That is a legitimate discussion to 
have, I think.
    Dr. Gould. Just with the Refuge Revenue Sharing Act, and I 
do not know the date, this is very specific to that particular 
action.

                              LAKE LOWELL

    Mr. Simpson. Okay. I want to bring your attention to a 
situation that is particular to southern Idaho and ask for your 
assistance in resolving what seems to be a completely 
unnecessary dispute between the people of Idaho and Fish and 
Wildlife Service.
    As you know, the U.S. Fish and Wildlife Service's Deer Flat 
National Wildlife Refuge in Idaho's Canyon County is in the 
process of creating a new comprehensive management plan. The 
Deer Flat Wildlife Refuge is located on Lake Lowell, a manmade 
lake in southern Idaho. Lake Lowell was created over 100 years 
ago as an irrigation reservoir and remains in service for this 
purpose to this day. It has a long history of being utilized 
not only for irrigation purposes but as a recreational lake 
where water skiing, fishing, boating, and other uses are not 
only permitted but encouraged. Needless to say, Lake Lowell is 
an integral part of the social and economic life of southern 
Idaho.
    Despite the fact that Lake Lowell is manmade, an irrigation 
reservoir, and a long-time recreational destination, Fish and 
Wildlife Service continues to hold onto the possibility that 
Lake Lowell could be closed to recreational uses in the future 
as part of a comprehensive management plan. The failure or 
unwillingness of Fish and Wildlife to take recreational 
curtailment off the table has caused a great deal of concern 
and controversy in Idaho's Treasure Valley and rightfully so.
    In fact, I have got in my possession a letter from the 
area's four state senators asking me to intervene in this 
matter legislatively if necessary to make sure that your agency 
does not move to end recreational uses on Lake Lowell.
    As a result of this hearing I would like to be able to tell 
these four senators that you will--I know that at a hearing 
like this I cannot ask you to commit to anything specific like 
that--but I would like to ask you to work with me to try to 
solve this problem in southeast Idaho because it is causing a 
great deal of consternation that does not need to be caused.
    Do you believe that recreation and species conservation are 
compatible?
    Dr. Gould. Absolutely, and we will commit to work with you 
on this particular issue. It was actually a surprise to us that 
we had authority over the surface uses of that lake, and we 
came to that conclusion when we started into the CCP process. 
We have no intention of going through a process without 
recognizing the fact that this has been a recreational lake for 
as long as it has been in existence.
    We will work with you to both recognize that fact and get 
to a position and get to a place where the local folks are 
comfortable with the management of both the refuge and how it 
is dealt with and from a recreational perspective.
    Mr. Simpson. We need to do that as quickly as possible 
because if you want to get a lot of people upset at a hearing, 
just bring up the issue, and it will bring up a lot of 
recreationalists out there that think that it is nuts. I am not 
saying that you have been unreasonable. I am just saying that 
they believe that.
    Dr. Gould. Potential. I understand.
    Mr. Simpson. Yes, and so we want to work with you to solve 
this problem so that it can be used for the recreational uses 
it has for years and years and years and also serve as the 
wildlife refuge that is important to the area.
    Dr. Gould. Sure.
    Mr. Simpson. I think we are pretty much finished here. I 
thank you for being patient and waiting during the voting 
process. Thank you for the work you do. I look forward to 
working with you in the future, and if there is anybody we can 
call on the other side of the rotunda, let us know. We would be 
happy to do so.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T6897A.125
    
    [GRAPHIC] [TIFF OMITTED] T6897A.126
    
    [GRAPHIC] [TIFF OMITTED] T6897A.127
    
    [GRAPHIC] [TIFF OMITTED] T6897A.128
    
    [GRAPHIC] [TIFF OMITTED] T6897A.129
    
    [GRAPHIC] [TIFF OMITTED] T6897A.130
    
    [GRAPHIC] [TIFF OMITTED] T6897A.131
    
    [GRAPHIC] [TIFF OMITTED] T6897A.132
    
    [GRAPHIC] [TIFF OMITTED] T6897A.133
    
    [GRAPHIC] [TIFF OMITTED] T6897A.134
    
    [GRAPHIC] [TIFF OMITTED] T6897A.135
    
    [GRAPHIC] [TIFF OMITTED] T6897A.136
    
    [GRAPHIC] [TIFF OMITTED] T6897A.137
    
    [GRAPHIC] [TIFF OMITTED] T6897A.138
    
    [GRAPHIC] [TIFF OMITTED] T6897A.139
    
    [GRAPHIC] [TIFF OMITTED] T6897A.140
    
    [GRAPHIC] [TIFF OMITTED] T6897A.141
    
    [GRAPHIC] [TIFF OMITTED] T6897A.142
    
    [GRAPHIC] [TIFF OMITTED] T6897A.143
    
    [GRAPHIC] [TIFF OMITTED] T6897A.144
    
    [GRAPHIC] [TIFF OMITTED] T6897A.145
    
    [GRAPHIC] [TIFF OMITTED] T6897A.146
    
    [GRAPHIC] [TIFF OMITTED] T6897A.147
    
    [GRAPHIC] [TIFF OMITTED] T6897A.148
    
    [GRAPHIC] [TIFF OMITTED] T6897A.149
    
    [GRAPHIC] [TIFF OMITTED] T6897A.150
    
    [GRAPHIC] [TIFF OMITTED] T6897A.151
    
    [GRAPHIC] [TIFF OMITTED] T6897A.152
    
    [GRAPHIC] [TIFF OMITTED] T6897A.153
    
    [GRAPHIC] [TIFF OMITTED] T6897A.154
    
    [GRAPHIC] [TIFF OMITTED] T6897A.155
    
    [GRAPHIC] [TIFF OMITTED] T6897A.156
    
    [GRAPHIC] [TIFF OMITTED] T6897A.157
    
    [GRAPHIC] [TIFF OMITTED] T6897A.158
    
    [GRAPHIC] [TIFF OMITTED] T6897A.159
    
    [GRAPHIC] [TIFF OMITTED] T6897A.160
    
    [GRAPHIC] [TIFF OMITTED] T6897A.161
    
    [GRAPHIC] [TIFF OMITTED] T6897A.162
    
    [GRAPHIC] [TIFF OMITTED] T6897A.163
    
    [GRAPHIC] [TIFF OMITTED] T6897A.164
    
    [GRAPHIC] [TIFF OMITTED] T6897A.165
    
    [GRAPHIC] [TIFF OMITTED] T6897A.166
    
    [GRAPHIC] [TIFF OMITTED] T6897A.167
    
    [GRAPHIC] [TIFF OMITTED] T6897A.168
    
    [GRAPHIC] [TIFF OMITTED] T6897A.169
    
    [GRAPHIC] [TIFF OMITTED] T6897A.170
    
    [GRAPHIC] [TIFF OMITTED] T6897A.171
    
    [GRAPHIC] [TIFF OMITTED] T6897A.172
    
    [GRAPHIC] [TIFF OMITTED] T6897A.173
    
    [GRAPHIC] [TIFF OMITTED] T6897A.174
    
    [GRAPHIC] [TIFF OMITTED] T6897A.175
    
    [GRAPHIC] [TIFF OMITTED] T6897A.176
    
    [GRAPHIC] [TIFF OMITTED] T6897A.177
    
    [GRAPHIC] [TIFF OMITTED] T6897A.178
    
    [GRAPHIC] [TIFF OMITTED] T6897A.179
    
    [GRAPHIC] [TIFF OMITTED] T6897A.180
    
    [GRAPHIC] [TIFF OMITTED] T6897A.181
    
    [GRAPHIC] [TIFF OMITTED] T6897A.182
    
    [GRAPHIC] [TIFF OMITTED] T6897A.183
    
    [GRAPHIC] [TIFF OMITTED] T6897A.184
    
    [GRAPHIC] [TIFF OMITTED] T6897A.185
    
    [GRAPHIC] [TIFF OMITTED] T6897A.186
    
                                          Thursday, March 17, 2011.

               THE U.S. GEOLOGICAL SURVEY FY 2012 BUDGET

                               WITNESSES

DR. MARCIA K. McNUTT, DIRECTOR, U.S. GEOLOGICAL SURVEY
SUZETTE KIMBALL, DEPUTY DIRECTOR, U.S. GEOLOGICAL SURVEY
CARLA BURZYK, DIRECTOR, OFFICE OF BUDGET, PLANNING, AND INTEGRATION, 
    U.S. GEOLOGICAL SURVEY

                  Opening Remarks of Chairman Simpson

    Mr. Simpson. Good morning. The committee will come to 
order.
    Good morning, Director McNutt. I would like to welcome you 
along with the deputy director and the budget director, and 
thank you for being here today. We have a lot to talk about, so 
I will be relatively brief, not entirely, but relatively brief.
    The 2012 budget request for the USGS is one of those where 
I wish we could have someone from the White House come up, 
place a hand on the Bible, raise his or her right hand, and 
proceed to explain him or herself, because this is a budget 
that does four things as I see it. First, by cutting $89 
million and 230 FTEs from core science programs, this budget 
runs counter to the President's commitment to restore science 
to its rightful place.
    Second, by proposing Washington Monument-type cuts to 
programs like endocrine disruptor research and streamgages that 
the American people deeply care about, the budget shows that 
this Administration is willing to play games with this Congress 
by testing our resolve during these serious fiscal times.
    Third, by inheriting the full funding responsibilities for 
Landsat 9 and 10 from NASA without any of NASA's $19 billion 
budget, and by offsetting the $48 million increase for Landsat 
from other core science programs, this budget is a sign of the 
untenable situation we are likely to be in two years from now 
when the Administration sends up a budget request for Landsat 
that is nearly 10 times the increase proposed in fiscal year 
2012. We might just as well rename USGS to National Land 
Imaging Agency.
    Lastly, water is life. How is it that the Nation's premier 
science agency can claim that climate change is real and is 
happening rapidly, and that these changes are having profound 
effects on our Nation's water supplies, and then go and cut its 
own water budget by 10 percent? What does this say about the 
Nation when our priorities do not even include one of the most 
basic ingredients to human survival?
    With the United States borrowing 40 cents on every federal 
dollar we spend, there is near-universal, bipartisan agreement 
that we need to cut back on spending. But there is a right way 
to go about it, and there are ways that make absolutely no 
sense at all. This budget is one of those problems.
    The Administration has sent to this Committee a budget for 
the USGS that is simply, in my view, unacceptable. We have a 
lot of work to do between now and October 1st. I look forward 
to our discussions today and appreciate your help in providing 
this Committee with the information it needs to do its job.
    With that, I am happy to yield to the gentleman from 
Virginia, Mr. Moran.

                  Opening Remarks of Congressman Moran

    Mr. Moran. Thank you, Mr. Chairman. I just want to 
associate myself with the remarks of the distinguished 
chairman. I did not find anything that you said that I would 
disagree with. In fact, I agree strongly with the points that 
you have made, Mr. Chairman, with regard to this budget.
    Before I start, though, I do want to thank Dr. McNutt for 
her important work on the scientific response to the BP 
Transocean Deepwater Horizon oil disaster in the Gulf, and Ms. 
Burzyk and Dr. Kimball and all of the staff of USGS, you do a 
great job. Dr. McNutt's experiences as a distinguished 
geophysicist and expert in marine sciences made her 
contributions to the Gulf oil response vital. I hope we do have 
time to talk about lessons learned from that oil disaster 
because there is an important role for both enhanced federal 
regulation and enhanced federal science.
    As I say, though, Mr. Chairman, I could not agree more with 
you that this budget request is deeply troubling. It does 
include a large funding increase but for new responsibilities, 
the cost of future Landsat rockets. There is an overall 
increase of $50 million for Landsat but many of the core, 
reliable and necessary science programs at the USGS have been 
cut to make room for Landsat. That does not make sense. So I 
hope we can work together to figure this out and to rectify I 
think the wrongheaded decision, frankly, that the 
Administration has made.
    The Nation does need Landsat but it also needs the 
research, as the chairman says, on water quality, on 
groundwater streamgages, mineral science, mapping, biology, 
earth sciences. All of those are cut in this request. The 
budget requires the loss of 230 full-time-equivalent positions, 
the most of any Interior bureau and the second only in this 
whole subcommittee bill to the 1,760 FTE reduction at the 
Forest Service, which of course is in the Department of 
Agriculture. So here we are, an Administration that has 
committed itself to the advancement of science cutting 230 
people in an agency that frankly is anything but a large 
bureaucracy. These are scientists that are highly skilled and 
deeply committed. So we should not allow this reduction and 
loss of scientific talent.
    Land management government activities at all levels and a 
wide range of industrial activities all rely on the science and 
inventory work accomplished by the USGS. We need to support our 
Nation's physical and biological sciences if we are going to 
make the right decisions. So it is pennywise and pound foolish 
to cut these research and development programs.
    With that, I again thank you for chairing and holding the 
hearing, Mr. Chairman.
    Mr. Simpson. Thank you. I appreciate your comments and 
agree with them.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Simpson. Dr. McNutt, welcome today and we look forward 
to your testimony and working with you on this budget.

             OPENING REMARKS OF MARCIA K. MCNUTT, DIRECTOR

    Dr. McNutt. Thank you very much for your statements, and 
good morning, Chairman Simpson, distinguished members of the 
subcommittee, and happy St. Patrick's Day to all.
    I would like to begin my testimony with a passage from a 
forthcoming book by Washington Post reporter Joel Achenbach 
that is entitled, ``A Hole at the Bottom of the Sea: The Race 
to Kill the BP Oil Gusher.'' In the book's prologue, he 
describes how a critical breakthrough in stopping the oil spill 
occurred in an obscure USGS lab. He ends the prologue as 
follows: ``In crunch time, call in the nerds as well as the 
cowboys. You never know when someone's fantastically esoteric 
expertise may be called upon to save the country.'' And then he 
dedicates the book to the Horizon 11, not forgotten, and to all 
the people everywhere who do the hard work unseen.
    So why am I telling you this story? Well, the President's 
2012 budget for the USGS is a delicate balancing act between 
executing the Administration's top priorities while still 
maintaining the USGS core mission, all within an austere budget 
cap, so that the USGS will be able to respond no matter where, 
no matter how, whenever we are called upon to do our job to 
help save the Nation unseen.
    In a particular example from the Macondo well, one of the 
heroes in the story is a groundwater researcher, because not 
only water flows in reservoirs. His timely work avoided $3 
billion in additional oil pollution to the Gulf. We have to 
maintain talent like that despite tough choices in our water 
programs.
    As another example, Japan was just hit by a tragic and 
devastating 9.0 earthquake and tsunami, and shame on us if we 
do not learn from their misfortune. Japan is the most advanced 
nation in terms of seismic hazard, and their earthquake early 
warning system saved thousands of lives.
    With ARRA funding, USGS got a big leap up on our own early 
warning system in the Advanced National Seismic System. Funding 
to implement a prototype is now caught up in the uncertainty of 
the 2011 budget but we continue to plan for it when our funds 
become available.
    The President's 2012 budget does include provision to begin 
the National Land Imaging Program, as you mentioned. It is a 
home for a Landsat series of satellites. Landsat, over its 
nearly 40-year history of continuous monitoring of Earth from 
space, has become the gold standard for revealing land use from 
space on a planetary scale at 30-meter resolution. Users 
include educators, government at all levels, agribusiness, 
water managers, the commercial sector and NGOs and they have 
downloaded more than 4 million scenes.
    The advent of Google Earth has lowered the technology 
threshold to data usability for all. While NASA will still be 
our partner with responsibility for spacecraft instrument 
integration and launch by aligning budgetary authority with the 
USGS, major programmatic decisions will be made with the best 
interest of the user community in mind. Landsat belongs with 
the USGS just like weather satellites belong with NOAA.
    USGS is also benefiting from another Administration 
priority, America's Great Outdoors. Funds will allow us to work 
with existing partners on the landscape level in places like 
the Great Lakes on invasive Asian carp or on the Chesapeake on 
endocrine disruption in fish populations. In many cases, these 
funds are helping to maintain key capabilities in mapping, GIS, 
toxic-substance hydrology, water quality and other core 
functions that are suffering from cuts to our programs 
elsewhere in the budget.
    Finally, in closing, thank you to this subcommittee for 
your support in the USGS recent realignment in our management 
structure. The budget you have before you reflects the new 
structure which aligns our management with our performance 
metrics, with our strategic plan, and with our budget. The 
mission of the USGS has in no way changed and our programs are 
intact. Rather, I can now be more accountable to you and the 
American public for the important science and science services 
we provide in natural hazards, energy, minerals, water, land 
use, climate change adaptation, mapping and ecosystem science. 
I want to thank you for the strong, bipartisan and very fair 
support of the USGS you have provided, and I am happy to answer 
your questions.
    [The statement of Marcia K. McNutt follows:]

    [GRAPHIC] [TIFF OMITTED] T6897A.187
    
    [GRAPHIC] [TIFF OMITTED] T6897A.188
    
    [GRAPHIC] [TIFF OMITTED] T6897A.189
    
    [GRAPHIC] [TIFF OMITTED] T6897A.190
    
    [GRAPHIC] [TIFF OMITTED] T6897A.191
    
    [GRAPHIC] [TIFF OMITTED] T6897A.192
    
    [GRAPHIC] [TIFF OMITTED] T6897A.193
    
    [GRAPHIC] [TIFF OMITTED] T6897A.194
    
    Mr. Simpson. Thank you, and let me echo what Mr. Moran said 
in his opening statement, for the great work that you did 
during the crisis in the Gulf. There are a lot of people 
willing to point fingers and everything else about what went on 
there but there were a lot of good people working on it that 
did a tremendous job, and we appreciate the work the USGS did 
in that regard.
    We are going to have some votes, I guess about 10:15 or 
something like that, and I understand that you have a Defense 
Committee----
    Mr. Moran. We have General Petraeus at Defense.
    Mr. Simpson. So I am going to turn over my time to you to 
start with if you like so you can get your questions in.
    Mr. Moran. That is extremely considerate of you, Mr. 
Chairman. I hope I acted like that when I was chair. I do not 
know.
    Mr. Simpson. You did.
    Mr. Moran. I owe you big time.

                        OUTYEAR COSTS OF LANDSAT

    Well, let's focus first of all on the $48 million increase 
for outyear Landsat missions because it is coming from base 
programs that we feel are vital, and that is clear on both 
sides of the aisle. I have seen a chart that shows that the 
plan is for the USGS share of Landsat 9 and 10 missions to 
skyrocket. Now, of course, that is a pun that the staff put in 
there deliberately. But here we are with zero in fiscal year 
2011, it goes to $48 million of course in this new budget, in 
fiscal year 2012, but then to $159 million in fiscal year 2013 
and $410 million in fiscal year 2014. I mean, just two years 
from now, $410 million to a $1 billion agency. That is 
obviously over 40 percent of the entire agency. Are we going to 
lose all of the biology and hydrology parts of the USGS or lose 
all of the geology and mapping parts of the Survey? I think you 
should give us a sense of if this trend continues, if the 
budget goes in the way that the White House has recommended, it 
looks like they are going to wipe out major roles and 
responsibilities that USGS has today. Can you address that, Dr. 
McNutt?
    Dr. McNutt. Well, certainly we need to work with the 
Administration on what the outyear costs are and we would 
certainly not support a model in which Landsat erodes the core 
mission. I do not think the Administration supports that nor 
obviously does this committee. We have been assured by OMB many 
times in conversations with them that the cuts to the USGS 
program even in the 2012 budget should not be associated with 
the growth in Landsat, and that is what we were told.
    Mr. Moran. That is untrue though, unfortunately. I know it 
is what you were told.
    Mr. Simpson. OMB lies.

                    PROGRAM QUALITY AND PERFORMANCE

    Mr. Moran. It has been known to happen. It appears that 
some of your highest performing programs such as toxic 
substances, hydrology and the National Water Quality Assessment 
Program are slated for large reductions. To what degree did 
USGS and OMB use program quality and performance criteria when 
determining which programs to reduce? Because the information 
we have been getting is that these are the last programs you 
would want to cut because they have been performing so well and 
efficiently.
    Dr. McNutt. To the extent that we could, we did use program 
quality, and let me give you an example. The Climate Effects 
Network was created before the establishment of the Climate 
Science Centers and the establishment of the Landscape 
Conservation Cooperatives. It was a program that seemed on 
track and to be a high-performing program but then it got 
overtaken by events. The Department of the Interior went a 
different direction in terms of how it was going to be doing 
data integration and providing data services for climate 
programs and so it no longer seemed that the CEN was the way 
that we should be going about it, and that is why we offered up 
that program as a cut. However, the cuts that we had to offer 
up, and USGS was asked to offer a variety of scenarios--a 3 
percent cut, a 5 percent cut, a 7 percent cut, and at one point 
a 9 percent cut--and the cuts we were asked to offer up had to 
go so deep into our budget that not all of the scenarios 
included simply low-performing programs or programs that were 
simply no longer needed. We just did not have enough of those, 
I am sorry to say--well, I am happy to say.

                            HAZARDS PROGRAMS

    Mr. Moran. Sure. The world's attention has been focused on 
the earthquake and tsunami in Japan but I see this request has 
a $2 million reduction for earthquake grants. We just heard 
about BP Deepwater Horizon. That was not a lot of money USGS 
had but they did perform a major role. What will be the impact 
of that? Are those grants not very relevant to what we just saw 
happen on the other side of the planet?
    Dr. McNutt. Well, let me give you a very real----
    Mr. Moran. Let me throw this in too because you have got a 
reduction for the National Volcano Early Warning System, which 
falls in the same kind of situation. Why?
    Dr. McNutt. Let me give you a very specific example. Again, 
all of our programs had to take cuts so there is basically no 
part of our portfolio that is unscathed when we have to take a 
7 percent cut overall in our science investigations. So 
unfortunately, tough choices had to be made. But as a real 
example of the effects of these cuts to our external grants 
programs and earthquake hazards, yesterday the president of 
Caltech, Jean-Lou Chameau, paid me a visit to talk about areas 
of common interest, and as he was leaving, he happened to let 
drop, he said I have to thank the USGS because, he said, the 
fact that I am here in this country and the fact that I am 
President of Caltech is thanks to the USGS because, he said, I 
came here to the USGS on a one-year fellowship to do a master's 
degree at Stanford University, and after that one year I was in 
danger of being deported and I was saved to complete a PhD here 
thanks to a USGS earthquake research grant that allowed me to 
stay and complete a PhD at Stanford. His earthquake research 
grant was to do a detailed study of strong ground motion 
shaking in the Marina District of San Francisco just years 
before that area was strongly hit by the Loma Prieta 
earthquake, and his analysis of the shaking in that district, 
the Marina District, actually very well matched the actual 
damage that was done and allowed planners in that area to 
prepare infrastructure in advance of that earthquake. So that 
is the kind of work that is done. That is the kind of person 
that is supported and that is the kind of leader we have in 
this country now, thanks to USGS earthquake grants.
    Mr. Moran. That is a great story. I do think that I will 
mention to the ranking member of the full committee that in 
looking down the cities that are at highest risk for active 
volcanoes, Seattle and Tacoma, Washington, are at the top of 
the list. Mr. Dicks may have some interest in that fact.

                        WATER RESOURCES PROGRAMS

    The chairman mentioned water quality. You won a $9 million 
increase for this WaterSMART initiative to do a census of water 
but your proven water programs, like the National Water Quality 
Assessment Program, you have cut almost $7 million, the 
groundwater resources cut $2 million. I mean, it is nice to 
know where they are but if you are not doing anything about 
what you are aware of, then it does not seem to be the best use 
of resources. I will conclude with that. There is a lot of 
stuff I would like to ask about endocrine disruptors and so on 
but I want to consider the chairman's generous latitude to go 
first. But do you want to say anything about the water quality?
    Mr. Simpson. If you have other questions you would like to 
ask, because I know you have to go to the Defense hearing.
    Mr. Moran. Well, thank you, Mr. Chairman. I will just bring 
then the other issue because it does have a relationship to 
water quality, and that is endocrine disruptors. I know you 
have been working on this. We are finding out more information. 
We are finding that the small-mouth bass that not only do we 
have a situation where 90 percent of the male small-mouth bass 
in the Potomac River right outside the doorway really are 
intersex. They have both testes and eggs. But this is a 
situation that apparently exists in many rivers throughout the 
country. Can you just share a little bit of what you are 
finding in the context of the water quality programs that you 
operate?
    Dr. McNutt. Well, Mr. Moran, you have been a strong 
supporter of this program, and one thing that has been really 
heartening to our scientists at the USGS is to the extent that 
you have really embraced the science of this, and I remember 
talking to you about this last year, how much we felt it was 
important to make this a national issue, not just a Potomac 
issue, and the cuts to this program, unfortunately, while we 
will continue with the funding to Chesapeake through America's 
Great Outdoors, we will lose the national focus, and I think I 
mentioned to you last year, one thing we were learning from 
broadening it with the national focus was that some of the 
drivers that we were focusing in on that we thought we know the 
answer from focusing in on the Chesapeake, and then once we 
broadened it to a national focus, we realized, oh, wait, we are 
finding places that are completely far away from any human 
influence and still finding some of the same problems. This is 
causing us to look more broadly at some of the drivers. Now 
that we are losing that national focus, that is going to, I 
think, cause us to lose some of that ability to again look more 
broadly at some of the wider issues that could be causing this 
behavior, and that will be a loss for science.
    Mr. Moran. Thank you. The more people that learn about 
this, the number of fish and crustaceans we have apparently in 
rivers all over the country, the more concerned they are about 
eating them, but it obviously would concern anybody when you 
know that a species has both male and female reproductive 
sexual characteristics. It is disturbing. There is something 
wrong obviously. But apparently there is no reason to believe 
that you cannot eat them. They may be safe to eat. It is just 
that this water is in many cases the same water we are drinking 
and it may be having a similar effect although longer term in 
the human body. Is that kind of what you are coming up with?
    Dr. McNutt. The questions we need to ask are exactly the 
questions that you are asking now because this is an 
environmental effect in the water, in the environment that 
these fish are spending their lifecycles. To what extent is 
this a human health issue, and the entire reason why the USGS 
is concerned about it is for exactly that reason.
    Mr. Moran. Thank you very much, Dr. McNutt, and thank you, 
Mr. Chairman. Thanks very much. I really appreciate your 
consideration.

                                LANDSAT

    Mr. Simpson. Again, thanks for being here today. We 
appreciate it. I think as our opening statements and our 
comments suggest, there are areas where even in this climate of 
trying to reduce budgets, Republicans and Democrats agree, and 
one of them is that the USGS is one of the valuable science 
agencies in this government, and we have some real concerns 
about the direction that the budget is heading, whether it is 
from OMB or whomever. It causes us all a great deal of concern 
when we are reducing the resources for water management and 
water science, and for them to suggest that--and I guess what 
they were saying is, your budget would have taken these cuts 
regardless of whether Landsat went over to USGS or not. I have 
a hard time believing that, and I think the USGS is probably an 
appropriate place for Landsat to go, but when you shift it over 
there, you need to take the money that goes with it and shift 
it over there also, which causes me a great deal of concern. 
Landsat 8 goes up in December of 2012?
    Dr. McNutt. December 2012, yes.
    Mr. Simpson. When are 9 and 10 scheduled to go up?
    Dr. McNutt. According to the funding wedge that we have put 
together, if the funding came on schedule, it would be in the 
2017 time frame, so sort of a five-year launch window, assuming 
that the satellites are designed for a five-year lifetime, 
mission lifetime.
    Mr. Simpson. Designed for a five-year mission lifetime?
    Dr. McNutt. Right.
    Mr. Simpson. Is that how long they typically last or can 
they be extended? Could you extend out or delay, if you will, 
the launching of 9 and 10 if that were necessary in order to 
get the budget in line?
    Dr. McNutt. You know, we could look into that. Right now 
the way that the satellites have been designed in terms of 
their components and things like that, they do carry fuel for a 
10-year lifetime and so that is the expendable on board, which 
is the important thing in determining their lifetime. In terms 
of the components on board, they are designed for a five-year 
lifetime. We could do a study on what it would take to extend 
the component lifetime for a design lifetime that would be 
longer. Of course, our experience in terms of the lifetime of 
these satellites has been that, thanks to the good work of the 
people at NASA and their contractors, the experience has been 
that barring a launch failure or something of that sort, they 
have been pretty hearty spacecraft and have actually exceeded 
their design lives.
    Mr. Simpson. We may have some language within this 
appropriation bill directing a study of just that and the 
impacts of delaying it for a year or two in order to try to get 
the fiscal part of it in place too, because I am concerned that 
we are shifting it all over there, and I have seen this happen 
in federal agencies before where they take on new 
responsibilities shifted from another agency which the other 
agency loves to shift over there. They just do not want to 
shift any of the money with it, and that becomes problematic. 
So we would like to work with you on that.
    Dr. McNutt. And we would be happy to look at that.

                             CLIMATE CHANGE

    Mr. Simpson. I do think the appropriate place for Landsat 
is in the USGS. Along those same lines, you and I have 
discussed and had conversations about the money being spent on 
climate change both within our Interior budget and 
governmentwide, and I still have the same concerns that I have 
had for the last couple of years about the coordination of the 
amount of money we are spending on climate change. What we are 
trying to find out is if agencies are duplicating efforts and 
so forth and if we need a government agency--I do not know how 
to say it but that oversees the scope of climate change 
funding. I am not sure if that is the smart way to go or what, 
but if you had a line item that was climate change money and a 
federal agency that then looked at who could do what and 
agencies like the Forest Service, the Defense Department or 
whoever spends money on climate change actually apply to them 
with proposals. Someone could look and see, is this already 
being done within the Federal Government, is it a duplication 
of what we currently have, is it a high priority as opposed to 
something else that some other agency is proposing. The 
coordination of all the money we are spending on climate change 
is more of a concern to me than the amount of money we are 
spending on studying climate change, and I am trying to figure 
out if there is a better way to do it. Do you have any thoughts 
on that?
    Dr. McNutt. You know, I have been thinking about this since 
you first mentioned it, and what I was trying to do was take 
out the word ``climate change'' and put some other word in 
there just for almost historical record or reference. Climate 
change is something that is relatively new in terms of a topic 
in the Federal Government and so the other word I put in there 
was ``water'' because we know that there are many federal 
agencies that have purviews in water, and they have stakes in 
water that have grown up in sort of a hodgepodge way over many 
decades in an uncoordinated way because of the histories of 
those agencies. I was thinking, because climate change is new, 
we have an opportunity now to avoid some of the issues that we 
have with water by intervening early on, and some of the issues 
right now with climate are that because it is an early stage, 
most of the issues with climate are research and they have not 
really gotten into the real issues of applications and policy 
and that sort of thing. So, could there be an opportunity to 
say okay, if we do the research part right and then apportion 
out the policy and management to the right agencies as they 
have their jobs to do when the time comes, will that simplify 
things and avoid some of the issues that we have had with 
water; could we do that right. And I was thinking yes, maybe 
that does make sense, because we see that for example, NSF has 
a huge role to play with research in climate change for the 
academic community, maybe we could have better federal 
coordination for the research that goes on, and if that could 
be done for federal research, then perhaps yes, we could not 
have some of the issues that we have with water now.
    Mr. Simpson. Well, as I have said before, after the events 
of 
9/11, everyone that came into my office whenever they wanted 
anything, whether it was a federal agency or whether it was a 
group outside that wanted funding for whatever program, they 
always tied it to the issue of homeland security because that 
was the key phrase at the time. Now the key phrase is climate 
change and I think there are agencies trying to rebuild science 
programs that were actually taken and given to the USGS years 
ago under, I think, Secretary Babbitt did some of that, and now 
those agencies, you know, they want their own science program. 
What I want is an efficient program where we know what we are 
doing and we are not duplicating, we are spending taxpayers' 
dollars wisely, and if there is a better way to do that, I look 
forward to having some conversations with you about this and 
how we might be able to reorganize it. As I look at different 
agencies, I have kind of thought if there is an agency, if this 
were a smart idea, and I am not saying it is because I thought 
of it, but if this----
    Ms. McCollum. It is a very smart idea.
    Mr. Simpson. If this were a smart idea, where would you put 
it, and I thought of different agencies. There is talk about 
NOAA, but NOAA really deals with oceans and the atmosphere, not 
with the ground that we live on, more than anything else, and 
it keeps coming back to me that the agency that seems to have 
the role and mission would be the USGS, but again, I would not 
want that to displace the important work that you currently do.

                              STREAMGAGES

    Last question before I turn over to Ms. McCollum. We are 
going to have votes, I guess, in about 10 minutes or 15 
minutes. What happens under this proposal in your budget with 
streamgages? They are very important to the West, and all over 
the country, really.
    Dr. McNutt. Yes. Well, we do have some funding reduction in 
that area but we are trying to absorb it all in administration 
and not take any actual cuts to streamgages, but of course you 
know that it all is predicated on cooperators in many cases, so 
we have----
    Mr. Simpson. States are having a hard time getting their 
resources.
    Dr. McNutt. Yes, states are having problems, and we have 
issues with of course many cases where we are vulnerable 
elsewhere in the federal budget with what happens with Army 
Corps' budget and other places too. We do have $800,000 in 
reductions but we are absorbing that in administration.
    Mr. Simpson. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.

                        WATER RESOURCES PROGRAMS

    It is good to see you, and you were busy Friday and I was 
busy Friday. I was busy as a mom and you were busy as a 
scientist. So I want to thank you for all the work that you 
folks are doing, and I just got this e-mail this morning from 
Japan. I am just going to quote part of it. ``It is hard to 
sleep when you are thinking about the next quake that is 
coming. The possible nuclear meltdown is something we have all 
been really upset about. Thank God for the American government 
telling us to get at least 80 kilometers away.'' He is fine. He 
is five hours away. But I have to tell you that the American 
citizens not only dialed in on what our press was saying 
because our press was saying what our government scientists 
were saying, and so thank you for all the work that you did not 
only for Americans overseas, people here who care about what is 
going on in Japan but for English speakers all over the world. 
Thank you for your work.
    So if you take a second after I ask my question, maybe kind 
of let us know what your role is, and I know you are going to 
do lessons learned from this as well, but I would like to talk 
about water. Minnesota takes its water very seriously. In fact, 
our citizens taxed ourselves for a legacy amendment to make 
sure that we are doing the right thing with water. In 2009, I 
was given the privilege of giving a speech to the Water 
Resources Center at the University of Minnesota on sustaining 
clean water as a public trust, what do we do to make sure that 
it is there for the next generation, so the next mom or dad 
when they take their child to a drinking fountain is not 
worried about it, and people in this country know that they are 
going to have access to potable water.
    Now, USGS has outstanding scientists and they played a 
critical role in Minnesota being able to move forward with what 
it is doing, but as you have heard, we do have concerns about 
the proposed budget cuts and maybe one of the ways to do that 
is to take the money along with the program that they have been 
assigned, Mr. Chair. Count me as an ally. But there are a few 
programs I just want to highlight for the committee where small 
investments by the USGS have made a big impact on Minnesota, 
and these programs are now, I believe, threatened by the 
proposed reduction. The first is the Water Resources Institute. 
The head of the Water Resources Institute this year happens to 
be Dr. Deborah Swackhamer, a professor who heads up the 
Minnesota Water Resources Center. The doctor has just authored 
a landmark water sustainability framework report that is the 
first of its kind in the entire Nation and I believe other 
states should be looking at doing the same thing. It helps give 
us a 25-year roadmap. It points out all the work that we still 
have left to do to make sure that we have an adequate, safe 
drinking supply, and I am going to give you a copy of this when 
we are done.
    Now, you have kind of explained why you have chosen, not 
you personally but why you are faced with the tough choices 
that you have been making as you did across-the-board cuts, but 
this is a great report and it kind of highlights a lot of 
things, and I am going to quote from the report because this 
just kind of, to use a term, blows you out of the water: 
``Completion of the Minnesota geological survey should be 
accelerated. At a minimum, the current investigation should be 
doubled to allow completion by''--and you are thinking, well, 
doubled, you know, two, three years--``doubled to allow 
completion by 10 to 12 years'' to find out what is going on 
with our aquifers, to find out what is going on with our 
groundwater. So I was going to give this to you on Friday. I 
will give this to you now.
    Dr. McNutt. Thank you.

                            WATER SHORTAGES

    Ms. McCollum. So here is my question. The GAO has put out a 
study showing 36 states are at the risk of water shortages 
within the next 10 years. I am not one of those states. I want 
to make sure my water is clean and drinkable but I am not one 
of those states, but I care about our country. That is my job. 
How can states be prepared for such a crisis if you are not 
able to invest in state water research like this? What do we 
need to do to make ourselves really knowledgeable about the 
water that we all take for granted? And I think that that is 
part of our problem. Even in this country where there are 
limited water shortages, we still take it for granted.
    Dr. McNutt. Okay. Well, Congresswoman McCollum, you asked 
some pretty tough questions, and first of all, let me start by 
saying I am not sure if you know this but I am a Minnesota 
native. My family is from Minnesota from before the Great Sioux 
Uprising, many, many generations in Minnesota. I know how much 
Minnesotans love their water. They swim in it and play in it in 
the summer. They ice skate on it and fish on it in the winter. 
Minnesotans actually do not take their water for granted even 
though it is in plentiful supply. I remember as a child how the 
lakes in Minnesota were suffering from eutrophic conditions 
because of all the runoff from fertilizer on people's lawns and 
how the University of Minnesota started some important studies 
on how to improve water quality in the lakes, and the 
predictions were that it was going to take generations to 
improve it and yet with simple steps within years lakes 
improved dramatically and people saw that by doing simple 
things, they could within their lifetimes see their lakes 
improve and it made a difference. So the lesson I took from 
that as a child was, never underestimate the power of people 
taking their actions into their own hands and understanding how 
their life choices can make a difference.
    So what I think is important is the USGS as the great 
integrator across the country between the states that are haves 
like Minnesota and the have-not like Arizona and Nevada, the 
consistently water-starved states, and how we can provide the 
important information through things like WaterSMART, the water 
census, and I know that there is concern about WaterSMART but 
we have not done a water census on water availability and use. 
As our population is changing, people are moving from many of 
the water-available states to the water-starved states and we 
need to know how that is changed and we have to know what the 
projections are for the future. So WaterSMART is an important 
program, and it is a tough choice that we are having to cut 
back on a lot of this groundwater monitoring. The analogy I 
make is that with our streamgages, it is easy to go out if you 
are an average citizen and see how my water is flowing but it 
is not easy to go out and see how my aquifer is doing. You 
cannot say oh, how is that aquifer doing without someone who 
really knows what they are doing.
    Ms. McCollum. But my point is, in Minnesota where we have 
started doing things, we are saying it is going to take us 10 
to 12 years. What is the timeline for the Federal Government to 
even be able to collect information or work in conjunction? 
Because many states are not doing anything.
    Dr. McNutt. Well, I know, and with the cuts in our 
groundwater program instead of having 11 percent of it done on 
schedule, it is going to be 2 percent.
    Mr. Simpson. One of the things that--and this is not really 
a question for you because I know you have to do what OMB says. 
But when I look throughout the Interior budget, I have some 
questions about where they place priorities. Land acquisition 
for the Land and Water Conservation Fund, they fully funded at 
$900 million while they have cut some important programs in 
USGS for water and other things, and that is something that is 
within the jurisdiction of this Committee to look at how those 
funds are being spent, so I am sure that we will be looking at 
some of those things.
    Do you have any other questions you would like to ask? We 
are going to have a vote here in about a minute.

                   THE INTERNATIONAL ROLE OF THE USGS

    Ms. McCollum. Just maybe, I mean, we are focused on things 
here nationally but the international cooperation between 
scientists and what we are learning and sharing, because you 
have a national role that is very, very important to all of us 
but you also have an international role as part of the 
international scientific community. And then when the bell goes 
off, we will go vote then, Mr. Chair.
    Dr. McNutt. Yes. Our international role especially comes to 
play in something like this latest disaster in Japan, and our 
hazards program has worked internationally on many fronts. A 
good example is the VDAP program, the Volcano Disaster 
Assistance Program, which is credited by the State Department 
with saving thousands of lives through early warning when 
volcanoes are set to erupt and cause volcanic landslides and 
these lahars that are going to come down and destroy villages. 
In the case of Japan, given Japan's intrinsic homegrown 
community, which is very advanced, we will work hand in glove 
with the Japanese seismological community in responding to this 
disaster and work with them and with USAID in the aftermath of 
this to learn what we can that will improve our disaster 
preparedness. For example, initial things that we are learning 
from this is that amazingly enough, buildings came through the 
earthquake itself very well. The death toll from the earthquake 
is probably going to be maybe hundreds, where as the death toll 
from the tsunami literally thousands. And what is interesting 
about that is, if you look at the three major earthquakes to 
strike Japan in this century, there was the Kanto earthquake 
in, I think it was 1923, that was near Tokyo but before Tokyo 
was the size it is today that killed something like 140,000 
people and then there was the Kobe earthquake in 1995 that 
killed 6,800 people. Those two earthquakes were both in the 
magnitude 7 range. The difference between 140,000 people and 
7,000 people was earthquake engineering. The difference between 
the 7,000 people that Kobe killed and the couple hundred that 
were killed by this earthquake is the earthquake early warning 
system, and this was a magnitude 9 earthquake. So that is what 
earthquake early warning can do for you.
    But now the tsunami, I mean, talk about sea-level rise on 
steroids, you know, a 30-foot tidal wave coming in wiping 
everything out in its wake. People literally, you cannot outrun 
it. We often talk about vertical evacuation being the preferred 
route for a local tsunami and there were not enough solid 
structures for people to vertically evacuate into because they 
would go to the upper story of homes and the entire homes would 
be swept out from underneath them. Some people were able to get 
to sturdy bridges or overpasses, and if they were taller than 
30 feet, then that might be enough. But, how many bridges are 
taller than 30 feet? It was truly tragic. So we will definitely 
be learning a lot of lessons from this.
    Now, we are much more fortunate here because when you look 
at Japan, there are very few places in Japan that are not prone 
to a local tsunami. The entire east coast of Japan is prone to 
this kind of disaster whereas we only have a limited part of 
the United States that will have a local tsunami hazard--part 
of Alaska and the Pacific part of Oregon and Washington, but 
that is the only part that will have a local tsunami, so we are 
much more fortunate than Japan.

                       MINERAL RESOURCES PROGRAM

    Mr. Simpson. Let me ask one other question. The fiscal year 
2012 budget proposes to cut the Mineral Resources program by 
$9.6 million, or 18 percent, with a corresponding reduction of 
52 FTEs. Give me an overview of the program and why it is 
important to America's economic and national security 
interests.
    Dr. McNutt. This is a unique program in the Federal 
Government. There is no duplication here, no other program like 
it. The USGS provides a service to the Nation by taking input 
from all of the mineral industries around the country, 
stripping off any industry proprietary information and 
assembling all that information, rolling up into statistics 
that are useful for the industry itself as well as the Federal 
Government on commodities, on what is useful on supply, demand, 
what is being mined, what is being processed, et cetera, and 
provides that to everyone in the public domain in a way that is 
extremely helpful. No one in the industry could possibly trust 
anyone else in the industry to do that. They would not provide 
the data. And our minerals experts are geologists who are 
trusted to do this in a way because they understand the entire 
periodic table basically, so they are able to do this in a way 
that is extremely valuable.
    Mr. Simpson. Thank you. We have got votes going on now, and 
I am sorry--I mean, some of the members on both sides of the 
aisle had hearings in Defense this morning and some other 
things going on. It is a crazy time around here when we are 
trying to get all the hearings in.
    Dr. McNutt. Well, thank you all for your time.
    Mr. Simpson. But I appreciate you being here. As you can 
tell, I think among both Republicans and Democrats, you have 
got some fans in Congress for what the USGS does and the way 
they do it, and we want to work with you on this budget to try 
to address some of the concerns that we have as we move into 
the 2012 budget, if we ever finish the 2011 budget. I 
appreciate it. Thank you.

[GRAPHIC] [TIFF OMITTED] T6897A.195

[GRAPHIC] [TIFF OMITTED] T6897A.196

[GRAPHIC] [TIFF OMITTED] T6897A.197

[GRAPHIC] [TIFF OMITTED] T6897A.198

[GRAPHIC] [TIFF OMITTED] T6897A.199

[GRAPHIC] [TIFF OMITTED] T6897A.200

[GRAPHIC] [TIFF OMITTED] T6897A.201

[GRAPHIC] [TIFF OMITTED] T6897A.202

[GRAPHIC] [TIFF OMITTED] T6897A.203

[GRAPHIC] [TIFF OMITTED] T6897A.204

[GRAPHIC] [TIFF OMITTED] T6897A.205

[GRAPHIC] [TIFF OMITTED] T6897A.206

[GRAPHIC] [TIFF OMITTED] T6897A.207

[GRAPHIC] [TIFF OMITTED] T6897A.208

[GRAPHIC] [TIFF OMITTED] T6897A.209

[GRAPHIC] [TIFF OMITTED] T6897A.210

[GRAPHIC] [TIFF OMITTED] T6897A.211

[GRAPHIC] [TIFF OMITTED] T6897A.212

[GRAPHIC] [TIFF OMITTED] T6897A.213

[GRAPHIC] [TIFF OMITTED] T6897A.214

[GRAPHIC] [TIFF OMITTED] T6897A.215

[GRAPHIC] [TIFF OMITTED] T6897A.216

[GRAPHIC] [TIFF OMITTED] T6897A.217

[GRAPHIC] [TIFF OMITTED] T6897A.218

[GRAPHIC] [TIFF OMITTED] T6897A.219

[GRAPHIC] [TIFF OMITTED] T6897A.220

[GRAPHIC] [TIFF OMITTED] T6897A.221

[GRAPHIC] [TIFF OMITTED] T6897A.222

[GRAPHIC] [TIFF OMITTED] T6897A.223

[GRAPHIC] [TIFF OMITTED] T6897A.224

[GRAPHIC] [TIFF OMITTED] T6897A.225

[GRAPHIC] [TIFF OMITTED] T6897A.226

[GRAPHIC] [TIFF OMITTED] T6897A.227

[GRAPHIC] [TIFF OMITTED] T6897A.228

[GRAPHIC] [TIFF OMITTED] T6897A.229

[GRAPHIC] [TIFF OMITTED] T6897A.230

[GRAPHIC] [TIFF OMITTED] T6897A.231

[GRAPHIC] [TIFF OMITTED] T6897A.232

                                          Thursday, March 17, 2011.

BUREAU OF OCEAN ENERGY MANAGEMENT, REGULATION, AND ENFORCEMENT (BOEMRE) 
 AND OFFICE OF NATURAL RESOURCES REVENUE (ONRR) FY 2012 BUDGET REQUESTS

                               WITNESSES

MICHAEL BROMWICH, DIRECTOR, BUREAU OF OCEAN ENERGY MANAGEMENT, 
    REGULATION, AND ENFORCEMENT,
GREGORY GOULD, DIRECTOR, OFFICE OF NATURAL RESOURCES REVENUE
DEBORAH GIBBS TSCHUDY, DEPUTY DIRECTOR, OFFICE OF NATURAL RESOURCES 
    REVENUE

                  Opening Remarks of Chairman Simpson

    Mr. Simpson. The committee will come to order. Today we 
meet to discuss the fiscal year 2012 budget for the Bureau of 
Ocean Energy Management, Regulation, and Enforcement and the 
Office of Natural Resources Revenue.
    The transition of the MMS has been a large and expensive 
but also a necessary undertaking. In light of the numerous 
problems MMS had with the royalties and last summer's BP 
Deepwater Horizon oil spill, I supported funding increases to 
better manage our offshore mineral resources and federal 
royalties. There is no doubt that we need to improve workplace 
safety, drilling safety, and royalty collection and 
accountability. It will take a larger staff and more resources 
to do this.
    At the same time there will be no blank check coming from 
this subcommittee. We expect results from appropriated dollars 
and will continue to rigorously conduct oversight at BOEMRE and 
ONRR. Did I say those right?
    Mr. Bromwich. Perfect.
    Mr. Simpson. Recently two permits have been issued for 
offshore drilling. I understand that it may take some time 
after the tragedy last summer to review and revise the agency's 
procedures and actions, but it has been almost a year. Since 
then oil prices have increased dramatically, and people in the 
Gulf have been without good-paying jobs in a terrible 
recession. Purchasing leases and scheduling crews and rigs for 
development of offshore is no easy task and requires a great 
deal of investment.
    Worse, because of recent policies many of the jobs that 
should have been American have been exported to foreign 
countries. There needs to be a balance, and all of these issues 
need to be considered. Two permits in almost one year is not, 
frankly, going to cut it.
    The fiscal year 2012 budget asks for increases in several 
areas, many of which I agree. You ask for additional 
inspectors. Clearly you need them, and we support this request, 
but we also need to ensure that we have adequate staff for 
environmental reviews and permitting. We need certainty that 
the funding we provide results in inspections, appropriate 
environmental analysis, and permits issued.
    I commend you for doing this in the renewable energy 
category but urge you to also do this in the conventional 
energy category. As has been discussed in our GAO and IG 
hearings several weeks ago, I am very concerned about royalty 
collections and accountability. I applaud the efforts of this 
budget to ask for the funding necessary to drastically improve 
this program. We will be asking for progress updates and how 
appropriated dollars are being spent on this important issue.
    Finally, I want to thank you for being here today. This 
reorganization has been no easy task, and I look forward to 
working with you on many of these issues, and thank you and 
your staff for their hard work and assistance.
    And before I yield to Mr. Moran for his opening statement I 
would like to take just a moment to thank Chris Topik who is 
here with us today. This is going to be his last hearing after 
many years of service to the Interior Subcommittee. Chris came 
to the Interior Subcommittee on Appropriations as a detailee 
from the Forest Service in the mid 1990s, and since that time 
he has worked on a non-partisan basis to address many of the 
most critical issues facing our land management agencies.
    Chris is one of the most knowledgeable, professional, and 
widely-respected individuals on the Appropriations Committee 
staff, and he will be greatly missed. Chris, we appreciate your 
dedication and commitment over the many years of public service 
and wish you all the best in your new endeavors, and I look 
forward to working with you in whatever they are.
    Mr. Simpson. And I yield to Mr. Moran for any opening 
statement he might have.

           Opening Remarks of Ranking Member, James P. Moran

    Mr. Moran. Thank you very much, Mr. Chairman, and thank you 
for recognizing Chris. He has just been a tremendous asset for 
all of us. I think everyone knows that, and you know, I know 
you share my feeling as does Mr. Hinchey that, you know, so 
much of our success or failure rests on the backs of the staff 
that do so much of the work, and Chris does wonderful work. He 
is also invariably the source of the quotes that we are going 
to miss, but he has been wonderful. He is going to go to the 
Nature Conservancy. He eventually wants to make his way back 
out west. He loves those states like Idaho and California and 
Montana, but he is a wonderful person, and we will miss him 
greatly, and I know the agencies that we deal with will miss 
him as well.
    I will begin with some other comments with regard to this 
new organization, and Mr. Bromwich, thank you for taking it 
over. You have a very strong reputation for integrity and work 
ethic and a real commitment to seeing that things are done 
right, so I think that is a real stroke of good fortune that we 
have been able to have you take this over, what is really an 
awesome responsibility.
    Mr. Gould, thank you, and all of the staff that supports 
your work.
    Almost a year ago, 11 months ago, April 20, news of that 
explosion on Transocean's Deepwater Horizon drilling rig broke 
and took the lives of 11 crew members. We all watched as one 
attempt after another failed to cap that spewing well.
    Between the explosion and the completion of the capping 
operation on August 2, almost five million barrels of oil 
spewed into the Gulf of Mexico, much more than had originally 
been suggested by BP and others. I mean, it was over 200 
million gallons a day emptying into the Gulf.
    Now, needless to say, it has been a very tumultuous year 
for regulating offshore oil and gas drilling as the Chairman 
has said. The Interior Department had to restructure this 
bureaucracy that operated with what appeared to be some 
inherent conflicts of interest with the culture that many 
believed was just too subservient to the oil and gas industry.
    The new Bureau of Ocean Energy Management, Regulation, and 
Enforcement has had a challenging tenure, trying to ensure that 
another Gulf disaster does not occur, while, of course, being 
attacked by oil and gas interests in Congress. And those who 
represent those interests and the people whose jobs are 
dependent upon that industry are naturally speaking out, 
wanting those jobs to be restored.
    But I do not think, and I want to make this case, that I do 
not think that this is why we have rising gasoline prices. As 
we all know, the price of gasoline is set in the international 
market, and our net production, even with deep water drilling, 
opening up our conservation areas in Alaska and the Atlantic 
and Pacific coast would have no immediate impact on world oil 
prices and a minimal impact over the next decade.
    The Deepwater Horizon blowout proves beyond a doubt that 
there are inherent risks to drilling offshore, and it really 
undermines the drill, baby, drill mantra that we have heard 
from some. Drilling at all costs to satisfy this Nation's 
rapacious energy needs is both reckless and costly. When you 
think that we are using up more energy than China and Japan 
combined, 25 percent of the world's energy for just 4\1/2\ 
percent of the world's population. That puts it in context.
    The truth is that we will never achieve energy independence 
by drilling for more oil within the United States. Under the 
friendliest, most pro-oil industry Administration, and I think 
that, you know, most would acknowledge that, that both 
President Bush and Vice-President Cheney were really part of 
the industry before getting into politics. But during their 
Administration U.S. oil production declined between 2001, and 
2008, and that is with generous tax subsidies and lax 
regulation.
    In 2001, the U.S. produced 2,118,000,000 barrels a year. In 
2008, we produced 1,812,000,000 barrels a year. So it actually 
declined, and ironically during the Obama Administration's 
first year, I know some people would think this was ironic, we 
saw domestic production actually increase to 1,957,000,000 
barrels of oil per year. So, you know, about 2 billion barrels 
a year. We are back up to where we were in 2001. Average 
monthly production, which did decline during the temporary 
moratorium and issuing new deep water drilling permits was 
174,344 million barrels for December. That is the latest date 
that we can find. During the last month of the Bush 
Administration domestic production average was 156,751 million 
brands.
    So, you know, there is a difference of 20,000 barrels 
roughly that we are producing over and above what we were doing 
the last month of the Bush Administration. I say that, not so 
much Mr. Simpson, but there have been a number of people, 
colleagues, who are putting forward a point of view that I do 
not think is supported by the facts. We are less than 5 percent 
of the world's population, as I say, consuming 25 percent of 
the world's oil. There is no way we can drill ourselves towards 
energy independence or lower pump prices.
    Given the overwhelming scientific consensus that fossil 
fuel combustion is damaging our environment and damaging the 
economic prospects of future generations, there is a legitimate 
interest in carling what really has to be seen as a profligate 
use of fossil fuels.
    We are not going to settle this debate today or in this 
hearing, but the ghost of Deepwater Horizon should chasten 
those who now call for relaxing the permitting and inspection 
process.
    So, Mr. Bromwich, you are a former federal prosecutor and 
associate counsel in the Office of Independent Counsel for Iran 
Contra. You have got a great background. You always come 
through when you were needed. You are needed now because we 
need a tough and thorough prosecutor of this issue, and I know 
you will be that. So thank you for being here as a witness.
    Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. Mr. Bromwich.

              Opening Remarks of Director Michael Bromwich

    Mr. Bromwich. Thank you very much, Mr. Chairman, Mr. Moran, 
and members of the subcommittee. I appreciate this opportunity 
to testify today on the fiscal year 2012 budget request for the 
Bureau of Ocean Energy Management, Regulation, and Enforcement.
    This budget request supports the President's commitment to 
implement the most aggressive and comprehensive reforms of 
offshore oil and gas regulation and oversight in U.S. history. 
Our fiscal year 2012 request is $358.4 million, an increase of 
$119.3 million over the fiscal year 2010 enacted budget, after 
adjusting for funds transferred to the Office of the Secretary 
as part of the ongoing reorganization of the former MMS.
    This request is offset by $151.6 million in eligible OCS 
rental receipts, $8.6 million in cost recovery fees, and $65 
million in inspection fees, resulting in a net request of 
$133.2 million.
    These additional resources are essential to carry out our 
important and diverse mission. As Mr. Moran has said and as 
Chairman Simpson has said, on April 20, 2010, explosions rocked 
the Deepwater Horizon drilling rig, leading to the sinking of 
the rig, the tragic deaths of 11 workers, serious injuries to 
many others, and the release over the course of almost 3 months 
of nearly five million barrels of oil into the Gulf of Mexico. 
As you know, it was the largest oil spill ever in American 
waters.
    The Deepwater Horizon blowout and spill brought to light 
serious deficiencies in the regulatory framework for offshore 
drilling. Over the past several months we at BOEMRE have worked 
hard to address these deficiencies and to restore public 
confidence in offshore oil and gas drilling.
    Our ongoing reorganization and reform efforts are informed 
by the results of multiple investigations and reviews, 
including inquiries conducted by the Department of Interior 
Safety Oversight Board appointed by Secretary Salazar, the 
Presidential National Commission on the BP Deepwater Horizon 
oil spill, the National Academy of Engineering, and the DOI 
Office of Inspector General.
    Consistent with the findings of the Safety Oversight Board 
and the DOI OIG, the President's Commission concluded that 
there were profound weaknesses in the regulation and oversight 
of offshore drilling, stemming largely from conflicting 
missions, a lack of authority, a lack of resources, and 
insufficient technical expertise.
    The reorganization and related reforms that would be funded 
by this fiscal year 2012 request are intended to address these 
shortfalls, while at the same time allowing for continuity of 
operations and ongoing exploration and production.
    The centerpiece of the reorganization is the creation of 
three strong independent entities to carry out the missions of 
promoting energy development, regulating offshore drilling, and 
collecting revenues. In the past these three conflicting 
functions resided within the same bureau, MMS, creating the 
potential for internal conflicts of interest.
    This reorganization process began on May 19, 2010, when 
Secretary Salazar signed Executive Order 3299, which dissolved 
the MMS and called for the establishment of three new entities 
consisting of, number one, the Bureau of Ocean Energy 
Management, which will be known as BOEM; the Bureau of Safety 
and Environmental Enforcement, which will be known as BSEE; and 
the Office of Natural Resources Revenue, which is known as 
ONRR.
    Now, the new BOEM will be responsible for managing 
development of the Nation's offshore resources in an 
environmentally and economically responsible way. Its functions 
and responsibilities will include leasing, plant 
administration, environmental studies, NEPA, or National 
Environmental Policy Act, analysis, resource evaluation, 
economic analysis, and the Renewable Energy Program.
    The new BSEE will enforce safety and environmental 
regulations. Its functions and responsibilities will include 
permitting, inspections, offshore regulatory programs, and oil 
spill response, as well as newly-formed training and 
environmental compliance functions.
    As you know, ONRR, which was the revenue collection arm of 
the former MMS, has already become a separate entity within the 
Office of the Secretary.
    The fiscal year 2012 budget request supports the effective 
reform and reorganization of BOEMRE and consists of a number of 
critical investments, which are detailed in my lengthier 
statement. These include, just to touch on the highlights, 
first, an increase in inspection capability that will enable us 
to conduct additional inspections and oversee high-risk 
activities. This part of the request will allow the development 
of a sufficiently-staffed inspection program that will enable 
offshore oil and gas exploration and production to continue 
while protecting the environment and improving worker safety. 
BOEMRE has begun to increase this capability with funds 
provided in the fiscal year 2011 continuing resolutions.
    Second, in investment and permitting resources, to sustain 
increased oversight and efficient review and processing of 
various kinds, including development activities such as permit 
processing and approval.
    These are simply two of a large number of areas in which 
capacity needs to be dramatically improved and enlarged. Other 
areas include an expansion of NEPA and environmental studies 
staff, funding for environmental compliance and investment in 
engineering studies and an increase in oil spill research.
    As I have discussed and as you have from others, the 
Deepwater Horizon tragedy exposed significant weaknesses in the 
way this agency has historically done business. A consensus has 
formed around the bottom-line conclusion that this agency 
historically had insufficient resources to provide an 
appropriate level of regulatory oversight of offshore oil and 
gas development.
    These shortcomings have become more pronounced as 
operations have moved into deeper and deeper waters. We believe 
the substantial budget increase contained within the 
President's fiscal year 2012 budget request is an extremely 
important step towards bridging the gap between the resources 
the agency currently has and the resources it needs to properly 
discharge its important responsibilities.
    Mr. Chairman, Mr. Moran, other members, this concludes my 
statement. I would be happy to answer any questions you may 
have.
    [The statement of Michael Bromwich follows:]

    [GRAPHIC] [TIFF OMITTED] T6897A.233
    
    [GRAPHIC] [TIFF OMITTED] T6897A.234
    
    [GRAPHIC] [TIFF OMITTED] T6897A.235
    
    [GRAPHIC] [TIFF OMITTED] T6897A.236
    
    [GRAPHIC] [TIFF OMITTED] T6897A.237
    
    [GRAPHIC] [TIFF OMITTED] T6897A.238
    
    [GRAPHIC] [TIFF OMITTED] T6897A.239
    
    [GRAPHIC] [TIFF OMITTED] T6897A.240
    
    [GRAPHIC] [TIFF OMITTED] T6897A.241
    
    [GRAPHIC] [TIFF OMITTED] T6897A.242
    
    [GRAPHIC] [TIFF OMITTED] T6897A.243
    
    [GRAPHIC] [TIFF OMITTED] T6897A.244
    
    [GRAPHIC] [TIFF OMITTED] T6897A.245
    
    [GRAPHIC] [TIFF OMITTED] T6897A.246
    
    [GRAPHIC] [TIFF OMITTED] T6897A.247
    
    [GRAPHIC] [TIFF OMITTED] T6897A.248
    
    [GRAPHIC] [TIFF OMITTED] T6897A.249
    
    [GRAPHIC] [TIFF OMITTED] T6897A.250
    
    [GRAPHIC] [TIFF OMITTED] T6897A.251
    
    [GRAPHIC] [TIFF OMITTED] T6897A.252
    
    Mr. Simpson. Mr. Gould.

               OPENING REMARKS OF DIRECTOR GREGORY GOULD

    Mr. Gould. Mr. Chairman, Mr. Moran, and members of the 
subcommittee, I appreciate the opportunity to testify today on 
the fiscal year 2012 budget for the Office of Natural Resources 
Revenue or ONRR.
    ONRR's 2012 budget is $148 million, which represents a 
significant but necessary increase over the 2010 enacted level. 
It is also important to view this request within the context of 
the economic benefit ONRR provides to the Nation and the recent 
challenges we have faced as an organization.
    On average ONRR disperses $10 billion a year to American 
Indians, states, and the U.S. Treasury. The budget request 
provides the necessary resources to implement the revenue 
management reforms highlighted by recent GAO and OIG reports 
and the reorganization announced by the Secretary. Our request 
provides the funding needed to improve the Department's revenue 
management activities.
    Last year Secretary Salazar spearheaded an aggressive 
effort to reform the Department's offshore energy and renewable 
revenue management programs. On October 1 of last year ONRR was 
established in the Office of the Secretary under the Assistant 
Secretary for Policy Management and Budget. With the support of 
Assistant Secretary Rhea Suh and Director Bromwich the 
reorganization of ONRR took place as planned and without 
disruption, eliminating prior conflicts of interest, mitigating 
the risks of organizational change, and allowing a greater 
focus on opportunities for improvement.
    Following a transition to PMB, ONRR initiated a top-to-
bottom strategic review to concentrate our efforts on the 
continued improvement of the Department's revenue management 
activities. Through this effort ONRR assessed potential 
improvements and developed the framework for implementing 
current and future initiatives. ONRR is now proactively 
investing resources to implement initiatives that will allow us 
to achieve the organization's three priority goals: collecting 
every dollar due, disbursing accurate revenues and information, 
and restoring ONRR's credibility with the public.
    The 2012 budget will enable us to implement the initiatives 
identified during a strategic review in response to the 
numerous recommendations ONRR has received. Since 2003, ONRR 
has been the subject of more than 100 internal and external 
evaluations, and we have implemented over 1,000 
recommendations. The 2012 funding is critical to ensure the 
closure of many of the remaining internal and external 
recommendations.
    Recently the GAO testified before this committee on their 
annual high-risk report. The report cites three deficiencies 
and stated that the Department's revenue collection policies 
needed to ensure that, one, the Federal Government receives a 
fair return on its oil and gas resources, also known as the 
government take; two, Interior completes its production 
verification inspections; and three, Interior's data on 
production and royalties are consistent and reliable.
    BLM and BOEMRE are working to address the first two 
deficiencies, and ONRR is supporting them as they conduct 
studies of government take under different management 
structures. ONRR's budget request also provides funding for 
additional production meter inspectors and a feasibility study 
on the use of automated production metering systems.
    The GAO's third deficiency relates to the accuracy of 
royalty and production data that ONRR collects from industry. 
We agreed with GAO when they first raised this issue in 2008, 
and we have been working diligently to implement improvements 
in the quality of company-reported data.
    Several of ONRR's 2012 budget initiatives relate directly 
to implementing GAO's recommendations. The GAO identified 50 
DOI recommendations in their high-risk report. ONRR is 
responsible for implementing 11 of the recommendations. We have 
made significant progress on all 11 of these recommendations. 
In fact, five have been implemented, and the funds we are 
requesting will allow us to fully implement the remaining six.
    It is important to note that although companies report 
their own data, ONRR has a sophisticated accounting and 
detection system and a comprehensive risk-based audit and 
compliance program to target underpayments and to ensure that 
royalties do not go uncollected. Our audit program has been 
strengthened in recent years as a direct result of funding from 
this committee. In fact, over the last 5 years our Audit and 
Compliance Program has detected and collected more than half a 
billion dollars in companies' initial underpayments.
    In addition to our Audit and Compliance Program, ONRR has a 
strong partnership with the Inspector General and the U.S. 
Attorney's Office to jointly pursue companies that 
intentionally underpay royalties on federal and Indian lands.
    This is a very exciting time for us here at ONRR as we 
continue to develop, implement, and improve the Department's 
revenue management activities and move forward on implementing 
critical reforms.
    I would like to thank the committee for all the support 
they have provided.
    Mr. Chairman, this concludes my statement, and Debbie 
Tschudy, the Deputy Director of ONRR, and I are happy to 
respond to any questions that you may have.
    [The statement of Gregory Gould follows:]

    [GRAPHIC] [TIFF OMITTED] T6897A.253
    
    [GRAPHIC] [TIFF OMITTED] T6897A.254
    
    [GRAPHIC] [TIFF OMITTED] T6897A.255
    
    [GRAPHIC] [TIFF OMITTED] T6897A.256
    
    [GRAPHIC] [TIFF OMITTED] T6897A.257
    
    [GRAPHIC] [TIFF OMITTED] T6897A.258
    
    [GRAPHIC] [TIFF OMITTED] T6897A.259
    
    [GRAPHIC] [TIFF OMITTED] T6897A.260
    
    [GRAPHIC] [TIFF OMITTED] T6897A.261
    
    [GRAPHIC] [TIFF OMITTED] T6897A.262
    
                           ROYALTY COLLECTION

    Mr. Simpson. Thank you, and again, thank you for being here 
today.
    One of the issues that I think our entire committee was 
concerned about when we had the GAO and the IG up here was the 
collection of royalties and whether the government could be 
confident that it was getting what it was due, and as they said 
I think during the hearing, they were not suggesting that there 
was fraud going on out there, they just had no way of being 
confident that actual, accurate reporting was going on.
    How is this going to change this?
    Mr. Gould. We are doing a number of things. We just 
finished a comprehensive strategic review of our organization, 
and during that review we looked for a number of ways to 
improve our revenue collection capabilities.
    One thing that in recent years and thanks to the support of 
this committee, we have been able to improve our computer 
systems. A lot of the information comes in electronically, and 
our computer systems now are upgraded so that we can actually 
have more upfront edits. So when the companies submit their 
data to us, we can do a quick company check from the 
information and the oil and gas operator information.
    After the computer does its work and with those 
improvements we also have an initiative in this budget request 
for 12 additional employees to actually then look at the 
exceptions. Every time the computer system kicks out 
information, we need somebody to look at that information and 
the discrepancy. This budget will allow us to hire 12 new 
people to enhance the data mining effort that we are currently 
undergoing.
    Mr. Simpson. You get your information that you count 
regarding the royalties that are going to be paid from the 
production records of the company. Right?
    Mr. Gould. There are two types of information that come in. 
We have information that comes in from the companies that pay 
the royalties. Then we have information that comes in from the 
producers that includes the volumes and information related to 
the production.
    So those two pieces of information then are compared to 
make sure that we are getting all the money that is due for 
production. And, as Debbie just pointed out, we also have a 
third-party verification process where we actually get the 
source information from the meters themselves.

                          RETAINING PERSONNEL

    Mr. Simpson. Okay. One of the things that was brought up 
also, Mr. Bromwich, during the IG's report was the difficulty 
that the Department is having with personnel because qualified 
experienced personnel are being hired by the oil companies, and 
we are having a hard time retaining them.
    What are we doing about that?
    Mr. Bromwich. We are doing a number of things about it. 
Part of it is a generational thing. Many of our employees are 
approaching retirement age, and so they are not surprisingly 
heading for the exits.
    We are doing several things. Number one, I have done, I 
think I mentioned to both of you when I met with you, 
recruiting tours. So I went in October and early November to 
some of our best engineering and petroleum engineering schools 
in the Gulf, LSU, University of Houston, Texas A&M, University 
of Texas, other schools, to try to recruit some of the best and 
the brightest of the engineers who were in school, telling them 
that their country needs them working for us, regulating this 
terribly important industry offshore.
    And the result of that recruiting tour with a very narrow 
jobs announcement, narrow in terms of time, was overwhelming, 
and so that was very rewarding, and we are bringing people on.
    Mr. Moran. I would be curious. How many people were you 
actually able to hire? Because the process of actually hiring 
somebody in today's Federal government seems impossible. Of all 
those people that tried to get hired, Mr. Chairman, would you 
mind my asking, how many did you actually hire?
    Mr. Bromwich. Well, we brought on 70 new people since June 
1 of last year. Now, many of those are backfills, so I do not 
want to suggest that those are net adds, but 70.
    Mr. Moran. But they are new people?
    Mr. Bromwich. They are new people.
    Mr. Moran. Okay.
    Mr. Bromwich. That is right.
    Mr. Moran. That is good.
    Mr. Bromwich. That is exactly right.
    Mr. Moran. Excuse me for the interruption.
    Mr. Bromwich. No, not at all. And in addition to the 
engineering people that we are bringing on, we obviously have a 
great need for environmental scientists and people with 
environmental backgrounds. So we are going to be doing the same 
kind of thing that we did in October and November in 2 weeks. 
We are starting to go out to various environmental studies 
programs in our universities across the country, again, trying 
to recruit them and make them aware of the important public 
service opportunities that are available for them in our 
organization.
    But, Mr. Chairman, you are quite right in identifying the 
problem of having our people recruited away either before we 
get them or after we have them by industry, because there is a 
significant salary disparity.
    Mr. Simpson. Do you have any idea what the disparity is?
    Mr. Bromwich. I do not, but it is enormous, and it grows 
over time in terms of the seniority of the people. We have 
anecdotal information, but we can try to collect that for you.
    One of the things we are trying to do, and this mirrors 
what other countries that do offshore regulation do, we are 
trying to get exceptions and exemptions from the normal federal 
salary scale in recognition that we are competing with an 
industry that can pay far more. So we have a package that is 
currently pending at the Office of Personnel Management that 
would help to narrow the gap between what engineers and other 
specialists can make in private industry versus what they can 
make in long-term careers with us.
    I do not know the way that is going to turn out. I hope 
that the need is so dramatic that it will be granted, but it 
just gives you a sense for some of the levers we are trying to 
use, some of the tools that we are trying to use to get the 
best people and keep them.

                             REORGANIZATION

    Mr. Simpson. Okay. You mentioned during your testimony that 
at the end of this fiscal year BOEMRE will be split or divided 
into BOEM and BSEE.
    Mr. Bromwich. That is right.
    Mr. Simpson. Given the lack of coordination between many 
agencies within the Department of Interior, are you concerned 
that these two agencies might not work well together and 
further reduce the efficiencies and delays in oil and gas 
development, and how will you prevent this?
    One of the things that I hear from industry is that what 
they need more than anything else is predictability, and while 
there was criticisms of the old MMS and you are right, there 
was sometimes too close a relationship between the regulators 
and the permitees at least it was some predictability. And that 
is what they need, and they are saying, you know, it used to be 
we would submit an application for a permit, and it might come 
back to us two or three times for additional information. Now 
they are seeing permits come back to them 20 and 30 times for 
additional information, and it is just delaying the permitting 
process.
    How are we going to get these agencies to make sure they 
work together and that while we do the proper oversight and 
environmental reviews it is not just a continual foot-dragging?
    Mr. Bromwich. Let me answer two parts to that question. 
One, how do we make the process efficient? I think as both you 
and Mr. Moran mentioned in your opening statements, Deepwater 
Horizon was a shocking event for everyone, and not surprisingly 
it prompted a lot of activity within the agency in terms of 
developing new rules, new processes, new procedures.
    As those were rolled out to industry, they were 
complicated, and it took some time for industry to absorb them, 
and frankly, it took some time for our people to absorb them, 
understand them, explain them, and understand how to evaluate 
new permit applications that contained the new information.
    I think that has dramatically improved over the last few 
weeks. I think if you ask industry as I do almost every day 
whether we are doing better now, the answer is yes, because we 
have settled into, I will not say a pattern but, more of a 
regular course of doing business, where most of the questions 
related to the new rules and guidance we put out had been 
answered and answered in a way that is clear to industry.
    So I think we are in a much better place now than we were 
in June or July or August or September, and I think things will 
continue to improve.
    Getting to the core of your question, though, how do we 
make sure that operational efficiencies are not impaired by the 
split. We focused on that risk since day one, and in fact, we 
have teams of personnel that are focusing on the inter-
dependencies between the functions that will now be the 
separate agencies, and they are identifying ways to make sure 
that the operations remain efficient and whole and that the 
split into two separate agencies does not cause impairment of 
operational efficiency. It is a terribly important issue. We 
are focusing on it very intently, and I think we are going to 
solve the problem.
    Mr. Simpson. I hope so because that is probably the primary 
complaint that I hear from people. As you know, any business 
that plans, they need to have some predictability with these 
permits. They need to be able to predict when they are going to 
be able to drill in order to keep the refineries going.
    Mr. Bromwich. That is absolutely right, and I think that we 
have come a long way. We now have since last June when new 
requirements first went into effect, we granted 38 shallow 
water permits, and the pace has been pretty steady recently. 
And then we started as you noted in your opening statement to 
grant deep water permits. Now, it is not really accurate to say 
there were no deep water permits that were issued, because that 
suggests that industry was ready.
    In fact, until February 17 there was no containment 
capability that existed for deep water drilling. That is when 
the two containment groups, the Helix Group, and the Marine 
Well Containment Company, which is composed of the majors, that 
is when they announced that they have the capacity ready, and 
they were able to provide the containment resources in the 
event of a sub-seas spill.
    So I think, and industry, I think, agrees with me on this, 
that that is the date from which to measure the issuance of 
deep water permits, and we were able within 11 days of that 
readiness announced by industry to issue the first deep water 
permit. And then as you know, we issued another one just last 
week, and there will be more to come.
    So in terms of predictability, which I completely agree 
with you is so important, I think that with these first two 
deep water permits that have been approved and with my having 
said and Secretary Salazar having said that there are more to 
come, we are providing the kind of predictability that industry 
craves and needs.
    Mr. Simpson. Thank you. Mr. Moran.

            GENERAL ACCOUNTABILITY OFFICE: HIGH RISK REPORT

    Mr. Moran. Thank you very much, Mr. Chairman. I want to 
thank all the witnesses for their service.
    The chairman conducted a very good hearing a couple weeks 
ago with the GAO on the Interior Department, and GAO identified 
Interior's onshore and offshore oil and gas management as being 
on of the highest-risk list for fraud, waste, and abuse.
    I want to ask Mr. Gould first of all, because in the GAO 
testimony they said Interior collected lower levels of revenue, 
in other words, you, your organization collected lower levels 
of revenue for oil and gas production in all but 11 of 104 oil 
and gas resource owners, including states and other countries.
    Do you agree with GAO's assessment of the U.S. Government's 
take of oil and gas revenue compared to other countries, and 
can you give us a feel for the kind of revenue loss that the 
taxpayers are bearing? And can we rectify that?
    Mr. Gould. We are working very closely with BLM and BOEMRE 
on a government take study. When we get the results of that 
study, we will all be ready to implement it.
    But until that study is done I do not think we are in a 
position to know what type of revenue structure is the best.
    Mr. Moran. Mr. Gould, before you move it over to Bromwich, 
how long have you been working in the area of natural resources 
revenue for the Interior Department, Mr. Gould?
    Mr. Gould. For 29 years.
    Mr. Moran. For 29 years. And so we get a GAO assessment 
that you are on the highest-risk list for waste, fraud, and 
abuse, that the share of the taxpayers' revenue from oil and 
gas is at the very bottom in terms of what other oil and gas 
resource owners are getting.
    And your response is that you are going to commission a 
study and then look at the issue. After 29 years of 
professional experience in this. So it is fair then, I think, 
after 29 years to ask you, do you personally think that the 
taxpayers are getting the fair share of the revenue that is due 
them from these natural resources that belong to them, their 
children and grandchildren?
    Mr. Gould. Congressman, respectfully, I am a geologist, not 
an economist. I am in charge of the collection part of that 
process. In terms of the collection part of that process and 
GAO's criticisms, we did agree with GAO in 2008, when they said 
that the data needed to be cleaned up. And we have done a lot 
since 2008. Right now we have a sophisticated accounting 
detection system to make sure that we are collecting everything 
that is due.
    So in terms of the third part of GAO's criticism of what we 
are doing, I believe we are doing a lot right now. The budget 
request that we have in front of us is going to help us to 
ensure that we do collect every dollar due.
    In terms of the fair return, we need to let the study go 
through and get the information. I honestly do not have an 
opinion on government take.
    Mr. Moran. No opinion. You have been involved in the 
industry for 29 years. Now, we obviously have not been, and Mr. 
Simpson knows a lot more about it than I do, but you know, we 
form some opinions pretty readily when we see some of the 
numbers. The states get half of the royalties. You wonder if 
they would not feel shortchanged.
    I want to continue to focus on Mr. Gould and Ms. Tschudy 
because Mr. Bromwich, you were doing other things for the 
public interest while this stuff was going on.

                       DEEP WATER ROYALTY RELIEF

    What is the situation with regard to the royalty-free deep 
water oil and gas leases in the Gulf of Mexico, and I am sure 
you must have had some opinion on the discussion that has taken 
place on the Floor and in press conferences and Mr. Markey, 
certainly he has a loud-enough voice to reach your ears I would 
think, that there is billions of dollars in revenue that is 
being foregone that should be going to the taxpayers because of 
what can only be described, well, what has been described as a 
screw up on the part of the professionals in this area when 
they put together the contract.
    You know, we try to delve into it, they say, well, it was 
one person's responsibility, that person says, well, it was 
their responsibility. The fact is that this is a situation 
where the contract that was made when oil was very cheap was 
supposed to yield appropriate revenues to the Federal 
Government when the price of oil went up. The price of oil went 
up, and they tried to collect, and McGee said, well, wait a 
minute. The staff messed up, and we are not legally obligated 
to pay this money, which amounts to billions of dollars, and 
the court upheld them saying that the staff messed up.
    So what happened? I mean, it is a serious issue, is it not?
    Mr. Gould. Yes, a very serious issue.
    Mr. Moran. Yes. Tens of billions of dollars of taxpayers.
    Mr. Gould. As of January 31, $7.2 billion is what we 
estimate to be the foregone royalties. But it is important to 
note that the Supreme Court did not hear that case, did not 
accept that case. It was determined that the law itself 
actually prevents us or prevents BOEMRE from applying a price 
cap or price limit.
    So right now the way the law is written, a certain volume 
has to go royalty free, and we have no control over that based 
on the Supreme Court action.
    Mr. Moran. So this is going to continue, and what would you 
say is the total cost to the federal taxpayer of this mess up?
    Mr. Gould. We are working closely with Director Bromwich 
and his staff and we have estimates of $15.21 billion.
    Mr. Moran. Fifteen point two billion dollars that should be 
going to the taxpayers in reimbursement for the oil and gas 
they own but instead is going to enhance the profit margin of 
the oil and gas companies. I am not exaggerating here. That is 
the case, is it not?
    That is an expensive mistake, you would agree.
    Mr. Gould. Well, I do want to make sure it is clear that it 
was not a mistake we made in our office.
    Mr. Moran. Who made the mistake? I do not want to belabor 
this except for the fact we are talking about $15.2 billion of 
taxpayers' money. I mean, you know, we cut $1 billion out of 
Head Start Programs, we are cutting here, we are cutting there 
to save a million here and there, and here is $15.2 billion we 
gave up in revenue.
    Mr. Gould. I truly understand your concern, and again, as a 
taxpayer I agree with you.
    Mr. Moran. Yes.
    Mr. Gould. But we do not have any legal mechanism to put 
any type of price caps on this.
    Mr. Moran. But did there not used to be price caps? When 
the price of oil went up, then the--no?
    Mr. Gould. No, it was not.
    Mr. Moran. Now, so how do we protect the government's 
interest in this oil and gas that they own?
    Mr. Gould. At this point these are the same questions, and 
I am sorry to say, but I am going to ask the leasing office.
    Mr. Moran. All right. Earn your pay such as it is, Mr. 
Bromwich.
    Mr. Bromwich. I am not thoroughly familiar with these 
issues, but hearing you describe it and hearing the magnitude 
of the dollars, it is a serious problem, and I will learn more 
about it and get back to you with fuller answers.
    Mr. Moran. Okay. Well, you know, I do not really want to 
just give up at this point, but okay. Well, you need to get 
back to us. This is not going to go away.
    Mr. Bromwich. Absolutely. We understand.
    Mr. Gould. There is no prohibition. When they put the law 
into effect, they put the law into effect that up to certain 
production levels would go royalty free, and that was the only 
thing that the law said. It did not provide any other 
mechanism. The law does not allow it.
    Mr. Bromwich. It sounds like the legislation does not 
permit it.
    Mr. Gould. That is correct.
    Mr. Bromwich. So the legislation would have to be changed.
    Mr. Moran. So it is the Congress's fault. Well, the 
Congress put it in with the clear impression that this was low-
priced oil now. When it goes up higher, then we will collect 
royalties, but we want to keep the industry going because the 
price of oil was $20, $30 a barrel. Now that it is over $100 a 
barrel, everyone assumes that there should be, in fact, the 
head of Chevron says, yes, we ought to be paying this, but we 
are not.

                        AUDITING AND COMPLIANCE

    Okay. I just have one last question, and Mr. Gould, 29 
years, it is fair to keep asking. Over the past 5 years your 
Audit and Compliance Program has collected $110 million from 
companies that underreported. The GAO told us in this excellent 
hearing that Chairman Simpson called that really you just take 
the numbers that the oil and gas companies give you. So you can 
deal with that with GAO, but that is what we are being told.
    And in fact, they get on time reporting, because they need 
to know what the value of their inventory is, but you are less 
interested, was the implication.
    So you would think, though, that the Federal Government 
might invest in more careful auditing on the industry. In the 
IRS for every dollar we spend on program integrity, in other 
words, going after people who it looks like have not paid their 
fair share, we collect $10. So one to ten is a pretty good 
ratio.
    Do you know what the ratio is? In other words, if we put 
more money into more careful auditing of the oil and gas 
industry, would it yield more revenue to the taxpayer?
    Mr. Gould. Yes, it does, and actually our Audit and 
Compliance Program historically averages about $1 to $4.
    Mr. Moran. One to four. So for every dollar you put in you 
get back about $4.
    Mr. Gould. From our Audit and Compliance Program, that is 
correct.
    Mr. Moran. Collections. Okay. Mr. Chairman, thank you. It 
is a good hearing.
    Mr. Simpson. Ms. Lummis.

           OPENING REMARKS OF CONGRESSWOMAN CYNTHIA M. LUMMIS

    Mrs. Lummis. Thank you, Mr. Chairman.
    In Wyoming's experience the auditing really does improve 
collections for a period of time, and then it declines for 
obvious reasons. Compliance improves and so that collection 
declines because compliance has been ramped up. So we had that 
experience as well.

                            WELL CONTAINMENT

    A couple questions. Mr. Bromwich, this goes back to the 
Marine Well containment and the Helix containment devices that 
have now been approved. Is the word, approved, correct?
    Mr. Bromwich. No, and I am glad you asked the question. We 
do the evaluation as to whether containment resources are 
sufficient in the context of individual applications that are 
submitted by operators, and the operator has discretion which 
of these two containment groups to designate, or it does not 
have to designate either of these two groups.
    So the best way to describe it, these are resource 
alternatives available to individual operators that they can 
then include in their individual applications for permits. They 
can designate one, they can designate another, they can 
designate both, or if they have resources of their own, they do 
not have to designate any.
    And so we have reviewed and reviewed the test results of 
the capping stacks, the devices that can actually be put on top 
of runaway wells, and we are satisfied that those have the 
capabilities that the groups have said they would. But each 
assessment needs to be done in the context of an individual 
application, which has its own water depth, its own pressure 
configuration, and everything else.
    Mrs. Lummis. Okay. Great. Thank you. That is informative.

                               PERMITTING

    Now, how many permits are ready and awaiting approval now 
that February 17 has passed, and I assume that they are 
included as part of the permit now?
    Mr. Bromwich. Right. The individual operator designates the 
containment resources that they are designating as available to 
them, that they have contracted for.
    Mrs. Lummis. Got it.
    Mr. Bromwich. That are available in the case of a blowout.
    Mrs. Lummis. Okay. How many permits fit that description? 
They are ready and awaiting approval now that February 17 has 
passed?
    Mr. Bromwich. We have granted two.
    Mrs. Lummis. Yes.
    Mr. Bromwich. We have a relatively small number of permits 
that are pending. My best estimate is that we will have 
additional permits that will be granted in the next few days.
    Responsive to Chairman Simpson's comment about 
predictability, what we are seeing now, now that we granted the 
first two deep water permits, is more coming in. So the number 
of pending permits now exceeds ten for the first time since 
Deepwater Horizon. And so I think that shows that industry 
says, okay, this agency is going to approve permits, 
containment capabilities are now available, so we are going to 
move forward.
    So looking around the corner the thing that I am concerned 
about, frankly, given our lack of resources, is whether we have 
sufficient permitting personnel who are going to be available 
to process what I anticipate will be a surge in permit 
applications. We were obviously hopeful with the President's 
$100 million supplemental request for fiscal year 2011 that 
that kind of help would be on the way, but you know better than 
I that through the series of continuing resolutions that help 
has not been forthcoming.
    So we are working on various alternatives to try to bridge 
that gap to make sure that we have the resources that we need, 
and one of the things that I have done recently is reach out 
and try to see whether we could get retired petroleum engineers 
from industry who would be willing to come in on a temporary 
basis to help our permitting personnel. They would be under the 
control of our people, no retired people from industry would 
have the final authority to approve permits, but they would be 
manpower that would help us do that.
    So that is just one alternative that we are considering, 
but it is our effort to act and to think about these issues 
before a crisis hits and before a bottleneck develops. And so 
we are working on that. I have talked to top executives of some 
companies asking them to reach into their ranks of retirees to 
see if we can get some help.

                        NON-PRODUCING LEASE FEE

    Mrs. Lummis. Good. Now, I note that you are proposing a $4 
per acre fee on non-producing wells, so I have some questions 
about that. For example, what does an industry pay on average 
for a lease at auction?
    Mr. Bromwich. Well, it can be millions or billions of 
dollars. I do not have a per acre figure for you.
    Mrs. Lummis. Okay, and those leases are usually 10 years?
    Mr. Bromwich. Generally.
    Mrs. Lummis. Okay, and what is the annual rental on those 
leases?
    Mr. Bromwich. The annual rental I guess it would depend. It 
is a sliding scale. The rental, just to be clear, I am sure you 
know this, is only paid until production begins, and then a 
royalty rate is assessed.
    Mrs. Lummis. Yes, and the royalty rates are?
    Mr. Bromwich. I do not have the percentages in front of me. 
I can get back to you on that.
    Mrs. Lummis. When you issue a lease at auction, do the 
royalty rates vary?
    Mr. Bromwich. Yes. They have.
    Mrs. Lummis. And do they vary based on seismic data?
    Mr. Bromwich. I am not sure. Let me get back to you on 
that.
    Mrs. Lummis. Okay. I know in Wyoming, you know, we usually 
put them out at, oh, 16 percent. If nobody picks them up, then 
we have an over-the-counter leasing process at a 12\1/2\ 
percent royalty, but even that is subject to change. So I was 
just curious about what the federal system did.
    Mr. Bromwich. I would like to turn the tables on Mr. Gould 
who does the collection. I think he probably has a better idea 
and Ms. Tschudy about the royalty rates that we collect.
    Mr. Gould. Eighteen and three-quarters percent offshore.
    Mrs. Lummis. Okay. Well, that is pretty generous, and in 
the private sector, leasing that is going on in the Niobrara 
formation in Wyoming, which is shale oil, royalties are running 
between 15 and 20 percent. The highest I have ever heard in the 
last few months is 20 percent and almost no one is getting 
that. But that is better than most people are getting onshore 
in Wyoming on private land in the Niobrara.
    Of the leases still held have the leasees continued to pay 
their annual rent even on leases awaiting permits to drill?
    Mr. Bromwich. Yes.
    Mrs. Lummis. Okay. Does your legislative proposal to charge 
a $4 per acre fee on non-producing wells include wells that 
have been waiting on you over the last year?
    Mr. Bromwich. I am not sure. I think it is one of the 
subjects of discussion, and we certainly recognize that 
interruptions in the process that had been caused by the need 
for regulatory changes and the subsequent slowdown in the 
permitting process should be recognized in this process. So I 
think those issues are in the process of being worked through.

                            CIVIL PENALTIES

    Mrs. Lummis. Okay. Very good. Regarding civil penalties, as 
I understand it the Bureau levies a civil penalty of $35,000 
per day per incident.
    Mr. Bromwich. That is right.
    Mrs. Lummis. Okay.
    Mr. Bromwich. Which I think is terribly inadequate.
    Mrs. Lummis. Too low. Okay.
    Mr. Bromwich. Yes.
    Mrs. Lummis. And you might be right, but I am curious to 
know what criteria for levying civil penalties should be. So 
under what circumstances are civil penalties levied?
    Mr. Bromwich. There is a complicated system, frankly, a 
too-complicated system within the agency for referring 
violations for consideration of civil penalties and then a 
decision on civil penalties. One of the things that we are 
doing in response to the various reviews and reports on us is 
to look at this whole structure of civil fine referrals and 
civil fine assessments.
    My own impression, my own view is that it is terribly 
inefficient, and it is quite inadequate. So we have one of our 
implementation teams that was formed in response originally to 
the Secretary's Safety Oversight Board report looking at 
exactly that issue, that is, enforcement issues and civil fine 
issues.
    So my view that the $35,000 ceiling is inadequate is based 
on my intuitive sense that when we have serious violations for 
companies that are making large revenues, that $35,000 at its 
peak is completely inadequate to deter violations.
    Mrs. Lummis. Okay.
    Mr. Bromwich. Completely inadequate to deter serious 
violations.
    Mrs. Lummis. And are these subject to rulemaking, the 
criteria under which a civil penalty is issued?
    Mr. Bromwich. Yes. They are subject to rulemaking, but the 
ceiling, although we can make cost-of-living adjustments within 
narrow limits, a broader raising of the ceiling requires 
legislation.
    Mrs. Lummis. Okay. What additional Congressional authority 
would be required?
    Mr. Bromwich. I think legislation specifically raising the 
fine ceiling.
    Mrs. Lummis. Okay.
    Mr. Bromwich. Which is enshrined in law.
    Mrs. Lummis. Just raising.
    Mr. Bromwich. Right.
    Mrs. Lummis. Okay.
    Mr. Bromwich. Yes.
    Mrs. Lummis. All right, and you have an up to criteria in 
your rules right now?
    Mr. Bromwich. We have criteria right now. Again, those are 
subject to review, and my own view is that that will probably 
substantially change over the next several months.
    Mrs. Lummis. Do you have a right number in mind in terms of 
a per day, per incident penalty?
    Mr. Bromwich. I do not.
    Mrs. Lummis. Okay, and when I was on Natural Resources you 
came in when you were new, and we talked about your background, 
and it sort of, if I recall, forensic. Do you not have a kind 
of forensic background?
    Mr. Bromwich. Oh, I have dabbled in forensic science but 
only as someone running investigations. I never did forensic 
science.
    Mrs. Lummis. Okay.
    Mr. Bromwich. My background as Mr. Moran noted was in law 
enforcement.
    Mrs. Lummis. Okay. Well, very good. My time is probably up, 
is it not, Mr. Chairman? Thank you.

           OPENING REMARKS OF CONGRESSMAN MAURICE D. HINCHEY

    Mr. Hinchey. Thank you very much, Mr. Chairman, and I want 
to thank you very much. Thanks for being here, thanks for 
everything that you do. I also want to thank and applaud you 
basically for something that is very important that you did 
last year, of course, the Deepwater Horizon management, how 
that spill last year was taken care of, how you managed it, how 
you did all of the necessary work dealing with it. It was an 
exemplary set of circumstances, and we applaud you and thank 
you very much for what you have done.
    A lot of progress has been made, but there are a lot of 
things that really need to be done, conflicts of interest, 
conflicting missions that plague the former Minerals Management 
Service. All of these things that really need to be taken care 
of.
    Just as a curiosity, in the context of what Mr. Moran said 
a moment ago, he was asking something, and you said you could 
not do it because there was a restriction in the rules. Would 
you be kind enough, not now, I am not asking you to do it now, 
but would you provide me with a play on that restriction, the 
details, how that is set up, when it got set up, what the 
restrictions are that you have to deal with? I think this is 
something that, you know, that we should really be looking into 
and trying to address.
    Mr. Gould. Yes. We will coordinate with BOEMRE to provide 
you with a detailed summary.
    Mr. Hinchey. Thank you. Thanks very much. I appreciate it.

                     ENCOURAGING LEASE DEVELOPMENT

    Mr. Bromwich, I wanted to ask you a specific question. As 
the price of oil continues to increase we are, once again, 
hearing the call for more drilling on public lands and in 
public water. Yet before we go down that road it is important 
for us to understand just exactly what is being done, how much 
has been allocated for them, what is being done on the land 
that they have in their control.
    Oil and gas companies, as I understand it, currently hold 
80 million acres under lease, yet the industry is only 
producing on 12 million of the 80 million of those acres. For 
offshore, specifically, there are a total of 38 million acres 
under lease, but the industry is producing on only 6\1/2\ 
million of the 38 million acres.
    That means that less than 25 percent of the acres leased on 
federal lands and water are actually being used and actually 
producing. All the rest is just staying aside, and apparently 
it has been aside for some time.
    Before we rush to open up new tracks for oil and gas 
exploration and criticize the pace at which the Department is 
issuing new deep water drilling bases, and I think that that 
has been put out, that criticism has been put out, which to me, 
frankly, does not make any sense. I think we need to make sure 
companies are taking advantage of the permits that they already 
have.
    So your budget proposes a $4 per acre fee on non-producing 
oil and gas leases to incentivize current lease holders to 
utilize existing permits. However, that is going to require 
legislation here, and it is very questionable as to whether or 
not this operation here is going to be willing to do it. We 
will see how that goes.
    But in the meantime what else can your department be doing 
to make sure these companies actually develop the leases that 
they have?
    Mr. Bromwich. Well, as you probably know, the President 
addressed this in his press conference last Friday.
    Mr. Hinchey. Yes.
    Mr. Bromwich. And he directed the Department of the 
Interior to report back to him within 2 weeks on the potential 
policy alternatives that might be available to further 
incentivize industry to develop the lands that are already 
under lease. So at the Interior Department we are busily at 
work trying to put together that report that will be delivered 
to the President. We are exploring a wide range of options, and 
we expect that report will be delivered on time at the end of 
next week.
    Mr. Hinchey. What do you think so far?
    Mr. Bromwich. Well, I think that there are a variety of 
techniques that we might use. We have already tried to work 
with developing incentives through the lease process. For 
example, the notion of shorter leases so there is not as large 
a risk that companies will not work aggressively to develop the 
properties under lease. They have a shorter period of time. 
There is obviously an incentive for them to do it faster.
    Another possibility that we have talked about and 
experimented with is changing the royalty rate and charging a 
lower rate if the property is developed very quickly so that 
they pay rental rate for a shorter period. The royalty rate 
starts kicking in sooner because the development is sooner and 
to try to incentivize that you could reduce the royalty rate in 
the first couple of years of development.
    So those are examples.
    Mr. Hinchey. I wonder about that, but the $4 is not a very 
high rate for them.
    Mr. Bromwich. No, it is not.
    Mr. Hinchey. And I think reducing that is not going to be 
an incentive for them to do anything positive. I think there 
are other ways of doing that.
    Mr. Bromwich. Well, there is no alternative that is beyond 
consideration. We are trying to look at the full menu of 
alternatives that are out there that will incentivize 
development.
    Mr. Hinchey. I hope that one of the considerations that 
might go under an alternative would be the reduction of the 
price there, because it is a very low price.
    Mr. Bromwich. Yes.
    Mr. Hinchey. And one of the things that we are seeing, of 
course, is a very high success of the drillers in terms of the 
economic circumstances. So this is something that we need to be 
paying a lot of attention to.
    Mr. Bromwich. Absolutely.
    Mr. Hinchey. Because these are materials that are owned by 
the people of this country.
    Mr. Bromwich. Absolutely.
    Mr. Hinchey. They are owned by the general public.
    Mr. Bromwich. Yes.
    Mr. Hinchey. And the general public is not really getting 
any advantage of the drilling process. In fact, they own it, 
somebody else comes in and drills it, takes it up, and then 
spends it for them.
    Mr. Bromwich. Right.
    Mr. Hinchey. You know, so there is something that really 
needs to be done here that is going to be much more effective 
on behalf of the general public of this country, not just for 
the oil companies but for the people here who are now spending 
so much of their income on the price of gasoline particularly.
    Mr. Bromwich. Right.
    Mr. Hinchey. So I appreciate that. I am looking forward to 
that, and I am hoping that we get a copy of what you sent to 
the President as well.
    Mr. Bromwich. That will be up to the President.
    Mr. Hinchey. Well, all right then. We are asking you for 
the same thing.
    Mr. Bromwich. Okay.
    Mr. Hinchey. We are asking you to provide for us the 
routine that you think and the circumstances that you 
understand in the context of the examination that you are 
engaged in now, and if you would be kind enough to provide us 
with that information that you come up with as a result of the 
investigation that you are engaged in, we would deeply 
appreciate it.
    Mr. Bromwich. Very good. Thank you.
    Mr. Hinchey. When do you think we will get it?
    Mr. Bromwich. I think you will get it soon after the 
President gets it is my guess.
    Mr. Hinchey. Okay.
    Mr. Bromwich. I do not usually say this, but that is a 
decision above my pay grade.
    Mr. Hinchey. Okay. Well, no. I mean, it is not really 
because you have an obligation to the President, of course, but 
you have an obligation to the Congress here.
    Mr. Bromwich. It is not my report. Let me just be clear. It 
is a Department-wide report.
    Mr. Hinchey. Well, make it clear to the Department wide 
that this Department here has asked for this.
    Mr. Bromwich. Okay.
    Mr. Hinchey. And we would like to get it as soon as they 
have the information that they have been able to put together.
    Mr. Bromwich. I will definitely pass that along.
    Mr. Hinchey. Thanks very much.
    Mr. Bromwich. You are very welcome.
    Mr. Simpson. Just out of curiosity, does every acre that is 
under lease contain resources, or are some of them actually 
dry?
    Mr. Bromwich. Some of them are dry.
    Mr. Simpson. That is shocking.
    Ms. Lummis, did you have other questions?
    Mrs. Lummis. You know, I do. Thank you, Mr. Chairman.

                               PERMITTING

    I do not understand this discrepancy, and I just want to 
ask you if you can account for it. The DOJ filed in federal 
court in Louisiana a claim that you have 270 shallow permits 
pending and 52 deep water permits pending, and this information 
is as I understand current as of yesterday. Do you know why 
there is that difference?
    Mr. Bromwich. Yes. The information included in the 
Department of Justice filing was in connection with Judge 
Feldman's directive for us to process a small number of 
designated permits in the context of a lawsuit. The affidavit 
filed by one of the people in our Gulf of Mexico region was 
done to demonstrate that focusing on those permits out of 
sequence as the Judge directed would divert our permitting 
personnel from other tasks that they had.
    The 270 number was designed simply to capture the larger 
universe of work that permitting personnel do, including 
relatively small but still meaningful adjustments or 
modifications of permits that are already granted.
    So included within the larger number are not drilling 
permits. They are adjustments or modifications. So I know there 
was a press release put out yesterday. It was extraordinarily 
misleading because the numbers that Members of Congress and 
others have focused on are new applications. If we wanted to 
start talking about applications to modify, we have granted 
thousands of those. Thousands.
    But some of them can be for relatively minor things, and so 
we thought it was inappropriate and misleading to cite those 
numbers because those are not the numbers that, Mr. Chairman, 
you and your colleagues have been interested in.
    Mr. Simpson. We would have criticized you if you would have 
done that.
    Mr. Bromwich. Yes, you would, and rightly so. And rightly 
so. So to have this alleged discrepancy pointed out when it is 
not a discrepancy at all and a simple turning to our webpage 
which shows these numbers on a daily basis and identifies what 
categories they are in, that would have been the appropriate 
way to handle it rather than to blast it out and suggest that 
people are not being candid about numbers.
    Mrs. Lummis. Okay, and so you did explain the 270 shallow 
permits. Now what about these 52 deep waters that this press 
release mentions?
    Mr. Bromwich. Same thing.
    Mrs. Lummis. So they are just requests to alter existing 
permits?
    Mr. Bromwich. Well, the 52, I do not have the release, 
Senator Vitter's release with me. Do you?
    Mrs. Lummis. I do.
    Mr. Bromwich. Okay.
    Mrs. Lummis. It just says because there are actually 270 
shallow water permit applications pending and 52 deep water 
permits.
    Mr. Bromwich. Yes. It is the same principle. They are 
things like applications to modify as opposed to applications 
for new wells or sidetracks or bypasses, which are the 
meaningful substantive reviews that our agency does and that 
takes so much time.
    Mrs. Lummis. Okay. So it is around ten when you look at 
brand new permits to drill?
    Mr. Bromwich. That are pending. Correct.
    Mrs. Lummis. That are pending. Okay. Great. Thank you.
    Mr. Bromwich. Does that help you?
    Mrs. Lummis. Yes, it does. It clears that up.
    Mr. Chairman, do I have time for one more question?
    Mr. Simpson. Yes.
    Mrs. Lummis. Thank you.

                     INVESTIGATIONS AND REVIEW UNIT

    The IRU. I want to ask a question about how that differs 
from the inspector general, and I know you are requesting $5.8 
million in 20 full-time equivalents for the IRU, so I am trying 
to understand what the IRU will do that is different from what 
the inspector general does.
    Mr. Bromwich. It is a very good question. As you know and 
as the chairman knows, there has been a history of allegations 
of corruption and misconduct within the agency as well as 
mismanagement of certain issues. In my experience, and I have a 
lot of experience in a lot of different organizations, in order 
to have a healthy organization you need to have the ability to 
handle certain kinds of allegations and investigations 
yourself.
    The Inspector General in Interior, the Inspector General in 
any Department, does not have adequate resources to do all of 
that. When I was at the Justice Department and I was the 
inspector general, all of the different components of the 
Justice Department, Bureau of Prisons, at that time the 
Immigration Service, DEA, FBI, all had their own internal 
affairs units. And so the inspector general would get 
allegations and then those that he did not have the resources 
or for some other reason did not want to handle would be 
flipped back to internal affairs. That is exactly the principle 
that we are talking about here.
    Mrs. Lummis. Okay.
    Mr. Bromwich. To create an internal affairs type 
capability, which will also have the ability to do aggressive 
enforcement actions of oil and gas companies that are violating 
our rules and have been cited for violations of our rules.
    Mrs. Lummis. Okay.
    Mr. Bromwich. So we work in close coordination with the IG, 
we do not go out on our own without checking with the IG. The 
IG welcomed my creating this entity, and I think it is serving 
the intended function already.
    Mrs. Lummis. And I am not going to disagree with that at 
all because, you know, I know two former MMS directors that 
asked for IG investigations when ethical lapses at MMS arose, 
and it took 3 years to complete.
    Mr. Bromwich. And that is exactly the sort of problem this 
is designed to address.
    Mrs. Lummis. Okay. Great. Now, would the IRU have authority 
to halt production on a well based on allegations if it was an 
investigation for a specific episode of misconduct?
    Mr. Bromwich. The IRU itself would have no authority to 
stop production.
    Mrs. Lummis. Okay.
    Mr. Bromwich. No.
    Mrs. Lummis. Okay. Great, and one more question, Mr. 
Chairman, switching gears. You are so kind.

                          STATE AUDIT PROGRAM

    Onto state partnerships for audit programs, that program 
relies on states to perform compliance activities on an 
estimated $3.3 billion in royalty payments. I know the State of 
Wyoming has been doing that for years with federal mineral 
royalties in this state. I know you have agreements with ten 
states and eight tribes.
    And generally speaking when I was in state government in 
Wyoming and I felt like the states were doing a really good 
job, especially the State of Wyoming, on some of these 
compliance audits, and my question about this is since we have 
got such tight budgets, and we are not going to be able to fund 
everything here at the federal level that is being requested, 
do you think it would make sense to rely on states with which 
you currently have agreements to collect revenue as well?
    Obviously states like Wyoming are collecting a tremendous 
amount of state royalty, ad valorem royalties, severance tax 
royalty based on a lot of the same production from the same 
companies on the same formulas, and it might be a cost saving 
issue.
    Mr. Gould. The partnership we have with the states is 
excellent, and it is something we are working on during our 
strategic review. We are including the state and tribal 
auditors in all our reviews that we are doing within our 
program right now for the creation of our new office. We have 
an excellent relationship with state auditors, something that I 
think is a win for both sides. We have the federal collection 
system with computer systems in place that can handle all of 
the revenue coming in. It is a system where the revenue comes 
in and goes into the Treasury and then it is disbursed.
    So I do not see that there is any immediate efficiencies 
gained by turning that part of it over to the state, but I do 
see that we have had a lot of efficiencies by using the state 
auditors.
    Mrs. Lummis. Final question, and I think I know the answer 
to this. I hope I do.

                            TRIBAL ROYALTIES

    Did Interior finally get tribal royalties on the same 
mineral valuation formula as non-tribal royalties?
    Mr. Gould. Right now we are looking at all of our valuation 
regulations, and we are just starting the process on a 
valuation rule for Indian oil. We completed the Indian gas rule 
and now we are working on Indian oil.
    Mrs. Lummis. Oh, so they are not on the same formula.
    Mr. Gould. No, we are working on that right now.
    Mrs. Lummis. Oh, my gosh. I cannot believe it is taking 
this long.
    Ms. Gibbs Tschudy. One of the reasons they are not the same 
is the lease terms are different. We did revise the Indian gas 
valuation regulations in 2000, and we are still continuing to 
work on revising the Indian oil valuation regulations, and we 
are convening an Indian-negotiated rulemaking in order to 
revise that regulation.
    Mrs. Lummis. And the Navajos in Arizona, are they pretty 
deeply involved?
    Ms. Gibbs Tschudy. Very much so.
    Mrs. Lummis. They seem pretty sophisticated back when I was 
on that committee.
    Ms. Gibbs Tschudy. Absolutely.
    Mrs. Lummis. Thanks.
    Mr. Gould. Yes. We are working very, very closely with the 
Navajo Nation on that particular issue.
    Mrs. Lummis. Great. Thank you. Mr. Chairman, thank you for 
your patience.
    Mr. Simpson. Mr. Hinchey.
    Mr. Hinchey. Thanks, Mr. Chairman.

                      LEASES WITH VIABLE RESOURCES

    When you provide that information to the President and a 
copy of it to us, would you kindly include the number of acres 
that are not likely or that you know did not have any value in 
them? As you said, there are some.
    Mr. Bromwich. I said there are some. We will do our best to 
collect that data. It is obviously relevant data.
    Mr. Hinchey. Yes.
    Mr. Bromwich. I do not know whether we currently have 
access to it, but I will make sure that that is focused on as 
something that should be in the report.
    Mr. Hinchey. Okay. Whatever extent that you know that some 
of them just do not have any oil in them.
    Mr. Bromwich. Yes.
    Mr. Hinchey. Let us know what percentage that might be.
    Mr. Bromwich. Yes.
    Mr. Hinchey. That would be interesting.
    Mr. Bromwich. Okay.
    Mr. Hinchey. I just wanted to ask another question, Mr. 
Bromwich, if I may.
    Mr. Bromwich. Sure.

                            ARCTIC DRILLING

    Mr. Hinchey. And it is about the drilling in the Arctic, 
and as I understand it Shell recently announced that it would 
not be drilling in Beaufort, and they would not be drilling 
there this summer anyway, but they are going to be planning on 
drilling there some time perhaps next year.
    The plans that they have include up to three wells, as I 
understand it, in Chukchi Sea and up to two wells in Beaufort 
Sea, which is a pretty large expansion of activities there. The 
operation there is concerning because of the whole set of 
circumstances that they are going to have to deal with and the 
experience that we have seen from other activities up there.
    So there has been a number of tragedies. We saw in the Gulf 
last year and more recently with an Icelandic oil tanker that 
ran aground I think off of Norway, off the coast some time just 
recently, last month.
    So despite the bad things that have been going on up there 
and the context of those circumstances, Shell intends to rely 
on spill response plans that were written before the BP oil 
spill and the Norway spill for the Arctic operations. And that 
seems a little ridiculous looking at operations that they plan 
to take to be preventive but based upon not the most recent 
things that took place, which were much more tragic and much 
more damaging and dangerous. And I think that they should be at 
least upgraded in the context of what the present set of 
circumstances knowingly are.
    So in addition to all we have learned since those two 
incidents, Shell's spill response plans for the Arctic are 
completely, seemingly inadequate, and in some cases not at all 
based on the real set of circumstances that they are going to 
have to deal with there.
    Shell's plans assume it will remove upwards of 90 percent 
of an oil spill in the open water, a number which has never 
come close to being achieved in practice, any time. Offshore 
mechanical containment and recovery rates for the Deep Water 
Horizon spill were 3 percent, and somewhere between 8 and 9 
percent for the Exxon Valdez spill.
    Shell's plan even fails to consider a potential 
uncontrolled blowout under their worst case scenario, despite 
what happened in the Gulf, and there are many more examples 
like these.
    So I am just hoping that given this information and all we 
have learned whether or not we should even allow Shell and 
drilling in the Arctic on the basis of this set of 
circumstances. But at the very least should not the company be 
required to develop a new oil spill response and be prepared to 
deal with this in a much more reasonable, much more effective 
and rational way?
    Mr. Bromwich. Thanks for asking the question. The Arctic is 
obviously one of the most significant set of issues that we 
have to deal with. It is a frontier area as people describe it, 
and it contains various kinds of challenges because of the 
temperatures, because of the ice, because of the relative 
absence of infrastructure, because the Coast Guard is not right 
there that are unique.
    We were working with Shell to understand the plan that they 
had submitted for 2011, for just the Beaufort, and at that time 
the proposal was just to drill one exploratory well, and before 
we were too far down the road and doing that evaluation and 
assessment and they had provided quite a bit of additional 
spill response-related information to us, because of problems 
with getting an EPA permit they changed their plans and 
announced that they would not be looking to move forward in 
2011.
    We obviously heard the same things that you have about 
their intentions to move forward in 2012. I think they are 
going to have to obviously satisfy us that all elements of 
their plan and their individual permit applications are 
adequate, including with respect to containing a sub-sea 
blowout and dealing with other spill response issues.
    Now, as I said, the application for 2011, that is now off 
the table, was just for the Beaufort. If, in fact, they go 
forward with plans for the Chukchi, that is obviously another 
set of issues for us to address.
    To anticipate that and to help us with that we are doing a 
supplemental environmental impact statement in the Chukchi that 
goes beyond what the court had directed us to do, precisely to 
look at spill response-related issues in the wake of Deepwater 
Horizon.
    So we agree with you that there are lots of important and 
significant issues that need to be addressed and that we will 
address if we get exploration plans filed as Shell says they 
will be and applications to drill along with those plans. We 
will not rubber stamp them. We will give them close scrutiny, 
and we will look at every aspect of their proposals.
    Mr. Hinchey. Well, thank you very much, and I deeply 
appreciate what you have just said and the way you are looking 
into this, and I think it is very appropriate and just exactly 
what needs to be done. So thank you very much.
    Mr. Bromwich. You are welcome.
    Mr. Simpson. These are shallow water permits. Right?
    Mr. Bromwich. I think they are all shallow water. I know 
the ones in the Beaufort were. I do not know exactly what Shell 
is going to propose in the Chukchi, but as you know, there is 
not a lot deep water in the Beaufort and the Chukchi, so I 
assume that they are shallow water.
    Mr. Simpson. So far Shell has done everything that has been 
asked of them, have they not, except for the EPA and their 
review panel?
    Mr. Bromwich. Shell has done everything we have asked of 
them, has been very cooperative with us in supplying the 
information that we have requested. I have got no complaints or 
criticisms about Shell.

                      LEASES WITH VIABLE RESOURCES

    Mr. Simpson. Just out of curiosity, sometimes to find out 
whether an acre that you have leased actually has oil in it or 
not, you actually have to drill. So it would be kind of hard to 
say how many acres are and why would you lease something if you 
knew there was not any oil down there or something? The number 
I have is that probably one out of four acres that are leased 
probably show no resources there.
    Mr. Bromwich. I have been told as recently as yesterday 
that if the companies bat one out of three, they are doing 
well.
    Mr. Simpson. Okay. Well, I appreciate it. I appreciate all 
you have done. We look forward to working with you to make sure 
that BOEMRE and BOEM and BSEE and ONRR I will get used to those 
eventually that they come into existence and do the job that I 
think all of us want them to do, and we look forward to working 
with you on this year's budget.
    Mr. Bromwich. Thank you very much for your support, Mr. 
Chairman. I appreciate it.
    Mr. Simpson. Thank you.

    [GRAPHIC] [TIFF OMITTED] T6897A.263
    
    [GRAPHIC] [TIFF OMITTED] T6897A.264
    
    [GRAPHIC] [TIFF OMITTED] T6897A.265
    
    [GRAPHIC] [TIFF OMITTED] T6897A.266
    
    [GRAPHIC] [TIFF OMITTED] T6897A.267
    
    [GRAPHIC] [TIFF OMITTED] T6897A.268
    
    [GRAPHIC] [TIFF OMITTED] T6897A.269
    
    [GRAPHIC] [TIFF OMITTED] T6897A.270
    
    [GRAPHIC] [TIFF OMITTED] T6897A.271
    
    [GRAPHIC] [TIFF OMITTED] T6897A.272
    
    [GRAPHIC] [TIFF OMITTED] T6897A.273
    
    [GRAPHIC] [TIFF OMITTED] T6897A.274
    
    [GRAPHIC] [TIFF OMITTED] T6897A.275
    
    [GRAPHIC] [TIFF OMITTED] T6897A.276
    
    [GRAPHIC] [TIFF OMITTED] T6897A.277
    
    [GRAPHIC] [TIFF OMITTED] T6897A.278
    
    [GRAPHIC] [TIFF OMITTED] T6897A.279
    
    [GRAPHIC] [TIFF OMITTED] T6897A.280
    
    [GRAPHIC] [TIFF OMITTED] T6897A.281
    
    [GRAPHIC] [TIFF OMITTED] T6897A.282
    
    [GRAPHIC] [TIFF OMITTED] T6897A.283
    
    [GRAPHIC] [TIFF OMITTED] T6897A.284
    
    [GRAPHIC] [TIFF OMITTED] T6897A.285
    
    [GRAPHIC] [TIFF OMITTED] T6897A.286
    
    [GRAPHIC] [TIFF OMITTED] T6897A.287
    
    [GRAPHIC] [TIFF OMITTED] T6897A.288
    
    [GRAPHIC] [TIFF OMITTED] T6897A.289
    
    [GRAPHIC] [TIFF OMITTED] T6897A.290
    
    [GRAPHIC] [TIFF OMITTED] T6897A.291
    
    [GRAPHIC] [TIFF OMITTED] T6897A.292
    
    [GRAPHIC] [TIFF OMITTED] T6897A.293
    
    [GRAPHIC] [TIFF OMITTED] T6897A.294
    
    [GRAPHIC] [TIFF OMITTED] T6897A.295
    
    [GRAPHIC] [TIFF OMITTED] T6897A.296
    
    [GRAPHIC] [TIFF OMITTED] T6897A.297
    
    [GRAPHIC] [TIFF OMITTED] T6897A.298
    
    [GRAPHIC] [TIFF OMITTED] T6897A.299
    
    [GRAPHIC] [TIFF OMITTED] T6897A.300
    
    [GRAPHIC] [TIFF OMITTED] T6897A.301
    
    [GRAPHIC] [TIFF OMITTED] T6897A.302
    
    [GRAPHIC] [TIFF OMITTED] T6897A.303
    
    [GRAPHIC] [TIFF OMITTED] T6897A.304
    
    [GRAPHIC] [TIFF OMITTED] T6897A.305
    
    [GRAPHIC] [TIFF OMITTED] T6897A.306
    
    [GRAPHIC] [TIFF OMITTED] T6897A.307
    
    [GRAPHIC] [TIFF OMITTED] T6897A.308
    
    [GRAPHIC] [TIFF OMITTED] T6897A.309
    
    [GRAPHIC] [TIFF OMITTED] T6897A.310
    
    [GRAPHIC] [TIFF OMITTED] T6897A.311
    
    [GRAPHIC] [TIFF OMITTED] T6897A.312
    
    [GRAPHIC] [TIFF OMITTED] T6897A.313
    
    [GRAPHIC] [TIFF OMITTED] T6897A.314
    
    [GRAPHIC] [TIFF OMITTED] T6897A.315
    
    [GRAPHIC] [TIFF OMITTED] T6897A.316
    
    [GRAPHIC] [TIFF OMITTED] T6897A.317
    
    [GRAPHIC] [TIFF OMITTED] T6897A.318
    
    [GRAPHIC] [TIFF OMITTED] T6897A.319
    
    [GRAPHIC] [TIFF OMITTED] T6897A.320
    
    [GRAPHIC] [TIFF OMITTED] T6897A.321
    
                                         Wednesday, March 30, 2011.

              BUREAU OF INDIAN AFFAIRS 2012 BUDGET REQUEST

                               WITNESSES

LARRY ECHO HAWK, ASSISTANT SECRETARY, INDIAN AFFAIRS
MICHAEL S. BLACK, DIRECTOR, BUREAU OF INDIAN AFFAIRS
KEITH MOORE, DIRECTOR, BUREAU OF INDIAN EDUCATION

                  Opening Remarks of Chairman Simpson

    Mr. Simpson. The meeting will come to order. Good 
afternoon, Assistant Secretary Echo Hawk. I would like to 
welcome you along with BIA Director Black and BIE Director 
Moore to the House Appropriations Committee hearing for the 
fiscal year 2012 Budget for Indian Affairs. Assistant 
Secretary, you and I go back many years to our days in the 
Idaho State Legislature, and I have always held you in the 
highest regard. I hope I am able to continue to work with you 
for years to come in our respective current capacities as we 
attempt to make a difference in the lives of over 1.4 million 
Native Americans and Alaskan Natives.
    As you may have gathered by now, particularly from looking 
at H.R. 1, honoring this Nation's commitments to Indian Country 
is a high priority for this Subcommittee in this Congress. 
Fiscal year 2012 budget for Indian Affairs concerns us as it 
calls for a $119 million reduction from 2010. I cannot help but 
note the irony of the request in light of the fact that this 
Subcommittee is still fighting tooth and nail just to keep 
Indian Affairs level funded for 2011. I have no doubt that you 
share our concerns about the 2012 budget request as those of us 
here today are painfully aware of the unmet needs in Indian 
Country.
    While our collective attention on international affairs is 
aimed squarely at current events overseas, here at home we 
continue to have people who live in third-world conditions. If 
you want to see real poverty in this country, go visit an 
Indian reservation, as I know you have many, many times.
    If only it were true that increasing public awareness or 
increasing the Indian Affairs budget alone would solve these 
problems. Earlier this year the Acting Inspector General 
testified before this Subcommittee that she could spend her 
entire budget in Indian Country issues and still not address 
every problem. To me that suggested the system in place now is 
fundamentally broken.
    I have no doubts about the Administration's collective and 
genuine commitment to Indian Country and about your skill in 
identifying problems and adaptively managing those solutions. 
What I am interested in is where the Department goes from here, 
how it gets there, how it measures success. I look forward to 
our discussions on the budget today and in the context of those 
questions, I look forward to working with you to solve some of 
these problems.
    Mr. Simpson. With that, I am happy to yield to the 
gentleman from Virginia, Mr. Moran, for any opening statement 
he might have.

                      Opening Remarks of Mr. Moran

    Mr. Moran. Thank you very much, Mr. Chairman. I have got to 
thank you for something else as well. I do want to say a few 
words since this is the first hearing this year we have had 
with regard to Native American programs.
    Chief, nice to see you. Nice to see you, colleagues, and 
thanks for all you are doing. I would like to put in a little 
quote, and since we have--I was not sure whether Rick Healy was 
going to get into this like Chris Topic did but he has come 
through.
    Voice. You got a quote book, too?

                      LEGAL AND MORAL OBLIGATIONS

    Mr. Moran. I got a quote book. So Chief and Indian Wise 
Man, Shinguaconse, is that the correct pronunciation for 
Shinguaconse? I think it is. It translates to Little Pine. But 
he said, ``My father,'' referring to basically the U.S. Federal 
Government, ``you have made promises to me and to my children. 
If the promises had been made by a person of no standing, I 
should not be surprised to see his promises fail. But you, who 
are so great in riches and power, I am astonished that I do not 
see your promises fulfilled. I would have been better pleased 
if you had never made such promises, that you should have made 
them and not performed them.'' And that has been the legacy, at 
least for the vast majority of the existence of this Republic, 
but it is changing and has to change. And it is one thing that 
we do have bipartisan agreement on, at least on this committee, 
that it will change.
    So I just want to underscore the fact that I know we feel 
on both sides of the aisle that we have a legal obligation 
because of our treaties with Indian tribes, but also we have a 
moral obligation to enhance the economic, the social and the 
cultural well-being of Native Americans. Tribes and individual 
Indians are not looking for a hand out but rather a hand up. I 
know it is a cliche, but it certainly does apply here. Great 
nations should keep their commitments and especially because of 
the long history the Federal Government has had with Native 
Americans. We need to back our promises with concrete actions. 
It is not to say that we do not need to carefully look at the 
funding for our Native American programs, and at times I have 
been very disappointed with some of the bureaucracy of the BIA, 
and for many years BIA was not on the side of the Indians, 
frankly. But while we need to make sure that the funds are 
providing the services and the programs and that we have 
concrete results for the money that is invested, we know that 
we have to make this a priority, whether we have Indian tribes 
in our district or not.
    But we have a strong, as I say, bipartisan tradition on 
this subcommittee, and while I obviously do not support so many 
of the provisions, almost all of the provisions of H.R. 1, I 
want to commend----
    Mr. Simpson. The dump truck.

                                 H.R. 1

    Mr. Moran. Dump truck? Riders and everything else. But I 
want to take this opportunity to commend the Chairman and the 
majority. And I know Mr. Cole was particularly influential in 
this. They protected Native American programs. Where everything 
else was on the chopping block, they protected Native American 
programs in the fiscal year 2011 bill.

                             FY 2012 BUDGET

    So as we develop the fiscal year 2012 budget for the BIA, 
our goal remains putting the BIA in a better position to move 
forward in helping tribes and Native Americans address the 
educational, social and the economic developments that the 
Indian Country faces, the challenges that they face. And that 
is why it is important to have BIE as well, and we are going to 
do the same, I trust, for the Indian Health services.
    During the 111th Congress, we addressed a number of 
significant issues affecting Indian Country, including the 
Cobell settlement, law enforcement, particularly the treatment 
of women on reservations, Indian healthcare, Indian water 
rights settlements. And so we very much look forward to the 
testimony of our Assistant Secretary, Chief Echo Hawk. Thank 
you for your service again, and we are determined on this 
Subcommittee to do the right thing. So thank you again for 
being here, and thank you, Mr. Chairman, for all you have done.

                       Testimony of Mr. Echo Hawk

    Mr. Simpson. Secretary Echo Hawk.

                             INDIAN AFFAIRS

    Mr. Echo Hawk. Thank you, Mr. Chairman, and Ranking Member 
Moran and Subcommittee members. Let me first of all just 
express my appreciation for the work that has been done on the 
fiscal year 2011 budget to this point. I appreciate that very 
much.
    The President has requested a $2.5 billion budget for 
Indian Affairs, and through the work of the Tribal Interior 
Budget Council, this budget has been crafted after careful 
consideration with American Indian and Alaskan Native 
government representatives. The President has called upon 
members of his Administration to meet important objectives 
while exercising fiscal responsibility, and consistent with 
that directive, difficult choices have been made in formulating 
the 2012 Budget Request for Indian Affairs.
    As already mentioned, this request reflects a $118.9 
million reduction, in other words, 4.5 percent below the fiscal 
year 2010 enacted level, and we have tried to make strategic 
cuts in order to fund tribal priorities. Thus, this proposal 
has $89.6 million of targeted increases for tribal programs 
that are proposed, and I would like to just highlight some of 
those targeted increases.

                        ADVANCING INDIAN NATIONS

    Under the category of Advancing Indian Nations or nation-
to-nation relationships, there is a $42.3 million increase, and 
I want to spotlight that includes Contract Support, which is a 
very high priority of Tribal Nations. That figure is an 
increase of $25.5 million, and there is also $4 million 
proposed for the Indian Self-Determination Fund which would 
assist Tribes to further contract or compact additional 
programs.

                         SMALL AND NEEDY TRIBES

    And we have also included $3 million to support small and 
needy tribes. This helps the very small tribes carry out the 
very basic responsibilities of tribal government, and this 
would affect about 114 tribes in Alaska and about 17 in the 
lower 48 states.

                       PROTECTING INDIAN COUNTRY

    Under the initiative of Protecting Indian Country, we are 
proposing an increase of $20 million which includes $5.1 
million for law enforcement operations and also a total of 
$11.4 million for detention center operations and maintenance. 
And there is an additional $2.5 million proposed for tribal 
courts.

                    IMPROVING TRUST LAND MANAGEMENT

    Under the initiative of Improving Trust Land Management, 
there is an increase requested of $18.4 million. I just want to 
spotlight that $2 million of that would go for grants to tribes 
directly for projects to evaluate and develop renewable energy 
resources on their tribal trust lands. And there are a number 
of initiatives under the Trust, Natural Resource Management to 
support the $7.7 million proposed increase.

                            INDIAN EDUCATION

    With regard to a fourth category of improving Indian 
education, we have requested an increase of $8.9 million which 
spotlights initiatives to have safe and secure schools and also 
allocates $3 million for Tribal Grant support costs. This is 
similar to the Contract Support cost requested for tribal 
governments, but these are for the elementary and secondary 
schools that we have responsibility for and basically covers 
administrative overhead. They are operating now at about 62 
percent of what would be full tribal grant support. And there 
are a number of decreases in the program.

                          TRIBAL DISTRIBUTION

    I do not think in the interest of time--I know the 
Subcommittee has some votes. I am not going to go through all 
of those decreases, but I did want to just spotlight that 
almost 90 percent of all of the appropriations requested are to 
be expended at the local level and 63 percent of the 
appropriations would be provided directly to Tribes. And this 
would amount to a 4.99 percent increase in the Tribal Priority 
Allocation which is the core program for tribal governments.
    So I know the needs in Indian Country are very great, but 
under the present situation, President Obama's budget 
faithfully seeks to meet those needs by following the 
priorities set by tribal leaders. So we would be very happy to 
respond to questions, and as the Chairman noted, I have the 
Bureau of Indian Affairs Director and the Bureau of Indian 
Education Director with me today to be able to answer detailed 
questions that I may not have sufficient information on. Thank 
you.
    [The statement of Larry Echo Hawk follows:]

    [GRAPHIC] [TIFF OMITTED] T6897B.001
    
    [GRAPHIC] [TIFF OMITTED] T6897B.002
    
    [GRAPHIC] [TIFF OMITTED] T6897B.003
    
    [GRAPHIC] [TIFF OMITTED] T6897B.004
    
    [GRAPHIC] [TIFF OMITTED] T6897B.005
    
    [GRAPHIC] [TIFF OMITTED] T6897B.006
    
    [GRAPHIC] [TIFF OMITTED] T6897B.007
    
    [GRAPHIC] [TIFF OMITTED] T6897B.008
    
    [GRAPHIC] [TIFF OMITTED] T6897B.009
    
    [GRAPHIC] [TIFF OMITTED] T6897B.010
    
    [GRAPHIC] [TIFF OMITTED] T6897B.011
    
                     TRIBAL INTERIOR BUDGET COUNCIL

    Mr. Simpson. Thank you, Secretary. Let me start. You 
mentioned in your opening testimony that this budget was put 
together with the help of the Tribal Interior Budget Council, 
and I understand this year you have done more consultation with 
them as you develop this budget. Take a minute and explain to 
me how that works, how it is put together.
    Mr. Echo Hawk. The Tribal Interior Budget Council is made 
up of 36 individuals. It includes the Regional Directors for 
the Bureau of Indian Affairs, so that constitutes 12 of them 
and that represents the 12 Regions of the country. And then the 
Tribes in those Regions select two representatives to serve on 
that Council. We meet on a quarterly basis, and what they do is 
consult with us to establish their priorities and funding. And 
each one of the Regions makes a presentation. We just went 
through this last week, where they come before the Council and 
present--I just brought as an example a packet from the Great 
Plains Region where they tell us in detail what they would like 
to do in that region of the country.
    After all 12 Regions make their presentations, then as a 
body we collectively--I do not say we because I do not vote on 
this, but the tribal representatives vote and establish 
priorities for funding. It is not over there because we start 
to craft the budget then, and then at various times, we will 
bring them back in, maybe a subcommittee to consult on more 
details as we formulate the budget.

                                  OMB

    Mr. Simpson. And then you work with OMB on the amount that 
they have given you.
    Mr. Echo Hawk. OMB provides guidance for us so we know 
there are some parameters for funding.
    Mr. Simpson. Guidance is a nice word.
    Mr. Echo Hawk. Interior then sends the budget over, and 
they make some modifications, pass it back. And tribal leaders 
have expressed a desire to have more direct consultation with 
OMB. I think that is the piece that they think is missing. I am 
not sure. We are working on perhaps modifying that system to 
allow them to have more input at that level.

                            CONTRACT SUPPORT

    Mr. Simpson. Good. You mentioned the contract support you 
increased by $25.5 million. That is something this committee 
hears about when we have the Nations come in and talk to us for 
a couple of days. Almost every one talks about contract 
support. Does your increase of $25.5 million fully fund 
contract support costs?
    Mr. Echo Hawk. No, it does not. It only reaches about 90 
percent, and in order to get that up to 100 percent----
    Mr. Simpson. And that is at 62 percent now?
    Mr. Echo Hawk. No, that is Tribal Grant Support, 62 
percent. And the Contract Support is about 90 percent. In order 
to get that up to 100 percent which the tribes would like to 
see, I think it would take like another $25 million to reach 
that point.

                        TRIBAL LAW AND ORDER ACT

    Mr. Simpson. Okay. The Tribal Law and Order Act of 2010 no 
doubt increases the responsibility of Indian Affairs in many 
areas. Could you take a minute and summarize these increased 
responsibilities and describe where the budget meets these 
responsibilities and where this budget, due to the limitations 
of funding, may fall short?
    Mr. Echo Hawk. Well, we have significant responsibilities 
because that legislation is a 105-page comprehensive bill. We 
have had some deadlines that we have already had to meet in 
implementing the requirements of the Act which deals with 
special law enforcement commissions, standards for long-term 
detention, background investigations and then we are now moving 
into a phase where we are addressing the mandates of the bill 
to focus on adult and juvenile detention, long-term plan. There 
is also a law enforcement foundation that has to be put 
together. And we are working to organize that.
    So the budget that we are requesting in the area of public 
safety is a $20 million increase, and some of those monies will 
help us to be able to implement this process.

                          DETENTION OPERATIONS

    Mr. Simpson. One of the largest increases in the fiscal 
year 2012 proposal is the $10.4 million and 13 FTEs for the 
detention and corrections operations that you mentioned. 
Detention facilities are underfunded by about 459 positions, as 
I understand, as the green book states. The Recovery Act only 
seems to have made matters worse as Indian Affairs is now on 
the hook to fund an additional 323 staff at six new facilities 
opening between now and 2014. What is the plan for meeting 
those new staffing requirements and what is the estimated cost 
and how many of the 459 positions will be filled with the $10.4 
million increase?
    Mr. Echo Hawk. Okay, Mr. Chairman, that is a big question.
    Mr. Simpson. If it is too detailed, you can get back with 
the committee.
    Mr. Echo Hawk. We can get back. You know, just to comment, 
these facilities are mainly built by the Department of Justice. 
We have built and can build and do a good job, you know, in 
construction of facilities. But once they are built, we have a 
responsibility for operation and maintenance, and we try very 
hard now to collaborate with the Department of Justice to be 
able to make sure that when they build them they are built to 
specifications and that we can have the foresight to be able to 
budget in what is needed to staff and run those facilities.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6897B.012
    
    Mr. Simpson. One last question. The committee has 
recommended in language that the BIA look at regional detention 
facilities, and I know that we have talked about this, using 
the Fort Hall facility that they have built as an example. Is 
the Department looking at that and trying to make that more 
available?

                               FORT HALL

    Mr. Echo Hawk. We are. We are working with the Department 
of Justice on this. This is actually one of the mandates in the 
Tribal Law and Order Act that we have, you know, some plan of 
going forward. And this is not new to us.
    We have previously prepared a report on how to efficiently 
build these detention facilities on a regional basis. And I was 
just in Nevada last week. The Tribes there are asking, pleading 
for some facilities because they are having to use state and 
county facilities to house prisoners. It is very expensive for 
them. So that is an example of how they would be very happy if 
we could somehow build a regional facility for them, and that 
is what we try to do now, to make sure that we are being 
efficient and smart in where we are building these facilities.
    Mr. Simpson. Thank you. Mr. Moran.
    Mr. Moran. Thanks very much, Mr. Chairman. In light of the 
fact that we are going to have some votes soon, what I would 
like to do is to underscore three areas of particular concern. 
I will mention the three of them. You can give a quick capsule 
comment if you want, but they are probably the kind of thing 
that you want to try to address for the record. But I wanted to 
bring it to light in the context of the hearing. But I know you 
cannot comprehensively respond to all of them.

                           PROGRAM REDUCTIONS

    You put the best face forward on this budget, but you want 
to eliminate the Lease Compliance program. I do not know how we 
can assure that leases are going to be complied with absent 
this program, so that needs to be addressed. You are cutting 
the Indian Guaranteed Loan program by 60 percent. It is a 
concern how Native Americans are going to get commercial loans 
to expand or even start new Indian-owned businesses without 
that. You are eliminating the Residential Placement program for 
special-needs students.
    Those are all concerns. So if you want to give a capsule 
commentary, but it is probably the kind of thing we could 
either talk about later or respond to for the record. Do you 
want to say anything about that?
    Mr. Echo Hawk. Just briefly. Perhaps I can make a comment 
about the loan program, and Director Black could comment 
briefly on the lease compliance and then Director Moore on the 
residential.

                     INDIAN GUARANTEED LOAN PROGRAM

    With regard to the loan guarantee, this is a good program 
that the tribal leaders support, and they have spoken up very 
strongly after seeing the President's budget and seeing the 
decrease that is proposed here. And the concerns that were 
raised, you know, had to do with duplication as there are other 
Federal agencies that provide some loan guarantee money.
    Mr. Moran. That they are eligible for, and you are going to 
help them find those sources of funding, of loans?
    Mr. Echo Hawk. That is the thought. Of course, there are 
contrary views that our program has the unique application and 
is much more flexible----
    Mr. Moran. Has relationships already built----
    Mr. Echo Hawk. In Affairs we know how to operate within the 
parameters of reservations. So I think we are going to work to 
make sure that this program has continuity. We are sort of on a 
phase right now where we are working to make improvements.
    Mr. Moran. It is a concern. Okay, Mr. Black.

                            LEASE COMPLIANCE

    Mr. Black. Just real quick, sir. I will be happy to provide 
you further information, in the very near future here. But just 
in a nutshell, with the development of our TAAMS system, which 
is our Trust Asset Accounting and Management System and a lot 
of the modules that have been developed within that system that 
allows us to better monitor our leases, a lot of the compliance 
issues dealt with late payments or non-payment, and the system 
now allows us to do a lot of that monitoring so we will be able 
to realize some cost savings there.
    [The information follows:]

                            Lease Compliance

    The Bureau of Indian Affairs (BIA) manages over 100,000 active 
leases for business, agriculture, grazing, oil and gas development and 
Indian housing. The vast majority of lease compliance issues have 
historically been with late rental payments or non-payment of rentals. 
With the development of various modules in the Trust Asset and 
Accouning Management System (TAAMS), BIA now has an automated, 
electronic system that will allow it to monitor rental payments and 
auto-generate delinquency notices to violators. In the past these 
activities were performed manually by employees at each location where 
the leases were issued. BIA believes that with the current technology 
available in the TAAMS system, it will do a better job monitoring 
compliance.

                         RESIDENTIAL PLACEMENT

    Mr. Moran. Okay. Thank you. Mr. Moore, very quickly, on 
residential placement?
    Mr. Moore. Mr. Chairman, thank you, and thank you for the 
question. Keith Moore, Director, BIE, a pleasure to be here.
    The REP program is for our most disabled students, a very 
difficult decision for us when we were going through our budget 
to look at cuts on that, where we are in this economy and 
deficit spending, things that we have to take into 
consideration.
    There are two pieces that we felt we could go and look for 
resources for these students, one being regular IDA funds or 
regular special ed funds. Could we service these kids through 
our allotment of funds there and work with the U.S. Department 
of Education if we needed further resources? The second piece 
is we felt we could look at our policy within the BIE of 
shipping these kids out of our communities and schools and 
could we tighten that policy and serve them in our communities 
rather than send them to a very expensive residential placement 
program?
    Mr. Moran. I see. Well, that makes some sense.
    Mr. Moore. Those are the two----
    Mr. Moran. I understand----
    Mr. Moore [continuing]. We are looking at.
    Mr. Moran [continuing]. That was the thinking behind it. 
Thank you. Now, the next two, clearly you do not need to give 
us an extensive response right now, but I do want to know how 
the Carcieri decision is affecting your ability to carry out 
your trust management responsibilities. So did you want to say 
anything very quickly on that?

                                CARCIERI

    Mr. Echo Hawk. Congressman, the Administration very 
strongly supports the Carcieri fix because being able to take 
land into trust is a very important thing. Republican and 
Democratic Administrations have done this since 1934, and that 
decision disrupted everything. It affects housing, it affects 
law enforcement, it affects emergency services, it affects 
economic development. So we are very strongly in support of----
    Mr. Moran. As you know, this committee is as well, agrees 
with you. And again, I want to thank the Chairman and Mr. Cole, 
particularly, for the position that we took on that.

                        COAL-FIRED POWER PLANTS

    Lastly, it is a concern but this is something I do not 
think that you can respond to but I want to raise it. And I 
know the real issue is within the tribes themselves. But you 
have got two large coal-fired power plants in the Navajo 
Nation, the Four Corners Power Plant and San Juan Generating 
Station. Fifteen percent of the population is suffering from 
lung disease around those plants. The Four Corners plant emits, 
I will not go through all the numbers, but it includes 2,000 
pounds of mercury a year. You know, in my district, somebody 
breaks a thermometer and the mercury spills out and we get the 
HAZMAT team. And here we have got 2,000 pounds of mercury being 
emitted every year in addition to 122 million pounds of 
nitrogen oxide, et cetera.
    In San Juan, you are emitting 1,000 pounds of mercury and 
100 million pounds of sulfur dioxide and the same with nitrogen 
oxides.
    It is a major concern. I know that a lot of the tribes have 
decided that the jobs are more important, but I would hope that 
BIA would encourage looking at renewable energy in Indian 
Country. There are some loans to develop that. There are jobs 
that can be available, and you have obviously less 
environmental impact but it is the kind of thing that also has 
spinoffs for outside the reservations that could be 
economically beneficial. Those are the three areas I wanted to 
bring up. Thank you, Chief, and thank you, Mr. Chairman.
    Mr. Simpson. Mr. Lewis.
    Mr. Lewis. Thank you very much, Mr. Chairman. Chief and 
gentlemen, I appreciate very much your being here.

                            TRIBAL CONFLICTS

    Between Ken Calvert and myself in San Bernardino and 
Riverside County, we have in excess of a dozen tribes, and we 
have noted from time to time that not every tribal nation 
agrees with the other one just automatically.
    In our own region in the recent past, there was a major 
conflict that developed between local law enforcement and one 
of our tribes. It involved shootings where individuals were 
killed, et cetera. The importance of having tribal nations be 
able to have their own law enforcement or contract with local 
law enforcement agencies is a pretty significant area.
    Does BIA play a role in attempting to facilitate some of 
these challenges?
    Mr. Echo Hawk. Congressman, we do have some role. That is 
primarily a function of the tribal governments, but we try to 
be supportive and one aspect is the Special Law and Order 
Commissions that we have the ability to provide, and oftentimes 
that becomes a critical part in the local agreements that would 
be made with these local law enforcement entities to cross-
deputize and so forth.
    Mr. Lewis. I might mention to you that in the past, there 
was a very successful initiative that was put forward by a 
local sheriff that brought together a commission of a variety 
of mix of law enforcement agencies and interests to make sure 
there was communication up and down the line. With some 
transition from one sheriff to another, the commission idea 
kind of fell apart, and in the meantime, this cooperative 
venture fell apart. And I would want to bring that to your 
attention in terms of how we can find programs and efforts that 
have been successful and try to sustain them beyond individual 
sheriff's offices or administrations. Really, really important 
to have our tribal nations work together. So I just ask you to 
think about that as well as comment, if you would.

                      INTERAGENCY LAW ENFORCEMENT

    Mr. Echo Hawk. These things about the local cooperation are 
very important. I have reached out to the National Association 
of Attorneys General and the Conference of Western Attorneys 
General about trying to come to such agreements to resolve law 
enforcement issues on a local level. So we are very much 
interested in supporting that effort.
    One of the things that the Tribal Law and Order Act 
addresses is training that opens up the option of doing 
training in state facilities of tribal officers, and I know 
that the Conference of Western Attorneys General thinks that is 
a really great idea because when you have the non-Indian 
officers having the same training as the Indian officer, they 
accomplish things that we do not seem to be able to do when we 
sit down to write an agreement. They bond as fellow law 
enforcement officers, and that was spoken of very highly.
    Mr. Lewis. Great. I think you know that across the country 
there are a variety of mix of law enforcement effort. Tribes 
having their individual effort on the other hand, maybe 
contracting with local agencies lead to a variety of mix of 
experiences, and I would think that BIA's role in terms of 
refining or at least communicating as to what seems to have 
worked in one place versus another would be very helpful to the 
tribes.
    Mr. Echo Hawk. It is and we do have those success stories, 
and we try to share that.
    Mr. Lewis. Thank you.
    Mr. Simpson. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. It is good to have you 
here, and I have lots of questions but I will just submit some 
of them in writing. But I think one of the things that has been 
kind of touched on a little bit when you were talking about 
helping to contract and do things for Indian Country, are cuts 
in your budget--I got a budget put together because I was 
trying to track what was going on just on Native American 
health when I was on reservations or what was going on with 
schools because Head Start would be in the school. And you 
know, there would be Impact Aid which is handled in a different 
spot, and it was like trying to put this spider web with all 
these tears in it together to see what we had.

                             FEDERAL SUMMIT

    So do you have the ability or do any of the Secretaries 
report to you from the Department of Agriculture, the Army 
Corps of Engineers, Commerce, Defense, Education, Health and 
Human Services, HUD, your Interior, Justice, Labor, 
Transportation, Veterans Affairs, I can go on and list more, 
that all have line items in it that impact or directly work 
with many of the bones of the programs that you have in the 
Bureau of Indian Affairs? In other words, are you able to get 
everybody together and just have a summit about what is going 
on because a cut in Commerce could affect all that you are 
trying to do with a grant program change. So that is the 
question I have.
    Mr. Echo Hawk. Congresswoman, there is of course more that 
we can do, but we have tried very hard to reach across 
Department lines and to work smart and collaboratively with 
other Departments. Director Moore could talk about the work he 
has done with the Department of Education. We have ratcheted up 
the communication we have with the Department of Justice and 
work on a regular basis with other Departments like Health and 
Human Services. And you know, there is one program known as 
Public Law 102-477 that allows Interior to be a lead agency in 
pooling money from HHS and the Department of Labor and putting 
it into one fund that the tribe controls. So you know, the 
Tribes like that kind of thing when we pool resources and they 
have more flexibility. So that may be a template for what we 
could do in other areas.
    Ms. McCollum. Thank you because it took government reform 
working with the Navajo Nation to get HUD and the Department of 
Energy and a whole group of people together to talk about what 
they were going to do about the radiation contamination that 
had taken place on some Navajo reservations, and I am going to 
follow up.
    I am not asking to jump-start schools that I visited 
throughout Indian Country, but I never understand how the 
school construction priority list works. There is one list for 
each tribe that I visited in Minnesota, another one that I saw 
in New Mexico, and at some point I would like to find out and 
maybe it is with you, Mr. Moore, because I want to understand 
because I do not want to undo something that is good, but if 
something is broken and we need to fix it, we need to work on 
it.

                FEDERAL AGENCIES SHARED RESPONSIBILITIES

    Mr. Echo Hawk. May I make a followup comment? I think it is 
important. Tribal people have told me just in the last week 
that what is really important is for people to understand that 
the trust responsibility of United States is the trust 
responsibility of the United States. It is not the trust 
responsibility of Indian Affairs and Interior. So Tribes 
actually strongly support having other Departments of the 
Federal Government step up to the plate and meet their 
responsibilities, like the Department of Education or Justice 
Department, Agriculture Department, other Departments other 
than Interior.

                              BIA WEBSITE

    Ms. McCollum. And my time is going to run out. A Native 
American crosscut of the Federal budget is on your website now, 
too. You and I were told for years that they could not put that 
kind of a budget together so people can look at it. I 
appreciate the fact that it is on your website.

                           ELIMINATION OF BIA

    In the remaining few seconds I have because I want other 
members to have a chance to ask questions before we go vote, 
there is a bill in the Senate, and the language that went with 
the statement that was made by Senator Rand Paul, and I am 
going to quote him. He introduced legislation, S. 162, and 
addressing budget issues. And in his words, he is doing so by 
``By eliminating the most wasteful programs, by eliminating 
programs that are beyond the Constitutional role of the Federal 
Government.'' He is talking about eliminating the Bureau of 
Indian Affairs. I know the Administration does not support this 
legislation. I know it has strong bipartisan oppositions, never 
to come up, never to pass. I want to be clear on that. But 
could you just maybe for the record say what would happen and 
your view of constitutional responsibility in Indian Country? 
Because I think you started talking about that before I cut you 
off before. Thank you, sir.
    Mr. Echo Hawk. Thank you. Very good question. And this 
actually has been in part attempted back in the 1950s with what 
is known as the Termination Policy, and it was launched in 
1953, had a very short life, and has been repudiated by every 
Administration, Republican and Democrat, since then. And within 
the span of my lifetime, you know, actually we celebrated in 
2010 the 40th anniversary of the Self-Determination Policy. And 
there have been enormous gains in the quality of life for 
Native people under that enlightened policy of recognizing that 
the United States made commitments to Native people and having 
the United States as a government step up and meet its 
responsibilities and having Tribes have more say. So tribal 
leaders appreciate the fact that the United States is doing 
better and turned away from the Termination Policy.
    Ms. McCollum. Thank you, sir, for all your work, and thank 
you, Mr. Chair, for your indulgence.
    Mr. Simpson. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman, and I want to 
commiserate with the Secretary, that both BYU and San Diego 
State are not in the Final Four.

                          EDUCATION ASSISTANCE

    I have a large Indian BIE school, and it is named Sherman. 
Now, I know it is not named after General Sherman, but anyway, 
it is large and you are very much aware of it. And one of the 
things that is frustrating I know for a lot of the BIE schools 
is that the flexibility they might have to get charitable 
contributions or to use their property to get extra revenue to 
give flexibility to the head school principal there, to use 
that money to fund extra teachers or tutors or whatever. Do you 
need legislative assistance to do that or do you have 
flexibility to do that as a secretary?
    Mr. Echo Hawk. Congressman, I actually visited the Sherman 
Indian School. I take it that is in your district?
    Mr. Calvert. Yes, sir.
    Mr. Echo Hawk. And also I visited the San Manuel 
Reservation.
    Mr. Calvert. Right.
    Mr. Lewis. That is somewhere in my district.
    Mr. Calvert. That is in Jerry's district.

                          SCHOOL CONTRIBUTIONS

    Mr. Echo Hawk. And when I was there at the school, they 
told me about the generous contribution that the Tribe had made 
to the school, and they were struggling with an MOU that they 
had to finish when I got attention to that. We finished that up 
as I understand. But the Solicitors of Interior I think have 
indicated that there are other restrictions on receiving 
charitable contributions, and that probably needs to be 
addressed by Congressional enactment to clear the way if that 
is, what is deemed to be a good idea.
    Mr. Calvert. I worked with the Chairman and the Ranking 
Member on this. I think I talked to everybody about this. I 
know I talked to Tom about it. It just makes sense. Everybody 
is struggling for money, and if you have got somebody that 
wants to give it to you, you should be able to take it. So you 
know, we ought to be able to work that out. Thank you, Mr. 
Chairman.

                             FACILITY SPACE

    Mr. Moore. A quick response to that if I could. One of the 
issues was it was going to change facilities and they were 
going to add on facility space. So then that added in the 
bureaucratic issue of facilities and O&M and being able to 
maintain and operate the building. And that was a big logical 
piece, changing a facility and what it would mean for O&M and 
further cost to the Government with that school, was part of 
it. We were able to work our way through it, but it is 
something that does, as the Assistant Secretary----
    Mr. Calvert. If we can work on some legislative language, 
it could fix it.

                    FACILITIES NEGOTIATED RULEMAKING

    Mr. Moore. And one other comment if I could for the 
Congresswoman, we are working on negotiated rule-making right 
now for facilities which will, we hope, clarify the list issue. 
It is probably the number one thing that we hear in the field, 
facilities and how you get on the list and how schools get 
built and what is the formula and all those sorts of things. We 
are working our way through the process right now to really 
clarify that so that it is understandable for everybody.

                     EDUCATION CONSTRUCTION BACKLOG

    Ms. McCollum. Can you give us a dollar amount for your 
backlog later----
    Mr. Moore. We can take a look at dollar backlog. That would 
come from Jack Rever who operates the OFMC for us.
    Mr. Simpson. Is that the backlog of school construction 
that needs to be done you are talking about?
    Mr. Moore. Well, we are roughly, and the Assistant 
Secretary may know this figure better than I, but we have $1.8 
to $2.3 billion I believe in school backlog construction.
    [Information to follow:]

                         Education Construction

    The cost is $1.3 billion to bring the schools in poor condition to 
good or fair condition as measured by the Facility Condition index.

    Mr. Simpson. Yeah, because we have got $1.3 billion here, 
but I suspect you--we have got 64 Indian schools that are 
listed as in poor condition, and then the rest are in 
acceptable condition, which is a little different sort of 
terminology as opposed to good or fair. But acceptable, I am 
not sure exactly what that means.
    We have got about 4-1/2 minutes left in this vote. We are 
going to come back after this, and I would hate to have us miss 
the vote. So why do not we go vote? We have got two 5-minute 
votes after this, or one 5-minute vote and then a vote on the 
journal. So if you could wait, we would pause for 15 minutes or 
so and be right back. Appreciate it. Thank you.
    [Recess.]
    Mr. Simpson. Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman, and just a 
couple quick things. One, I just wanted to associate myself 
very much with Mr. Moran's remarks about you and the role you 
played and also the role he played. You guys have really set 
the standard in working together. And Mr. Secretary, it is 
always good to see you, and the longer I see you, the more I 
like you because it means that somebody is in the job for some 
considerable period of time. So I hope you continue to stay, 
and you have made terrific contributions. And when we have a 
new President, Mr. Simpson, I will ask that President to 
reappoint you.

                           COBELL SETTLEMENT

    Seriously, on a couple of things, I would like to get your 
opinion. There is a lot of discussion in Congress right now, 
and I know you did not negotiate the Cobell deal, but there is 
a lot of discussion about additional legislation dealing with 
lawyers' fees. Do you have any opinion as to whether that would 
be helpful or not? My sense is it is not particularly helpful, 
that this ought to be left alone, that it is pretty much done, 
the congressional part of it, and we ought to let the judge in 
this case do what he wants to do, and they can work this out. I 
hate to reintroduce the issue here.
    Mr. Echo Hawk. Congressman Cole, I have one tiny comment, 
and then I have got to turn it over because I am recused from 
Cobell.
    Mr. Cole. Okay.
    Mr. Echo Hawk. So Director Black can respond. On the 
comment you made about my length of service thus far, I have 
been here just a little over 22 months in the position, and 
that makes me the longest-serving Assistant Secretary in more 
than a decade. So I am going for the record now.
    Mr. Black. Well, and unfortunately, my answer will be just 
about as short as his is. At this time, I would really be 
remiss to speak to the----

                               APPRAISALS

    Mr. Cole. Okay. Fair enough. Second question, hopefully one 
that you can answer, I noticed in your budget you are cutting 
funding for land appraisers, but there is a backlog for land 
appraisal necessary for energy production and economic 
development on trust lands. How do you handle that?
    Mr. Black. Now, for appraisals, that is funded out of the 
OST budget, so I am not completely familiar with theirs. We are 
working closely with OST dealing with appraisal issues, and we 
realize that there is a shortfall there, you know, even in the 
past budgets, and we are trying to work with OST on how we can 
address their appraisal issues for any number of things that we 
do, anywhere from land into trust issues to home site leases to 
land sales and transactions.

                            LAND INTO TRUST

    Mr. Cole. Okay. Third question here real quickly, and this 
one maybe you can give us some idea on. The biggest frustration 
I hear among tribes or one of the great ones is just the length 
of time that it takes to put land into trust. What can be done 
or is being done hopefully to streamline that process? Again, I 
am well-aware of the problems you have with Carcieri and I have 
a question on that coming up as well. But is there any way we 
can get some more predictability into this process?
    Mr. Echo Hawk. That is a very good question, Congressman 
Cole. When I started out as Assistant Secretary, the process 
was stuck in the mud. There were backlogs, and we formulated a 
work group to try to get things rolling, and we were making 
some progress. Secretary Salazar actually weighed in with all 
12 Regional Directors and called them into his office and kind 
of said we have got to fix the problems and asked them for 
solutions. So you know, we have had a work group put together 
that is working on revising our handbook that provides how we 
conduct this process, and you know, we have had success. You 
know, compared to the last two years of the prior 
Administration, we have increased land into trust at a rate 
increase of 488 percent. So you know, we are moving down tracks 
pretty well right now, but we are not finished working on 
streamlining.
    Mr. Cole. I appreciate very much your keeping an eye on 
that because as you know, it is just chilling sometimes for 
tribes to wait for a long time.

                           CARCIERI DECISION

    Last question and one other comment, I wanted again to 
associate myself with the remarks Mr. Moran made about the 
Carcieri issue. There is some concern with our colleague who is 
obviously very good on these issues, of the Subcommittee on 
Natural Resources, about the connection between Alaskan Natives 
and that particular issue. Congressman Kildee had a bill last 
year, I had a bill, we were able to attach one here. That is 
fine, but do you have any concerns about how Alaska natives 
figure in to the Carcieri fix?

                              ALASKA LANDS

    Mr. Echo Hawk. That is a consideration because of course, 
Alaskan Natives, they are just isolated tracks of allotted land 
in Alaska right now, but the approximately 44 million acres 
that Native people hold in Alaska is held through corporations 
and it is not in trust status. And so I think that naturally 
people in Alaska might want to know, you know, are we talking 
about making 44 million acres of trust land? Right now Federal 
regulation does not permit us to take land into trust. So it is 
a consideration that it can be reasonably dealt with.
    Mr. Cole. My understanding, and I am not going to hold you 
to it and I may be wrong, but Chairman Young, what he would 
like would be just an exclusion, that this legislation does not 
affect the land in Alaska. Would that cause you guys any 
problem if there were legislation that specifically set this 
aside so we did not mix up the two issues?
    Mr. Echo Hawk. Congressman Cole, I think that we would have 
to consult with the Administration before we established a 
position. We do not have a position on that, but we could 
formulate a position on any kind of legislation. But it is not 
our process to comment on bills that are not put in place.
    Mr. Cole. Fair enough. We would like to have a discussion 
with you about that because we are working on something like 
that with Chairman Young right now, and we are trying to make 
this something that does not cause anybody a problem. So again, 
we will contact you at another time and just ask you if we 
could run some language by you to see if there is some 
particular concern or problem. If we can get one through, we 
would like it. Obviously it would be something that the 
President would feel comfortable in signing.

                             CATAWBA TRIBE

    While Congressman Moran and I were on a trip together 
recently, we got a call from the chief of the Catawbas, for 
what you had done, frankly, in helping them. And you know they 
have had great difficulty in that particular tribe and where 
they are located. I just wanted to thank you very much for 
intervening in helping them with the financial situation, the 
problems they made. He was, you know, beside himself and could 
not say enough good things about you and about how well the BIA 
had worked with them to help resolve this problem. So thanks, 
that was a big deal.
    Mr. Echo Hawk. Thank you, Congressman Cole. I was actually 
trying to dial up the chief of the Catawba this morning, and I 
was not able to get through. I have got another little piece of 
information that he would be happy about.
    Mr. Cole. That is wonderful to hear. Thank you, Mr. 
Chairman.
    Mr. Simpson. Mr. Hinchey.

                            SULLIVAN COUNTY

    Mr. Hinchey. Thank you, Mr. Chairman, and it is a great 
pleasure to see you once again, Mr. Secretary. Thank you very 
much for being here, and I want to express my appreciation to 
you again to coming up to Sullivan County and articulating 
those set of circumstances there. That situation is still 
unresolved. It is still trying to be addressed by a number of 
people in various ways, but nothing significant has come out of 
it yet. But we will see if there is anything else that is going 
to happen over the course of the next year or so. It very well 
may happen. In any case thank you. Thanks very much for what 
you did, and thanks for being there.

                     INDIAN GUARANTEED LOAN PROGRAM

    I just wanted to ask again about this Guaranteed Indian 
Loan program which strikes me as something that is very 
helpful, very significant to Indian business operators, people 
who are trying to start business and the fact that this 
proposal is being cut by about 60 percent, from $8 million to 
$3 million. But as I understand it, the operation of this 
activity, over the course of recent years, has been very 
positive. There has been no loss. It has been very, very 
effective. For the most part, it has worked very, very well. So 
I wonder why or what the purpose would be of cutting this and 
what the effect of that is going to be? What kind of negative 
effects are going to arise as a result of the loss of this 
opportunity for some funding for people who are trying to start 
a business and change their lives?
    Mr. Echo Hawk. Congressman, I mentioned that just last week 
we had met with the Tribal Interior Budget Council, and we got 
a pretty good earful from tribal leaders about their concerns 
about the reduction that occurred in that program, and you 
know, what they were saying to us is that this is vital for 
economic development. As I recall, you know, there is a 13-to-1 
leverage. You know, for every dollar that we can come up with, 
they can go into private investors and generate 13. So it has a 
pretty good economic development out there where it is needed 
with a low default rate. But we are permitted to continue to 
work to improve the program and, you know, convince anyone with 
any concerns that this is something that ought to be continued 
but, you know, right now we are in the phase of evaluating and 
improving the program.
    Mr. Hinchey. Well, I appreciate that, that you are still 
looking at this, the cost. The circumstances that we are 
dealing with in this country, as you know, I mean, this is just 
a tiny aspect of it. But the major issues that we are dealing 
with her are circumstances that are downgrading the economy, 
and the economy is being downgraded primarily because of the 
lack of investment into the internal needs of this country to 
generate jobs, stimulate economic growth, upgrade the economy. 
All of this is very, very important. And this is a small 
example, but nevertheless, all of the history of this has been 
very positive. It has generated jobs, it has stimulated the 
economy. It has done things that were helpful for the economic 
circumstances. So I am hoping that this little example here is 
not going to be just pushed away, that it is going to come back 
and come back strong and effective. And I deeply appreciate the 
activities that you are continuing to be engaged in. Thank you 
very much.
    Mr. Echo Hawk. Thank you very much.

                         EDUCATION CONSTRUCTION

    Mr. Simpson. Thank you, Mr. Hinchey. Let me get back and 
ask a couple questions about schools. As Ms. McCollum was 
saying, we have apparently $1.8 million to $1.3 million backlog 
where schools that are in poor condition. And did I understand 
you to say you are putting together a priority list of schools? 
Is there a priority of how you decide which schools get 
construction money first?
    Mr. Echo Hawk. I will answer, and then if Keith Moore has 
something to add. There is a formal process that is underway, a 
negotiated rule-making, and we have a 25-member committee made 
up of tribal leaders that have held a series of meetings, I 
think, and in all, they will end up meeting about six times. 
And they are tasked to catalog all facilities, school 
facilities, and to specifically come up with a list of where 
the repairs and renovation need to be made and also new schools 
and make recommendations about what equitable distribution 
ought to be occurring. And we are expecting that I think 
perhaps even as early as later this year, I have seen two 
figures on this, or early next year, we will be able to 
formalize that process and then we will have a plan in place 
that has a priority list for new schools and for repairs.
    Mr. Simpson. What I would like to see next year when we 
hold this hearing is a priority list of those schools that are 
unacceptable, I guess, or poor, and a total of the backlog and 
a plan to address that backlog over a period of time so that 
the committee knows what we are buying into and how we are 
going to address that. So I would appreciate that next year 
when we have this budget hearing.
    Mr. Echo Hawk. Will do.
    Mr. Simpson. Go ahead.

                           NEW MEXICO SCHOOL

    Ms. McCollum. I know you are going to do your very best 
working with the tribal community to identify this, but I was 
in a school in one of the pueblos in New Mexico where part of a 
wing of the building was shut off. They think there is a crack 
in the ground underneath the sewer. They have, and I should 
know the right terminology following earthquakes the way I have 
the past couple weeks. They put these little plates on where 
they can measure whether or not the wall is separating because 
there has been earthquake damage.
    And so the school was basically condemned. It was 
condemned. Then they sectioned off part of the building, and 
they put a coat of paint on and they put these little things on 
to measure to see if the building separated anymore. This did 
not happen under your watch. Voila, the building was suddenly 
not condemned anymore.
    So when you are going through and you are looking at this 
list, institutional memory rather than just looking at the 
list, and I am sure you are probably going to do this working 
with the tribal council, but as well as the tribal elders in 
some areas to find out what the actual status of the building 
is and not just necessarily trusting your list because it was a 
miracle, you know, that a coat of paint literally took the 
school off. And I have all the documentation in my office from 
the pueblo on it. So it is that kind of backlog in trying to 
work off these lists as the Chairman pointed out with these big 
group all-call descriptions because I know you want to do the 
best job that you can, and I am trying to say I know it is 
going to be really hard to even come up with a category with 
it.

                     EDUCATION FACILITY MAINTENANCE

    And then if you have two pots of money, one for replacement 
and one for maintenance, if we do not get ahead of the 
maintenance, pretty soon we will end up replacing. And so my 
comment, speaking for myself is, to be bold, to dream big and 
to say what you need to clear this backlog up so that we do not 
have deferred maintenance creating even more costs later on 
because children know how a community feels about them by the 
shape that their school is in. That is our gift to our children 
for their future. And if a school does not say we respect you, 
we embrace you, we cherish you, we welcome you, we want you to 
succeed, we start out behind. And you already are dealing with 
a lot of issues.
    Mr. Chairman, I am sorry. I did not mean to take any----
    Mr. Simpson. No, that is okay. I appreciate that, and I 
agree with what you said. What we truly need is an honest 
appraisal because that is what the committee really needs if we 
are going to plan for the future. We are not going to be able 
to address them all tomorrow, but we need a plan so that we can 
see whether we are making progress or not making progress. So I 
appreciate that.

                       EDUCATION ANNUAL CRITERIA

    One other issue is the 2008 GAO report on the BIE schools 
highlights failings that pertain to the selection and 
coordination of adequate yearly progress or AYPs under the No 
Child Left Behind Act. Among the 174 BIE-run schools, several 
school systems report a lack of direction from BIE in forming 
these annual criteria which present a challenge for each school 
system as it attempts to craft a meaningful system of 
performance majors. What steps is BIE taking to help schools 
create the AYP goals to measure performance so we know how 
children in these schools are doing? We not only want to 
provide schools that are adequate, that are schools that 
children can attend in safety, we also want them to learn 
there. How are we measuring whether students are learning 
there?
    Mr. Moore. Thank you, Mr. Chairman. It is a complex system 
for us right now because we have schools in 23 states, and we 
have a set of standards and assessments that is different in 
each of those 23 states. So we have standards, you know, across 
the board----
    Mr. Simpson. Most schools have adopted their state standard 
for AYP?
    Mr. Moore. Correct. That is what happened in the previous 
VSE reauthorization, that our schools would follow the states 
where they are sitting. You know, you have CUT scores all over 
the board, high, low and so forth across the 23 states. We 
cannot compare apples to apples. We cannot compare our 
students. It is very difficult. So under ESEA which we 
obviously need to reauthorize as soon as humanly possible to 
get a good bill in place to really move forward educationally, 
we want to go to a common set of standards and assessments for 
our 23 states. We are working with the Council of Chief States 
School Officers and other states to make that possible for our 
schools which would then allow us to run a common operating 
environment when it comes to standards and assessments for our 
schools.

                          ESEA REAUTHORIZATION

    Mr. Simpson. As the Education & the Workforce Committee is 
looking at reauthorizing the Elementary and Secondary Education 
Act, I know that is high on the priority list. Is there 
something specific that needs to be done in that to address 
this issue with BIE schools?
    Mr. Moore. Well, the adoption of the common core by the 
states is the big one so that we can be uniform across the 
board, across all states, to be able to assess our students, 
follow standards and build curriculum for the students.

                             VIOLENT CRIME

    Mr. Simpson. Okay. Last summer, this Subcommittee included 
considerable report language directing the Department to engage 
the Department of Justice, tribes, state, and Inspector General 
to better address epidemic levels of sexual and domestic 
violence, substance abuse and related criminal problems on 
reservations. Could you update the committee on where we are on 
that and what some of the major obstacles are that you have 
encountered and how we overcome them?
    Mr. Echo Hawk. We have had significant increases in 
funding, and I think one of our key projects that we are doing 
right now is the high priority performance goal on four 
reservations where we have attacked violent crime, and this has 
been a tremendous success so far to reduce violent crime by at 
least 5 percent over a 24-month period. We are hoping to be 
able to expand that into other areas. But one of the things 
that we are really trying to do to attack crime is collaborate 
with the Justice Department to make sure we are working in 
close concert with them.
    I have, you know, connected with the United States 
attorneys that represent Indian Country. I have spoken to their 
national group, been in face-to-face meetings. I recently had a 
conference call with them, and we are trying to work smart 
together. And we also have an exchange where we have somebody 
that we have detailed to the Justice Department, they have 
detailed somebody to us, to make sure that we are properly 
communicating. We have got workgroups that connect with them to 
make sure that we are meeting our responsibilities under the 
Tribal Law and Order Act.
    So this is a high priority of President Obama, and we are 
really trying to do the very best we can to attack the crime 
problems in Indian Country, and I think we are making success.

                TRIBAL-STATE LAW ENFORCEMENT AGREEMENTS

    Mr. Simpson. One of the real issues, and I do not know if 
you get involved in this or if you should get involved in this, 
whether the BIA should or not, that was mentioned earlier is 
the recognition of tribal police officers and their 
relationship with the state or the counties that they happen to 
live in. I use this as an example: For the last couple of 
years, the Coeur d'Alenes in Idaho have tried to get an 
agreement with the counties that surround them and have the 
state kind of approve it so that their police officers who go 
to the post academy and are trained just like the police 
officers in the counties can actually do their jobs on 
reservations. Right now, if someone is speeding on the 
reservation and you are a non-Indian speeding on the 
reservation, you can get stopped and you can be held there 
until a police officer comes from the State Police to give you 
a ticket or whatever they are going to do, which just seems 
bizarre to me. These tribal officers are highly qualified and, 
like I say, have gone to the post academy just like the other 
police officers. They cannot seem to get an agreement. One 
county they are fine with, and that county actually supports 
the legislation that was proposed in the Idaho legislature. The 
other county has some issues that probably are extraneous, but 
do you ever get involved in those types of issues, trying to 
help state legislatures? Both you and I know, coming from state 
legislature, that that is a sticky wicket to get involved in, 
but to you play a role in trying to help them understand these 
issues? It seems to me as I have tried to study over the last 
couple of years law enforcement and the rights of Native 
Americans and tribes, it is the most complicated set of laws I 
have ever seen in my life. Depending on what type of tribe you 
are, where you are located, whether you are a PL280, whether 
you are a non-Indian committing a crime on a reservation or 
another Indian committing a crime on a reservation and whether 
you are committing that crime against a Native American or non-
Indian--I mean it is almost bizarre to try to understand this. 
And I know the Tribal Law and Order Act was intended to help 
clean up some of that. But there is still a long way to go in 
trying to make this. Tell me about your job in trying to 
resolve some of these problems.
    Mr. Echo Hawk. Well, Chairman Simpson, your question takes 
me back to the good old days. I was actually serving as the 
tribal attorney, you know, at Fort Hall near where you grew up.
    Mr. Simpson. Right.
    Mr. Echo Hawk. And later becoming the county prosecutor. 
And I worked on these cooperative agreements at the local 
level. So I know there is a long list of the kind of problems 
that you run into that you have got to overcome in order to 
craft those agreements. And we have success stories all over 
the country now, you know, because people have learned over 
time that it is better to cooperate and come to agreement 
instead of fight these jurisdictional battles. But one of the 
really good things that we are starting to see more of has to 
do with the training because I think I already mentioned, the 
Tribal Law and Order Act has a section in there that encourages 
training of tribal officers at state facilities, and then we 
follow that up with the Bridge Program that allows those 
officers that are trained in the post academies to be able to 
get the specialized education that they need to understand the 
jurisdictional issues in Indian Country.
    So, you know, we need to attack the training and cooperate 
with the states, you know, at the request of the tribes. They 
have to be willing to do this. And then we have got to be able 
to retain those officers, and one of the big problems is we do 
not, depending on what area it is, some of these reservations 
are very isolated, we have housing problems, we have got issues 
with paying them what they are really worth. We train them, we 
get them out there, they get experience and then they go to 
work for the counties or the state where they can make more 
money. So we are working on retention issues, and I think we 
are progressing on these issues, and the big thing is can we 
see more of these cooperative local agreements. And you know, I 
think we are making progress. And actually, the Attorney 
General of Idaho called me about that situation up in North 
Idaho. I think that was Benewah County. And he had me waiting 
out there, ready to come in and see if I could help, and he 
never called. But he kept telling me, I am going to call you, 
Larry. I kept reading about the issue in the paper, and they 
should have called me in because it fell apart, right? So I 
could have saved it, you know. I am just kidding. But I was 
willing to go out. I told him I was willing to go out and try 
to be whatever positive force I could be.
    Mr. Simpson. I appreciate that. I know there are touchy 
issues, and when you were the prosecuting attorney in Bannock 
County, I was from Bingham County, and we always used to train 
our police officers and then Bannock County would hire them 
away because you paid more down there.

                                 NAGPRA

    One last question. According to a July 2010 GAO report on 
Native American Graves Protection and Repatriation Act, the BIA 
is one of two agencies that have made the least amount of 
effort to comply with this Act. And that seems rather odd in 
that this attempt to repatriate burial objects to tribes. 
Please explain to me the agency's position, and the reason I 
ask this is it had never come to my attention before but I was 
having lunch with some tribes and they were talking about the 
difficulty in getting some of the bones of their ancestors back 
from some universities which they would like to repatriate, and 
they told me at that time that the BIA was of little 
assistance, I guess is the best way to put it. I do not want to 
put words in their mouth, but that was kind of that attitude, 
and then this GAO report pretty much says the same thing.
    Mr. Echo Hawk. Well, the first thing I need to say, I was 
not here when any kind of bad things happened, right?
    Mr. Simpson. Right.
    Mr. Echo Hawk. But you know, seriously, we did respond to 
the report and cleared up I think some, things that we maybe 
disagreed with. And there are also some legal issues involved 
in that we have consulted with Solicitors on. But we have made 
improvement already, and I would be happy to, you know, have 
something presented to you in writing to mark the kind of 
progress that we have made. But we still have challenges we 
need to address.
    Mr. Simpson. I appreciate that. Ms. McCollum.
    [The information follows:]

                                 NAGPRA

    Indian Affairs has published a relatively high number of Notices of 
Inventory completion (32), and a high percentage (99.88%) of 
repatriations for the completed inventories. Indian Affairs is actively 
pursuing and following through on repatriations. In addition, the 
Indian Affairs Museum Program continues to fund contracts with museums 
for NAGPRA compliance activities.
    To strengthen its efforts, Indian Affairs is resurveying the non-
Federal repositories which are housing Indian Affairs NAGPRA items in 
their collections to determine whether they have accurate and complete 
inventories and summaries as well as compliance with NAGPRA. This 
effort will allow Indian Affairs to have a true assessment of the 
status of inventory and summary completion and properly determine the 
actions, resources, and time needed for completion.

                               EDUCATION

    Ms. McCollum. I would like to follow up with a couple of 
education questions, and it might not be in your area as I 
listed off all the Departments and Indian programs within them.
    One of the issues, and I appreciated the Chairman bringing 
up, is one big issue to consider in the reauthorization of No 
Child Left Behind is the governors working together to come up 
with some uniform core standards. So that is my understanding 
those are the standards you would be looking at?
    Mr. Moore. Correct.
    Ms. McCollum. There is another thing that seems to happen 
at times, and I think it has cleared itself up. I sent a letter 
several years ago in the other Administration. When people were 
looking for money to help children succeed, the tribes were 
told that where they were not compliant and where they were not 
doing good on Title 1 because Title 1 is not fully funded even 
to the Native American tribal schools, to take the money out of 
Esther Martinez, which is for core language improvement. And 
Esther Martinez, by reinforcing a second language, a native 
language, the first language of the people in the area in which 
these children grow up traditionally, culturally, the parents, 
their grandparents, children who do a second language do much 
better in school. We know that Native American children need 
every option put on the table for them to succeed as all 
children do but especially we know that we have failed 
collectively as a Nation these children the most.
    So when discussions like that are taking place at the 
Department of Education, do tribes come to you and say, hey, 
they are telling us to use our Esther Martinez money for Title 
1, and that is not what it was there for, and that is our money 
for language, protection? Do you get involved in things like 
this with the Department of Education? Do they look at you as a 
collaborator or a person to go for advice and counsel, or do 
they just do their own thing? I know you had mentioned you were 
trying to develop those relationships, and then I am going to 
ask two questions and they are both about education.

                               HEAD START

    Head Start, what kind of waiting list do you have? I mean, 
there is a huge waiting list for Head Start in general across 
this country. But what kind of waiting list do you have for 
Head Start, or what are some of the barriers in Head Start? Is 
it dollars for transportation? What are some of the needs for 
Head Start? Now, that program is in Health and Human Services, 
but the program is also in Indian communities and reservations. 
And this is where it gets so complicated. I am not trying to 
put everything on your plate, and I will speak with the 
Department of Education, too. But it is so inter-connected. And 
then Impact Aid because not only do we have the BIE schools, 
but people come up and ask for dollars for Impact Aid all the 
time which is military but it is also for tribal schools. And I 
have been in some areas where, in urban and suburban areas, not 
only in the Twin Cities but around, in which the impact dollars 
following the student could provide more services.

                           EDUCATION FUNDING

    So the big picture is because you are the Bureau of Indian 
Affairs, does everybody think that you can solve their problem? 
And is there anything we can do as appropriators because we 
serve on the Full Appropriation Committee to help you be more 
effective in doing the kind of consultation that you would like 
to do so that we can help you be more successful in allowing 
Native American people, Indians, to be able to fully embrace 
their full rights under the treaty obligations.
    Mr. Moore. Thank you. Thank you, Congresswoman. I will 
address the first one, U.S. DoE and Interior. I would like to 
really thank Secretary Salazar and Secretary Duncan, they have 
been big leaders in collaborating between the two, and it has 
been very beneficial for us. We have roughly a quarter-billion 
dollars that runs through us, the BIE, out to our schools from 
the U.S. Department of Education, so they are obviously a big 
player for us in terms of us, how we monitor that money, how it 
goes out to schools. So we have our Interior Appropriations for 
our schools, but we also have the U.S. Department of Education 
monies that come through the BIE and out to our schools. So 
they are vital, and they have been great. And we have had a 
number of conversations with ESEA and a number of other areas 
where we struggle in terms of the BIE being recognized and ESEA 
and different languages and programs and so forth.
    We have a number of issues, the second one being the Esther 
Martinez Title 1 issue. The Assistant Secretary mentioned 
earlier that we are funded right now, our tribal grant schools, 
at 62 percent for tribal grant school costs, administrative 
costs. So what happens in those situations when you are only 
funded to a certain level, and we have that in a number of 
programs that run through, they are only funded to a certain 
level, then schools start wanting to dip into other funds to 
obviously supplement and be able to do what they have to do. 
That causes concerns. You do the A-133 audit. Is this allowable 
by statute? Can they do this? And we end up having a number of 
issues across the board of, you know, how you can cross lines 
in terms of line item with budgets. There are a number of 
programs. It is not just Esther Martinez and Title 1 and so 
forth that we have those issues with. So that is a struggle.
    Head Start, I mean, we would be able to talk directly to 
Head Start. That is Health and Human Services, as you 
mentioned, that they run that program. We obviously are very 
tied in to what they are doing and how they are doing because 
those youngsters are coming to our schools.
    Ms. McCollum. And then you take----
    Mr. Moore. Right. Yes. So it is tied to us, but we do not 
oversee it, monitor it, or you know, do those sorts of things 
with Head Start. And the Impact Aid goes to public schools on 
reservation land. So BIE schools, we do not receive Impact Aid. 
It is public schools on Indian lands or schools that are 
adjacent to reservation lands that receive the dollars for 
Impact Aid that go into those schools, and it is a very strong 
sum of money that is really used for capital outlay and a 
number of other areas in those schools.
    So I hope that answers your questions.
    Ms. McCollum. Public schools on reservation land? So if you 
are not getting the dollars for the public school on the 
reservation land, I mean, do people come and say to you, why 
are we not getting the money? Why is this not happening? I 
mean, part of my question is you are the first call for help 
and you are the last call for the last solution to get 
something done. So I am serious, what can we do? I know you are 
trying to get cabinet secretaries and undersecretaries and 
other people to focus. We have some success stories. But this 
needs to be a foundation we build on, and it also needs to be 
something that we need to be mindful in talking to our 
colleagues about what is going on in Health and Human Services 
if we really want to have an impact on success in our schools 
and reduce suicide rates and reduce crime rates. Head Start, I 
mean, there is a Federal Reserve report that proves it beyond a 
reasonable doubt that Head Start is something that helps in all 
those areas.
    So just tell me what your average day is like in that, and 
then I will be quiet.

                              TRIBAL INPUT

    Mr. Echo Hawk. Well, Congressman, I appreciate your concern 
and I can tell from your questions and comments that you seem 
well-informed about these issues, and I commend you for that.
    We have a policy that any tribal leaders that want to meet 
with us, we accommodate them if they come to Washington, D.C. 
But not all tribal leaders can. And so I have really tried hard 
to travel into their communities. I have been in 38 states in 
the past 22 months and meet regularly with tribal leaders, and 
you know, I hear their voice. But when they speak up, what they 
tell me does not necessarily relate to Indian Affairs and the 
Department of the Interior. So we try to reach across the 
Department lines to communicate the concerns that we hear, and 
I very much appreciate what I am hearing as an invitation to 
suggest ways that maybe this Subcommittee and the larger 
Appropriations Committee, how they could maybe address some of 
these concerns that we are hearing that we really do not have 
direct authority over. So we will consider that, and I 
appreciate the outreach that I am hearing from you today.
    Ms. McCollum. But the Chairman has to agree. He is the 
boss.
    Mr. Simpson. Oh, I agree. We try to work with other 
committees, and we try to work with the Department of Justice 
to help address some of the issues in Indian Country, and we 
will continue to do that with the Department of Education. And 
if there are ideas that we have, that committee members have 
that we can be helpful with, just let us know. We are more than 
willing to work with it.
    I appreciate you being here today. As I said in the 
beginning, Larry, you know, we are old friends from days gone 
by, and you mentioned that you had been here 22 months and you 
are the longest-serving secretary in more than a decade. And 
that is truly one of the problems I think created in the Bureau 
of Indian Affairs is that it takes a long time, as you well 
know. And you did not come to this position as a stranger to 
Indian Affairs. It takes a long time to get your arms around 
both the problems and the good things that are happening out 
there. And I expect you to stay for a while because I am sure 
you have got your--or at least getting your--arms around them 
and starting to see some of the things that we can do to 
improve life in Indian Country. And we want to work with you, 
and we do not want to start over with a new assistant 
secretary. So I hope you will stay, and we look forward to 
working with you to try to address some of these problems. 
Thanks for being here today.
    Mr. Echo Hawk. Thank you very much.
    Mr. Simpson. You bet.

    [GRAPHIC] [TIFF OMITTED] T6897B.013
    
    [GRAPHIC] [TIFF OMITTED] T6897B.014
    
    [GRAPHIC] [TIFF OMITTED] T6897B.015
    
    [GRAPHIC] [TIFF OMITTED] T6897B.016
    
    [GRAPHIC] [TIFF OMITTED] T6897B.017
    
    [GRAPHIC] [TIFF OMITTED] T6897B.018
    
    [GRAPHIC] [TIFF OMITTED] T6897B.019
    
    [GRAPHIC] [TIFF OMITTED] T6897B.020
    
    [GRAPHIC] [TIFF OMITTED] T6897B.021
    
    [GRAPHIC] [TIFF OMITTED] T6897B.022
    
    [GRAPHIC] [TIFF OMITTED] T6897B.023
    
    [GRAPHIC] [TIFF OMITTED] T6897B.024
    
    [GRAPHIC] [TIFF OMITTED] T6897B.025
    
    [GRAPHIC] [TIFF OMITTED] T6897B.026
    
    [GRAPHIC] [TIFF OMITTED] T6897B.027
    
    [GRAPHIC] [TIFF OMITTED] T6897B.028
    
    [GRAPHIC] [TIFF OMITTED] T6897B.029
    
    [GRAPHIC] [TIFF OMITTED] T6897B.030
    
    [GRAPHIC] [TIFF OMITTED] T6897B.031
    
    [GRAPHIC] [TIFF OMITTED] T6897B.032
    
    [GRAPHIC] [TIFF OMITTED] T6897B.033
    
                                          Thursday, March 31, 2011.

              INDIAN HEALTH SERVICE FY 2012 BUDGET REQUEST

                               WITNESSES

YVETTE ROUBIDEAUX, M.D., M.P.H., DIRECTOR, INDIAN HEALTH 
    SERVICE
RANDY GRINNELL, DEPUTY DIRECTOR, INDIAN HEALTH SERVICE

                Opening Remarks of Acting Chairman Cole

    Mr. Cole. Welcome, Director Roubideaux and Deputy Director 
Randy Grinnell.
    The fiscal year 2012 budget request for the Indian Health 
Service is a $571 million increase, or 14 percent over fiscal 
year 2010. Of that increase, $327 million, or 57 percent, is 
just to maintain current services.
    The rising costs of health care are staring this 
subcommittee in the face. The United States has an obligation 
to provide quality health care to American Indians and Alaska 
Natives, and as Chairman Simpson and Mr. Moran have already 
demonstrated, meeting that obligation will be as high of a 
priority of this subcommittee and the 112th Congress as it was 
in the 111th Congress. It will not be easy.
    The reality is that once this subcommittee has been given 
its allocation, the Indian Health Service will be competing for 
limited funding against our Nation's aging water 
infrastructure, the operation of our national parks, the 
fighting of life-threatening wildfires, just to name a few.
    We are pleased to have the two of you here today to 
continue our dialog about how to ensure that every dollar 
appropriated to the IHS is money well spent.
    Mr. Cole. With that, I am happy to yield to my friend, the 
distinguished gentleman from Virginia, Mr. Moran, for any 
opening remarks he might have.

                      Opening Remarks of Mr. Moran

    Mr. Moran. Thanks very much, Acting Chairman Cole and 
Chairman Simpson, and Dr. Roubideaux, very nice to see you 
again.
    I would like to put in a quote here just because Mr. 
Simpson enjoys them so much.
    Mr. Simpson. That is why I wake up every day.
    Mr. Moran. It is by Sioux chief, Chief Sitting Bull. 
Actually the first full-length book I ever read was on Sitting 
Bull because it just happened that my parents gave it to me. He 
is quoted as having said, ``Behold my brothers, the spring has 
come. The earth has received the embraces of the sun and we 
shall soon see the results of that love.'' This is springtime 
and that is why the quote is so appropriate. ``Every seed 
awakens and so has all animal life. It is through this 
mysterious power that we too have our being and we therefore 
yield to our neighbors, even our animal neighbors, the same 
right as ourselves to inhabit this land.'' Pretty wise and 
insightful. It certainly is as wise as any of our Founding 
Fathers.
    But to get back to the point before us, we are all blessed 
with the mysterious miracle of life and most people in this 
country are blessed with good health and a long life, but in 
Indian Country, as we know, it is a different story. As the 
Indian Health Service has noted, Native Americans and Alaska 
Natives die at higher rates than other Americans from 
tuberculosis, 500 percent higher rate, alcoholism, 514 percent 
higher incidence, diabetes, 177 percent higher, unintentional 
injuries, 140 percent higher, homicides, 100 percent higher, 
suicide, 82 percent higher. And while their life expectancy has 
increased, it is still 5.2 years less than those of all other 
races within the United States.
    I was disappointed, therefore, that a majority in the House 
voted to repeal the Patient Protection and Affordable Care Act 
because I really do think that that is going to be a terrific 
complement to the Indian Health Service, and you made that 
point last year, Doctor. That disappointment was compounded by 
the fact that the repeal included wiping out the 
reauthorization of the Indian Health Care Improvement Act. It 
has been nearly two decades since the Indian Health Care 
Improvement Act was last reauthorized and efforts to update and 
modernize the law took years of work. Enhancements that the 
updated law provides include authorization for hospice, 
assisted living and long-term care as well as comprehensive 
behavioral health, prevention and treatment programs, all of 
which would have been wiped out under H.R. 2, which did pass 
the House in January.
    There is an old saying that a person should take care of 
themselves because good health is everyone's major source of 
wealth, but for Native Americans and Alaska Natives, that 
saying rings hollow when many do not have the means to afford 
or even the fiscal access to quality health care.
    While the proposed increase in the budget for the Indian 
Health Service does appear to be quite large, these additional 
funds have to be viewed in the context that more than 57 
percent of the increase is just to maintain current services. 
The IHS serves approximately 2 million Native Americans and 
Alaska Natives. It is a population that desperately needs 
health services. Providing access to quality health care for 
Native Americans and Alaska Natives is the mission of the 
Indian Health Service, and that is why this is such an 
important hearing, and why we are pleased as we could be, Dr. 
Roubideaux, that you are responsible for it and it is very nice 
to see Mr. Grinnell with you and your staff.
    So again, thanks for having the hearing, Mr. Chairman and 
Mr. Chairman, and we look forward to the testimony. Thank you.
    Mr. Simpson. Director.

                      Testimony of Dr. Roubideaux

    Dr. Roubideaux. Mr. Chairman and members of the committee, 
good morning. I am Dr. Yvette Roubideaux and I am the Director 
of the Indian Health Service, and I am accompanied today by Mr. 
Randy Grinnell, the Deputy Director, and I am pleased to 
testify on the President's fiscal year 2012 budget request for 
the Indian Health Service.
    While the President's budget for the entire Federal 
Government reflects hard choices necessary to control the 
deficit, the IHS budget request reflects a sustained commitment 
by President Obama to honor treaty commitments made by the 
United States, reflects Secretary Sebelius's continued priority 
to improve the IHS and represents one of the largest annual 
percent increases in discretionary budget authority within the 
Department of Health and Human Services.
    This budget request was built upon tribal priorities and 
maintains current services and also focuses program funding 
increases to be distributed broadly across as many patients and 
communities as possible. The budget request for IHS is $4.6 
billion, an increase of $571.4 million, or a 14 percent 
increase over the fiscal year 2010 enacted funding level.
    The request includes increases to maintain current services 
including pay costs for Commissioned Corps personnel, inflation 
and population growth and funding to staff and operate newly 
constructed facilities, including facilities completely 
constructed by tribes under the Joint Venture construction 
program, and the success of the Joint Venture program 
demonstrates the strong commitment of the Administration and 
our tribes to reduce the backlog of health facility 
construction projects and staffing needs.
    The budget also includes a total increase of $169.3 million 
for the Contract Health Services program, the top tribal 
priority for program increases, and this will help us meet the 
significant need for referrals for medical services in the 
private sector. The budget request also includes $54 million 
for the Indian Health Care Improvement Fund and will allow 
approximately 88 of our lowest funded hospitals and health 
centers to expand primary care services. To fund the shortfall 
in contract support costs, a $63.3 million increase is included 
for tribes that have assumed management of health programs 
previously managed by the Federal Government.
    The budget request also includes modest increases for 
health information technology security, prevention of the 
principal risk factors for chronic diseases such as smoking and 
obesity, and expanding access to and improving the quality of 
substance abuse treatment in our primary care settings.
    For the facilities appropriation, the total health care 
facilities construction budget is $85.2 million for 
construction to continue on the replacement hospital in Barrow, 
Alaska, and the San Carlos Health Center in Arizona, and the 
Kayenta Health Center on the Navajo Reservation. It will also 
fund the design and site grading of the Youth Regional 
Treatment Center in Southern California.
    This budget helps us continue our work to bring reform to 
the Indian Health Service. In the first year that I was 
Director, I sought input from tribes and staff on where 
improvements are needed in IHS. In the second year, it has 
become clear that input from stakeholders has reinforced the 
need for change and improvement in the IHS, improving the way 
we do business and to focus more on our oversight 
responsibilities to ensure accountability and providing quality 
health care in the most effective and efficient manner 
possible. We are working hard to make the improvements and 
implement the recommendations of the Senate Committee on Indian 
Affairs Investigation of the Aberdeen Area.
    This budget also includes funding increases for direct 
operations and business operations support to help us improve 
our business capacity and oversight. While we are making 
progress on implementing the Indian Health Care Improvement 
Act, permanent reauthorization is included in the Affordable 
Care Act. This budget proposes funding for two high-priority 
demonstration projects: youth telemental health project for 
suicide prevention and innovative healthcare facility 
construction.
    While IHS has proven its ability to improve the health 
status of American Indians and Alaska Natives over the years, 
this budget request for IHS is really a necessary investment in 
winning the future that will result in healthier American 
Indian and Alaska Native communities.
    So thank you for the opportunity to present the President's 
fiscal year 2012 budget request for the Indian Health Service, 
and I am happy to answer questions.
    [The statement of Yvette Roubideaux follows:]

    [GRAPHIC] [TIFF OMITTED] T6897B.034
    
    [GRAPHIC] [TIFF OMITTED] T6897B.035
    
    [GRAPHIC] [TIFF OMITTED] T6897B.036
    
    [GRAPHIC] [TIFF OMITTED] T6897B.037
    
    [GRAPHIC] [TIFF OMITTED] T6897B.038
    
    [GRAPHIC] [TIFF OMITTED] T6897B.039
    
    [GRAPHIC] [TIFF OMITTED] T6897B.040
    
    [GRAPHIC] [TIFF OMITTED] T6897B.041
    
    Mr. Cole. Thank you, Director. I am only in this chair 
courtesy of Mr. Simpson, who has pressing commitments 
elsewhere, so I am going to go straight to him so he can ask 
whatever questions he cares to.
    Mr. Simpson. Thank you, Chairman. I appreciate it, and 
thanks for taking the committee today. I apologize for having 
to slip out to another committee hearing that I have to chair 
here in a few minutes, but I did want to come down for your 
testimony.
    You and I have had the opportunity to talk about Indian 
Health Service, and I think as we have demonstrated, both 
Republicans and Democrats on this committee are committed to 
making sure that we improve Indian health across this country. 
It is not a partisan issue with this committee. I think when 
Mr. Moran was chairman, he did a great job and we appreciate 
that, and if you saw in H.R. 1, although it has been called a 
dump truck, among other things, I think everybody agreed with 
the increase that we actually put in for Indian Health Service 
in H.R. 1 as a demonstration of our commitment that we have got 
to address some of the real problems that exist in Indian 
Country, and I know that you are doing a great job and I look 
forward to working with you on these issues as we move forward.
    As you probably also know, I was a dentist in the real 
world before I was elected to Congress, which is a whole other 
story I will not get into. So I have a couple dental questions.

                            DENTAL SERVICES

    In 2008, the Indian Health Service's GPRA summary report 
noted that only 25 percent of American Indians and Alaska 
Natives had access to dental care, and those that do find 
themselves without the ability to receive many of the routine 
procedures such as root canals or endodontics, as we like to 
call it. Root canals make people kind of cringe. Adult services 
are generally limited to emergency care, if at all. How does 
the President's IHS budget recommendation address the dire need 
for dental services in Indian Country and what is IHS doing to 
help tribal nations attract and retain qualified professionals?
    Dr. Roubideaux. Well, thank you for your question, and I 
really appreciate your advocacy for dental care in the Indian 
Health Service. It is a very serious and significant need for 
addressing because we have high rates of dental caries and 
other dental problems. Well, this budget has $170 million for 
the dental line, which is an $18.2 million increase, and that 
includes increases for pay, population growth and staffing of 
some of the new clinics, and it is allowing us to continue to 
provide basic preventive care services and basic restorative 
and emergency care, and we really feel that this is an 
important priority, especially for our children, and that is 
why we have our Early Childhood Caries Initiative to try to 
reduce the rates of childhood caries.
    You know, I think based on a lot of encouragement, 
especially from you, we know we need to get more dental 
providers into the Indian Health Service and more dentists 
because we do need to have more health care providers. We have 
worked very hard on that. We have created a recruitment 
website. We have our recruiters working very hard on it. We 
have had materials developed. We have a dental externship 
program that brings dental students in to work with us, and 
then we have had an increased focus with our loan repayment 
program and with our bonuses, and so we have actually seen a 
reduction in our vacancy rate for dentists from 35 percent to 
17 percent, which is great but we still have more work to do. 
So we are going to keep working on improving dental services 
for American Indian and Alaska Native patients in the Indian 
Health Service.
    Mr. Simpson. But we have seen about a 50 percent reduction 
in the vacancy rate?
    Dr. Roubideaux. Yes.
    Mr. Simpson. That is good work, and we appreciate that very 
much.

                       ELECTRONIC DENTAL RECORDS

    In 2009, the committee directed IHS to use a portion of its 
HIT funds for electronic dental records. How far along are you 
in installing the EDR at all IHS dental facilities and are the 
tribes' facilities also on the same EDR, and is additional 
funding needed to complete this project, and if so, how much 
and how many years will it take at a current funding level?
    Dr. Roubideaux. Well, the electronic dental records system 
is extremely important so we can track our clinical and 
administrative data related to dental care. Fortunately, with 
ARRA funding and with our own funds, we have been able to 
complete its installation in 60 sites, and 21 are currently in 
progress. There are still 149 left to go, and we would need a 
significant appropriation to get those complete in a short 
period of time but we are very committed to it. We are 
installing those in both IHS and tribal sites, and it will help 
us improve and track the quality of care.
    Mr. Simpson. Any idea how long it will take under current 
levels to get the other 149 sites online?
    Dr. Roubideaux. Under current levels, I can give you an 
exact number through a written response, but I believe it is 
going to take several years under current levels.

                   EARLY CHILDHOOD CARIES INITIATIVE

    Mr. Simpson. Okay. Lastly, last year IHS announced the new 
initiative for reducing prevalence of early childhood tooth 
decay among young American Indians and Native Alaskans by 25 
percent and increasing their dental access by 50 percent. Could 
you give us an update on the progress of that initiative? Last 
year we asked what funding level would be needed in the IHS to 
make having all children entering school to be free of tooth 
decay. Have you been able to determine what amount would be and 
will any of the additional $18 million you are requesting for 
the dental program go to address this serious disease?
    Dr. Roubideaux. Well, we will definitely put resources 
towards the Early Childhood Caries Initiative because we think 
it is so important. It has an important goal of reducing caries 
and increasing access to dental care for children zero to five 
years old and getting more fluoride, more varnish and more 
sealants. We are currently evaluating this initiative and would 
be happy to provide you information as the details are 
available. I believe we have looked at what sort of resources 
we would need to equal the private sector in terms of access, 
and I believe it is an increase of 600 percent in the amount of 
funding that we would need to equal the private sector overall 
for dental care, but we are really committed to doing the Early 
Childhood Caries Initiative because it is innovative, it is 
unique. It is a partnership with our communities and some of 
our community providers and CHRs and so we are very committed 
to it.
    Mr. Simpson. Well, I appreciate that, and I would encourage 
you as you move on in this to work with the American Dental 
Association and other associations that have some good ideas on 
how to address this serious problem in Indian Country. A lot of 
people do not think of dental caries as a serious disease. It 
is the most prevent disease in America, and what we do not 
understand sometimes with children, it is hard to go to school 
and learn when your tooth hurts. It is way too close to the 
brain to ignore, and so it is hard to learn when you have got 
those problems, and more children miss school time because of 
dental disease than almost any other disease, I think than any 
other disease. So it is not just an issue that I am concerned 
about because I was a dentist in the real world, it is an issue 
that is real and one that I know you are working on and we want 
to work with you to make sure we address it.
    Thank you for being here today. I apologize for having to 
leave early but I know we have had conversations in the past 
and we will continue to have them as work on this budget, and 
thanks for the work you do.
    Dr. Roubideaux. Thank you very much for your support.
    Mr. Simpson. You bet.
    Mr. Cole. Mr. Chairman, I want you to feel free to leave 
whenever you like as often as you like.
    Mr. Moran.
    Mr. Moran. As Mike is leaving, it should be underscored 
what a terrific job he has done on BIA and on the Indian Health 
Service, and that kind of insight into what dental caries mean 
in the life of a child is important. You are a good guy, Mr. 
Simpson. You really are. Thank you, Mr. Chairman.

                 INDIAN HEALTH CARE REAUTHORIZATION ACT

    One of the enhancements contained in the reauthorization of 
the Indian Health Care Improvement Act is the ability of the 
IHS to enter into agreements with the Department of Veterans 
Affairs and the Department of Defense to share medical 
facilities. Those are resources that we really need to take 
advantage of. Have you entered into any of those such 
agreements, and what are your plans for that part of the 
program that was within the Indian Health Care Reauthorization 
Act?
    Dr. Roubideaux. We have had a few examples of entering into 
the sharing agreements. We are really grateful for the passage 
of the Indian Health Care Improvement Act that will help us do 
that on a larger scale. We have begun discussions with the 
Veterans Administration. I met with Secretary Shinseki last 
May, and I was really pleased to see how supportive he is of 
American Indian and Alaska Native veterans and so we signed an 
updated memorandum of agreement this past October, which is 
going to direct our staff to work together to better coordinate 
services for eligible veterans and included in that will be a 
review of how we can better share the services and the 
facilities as is contained in the Indian Health Care 
Improvement Act.
    Mr. Moran. I bet there are a lot of Native Americans who 
are veterans, are there not?
    Dr. Roubideaux. Absolutely. I meet Native American veterans 
all the time when I am out on the road. My father was a World 
War II veteran and I am very proud of his service, and I am 
really excited that we have a VA Secretary who is so committed 
to working on Native American veteran issues, so it is a big 
priority for me personally.

                               SANITATION

    Mr. Moran. Good. Excellent. In IHS's own data, it shows 
that about one of eight, 12 percent of American Indian and 
Alaska Native homes, do not have safe water or basic sanitation 
facilities. The budget increases funding for facilities 
construction and maintenance, as you mentioned, but it cuts 
funding for water, sewage and solid waste disposal facilities 
construction by $20 million. Safe drinking water and open dumps 
are major problems in Indian Country. Can you tell us what we 
are doing about that, which I trust is a priority of yours?
    Dr. Roubideaux. Absolutely. Well, I hear from tribes all 
the time the problems of water and waste disposal and how 
serious that is and how they need to have the sanitation 
facilities construction and there is an overall enormous need. 
We were very fortunate in the last couple of years to get 
funding through the Recovery Act, $68 million for the Indian 
Health Service and another $90 million from the EPA, and so 
many of those projects are still underway and still in 
progress. So when we looked at the budget for 2012, we have all 
been asked to find areas where we might be able to have some 
savings related to the budget and so this was an area where we 
felt some savings would be less painful because we already have 
all the projects that are involved and the funding that we do 
have in the budget for 2012 will fund 18,500 homes to get solid 
waste disposal and sewer for their homes. So it is a very 
important priority but we feel that there is so much funding 
that we got in the last two years that we are still working on 
those and that is really helping us.
    Mr. Moran. But you would agree that open dumps are a 
serious problem in Indian Country?
    Dr. Roubideaux. Absolutely.
    Mr. Moran. This is the last question I want to ask, and I 
am glad Ms. McCollum is here. I am going to have to run off to 
the defense hearing as well.

                DOMESTIC VIOLENCE PREVENTION INITIATIVE

    Over the years, we have made it a priority to fund domestic 
violence and sexual assault programs in Native American 
communities. It obviously is criminal but it is really a 
horrible endemic problem within many communities, and so we 
upped that amount consistently. Can you give us a report on 
what we achieved with those additional funds?
    Dr. Roubideaux. Yes. Well, I really want to thank you and 
the subcommittee for their support of this issue. We are really 
grateful for the $10 million a year that we have for the 
Domestic Violence Prevention Initiative. We have actually 
awarded 65 projects as of last August, and they are 
implementing domestic violence prevention programs in 
communities. They are coordinating services in the community 
response to this terrible problem. We are also expanding our 
services for sexual assault in terms of the SANE, SAFE and SART 
at some of our 24/7 sites. We have also been able to update our 
national sexual assault policy and just recently signed that, 
and we have been working on curriculums and working on 
improving how the Indian Health Service addresses this very 
serious problem, and I can say that the programs are in 
progress. They are doing well. We are providing technical 
assistance and evaluating them so as soon as we have evaluation 
results, we will be happy to share those.
    Mr. Moran. Thank you, Dr. Roubideaux, and thank you, 
Chairman Cole. Thanks very much.
    Mr. Cole. Before I ask you a couple questions, I just want 
to get something sort of in for the record, and first of all, I 
want to thank Mr. Moran for his absolutely extraordinary 
leadership last year when he was chairman and his continuing 
commitment on this. He has just been terrific to work with on 
these issues, and if you are from Oklahoma, you sort of have to 
be for Indians. You would be pretty stupid not to be. But he 
does not represent a large Native population and yet his 
commitment has been every bit as great as anybody's in 
Congress, so I appreciate it very much.
    Mr. Moran. Not as great as yours.
    Mr. Cole. You are kind to say that, but that is not true 
and I appreciate it, Chairman.
    The second point I do want to make quickly for the record, 
I know there is some concern in Indian Country about what will 
happen if the Affordable Care Act is actually repealed, and the 
current Majority's position was that should have never been in 
the bill in the first place. It would have passed separately. 
It had already passed the Senate. We actually tried to get it 
passed in 2008. The House for whatever reason did not take it 
up. We should have passed it then. And then it got put in the 
health care bill where it put it, in my opinion, personally, at 
risk because standing individually it would have passed 
overwhelmingly. It had great bipartisan support.
    I have introduced legislation that actually is the Indian 
Health Care Reauthorization bill so in the event were ever to 
happen, and it is not going to happen obviously any time soon 
that this legislation were repealed, there will be another 
vehicle to immediately move through the process so that we do 
not miss a beat in terms of Indian health care. We do think 
that is a treaty obligation, as you mentioned, and again, this 
committee in a bipartisan sense is very much committed to 
fulfilling that. So for what it is worth, I do not think at 
least Indian health care is at much at risk as others might 
think.

                             JOINT VENTURES

    Let me ask you some questions on one of my favorite topics, 
and you are very familiar with it, and that is the Joint 
Venture process, which my own tribe has certainly benefited 
from enormously. How has IHS planned the outyear budgets for 
Joint Ventures as new facilities continue to come online? I 
think you will see more and more of these, and the upside 
obviously is you are bringing new money into the system that is 
being directed toward health care, but I know it has got to 
create some unique challenges for you in terms of budgeting.
    Dr. Roubideaux. Well, we are very supportive of the Joint 
Venture construction program, and the reason is, is it is a 
great way for us to make progress in the enormous need for 
health care facilities construction, and I am grateful for your 
support as well. I know we have some great projects that have 
happened in Oklahoma. And the deal with Joint Venture is that 
the tribe agrees to build the facility and then we agree to 
request the appropriations from Congress for the staffing of 
the facilities, and we are very supportive of all the projects 
that we have approved and all of the projects that are in 
progress. What we do every year in the budget formulation 
process is we look at all the projects and we look at their 
anticipated start dates and how they are doing on progress, and 
some projects they go faster than we think and some projects go 
much slower than we think, and so we do have to juggle 
sometimes. But it does require us to have a consistent 
commitment over time in the budget for staffing so that we can 
be able to respond when the facilities are open, when they are 
ready to open.
    And so what we have done is for the fiscal year 2012 
budget, we have proposed $71.5 million increase that will cover 
six new health centers that we anticipate will be completed in 
this time period, and also we have a placeholder for two Joint 
Venture projects so that if some of those projects fall into 
the time period of the 2012 budget and they are ready to go, 
that we would have funding available for that. It is dependent 
on appropriations but I do think that there is bipartisan 
support for the Joint Venture construction project. I have 
heard a lot of people say it is important. The tribes really 
think this is important, and we are very committed to keep 
working with the tribes and keep offering opportunities for the 
Joint Venture program but also to be mindful of the available 
dollars. We do not want to promise too much. We do not want to 
have too many waiting in line. But I do feel that the request 
that we have for 2012 will help us continue to make progress.
    Mr. Cole. So you are pretty comfortable that we will not 
find ourselves in a situation where facilities have been 
constructed and you do not have the wherewithal frankly to 
actually meet your end of the deal in terms of staffing?
    Dr. Roubideaux. Well, we hope not. If for some reason we do 
not get staffing money or we get a reduced amount, that does 
cause some alarm and we are going to have to really work 
closely with the tribes on the timing, but I am hopeful that we 
will be able to handle that.
    Mr. Cole. I really appreciate your efforts in this regard, 
and would ask that you just keep us very closely apprised of 
your needs because I do not think any of us want to see 
facilities built that then we cannot follow through from a 
federal side with the commitments that we have made, because 
this is a great way to leverage money.

                             URBAN PROGRAM

    I have got of course many questions but one other thing I 
want to ask before I yield to my colleague from Minnesota. I am 
also interested in your view and your plans in terms of Indian 
clinics that are not particularly affiliated with tribes. We 
have one in Oklahoma City, one in Tulsa. They serve all Native 
Americans, and the one in Oklahoma City actually sits outside 
of Indian Country theoretically because it sits in lands that 
were historically not assigned to any tribes but it carries an 
enormous patient load and really it offers first-class care, 
and frankly provides opportunities for Native Americans that 
are away from their tribes, to get good health care, which they 
still have a right to do. So if you could, tell us about 
clinics that may be located outside of Indian Country but 
serving Indians. What is the role that the IHS plays there and 
what do you see in the future? Again, we have got a lot of 
Indians in cities or places away from their tribal lands and 
they sometimes have a very difficult time getting access to 
good health care.
    Dr. Roubideaux. Well, you are absolutely right. I mean, the 
original Indian Health Service was developed to serve primarily 
reservation and rural communities but over the years due to a 
number of factors--Indian people wanting to seek education or 
wanting to seek employment or better opportunities--have moved 
to urban areas and so if you ask the tribes, they will say the 
treaties apply wherever you are and so we do have a commitment 
to try to serve the urban Indians in major metropolitan areas, 
and we have an Urban Indian Health program that has 34 sites 
around the country. The Oklahoma City and the Tulsa sites are 
very successful and they provide great services. I toured the 
Oklahoma City site and was very impressed with it, and they 
actually are very unique because the passage of the Indian 
Health Care Improvement Act has given them a new status also to 
be a service unit within the Indian Health Service so they sort 
of have a dual status, and I understand the tribes are 
consulting on what that is going to mean in terms of resources 
and relationships in that area, but I think it is a great 
opportunity for those two sites which are doing such a great 
job, but the Indian Health Service is committed to doing what 
it can to serve the health care needs of American Indians and 
Alaska Natives wherever they are.
    Mr. Cole. Thank you, Director.
    Ms. McCollum.
    Ms. McCollum. Thank you. One followup on the discussion of 
repealing the health care act, and Representative Cole and I 
disagree on parts of the main part of it, probably agree on 
some of it, but we stand, I believe, united in what was passed 
for Indian Country.
    So I will make a comment, Mr. Cole. I will not pretend to 
know how all the rules are written because this is very 
different than a state legislature where the rules stay 
consistent from body to body, and that to me is what regular 
order is all about. Everybody knows what the rules are going to 
be every single time whether it is a majority or minority 
switches. But because it is an independent act, because it is a 
third act, I keep trying to ask my colleagues on the other side 
of the aisle who want to repeal the first two acts, leave the 
third act in place, and so I think we are trying to accomplish 
the same goal. I do not want to see the first two parts 
repealed but I do believe that unless there is some 
parliamentary reason why we cannot separate the two, why we 
cannot push for those who want to do the repeal and replace on 
the first two sections just to focus on that and to leave 
standing the IHCIA permanent reauthorization. But thank you for 
having a plan B because that is important.
    Maybe you could comment. Would it be as seamless as some of 
us would hope if the whole act was replaced and another act had 
to go through and happen? I mean, I think that there is a 
possibility that there would be a glitch. If you have any legal 
opinion on that, I would be happy to hear that at the end of 
this.
    I want to go back on two points just to kind of dig in a 
little more. I have been asking this of the schools, and I did 
come in here just a tad late so maybe this has already been 
asked. Have you had an opportunity yet to ask for a full 
facilities backlog? If you could provide to this committee a 
full facilities backlog? If you could also provide to this 
committee all the different ways in which you are interrelated 
to CDC, NIH, National Science Foundation doing research, all 
the other agencies that you work with. Because when I go into a 
health care facility and I start asking who has responsibility 
for this, the tribal leaders and the tribal elders, I mean, 
their eyes are huge and their hair is standing on end because 
the frustration of dealing with the Bureau, dealing with CDC. I 
mean, the list goes on and on and on and on. And so it is very 
easy when there is a problem for the finger pointing to start 
happening, not because anybody does not want to do their job, 
it is just because it is not clear which happens first or who 
has full responsibility. So the chairman, I think, is very 
interested in trying to figure out how we as appropriators work 
with even our colleagues in the full Appropriations committee.
    I was in a health care facility in New Mexico. I have been 
in some where I have watched the community come together with 
the Bureau and do fantastic and amazing things in facilities 
that were only designed to handle one-quarter of the population 
that they are seeing. I have also been in a facility in New 
Mexico in which I wanted to tell the people there to get up and 
leave. It was filthy. I was underwhelmed with the director. It 
is not a place I would send anyone even for triage, not even to 
get there to get assessed to see where they should go next. It 
was embarrassing, and I left there and it still haunts me.
    Another facility I was in in New Mexico does not do 
delivery service, and I can understand that maybe there is not 
enough women coming through the facility to have the obstetrics 
and gynecology that it really needs, but it is asking women in 
the rural communities to come in as far as the Albuquerque area 
and then drive another 30 minutes into Albuquerque because they 
do not do deliveries there. I understand why they do not do 
deliveries there after talking to some of the Native American 
women who were there but they can still kind of go there for 
some of their regular checks but then they are handed off to a 
different doctor, a whole different delivery system.
    So I would be interested to know if you have a plan that 
you are putting together in rural communities to look at the 
following. Some of the hospitals should not be functioning as 
hospitals anymore. This is my opinion. They should be 
functioning as A number one five-star clinics, and if we are 
honest about that and talk to the community about what we can 
provide and provide what is top notch, I think everybody wins 
with better care.
    Secondly, I would be interested in knowing how in the major 
part of the health care bill, which I really think has some 
great, great things in it, how you go about providing that 
seamless care when you do have someone go to a hospital, when 
you do have someone who has been maybe seeing a nurse 
practitioner or a physician assistant for their early term of 
their delivery and then the delivery gets handed off. Do we 
have people who are licensed to practice in both places so that 
people can meet who is going to be doing the delivery later on? 
When does the handoff happen? I am a mom who had an intern 
deliver my second child. I know things do not go as planned, 
okay? I know that that might not be the same doctor but still 
having that ability having been in the facility, go through the 
facility and meet people ahead of time reduces anxiety. And so 
I just want you to big-picture talk about health care. As you 
can tell, this is more broad than it is specific.
    The other question that I have is, and Mr. Healy was 
telling me but I think he knew I already knew this. You know, 
57 percent of health care for Native Americans is delivered in 
urban settings, and my district and Keith Ellison's districts 
are probably the example of it. You know how they have the all-
tribal call at the pow-wows? That is our area. So we have 
people who summer, who go back and forth, have elders visiting, 
whatever, that is going on, and that has been a huge challenge 
keeping that health care seamless too, especially for diabetes 
care. So some of the things that are in the Affordable Care Act 
that I really am excited about, look at the holistic approach--
medical records, just how you work together as a team.
    And then my final question is, as people want to stay in 
their homes and as we see younger generations not wanting to 
stay on the reservations as much and some reservations have 
been very mindful of that and have created opportunities for 
their youth to stay there, how do we keep from having an 
elderly population that is vulnerable and is isolated when it 
comes to having a whole team approach for their health care?
    I am not asking another question and I am not expecting to 
solve things but I just wanted you to know, I know that one 
thing pushes over into another, so how are you with the best of 
your abilities trying to manage that interagency, urban-
suburban, hospitals that should not be functioning as 
hospitals? How do we help you?
    Dr. Roubideaux. Well, thank you for your comments and thank 
you so much for your concern. I am really grateful when I find 
Members of Congress who are really interested about Indian 
issues. You know, when I was confirmed as the Director of the 
Indian Health Service about a year and a half ago, it seems 
like the challenges are daunting and enormous and how can we 
possibly address the need, but what I found is, there is a lot 
of energy and enthusiasm about ways that we could improve the 
system, and my priorities are all around reforming the Indian 
Health Service, looking at how we can change and improve in 
both systems ways and big-picture ways and in small ways.

                   IMPROVING PATIENT CARE INITIATIVE

    I appreciate your enthusiasm about the part of the 
Affordable Care Act that talks about coordination of care. We 
actually for the last couple of years have had what is called 
an Improving Patient Care Initiative, which is our patient-
centered medical home initiative, and we have so far been able 
to expand that to 68 sites in the Indian Health Service and in 
tribal programs and some urban programs, and we just had the 
launch of the third cohort of this initiative, and the level of 
enthusiasm in the room was unbelievable. People are so excited 
and coming up with innovative ways to really take a look at, 
okay, how do we function as a team, not just, you know, running 
around not coordinating our care, how do we make sure that we 
put the patient first at the center of care and what do we need 
to do to improve the quality and to use quality improvement 
tools to make sure we are improving care. And many of the sites 
are choosing different topics to focus on, and I will go back 
to my staff and see if any focused on prenatal and obstetric 
care as a part of their Improving Patient Care Initiatives and 
then we can send that to you in a followup question.
    Ms. McCollum. The infant mortality rate on some 
reservations is worse than in other places in the world.
    Dr. Roubideaux. Absolutely, and we are working very hard to 
address that issue, and I am hopeful that some of these 
improvements can help us improve the quality of care.
    The other thing that I want to mention briefly, we will 
give you more information in our followup responses, is that 
there is a provision in the Indian Health Care Improvement Act 
that gives the director of the IHS increased authority to look 
at how American Indian and Alaska Native health care is 
addressed throughout the Department of Health and Human 
Services and so I have actually been doing a lot of work 
meeting with other agency heads, attending meetings and making 
sure everybody is aware of what the issues are in tribal 
communities and what the issues are in Indian health 
facilities, and we have started to work on some collaborative 
efforts throughout the different agencies. One really promising 
one is the big need we have for health care providers, and 
HRSA, the Health Resources and Services Administration, I have 
met with them and we have talked about how we can get more of 
our sites eligible for and able to receive some of the National 
Health Service Corps health care providers--doctors, dentists 
and behavioral health providers--into our Indian Health sites 
to address some of our vacancy rates. One of the ways to 
improve quality is access to care.
    And so it is those kinds of collaborations that we are 
working on to try to leverage resources from other agencies to 
make sure that we are maximizing all of the resources we can 
bring to the table to improve care for American Indians and 
Alaska Natives and so we would be happy to follow up many of 
the points that you have made in answers, in written answers 
after the hearing.

                          SMALL GRANTS PROGRAM

    Mr. Cole. Director, let me move to several other areas, if 
I may. IHS works very closely I know with the Tribal Advisory 
Board in preparing your budget request. It is my understanding 
that there was roughly $6 million in the small grants program 
that was zeroed out without consultation of the Tribal Advisory 
Board, so two questions. One, is there any particular reason 
why that consultation did not take place? Perhaps I am 
misinformed and I would be happy to be corrected if I am. And 
second, where in your budget are you going to address the needs 
that in the past we were dealing with in the small grants 
program?
    Dr. Roubideaux. Well, thank you for that question. We have 
all been asked to find ways to save in the budget and help 
contribute to the challenges we have today with the federal 
deficit and the budget and so even though we are grateful for 
an increase of 14 percent, we still need to be good stewards of 
our federal resources. And so one of the areas where we are 
proposing savings is in grant savings, and we have a number of 
small grant programs that fund one to nine or 11 grantees that 
are proposed for elimination, and the reason we did this was 
actually based on tribal consultation. I know that there is 
word on the street that we did not consult with tribes but the 
fundamental basis for this is that tribes have told us that 
they want the funding to go directly to their health programs. 
They do not like to compete for competitive grants if they do 
not have to. They would much rather see the funding benefit a 
greater number of tribes and so as we looked at the budget, we 
wanted to save our clinical services and to protect the basic 
health care services that we have, and while we know these are 
extremely important topics that are covered in these grant 
programs, as we look around the budget it seems like the impact 
would be a little bit less because only a few sites are 
actually proposed.
    So what I have been doing since the budget justification 
has been public is, I have been meeting with tribes in various 
venues and discussing these proposed savings and I have been 
asking for their input on that. We are evaluating these 
programs for those savings and are definitely committed to 
partnering and consulting with tribes. So this was a way that 
we can maybe have some resources benefit more tribes and 
address the concerns they have about some of the competitive 
mechanisms that are in place.

                        CONTRACT HEALTH SERVICES

    Mr. Cole. Okay. You mentioned in your testimony the 
increase which we all really appreciate, frankly, on Contract 
Health Services. How close is that going to get us to 100 
percent? You know, how much progress do you think we will be 
able to make with the additional funds that you have? This is 
always difficult because it is a moving target to ever get in 
balance but looking forward as far as you can. I understand the 
budget is a very difficult process. What sort of long-term 
goals do you have in terms of being able to sort of cover as 
much as possible, if not all, of Contract Services?
    Dr. Roubideaux. Well, yes, the Contract Health Services 
program is a top tribal budget priority because it is used to 
pay for referral services that we cannot meet in the facilities 
that we have, and that is the challenge of the Indian Health 
system is that some communities have large hospitals, some 
communities have small clinics, and each provides a different 
package of services and so whatever services we need to provide 
that cannot be provided in that facility we have to use this 
Contract Health Services fund. I am really grateful for the 
increase that has been proposed. It is $169 million increase, 
and that is going to help us purchase an additional 5,700 
inpatient admissions, 218,000 outpatient visits and 8,000 one-
way patient travel trips, and while it is great progress and we 
are really grateful for this, there is an incredible need for 
Contract Health Services to pay for referrals in the private 
sector, and we have been able to estimate that the total unmet 
need for Contract Health Services, at least on the federal 
side, is about $859 million, and that is just the information 
we have on the federal side. There are also the tribally 
managed programs as well, so the need may be greater.
    But we have made great progress. Last year in the 2010 
budget, we got $100 million increase, and for 2012, now we are 
proposing the $89 million increase plus current services, which 
is a total of $169 million. So it does not totally meet the 
need because the need is so great, but it is a sustained 
commitment to try to continue to make progress and in this very 
important area. I had an 80-year-old woman speak to me at a 
listening session recently and she told the story of, you know, 
people need these referrals. These are medically necessary 
referrals and we are limited on the historic underfunding of 
the Contract Health Services program but we are really grateful 
that the increases we are getting now are helping us start to 
address that need for these referrals to the private sector.
    Mr. Cole. I have got several more but I want to go back and 
forth so my colleague from Minnesota has an opportunity to ask 
her questions as well.

                               HEAD START

    Ms. McCollum. A question I asked the Assistant Secretary 
yesterday, and it goes again to the web analogy, was about Head 
Start. The Bureau provides the frame, skeleton in which all the 
activities take place. Part of Head Start is that it does 
screening for children for eyes, hearing and that. How does 
that work or what is your interface with providing some of the 
screenings for Head Start, which also includes dental? Because 
if kids cannot hear, if they cannot see, if they are in a lot 
of pain with dental problems, they do not do well in school so 
part of Head Start is not only getting them ready with some of 
the tools that they need, helping mom and dad reinforce what 
they need to do for reading at home but also making sure that 
they have a healthy start when they start out with Head Start. 
So what is your interaction and collaboration with the Head 
Start program?
    Dr. Roubideaux. Well, I do know that there are examples of 
how Indian Health Service health care providers or nurses or 
community health representatives may interact with Head Start 
programs, which are funded by the ACF, Administration for 
Children and Families, within the Department of Health and 
Human Services. I do know that some of our prevention programs 
also reach out to Head Start to do some education and so I 
would be happy to--and the ways that they reach out are very 
different in different places so I would be happy to--provide 
some written followup to your questions so we could see the 
range of those kinds of collaborations.
    Ms. McCollum. That would be great. Mr. Chair, I talk about 
Head Start a lot because everybody talks about doing pre-K, and 
not that Head Start is the most perfect program and it is 
different because the community organizations can structure a 
little differently, and I think we need more uniformity for 
best practices for Head Start, but it is the only pre-K program 
in which we have a longitudinal study done on it and it was 
done by the Federal Reserve, so that is kind of an impassive 
group when you think about looking at kids and really kind of 
doing the cost-effectiveness of it if you just want to look at 
the dollars. But Head Start is complicated in community 
organizations. Even back home in our traditional Congressional 
districts, I see the dollars that the tribes are putting in to 
make sure that they have the good facilities, that they have 
the language instructors and everything else. I mean, yes, I am 
glad that tribes are doing that but there is also a 
responsibility, a treaty responsibility for us collectively as 
the United States to be doing our fair share. So I do not want 
Head Start programs start to becoming the haves and the have 
nots either because I think that will hurt the program later on 
and that means kids do not get good delivery of service.
    Could you maybe talk about dental a little bit? Because the 
elders get excited when there is a dental clinic. I will tell 
you, to use a term, the smiles light up when you hear there is 
a dental clinic.
    Mr. Cole. If I may interrupt, as we heard earlier, Mr. 
Simpson gets excited too, so we will talk about as much in 
dentistry as you want to talk about, Director.
    Dr. Roubideaux. Yes. Well, thank you very much. I am 
actually a beneficiary of the IHS dental services, and I think 
they did a pretty great job on my dental care. We recognize 
there is a huge need for dental services in all ages in the 
Indian Health Service and particularly for the young and the 
elders. We talked about how the budget is used in the Indian 
Health Service for preventive care and restorative care and 
emergency care, and we have a couple of initiatives, the Early 
Childhood Caries Initiative, which is looking at reducing 
childhood caries in age zero through five, and it is sort of a 
collaboration between the Indian Health Service and the local 
community resources, and that reaches out, I believe to Head 
Start as well. And so that is a program that we are very proud 
of. We are evaluating it and we are hopeful that we will be 
able to achieve our goals in that very important program.
    We are working on implementing our electronic dental record 
to make sure that we can evaluate the work that we are doing 
and trying to expand services in dental services with the 
budget. Whenever we construct a new health facility, that helps 
bring in more services and more providers. We are also doing a 
lot more to recruit dental providers into our communities and 
actually have been able to reduce the vacancy rate from 35 
percent to 17 percent through a very targeted and focused 
effort over the last couple of years and I think based on the 
interests of this committee in encouraging us to do that and 
through a number of different activities that I have mentioned.
    So it is a big priority for us. I completely understand as 
a physician how dental health can influence the health of the 
entire body and can be both a physical, mental and social issue 
and we are committed to working on it.

                       IHCIA FACILITIES PROVISION

    Mr. Cole. Director, I want to give you an opportunity to 
expand on something that you mentioned in your testimony, 
because I am not sure I fully understand it, and I may have 
gotten the phrase wrong but I think it was your innovative 
facilities initiative. Tell me a little bit about that, what it 
entails and what you are planning.
    Dr. Roubideaux. Well, there is a provision in the Indian 
Health Care Improvement Act that talks about demonstration 
projections for innovative health facilities construction, and 
it lists a couple types of things such as modular facilities or 
potentially specialty centers and those sorts of things that we 
do not normally have as a part of our current health facilities 
construction program. And so we know that health facilities are 
a top tribal priority and looking for innovative ways to 
construct any kind of health facilities is beneficial to the 
great need that we have for health facilities construction. So 
based on tribal input, we placed a $1 million request in the 
2012 budget for a demonstration project related to innovative 
health facilities construction, so that would be further 
defined if we are able to have the funds appropriated and 
implemented.

                                DIABETES

    Mr. Cole. Okay. Can you tell me, there is probably no 
disease that afflicts Native Americans disproportionately as 
much as diabetes. What are your plans there and how well 
equipped are you to deal with that right now?
    Dr. Roubideaux. Right. Well, American Indians, Alaska 
Natives, we are on the front end of the epidemic of diabetes in 
the United States. We have had high rates of diabetes since the 
1970s, and Indian Health Service has a diabetes program and a 
network of diabetes programs to address this serious and 
challenging problem. We were really fortunate in the 1997 
Balanced Budget Act to get a Congressional appropriation for 
the Special Diabetes Program for Indians, and that program has 
done an incredible job in terms of implementing diabetes 
prevention and treatment services in around 400 communities, 
IHS tribal and Urban Indian Health programs. We are really 
grateful that Congress passed extension of the Special Diabetes 
Program for Indians for two more years through 2013, and we are 
consulting with tribes right now on what to do with this 
additional two years.
    But we also have in addition to the community-based 
programs in the Special Diabetes Program for Indians, we have a 
demonstration project that occurred over five years to look at 
prevention of diabetes in people at risk and prevention of 
cardiovascular disease in individuals with diabetes, and that 
five-year demonstration projection has exceeded all 
expectations. It is incredibly successful. The diabetes 
prevention program piece was able to achieve through community-
based programs that provide basic education on nutrition and 
physical activity the same amount of weight loss as the 
original NIH-funded research project, and that is incredible 
because translational efforts that translate research into 
real-world communities usually only achieve half or less of the 
results of the original study because they are less controlled. 
But I think the enormous creativity and energy and spirit of 
these community-based programs, they were able to achieve the 
same level of weight loss, which means that they could reduce 
the incidence of diabetes by 58 percent. And in the Healthy 
Heart Initiative, they were able to show in their evaluation 
that they were able to reduce the risk factors of 
cardiovascular disease, which is a growing problem in Indian 
communities as well.
    The great thing about the Special Diabetes Program for 
Indians projects, I loved working with them in my previous job, 
is to just see these communities come up with really innovative 
ways to teach about diabetes and to prevent it and to treat it 
and incorporating culture and traditions in some of the 
education has really made a difference. So I am very proud of 
the Special Diabetes Program for Indians. I am grateful it is 
extended for two more years and I think our tribes were 
cheering when they heard that news, and we are really looking 
forward to continuing to evaluate our efforts over the years to 
make sure that we are having the full impact.

                           CHILDHOOD OBESITY

    Mr. Cole. Another area where obviously there are 
disproportionate problems and where the First Lady to her 
credit has just done great things obviously is childhood 
obesity, and I would like to know whether or not you partner 
actively with the First Lady's efforts and what are the 
programs that you have underway there. Getting kids off to a 
good start makes all the difference down the line.
    Dr. Roubideaux. Absolutely. We are partnering with the 
First Lady's initiative and we are really excited about that 
because it is so important to help teach children healthy 
habits when they are young and to reduce the rate of childhood 
overweight and obesity. In our fiscal year 2012 budget request, 
we do have a request for chronic diseases, and a part of that 
is to do a demonstration project on reducing risk factors such 
as childhood obesity, and the purpose of that would be early 
identification and referral of young children with overweight 
or obesity. And so we are going to be doing more screening in 
clinical settings, educating the doctors and the nurses about 
how to screen for overweight and obesity, how to counsel both 
the child and the family and how to refer them to get the 
treatment that they need to address that risk factor.
    We also have a Healthy Weight for Life strategy that we are 
unveiling in our communities soon, which is to help provide 
guidelines for both community members and for health care 
providers about what we can do as a community, and that is the 
thing about obesity, it is a condition that is heavily 
influenced by the environment within which the individual 
lives, and, you know, the United States with the environment of 
fast food and sitting at a desk every day and not moving as 
much, we are ending up having rising rates of obesity in the 
entire United States. I think we have some good examples in 
Indian communities where tribes have stepped forward to try to 
help with these issues. One of the things I love about the 
Chickasaw Nation's new hospital is that not only do they have a 
dedicated diabetes clinic and also a pediatric clinic but they 
have incorporated traditional things around the hospital to 
promote health so there is a walking trail around the hospital 
so that while patients are there they can go walk and get some 
exercise. Even the staff could go walk. And there is also 
traditional garden that they have outside of the hospital with 
some traditional plants, and it helps get back to the point 
that we did not have diabetes 100 years ago, we did not have 
obesity 100 years ago because we were moving more and we were 
eating healthier, and if we can--one of the best ways to help 
teach our patients about how to prevent obesity or diabetes is 
to recall our history and our traditions, and people really 
resonate with that kind of education because we all respect 
where we came from and we know we were a healthier people, and 
it shows that it is possible that we can be healthy again.
    Mr. Cole. I have one last question, which is going to be 
sort of a sum-up question but I want to see if my colleague has 
anything she would like to ask.
    Ms. McCollum. Thank you, Mr. Chair.
    When you talk about the integrated facilities, I was in a 
facility about four or five months ago where they had an auto-
fill prescription which freed up this pharmacist, and he was 
fabulous. He was from the community, went to school, came back. 
He was just an anchor and a role model for the kids. Having the 
auto-fill freed him up to have more interaction. Would that be 
considered part of the facility? When you are talking about 
facilities, sometimes it can mean some of the equipment if it 
is attached to the wall. Sometimes it can mean large pieces of 
equipment that are brought in as part of it. So if you do not 
have the answer for that right now, I would be curious to know 
because freeing up a pharmacist's time to explain, to motivate, 
to help, to comfort can be really, really important.
    Dr. Roubideaux. Absolutely. I am glad you have seen one of 
our great pharmacies in the system that has been able to 
purchase one of these systems to help them with the work flow. 
You are right, they can spend more time counseling, and that is 
what is unique about Indian Health pharmacists is that they do 
more patient counseling and more treatment than they would in 
the private sector. When we build a health facility, those 
things can be included.
    But I do also think that some of our health facilities are 
looking at their budgets, they are looking at their collections 
and they are trying to find ways to implement those kinds of 
things in the pharmacy and so we can provide a followup report 
about how extensively we have done that so far.
    Ms. McCollum. And I had an evil earmark in the health bill 
that did not move forward, and it was a community-based request 
from the Mille Lacs Band because they are really struggling 
with diabetes, but part of what they are struggling with, and I 
know that you can get inclement weather in other places, is the 
travel time for dialysis. Do you have or can you get this 
committee some of the challenges that--I mean, we want to 
prevent people from getting diabetes or needing that kind of 
intervention to begin with, but when we have two or three days 
where a blizzard, ice storms and that knock out travel, that 
how does that affect services for communities where you already 
have people sometimes traveling an hour. In parts of rural 
Montana, you can be traveling two hours to get to dialysis plus 
you do the care plus you are driving back. Quite often it is 
elderly people. Have you worked with anyone to see what is 
going on out there with dialysis and where we do have to 
provide it what we can do to make it safe? And I do not mean 
convenient like, it is almost 20 minutes away, I mean 
convenient that you are not worried about spending a whole day 
driving in inclement weather after the state troopers had told 
you to stay home.
    Dr. Roubideaux. Well, yes. Dialysis services are something 
we wish we did not have to do but it is an unfortunate 
complication of some of the chronic diseases that we are 
facing. The Indian Health Service originally did not have the 
authority to provide dialysis services and so often we would 
have to refer people to outside facilities to have dialysis 
done, and you are right, in some rural areas they have to 
travel long distances to go there. We do have some tribes that 
have taken the initiative of working with private sector 
partners and actually building and operating dialysis 
facilities within their own communities, and that has been a 
great help for those communities where the patients do not have 
to travel. Dialysis is a challenge for an individual because 
they have to have it oftentimes three times a week and it is 
four hours at a time, and if they have to factor in the travel 
time, it can take up the entire day.
    What we are really excited about is the fact that the 
Indian Health Care Improvement Act now gives the Indian Health 
Service the authority for dialysis services, which we did not 
have before, and so we have heard from tribes that this is a 
priority and we are looking forward to working with them and 
seeing what best practices are from the tribes who have run 
their dialysis centers and also trying to figure out how we as 
an agency will move forward now that that authority is in 
place, and as we are planning for requesting appropriations for 
that kind of a service what the need is in Indian Country, what 
are the best practices and what the IHS versus the tribal role 
will be, but it is clear it is important to have these services 
in the community rather than traveling many miles away. We have 
heard horror stories of people trying to get through to 
dialysis in blizzards, as you say, during storms and 
transportation costs can be very costly for them as well. So we 
are committed to looking at this new authority and trying to 
plan in consultation with tribes how we are going to address 
this in the future now that we have the authority.
    Ms. McCollum. Well, thank you for your work and thank you, 
Mr. Chair, for your generosity.
    Mr. Cole. Thank you. Thank you for your interest.

                      EQUAL EMPLOYMENT OPPORTUNITY

    There is one other specific matter that I have been made 
aware of that I wanted to ask you about before I get to a 
closing question. The committee has been made aware of an 
unusually high number of Equal Employment Opportunity 
complaints and other workforce grievances in Aberdeen, South 
Dakota, regional office. Our understanding is you have had an 
internal review. You have been looking into this. What can you 
tell us about the situation and where are we at in corrective 
action?
    Dr. Roubideaux. Well, yes. As you know, the Senate 
Committee on Indian Affairs had an investigation on the 
Aberdeen area and looked at various management issues. One of 
the issues was the high rate of EEO complaints and Equal 
Employment Opportunity complaints are related to allegation of 
discrimination, whether it is based on race or age and so on, 
and this was a big problem in that area, and what we did is, we 
reviewed how they are handling the EEO complaints in the area 
and actually at their request we have moved the oversight of 
the EEO process to headquarters rather than being in the 
Aberdeen area, and we have actually seen a decrease in the 
number of EEO complaints.
    I also think that there has been dissatisfaction with the 
EEO complaints because people were filing them when they had 
grievances about workplace-related matters, and in all of the 
EEO process it is very rare to find actual proven 
discrimination based on race or age or gender and so on. So 
really, usually what the employee has is a grievance and a 
problem with their supervisor or another coworker and what we 
are doing is improving our human resources. We are going to be 
doing more training for all of our employees, not just in the 
Aberdeen area, to try to help people manage the relationships 
that they have with their coworkers and their supervisors in 
the area.
    We have been very aggressive at addressing the 
recommendations of the Senate Committee on Indian Affairs. It 
is clear that the findings that they had are completely 
unacceptable and I am taking a very strong tone with all of our 
staff that we will address these issues and there will be no 
excuses. I have put in all of the agency performance plans 
measures that address all of the issues that were found in the 
Aberdeen area and in all of our leadership plans, not just in 
the Aberdeen area. We have also put corrective action plans in 
place in the Aberdeen area to address many of these issues and 
we are doing reviews of all of the other IHS areas to make sure 
the problems found in Aberdeen are not happening in other 
areas. So we are taking a very aggressive approach. I am 
grateful that Secretary Sebelius is having her program 
integrity committee help me with some of the recommendations 
for the things that we need to put in place.
    The problems in the Aberdeen area have been there since I 
was a child. I remember stories from my relatives saying oh, 
problems with this and that. So they are longstanding problems 
and we cannot fix them overnight, but I am really confident 
that we are putting in some fundamental changes that over time 
will help us make improvements, not only in Aberdeen but ensure 
these things are not happening elsewhere.
    Mr. Cole. I appreciate very much your focus, and quite 
frankly, your transparency on this and your determination just 
to deal with it directly, so thank you very much for that.
    Let me end with this, and it is a kind of a whither Indian 
health care sort of question that I want you to reflect on. You 
have done a lot of great things as director and this committee 
I think in a bipartisan sense certainly is very committed in 
doing what it can to help you and to work with the 
Administration. We have a common goal here that transcends 
partisanship and a common sense of obligation that this is 
something the Federal Government has neglected for a very long 
time or underfunded and underresourced for a long time, and we 
all want to do everything we can to correct those problems and 
move forward. But despite that commitment and despite your hard 
work and the hard work of other people at IHS, I think it is 
worth just for the record for you to remind us how far behind 
we are, that is just generally what is the health care of 
Native Americans, their lifespan, their disease rates, whatever 
numbers you want to use vis-a-vis the rest of the population so 
the challenges are unique and that is something I think people 
beyond this committee need to be aware of.
    And secondly, in terms of resources, the average American, 
I am told, gets $6,900, $7,000 roughly worth of medical care or 
resources per capita, if you will. How would that number 
compare to what is available to Indian Country and to Native 
Americans in general?
    Dr. Roubideaux. Well, thank you. It is very clear that 
American Indians and Alaska Natives have an incredible need for 
health care services in addition to it being a responsibility 
and a treaty obligations. American Indians and Alaska Natives 
still suffer from significant health care disparities in a 
number of areas. Their average life expectancy is lower than 
the U.S. population and the health disparities are greater in a 
number of areas. The Indian Health Service has been able to 
improve that over time, primarily related to providing access 
and quality health care, but it is clear that there is still 
much to be done and so we are doing what we can with the 
improvements we are making in the system and also in our budget 
request to demonstrate strategies for trying to improve but it 
is very clear that with the historic underfunding and the 
health disparities we have a long way to go and it is an 
enormous challenge but I am confident that we can make progress 
over the next few years because there is so much support. There 
is bipartisan support in Congress. There is support from the 
President and support from the Secretary, and the tribes, also 
I have been pleased to see how they are willing to partner on 
some of these efforts because the challenges that the Indian 
Health Service or any other single entity cannot solve these 
problems alone. Health is not only a medical and health 
facility issue but it is also a community issue and that is why 
I really believe our priority to renew and strengthen our 
partnership with tribes is going to help us as we look towards 
improving the health of American Indians and Alaska Natives.
    Your question about the per capita expenditures on health 
care for American Indians and Alaska Natives, it is really 
clear through a lot of the data that we have that these numbers 
are much lower than the other federal health care systems. For 
example, if you look at the Indian Health Service, the per 
capita expenditures on health care are around $3,300 per user, 
and that compares to almost $7,000 per capita for the United 
States in total, and it is also much less than Medicare, 
Medicaid, federal employees' health benefits, the VA, even the 
prison system, and that is what our tribal leaders just hate to 
hear is that we are getting less funding per capita than the 
prisons and other federal health systems.
    But we are committed to trying to address the historic 
underfunding of the Indian Health Service. We do what we can 
with the funding that we have, and we do everything we can to 
maximize the dollars we have and be efficient and effective 
with the funding that we do have, and we are just grateful to 
Congress and the President for the 2010 budget, which was a big 
increase for us, a 13 percent increase, and we are also excited 
about the President's request for the 2012 budget. A 14 percent 
increase demonstrates a sustained commitment by all to try to 
help address some of the needs that we have in Indian 
communities.
    We understand that there is a lot of talk about the deficit 
and the need to be more responsible with dollars and to work on 
improving the budget, but I really appreciate how people 
acknowledge that the Indian Health Service, there are treaty 
commitments and there are responsibilities that date back many 
years and so we are doing our part to try to maximize the 
dollars and improve and reform the Indian Health Service so 
that it meets the needs of the patients that we serve, and I 
really appreciate the support of this committee and all of you 
for your bipartisan support of the Indian Health Service and 
health care for American Indians and Alaska Natives.
    Mr. Cole. Well, Director, we appreciate very much your 
commitment and your tenacity and your dedication to this over a 
lifetime, not just over your tenure in this particular 
position, and also very much appreciate your emphasis on 
involving tribes not only in consultation but tribes, those 
that have the means are almost always willing to invest in the 
health of their own people and creating those opportunities 
where they can hopefully be prosperous and put money back in a 
place that we need it and I think will let us stretch the 
federal dollars a little bit further as well.
    Thank you again very much for what you are doing. We look 
forward to working with you not just this year but over the 
years, and I think you will find this committee, whoever is 
sitting in this chair and whichever party is in control, as was 
demonstrated in the last couple of years, is going to be as 
supportive as it knows how to be of your efforts. Thank you 
very much.
    And with that, we are adjourned.

    [GRAPHIC] [TIFF OMITTED] T6897B.042
    
    [GRAPHIC] [TIFF OMITTED] T6897B.043
    
    [GRAPHIC] [TIFF OMITTED] T6897B.044
    
    [GRAPHIC] [TIFF OMITTED] T6897B.045
    
    [GRAPHIC] [TIFF OMITTED] T6897B.046
    
    [GRAPHIC] [TIFF OMITTED] T6897B.047
    
    [GRAPHIC] [TIFF OMITTED] T6897B.048
    
    [GRAPHIC] [TIFF OMITTED] T6897B.049
    
    [GRAPHIC] [TIFF OMITTED] T6897B.050
    
    [GRAPHIC] [TIFF OMITTED] T6897B.051
    
    [GRAPHIC] [TIFF OMITTED] T6897B.052
    
    [GRAPHIC] [TIFF OMITTED] T6897B.053
    
    [GRAPHIC] [TIFF OMITTED] T6897B.054
    
    [GRAPHIC] [TIFF OMITTED] T6897B.055
    
    [GRAPHIC] [TIFF OMITTED] T6897B.056
    
    [GRAPHIC] [TIFF OMITTED] T6897B.057
    
    [GRAPHIC] [TIFF OMITTED] T6897B.058
    
    [GRAPHIC] [TIFF OMITTED] T6897B.059
    
    [GRAPHIC] [TIFF OMITTED] T6897B.060
    
    [GRAPHIC] [TIFF OMITTED] T6897B.061
    
    [GRAPHIC] [TIFF OMITTED] T6897B.062
    
    [GRAPHIC] [TIFF OMITTED] T6897B.063
    
    [GRAPHIC] [TIFF OMITTED] T6897B.064
    
                                           Wednesday, May 11, 2011.

    NATIONAL ENDOWMENT FOR THE ARTS, FISCAL YEAR 2012 BUDGET REQUEST

                                WITNESS

ROCCO LANDESMAN, CHAIRMAN

                    Opening Statement of Mr. Simpson

    Mr. Simpson. The committee will come to order. Chairman 
Landesman, I want to thank you for joining us this morning to 
testify about your fiscal year 2012 budget request. We look 
forward to learning more about the NEA's work and your goals 
for the future.
    By the end of this week, our subcommittee will have 
conducted no less than about two dozen hearings to weigh the 
merits of everybody's budget request because of the intense 
competition for federal dollars this year. Like many of the 
agencies that receive funding through this subcommittee, the 
Arts Endowment finds its budget under pressure because of the 
tight fiscal environment we are facing. Your budget request, 
which is just slightly above the fiscal year 2008 funding 
level, reflects that reality.
    At the end of the day, I believe the focus should not only 
be on the size of the NEA budget, but on the quality of the NEA 
programs that serve our constituents. Whatever funding is 
available to support the NEA's mission next year should be used 
to support proven quality programs with broad geographic reach. 
Changing the overall direction of the NEA, particularly in this 
budget environment, could very well undermine long-established 
bipartisan support for the arts in Congress.
    You know from our conversations in Washington and during 
our time together in Idaho last year that I am a supporter of 
the arts. I am particularly proud of the Idaho arts community, 
the Big Green, the Shakespeare in American Communities, 
Challenge America, and other NEA grant programs are the 
lifeblood of the arts in Boise, Jerome, and many other 
communities throughout the state. It is my hope that these and 
other proven popular initiatives, all of which enjoy strong 
bipartisan support in Congress, will continue in the coming 
years.
    I also appreciate the NEA's efforts to work with state art 
organizations because it is how we reach rural communities in 
Idaho and other rural states in this country. In 1997, Congress 
wrote into law that 40 percent of the NEA program funds must be 
allocated to the states through their state arts agencies, or 
SAAs, because their proximity to small communities allows them 
to understand community priorities and be more accessible to 
local organizations. The SAAs are better positions and more 
successful at reaching underserved populations.
    The NEA's fiscal year 2012 budget places 5 million in 
funding for Our Town, but without the safeguards provided by 
the 60/40 split. This is of great concern to me as funding for 
this program, if provided, will likely gravitate toward large 
urban centers with strong existing arts infrastructure. 
Allowing specific programs to receive funding outside of the 
60/40 split is a troubling precedent that undermines support 
for the state art agencies. Observing the 60/40 split for all 
grant funding ensures that funding reaches more states and 
towns and bolsters the budgets of the state arts agencies.
    In recent years, the NEA has been successful because of its 
emphasis on promoting arts for all Americans rather than 
individual artists. Fifteen years ago, the NEA was fighting for 
its very survival. Today, Democrats and Republicans provide 
broad, bipartisan support for the NEA. I hope that bipartisan 
support will continue even as we scale back funding levels to 
address our current fiscal situation.
    With that, I am happy to yield to Mr. Moran for any opening 
comments he would like to make.

                     Opening Statement of Mr. Moran

    Mr. Moran. Thanks very much, Mr. Chairman. And I know, as 
do the people in this room, that you do not just talk the talk 
with regard to supporting the arts. You walk the walk in terms 
of defending them and ensuring their funding. And it is good to 
be joined by Ms. McCollum.
    Chairman Landesman is doing a terrific job. I think we all 
agree. You know, we could not have a finer person in this job 
at this time. I like to offer a quote or two when we make an 
opening statement, if only because Chairman Simpson----
    Mr. Simpson. I demand it.
    Mr. Moran. President John Kennedy once noted that ``Art is 
the great democratic equalizer calling forth creative genius 
from every sector of society, disregarding race or religion or 
wealth or color.'' Of course, as we know, Mr. Chairman, 
President Kennedy was referring to democrat with a small ``d'' 
to say that because the arts do know no political party. It is 
a bipartisan undertaking that inspires and enriches us all.
    For 46 years, the National Endowment for the Arts has been 
a leader in advancing the arts. It has been tasked with 
engaging the public in cooperation with state and local 
governments and nonprofit entities. And the role that art has 
and continues to play in all our communities and our lives, 
these are difficult budget times. The budget request set forth 
by the President for fiscal year 2012 reflects that reality. 
The NEA is being asked to do more with less as well, and that 
is what we need to discuss with you, Mr. Chairman, how you 
intend to carry out your mission without sacrificing its core 
values but within the constraints of very limited funding.
    These are difficult times, but in such times that we need 
the National Endowment for the Arts and Humanities more than 
ever. For thousands of years, civilization has gained 
nourishment and inspiration from the beauty that art has shined 
upon a troubled world. One more little quote--an American 
actress and acting teacher who I know you are aware of, Mr. 
Landesman--Stella Adler once observed ``Life beats you down and 
crushes the soul oftentimes, but art will remind you that you 
have one''--have a soul is what she was referring to.
    The arts continue to serve an important purpose in society 
and I appreciate, Chairman Landesman, that you have come back 
after we had to reschedule this hearing and the chairman was 
very good about rescheduling it. It was supposed to occur right 
in the middle of our deliberations on the fiscal year 2011 
continuing resolution back in early April, but I appreciate 
again the fact that you have rescheduled this so that we can 
get a full hearing in for both the NEA and NEH. And with that, 
we again welcome Chairman Landesman.
    Mr. Simpson. Thank you.

                       Statement of Mr. Landesman

    Mr. Landesman. Chairman Simpson, Ranking Member Moran, and 
distinguished members of the subcommittee, I am pleased to be 
appearing before you to discuss the present fiscal year 2012 
budget request for the National Endowment for the Arts of 
$146.255 million, which includes support for direct NEA grants, 
partnerships with state and regional arts agencies, a second 
round of Our Town investment, as well as program support 
efforts, staff salaries, and administrative expenses. As you 
know, this request is consistent with the Agency's fiscal year 
2008 budget and would be a decrease of 13 percent from our 
fiscal year 2010 level of appropriation.
    We have worked to make the smartest decisions possible 
within the current fiscal reality. We have been guided in these 
decisions, as well as in the Agency's grant-making by our newly 
revised strategic plan, which has as a central theme the 
Agency's desire to gather and communicate even more data and 
analysis about the impact of federal funding on the arts. This 
data will also allow the Agency to refine and focus our 
investments in the arts to increase the efficacy and impact of 
our grants.
    The NEA's mission is to advance artistic excellence, 
innovation, and creativity throughout the country, and we are 
asking each of our grant recipients to tell us how they will 
further this in one of three ways: one, through the creation of 
art that meets the highest standards of excellence; two, by 
engaging the public with diverse and excellent art; and three, 
by promoting public understanding of the arts contributions in 
the lives of individuals and in communities.

                                OUR TOWN

    In fiscal year 2012, we will continue our investment in 
creative place-making through which we ask local political 
civic and arts leaders to work together to shape the social, 
physical, and economic characteristics of their communities. We 
will do this primarily through Our Town, which will invest $5 
million in some 35 communities across the country.
    We piloted this work through a series of grants we made in 
conjunction with our Mayors' Institute on City Design, which 
has worked with mayors for the past 25 years. One of our MICD 
25 grants was moved to Shreveport, Louisiana, where the 
headquarters of the Regional Arts Council had burned down. The 
mayor of Shreveport decided to create an opportunity out of 
this tragedy and he partnered with the Arts Council to apply to 
the NEA for funds to design an adaptive reuse of a historic 
firehouse to serve as the Arts Council's new headquarters. This 
building will also serve as the heart of a seven-block commons 
that would serve as a creative center for Shreveport and a 
gateway to the city. The commons will become a comprehensive 
arts district with rehearsal and studio space, performance and 
exhibition space, community services, religious institutions, 
restaurants, and businesses. The NEA's $100,000 towards this 
project was leveraged into $5.3 million in total investment, $3 
million of which came from private sources, including $300,000 
from a national foundation that had never before invested in 
Shreveport.
    There are similar stories throughout our MICD 25 
investments. Bethlehem, Pennsylvania is using NEA support to 
create a new town square with a major work of public art in 
front of its abandoned steel mill. Greensboro, North Carolina 
is creating a multiuse greenway to encircle its downtown and 
connect residential neighborhoods and business districts. 
Phoenix, Arizona is designing public art that will both 
beautify the downtown and simultaneously provide much-needed 
shade for a weekly outdoor market.
    Throughout the country, mayors and towns are including the 
arts at the center of strategies to create more vibrant 
communities that will allow their citizens to prosper in place, 
and Our Town allows the NEA to partner with even more 
communities. We are especially eager to make Our Town 
investments in rural communities, and toward this end we have 
written the guidelines to allow entire counties to apply 
through a single application. Each application requires a lead 
public partner, and the 2012 guidelines will allow state arts 
agencies to be those lead partners and to receive funds 
directly for this work.

                          PROPOSED REDUCTIONS

    With a proposed appropriation that represents a 13 percent 
decrease from our 2010 level of funding, we have had to make 
some difficult decisions. We have worked to cut smartly and do 
not simply apply a flat, across-the-board decrease to all of 
the Agency's programs. One example of this is our proposal for 
Shakespeare in American Communities. As you know, this is a 
wonderful program administered by a regional arts organization 
that provides funding for a stand-alone Shakespeare touring 
initiative. However, touring productions of Shakespeare are 
something that the NEA also funds within our core grant-making 
in the theater discipline. We are proposing that rather than to 
continue as a stand-alone program, we will instead encourage 
applicants to the Shakespeare in American Communities program 
to apply directly to the NEA theater discipline for support for 
their Shakespeare projects.
    By bringing this program back in-house, we will be able to 
save $400,000 in costs and administrative expenses for a 
program that in many ways duplicated our core work. Of the 40 
recipients of Shakespeare in American Community grants awarded 
last year through the regional arts organization, over half of 
them also received a direct NEA grant for their Shakespeare 
work. This was a second bite at the NEA apple for a small 
subset of arts organizations, an option not available to the 
vast majority of theaters and arts organizations. We will 
continue to make the Shakespeare in American Communities 
educational materials available free of charge to all 
interested theaters, not just grantees, through arts.gov.
    By taking this direction with Shakespeare in American 
Communities, we have the flexibility to be able to save 
programs that were not duplicated by the Agency's other work. 
The Big Read, for example, is an extraordinary program that 
gets books off the shelves, into people's hands, and transforms 
them into opportunities for citizens to come together and share 
a common art experience. The YWCA in Knoxville, Tennessee, for 
example, hosted a discussion of ``Their Eyes Were Watching 
God'' in a community room that was part of a Knoxville area 
transit transfer station. Readers received free seven-day bus 
passes for participating, and this turned out to be the largest 
and one of the most active book discussions yet in the four 
years of Knoxville's participation in the Big Read. Just as we 
have for the current fiscal year, in fiscal year 2012, the NEA 
will budget $1.5 million to support 75 Big Read grants across 
the country.

                 CLARIFYING STATE MATCHING REQUIREMENTS

    The state arts agencies are key partners in so much of the 
Agency's work. In many cases, despite the difficult budget 
realities that many states face, state arts agencies, 
governors, and state legislatures have come to the NEA for 
clarification on the requirements to receive NEA funding. The 
philosophy of the NEA state partnerships has always been that a 
state arts agency is most effective when it is able to marry 
its state funds with federal support. A state arts agency is 
simply not a state arts agency when it receives no state 
support.
    To emphasize this, we requested a clarification in our 
legislation that specifies that the NEA's investment in a state 
arts agency must be met at least one to one with funds that the 
state itself directly controls. Understanding the unprecedented 
fiscal times in which we are operating, we are also seeking 
allowance to develop narrow guidelines for when this match may 
be temporarily waived. These would be published for public 
comment before being enacted.

                  HONORING ARTISTS OF ALL DISCIPLINES

    We are also seeking a change to the NEA's Honorifics 
program. As you know, since 1982, the NEA has awarded Jazz 
Masters and National Heritage Fellowships to recognize the 
individual artists who have made exceptional contributions to 
their respective fields. In 2008, the NEA expanded its ongoing 
investment in these lifetime honors to also include the NEA 
Opera Honors. This recent expansion sparked a conversation at 
the Agency about the possibility of continuing to expand the 
lifetime honors to embrace the full spectrum of the arts that 
the NEA supports. Toward that end, the NEA is seeking a 
legislative change that would allow the Agency to honor artists 
who have made extraordinary contributions to American culture, 
regardless of discipline.

                   COLLABORATION WITH OTHER AGENCIES

    Let me end by touching briefly on two major areas of focus 
that require no additional investment in the NEA. The first is 
our collaboration with other federal agencies. Take, for 
example, the Department of Housing and Urban Development. As 
you know, Secretary Shaun Donovan is a huge champion of the 
arts and the role they can play in creating and sustaining 
vibrant communities. When HUD released a Notice of Funding 
Availability for $100 million for regional planning efforts, 
the arts were included explicitly alongside integrated housing 
and transportation decisions and incorporating livability, 
sustainability, and social equity values into land-use plans 
and zoning. When HUD announced the results of this NOFA, the 
arts were the centerpiece of many of these grants, including 
Hollywood, Florida; Rockford, Illinois; Evansville, Indiana; 
Greenfield, Massachusetts; and Radford, Virginia.
    I am also talking with Health and Human Services about the 
ways in which the arts and human development intersect: with 
the Department of Education, about the key role that the arts 
play in providing a complete 21st century education; with the 
Department of Transportation, about the role of the arts in 
smart design in connecting communities and neighborhoods; and 
with the Department of Agriculture, about the role that the 
arts can play in creating and enlivening gathering places in 
rural settings. In short, the NEA is positioning itself at the 
intersection of the arts and the everyday and we are eager to 
share the arts with our sister agencies.

                           BLUE STAR MUSEUMS

    Finally, I would like to call your attention to Blue Star 
Museums, which is a partnership among the NEA, Blue Star 
families, and museums across the country to grant free 
admission to active duty military men and women and their 
families all summer long. Last year was the first year of this 
partnership and we launched with some 600 museums participating 
and ended up with over a quarter of a million military families 
participating. We are still almost a month away from this 
year's launch, and we already have enlisted over 1,200 museums 
who will welcome military families this summer.
    Let me end by thanking the chairman, the ranking member, 
and the distinguished members of the subcommittee for your 
ongoing support of both the Agency and the arts in general. I 
am now happy to answer any questions you may have, and I look 
forward to our discussion. Thank you.
    [The statement of Rocco Landesman follows:]

    [GRAPHIC] [TIFF OMITTED] T6897B.065
    
    [GRAPHIC] [TIFF OMITTED] T6897B.066
    
    [GRAPHIC] [TIFF OMITTED] T6897B.067
    
    [GRAPHIC] [TIFF OMITTED] T6897B.068
    
    [GRAPHIC] [TIFF OMITTED] T6897B.069
    
    Mr. Simpson. Thank you, Mr. Chairman. I appreciate your 
testimony and thanks for the work you are doing with the arts. 
It is, as was mentioned both in my opening statement and Jim's, 
and in yours, that the arts have enjoyed bipartisan support in 
Congress. As I mentioned in my opening statement, that has not 
always been the case as you remember several years ago before 
you came, the arts went through some tough times. There was an 
effort by Congress to essentially eliminate funding for the 
arts, and it was not fought off by very many votes. I was not 
here at the time, but Jim was here at the time, and yeah, it 
was a pretty tough time. And we have come a long way in 
bringing back the arts and the support for the arts within 
Congress.
    And I think part of the role of this committee is to make 
sure that we do not lose that support so that the programs that 
the NEA is involved in enjoy broad, bipartisan support. Some of 
those programs that enjoy bipartisan support are the 
Shakespeare in American Communities and the Big Read and 
Challenge America, grants that have widespread appeal because 
they reach underserved areas and communities in rural America. 
And as you know, rural America is kind of particular interest 
to me since I live in the second-largest city in Idaho, which 
is like 50,000, and that is like one-fifth the size of the 
largest city, and all the other cities are substantially 
smaller than that. So rural America is very important to me.
    Could you briefly outline the status of each of these 
programs? The Shakespeare in American Communities, the Big 
Read, and Challenge America. What is the status of each of 
these, the specific level of funding budgeted for next year, 
and whether the NEA plans to discontinue any of those?

                  SHAKESPEARE IN AMERICAN COMMUNITIES

    Mr. Landesman. We do not plan to discontinue any of them. 
Shakespeare in American Communities is one of the great NEA 
programs. I have seen the results of it across the country. The 
issue there was simply budgetary with our reductions. It was 
funded in the past through a third party. We are now folding it 
into our core grant-making. We are going to be able to save 
about $400,000 by doing that in administrative costs. We are 
still very committed to Shakespeare in American Communities. I 
have seen the fruits of that work everywhere. It is a great 
program.

                                BIG READ

    Similarly, with the Big Read, even with the budget cuts we 
are protecting the funding for that at the full level from the 
previous year. We are very committed to that program as we have 
been all along. So we are very committed to these programs. We 
just have to figure out the most creative way to continue to 
support them with the budgetary constraints that we have.

                           CHALLENGE AMERICA

    Mr. Simpson. And the other one was the Challenge America.
    Mr. Landesman. Which continues.

                                OUR TOWN

    Mr. Simpson. Okay. One of the, I guess, just general 
questions I would like to talk to you about is, you know, I am 
one who actually believes that when you get hired, you get 
appointed, whatever, as Chairman of the NEA or the Secretary of 
the Department of Interior or any other agency in government, 
that you ought to have some freedom and flexibility to do what 
you think is necessary to be done with the agency and decide 
the direction that you would like to take it. Our Town is kind 
of your initiative and what you would like to do. I think what 
you are trying to do in building arts in the communities and 
stuff--this is a different role than the NEA has taken on in 
the past. Is this something that is better left to the other 
agencies like HUD and others that do that kind of thing? I 
mean, community development is kind of out of your realm, is it 
not?
    Mr. Landesman. I do not think so. I think that the arts 
have a central role to play in the revitalization of 
communities, and we have seen examples of that everywhere, that 
the heart and soul of a community is often its culture. We saw 
that together in Boise with the Basque community and we saw it 
in Old Town with the building of the Torpedo Factory there and 
what the arts galleries did to that area. We have seen it in 
Lowertown in St. Paul, what that means to the fabric of that 
community, both economically and in terms of civic engagement. 
We have seen it in the South Bronx with the Art Handlers.
    Mr. Simpson. Now, let me----
    Mr. Landesman. We have seen the arts connect with the real 
world in important ways where they have really affected 
communities.
    Mr. Simpson. So let me ask you, I mean I agree with that, 
but in all of those things that you just mentioned, the NEA was 
not involved in developing those.
    Mr. Landesman. Well, what we have seen there is, on an 
anecdotal basis, the way the arts can profoundly affect 
communities. We want to take those great examples, the places 
where it has been done and been successful, and scale it out 
nationwide and to really bring the arts into the process of 
community rebuilding. We have a lot of data that has been 
gathered over a long period of time that where you have arts in 
a community three main things occur--that the social fabric of 
that community is enhanced. People who are engaged in the arts 
and in culture are more likely to vote, to join other cultural 
organizations or organizations of any kind. It is a weaver of 
civic fabric in those places. Arts have a big effect on child 
welfare. Juvenile delinquency and truancy decline markedly 
where there is a cultural presence. And finally, it is an 
economic driver.
    And yes, a certain amount of this is going to happen in a 
haphazard way, but with a small amount of money, we want to be 
at the forefront of this process and we believe that when you 
are talking about a renewal of communities nationwide, you have 
to include the arts. And we feel the arts need to be there.
    Mr. Simpson. And this $5 million investment that you are 
going to make comes at the expense of other programs?
    Mr. Landesman. Yes, theoretically. We have to find the 
money within our budget. We did not get a new appropriation 
just for that. But I have felt--and you frame this almost as a 
philosophical point----
    Mr. Simpson. Right.
    Mr. Landesman [continuing]. I felt almost from my first day 
on the job that we were going to make a case for the arts. And 
what we were doing was simply to proceed with business as 
usual, which meant funding a lot of the established 
institutions, what I used to call the big temples on the hill, 
you know, the big well-known institutions and so forth. Then, 
if there is an issue about the funding for those, I think 
people would say well, we care about the City Opera in New York 
City, but it is not at the front of our priorities right now 
given the budgetary constraints and the limited funds that we 
have all across the government. If, on the other hand, we can 
make the case about the intersection of the arts in the real 
world, in communities, in places, the Purple Rose Theater, you 
know, in Chelsea, Michigan and people can see in a very 
palpable, visceral way how integrated the Purple Rose Theater 
is into that 5,000-person community, then we have a completely 
different narrative and are making a completely different case.
    And when I have gone across the country, and I go to 
medium-sized cities likes Greensboro and Winston-Salem, North 
Carolina; Bethlehem, Pennsylvania; not just Boise, but Jerome, 
Idaho where the arts are important, as I travel around the 
country, I see that the arts are not just in the big cities, in 
the big temples of the big cities, but are a part of the 
community fabric everywhere I go. And I think the NEA needs to 
be there as a champion for the arts in all these places and 
really the--what I am calling the intersection of the arts and 
the real world. And I think we have an important role there. 
And Our Town is at the frontier of that for us.

                         ARTS IN RURAL AMERICA

    Mr. Simpson. One of my concerns is that every program that 
we take on comes at the expense of some other program. And we 
have done a great job of getting arts out of the rural 
communities, and I do not want to sacrifice or injure those 
programs that are making a difference in Jerome, Idaho, as you 
mentioned, and other places all across America because the 
taxpayers of this country that pay the taxes that fund all of 
this have a right to see the benefits that the arts provide. 
And so I do not want to sacrifice the programs that I think 
have been doing a good job.
    Mr. Landesman. I do not think that is going to happen.

                ROLE OF THE NATIONAL COUNCIL ON THE ARTS

    Mr. Simpson. One other question before I turn it over to 
Jim, I understand that traditionally the NEA chairman relies a 
great deal on the advice of counsel from respected artists and 
art administrators that serve on the National Council of the 
Arts. I have heard that there is growing concern from within 
the council about the direction of the NEA, particularly a 
perception that the Endowment is reducing funding streams to 
the states or making decisions that the council does not 
support. What is the role of the council? How often does the 
council meet? Do you consult with the council on proposals on 
specific things like creating the Our Town program or 
terminating other programs? What exactly is the role of the 
council and how do you interact?
    Mr. Landesman. The main role of the council is to vote on 
the grants that are made in the various disciplines, which go 
through an exhaustive peer-review process. And it is up to the 
council to approve or disapprove of those. I do not believe 
that it is the role of the council to set general NEA policy, 
which is done by me and was, you know, set out pretty clearly 
when I came in with a fairly prescribed and intentional agenda. 
We do have conversations with the council members. We meet two 
or three times a year and I feel that I am very accessible to 
them on a daily basis. I always like to hear their thoughts. We 
do not agree about everything that the NEA is doing 
necessarily. But from my perspective, I am open to that 
dialogue at all times.
    Mr. Simpson. Thank you. Mr. Moran.
    Mr. Moran. Thanks, Mike. I do think you have shown some 
convincing accomplishments in terms of economic development, 
although some of my favorite NEA grants, I will just share 
quickly one. There was an application from a small group of 
Russian Jewish immigrants who came over here and suggested that 
they would teach the low performing Hispanic immigrant students 
how to perform in Chekov and Nabokov plays. I thought that is 
the most bizarre thing. But because it was so bizarre, they got 
a little bit of money over a two-year period. And these kids 
were learning stage presence; all of a sudden, both the 
principal and the superintendent said they just blossomed. I 
mean, they went through a transformation when they acquired 
confidence. And they memorized these plays. They were going to 
drop out of high school and now they are all in college. Every 
single one of those kids that participated is in college.

                        QUALITY OF ART PROGRAMS

    I wanted to ask you about a couple of things. The 
fascinating statistic that more people attend performing arts 
organization performance in this country than go to the movies; 
it is a great thing. I could not imagine. But it is interesting 
to consider that in light of the rather controversial 
suggestion that you made, which I happen to agree on, that in 
some communities we have too many fora for performing arts and, 
as a result, the quality sometimes gets too thin. Do you want 
to address that for a moment, what you mean by that?
    Mr. Landesman. Not only the quality but also the support 
levels. One of the concerns that I have had as someone who has 
had a professional career in the theater, in the arts, is 
ensuring that the people who work in these organizations get a 
living wage, get a level of compensation that allows them to, 
you know, continue with some dignity.
    We have data that we have collected at the NEA--and others 
have collected it, too--that show that attendance, while very 
extensive as you point out in the performing arts and the 
visual arts, across much of the field has actually been 
declining while the number of institutions, organizations has 
been proliferating exponentially. And at a forum, I did raise 
the issue that perhaps there is a disconnect there, that if you 
are having lessening demand along with increasing supply that 
there would be a reckoning of that at some point. And my point 
was this should at least be talked about. There should at least 
be discussion about this. And the feedback--while some people 
have objected to that, it was actually a very controversial 
remark--I was glad to get that discussion out on the table. One 
of the few things I can do as the chairman of the NEA with the 
limited budget is to use the platform, the bully pulpit to 
start conversations like that. And I think people first got a 
little hysterical. Are there going to be death panels now at 
the NEA? Of course not. I do not think there should be a 
moratorium on that kind of conversation. Resources are very 
limited, and that is not to say that we should not be funding 
the biggest organizations or even the most viable 
organizations. We want to fund the most compelling ones. But it 
does not mean that we have to fund them all and that all have, 
you know, some kind of a right to exist if they cannot be 
supported.

                 REDUCTIONS TO UNDERSERVED COMMUNITIES

    Mr. Moran. Good for you. Good. One other area I want to ask 
you about, under state and regional partnerships, you are 
proposing to cut funding for underserved communities by $9.4 
million. Under the rulebook of advancing, understanding, and 
appreciation of the arts, how do we justify cutting funding for 
population and communities that, by the very definition of the 
program, have been underserved in the past?
    Mr. Landesman. You are talking about funding within the 
NEA?
    Mr. Moran. That is right, within the NEA under that line 
``Underserved Communities,'' it is cut by $9.4 million I think 
it said.
    Mr. Landesman. I think we have been cutting across the 
board and, you know, that must be a proportionate--the 
specifics of that is something I will get back to you on----
    Mr. Moran. Yeah, that is fine.
    Mr. Landesman [continuing]. But, you know, we have had to 
sustain cuts just about every place, many of them we do not 
want to make.
    Mr. Moran. Okay. In fact, all of the other questions you 
have addressed in your testimony, again, I think you are doing 
a phenomenally outstanding job as chair, Mr. Landesman, and I 
thank you for that.
    Mr. Landesman. Thank you.
    Mr. Moran. Thanks, Mr. Simpson.
    Mr. Simpson. Mr. Flake.
    Mr. Flake. Yes, thank you. And I am sorry I missed the 
testimony.
    Mr. Landesman. Good.

                GRANTS TO ORGANIZATIONS AND UNIVERSITIES

    Mr. Flake. We know that we are having to cut and the budget 
reflects that, but when you look through and see a lot of the 
grants that have been awarded, I think maybe we could stand a 
few more. For example, the International Accordion Festival, 
$30,000 award; the Fabric Workshop and Museum, $50,000 award; 
San Francisco Mime Troupe, $50,000 award. Those just kind of 
lend themselves to ridicule when federal taxpayers see us 
cutting popular programs and programs that they have counted 
on, like Social Security and Medicare. They see that coming but 
then they still see grants like this. It is just tough to 
justify.
    Now, I understand moving art to rural communities and 
whatnot. I grew up in a small town in Northern Arizona with 
limited opportunities in that regard. But then you see grants 
going to institutions like Boston University, New York 
University, Notre Dame, Columbia, Yale; all of these with 
substantial endowments. I think all of these have endowments 
exceeding $1 billion. Let's take one in particular, Yale 
University. National Endowment for the Arts funded the U.S. 
premiere of the Autumn Sonata, this despite the fact that Yale 
has a $16.7 billion endowment, a $30,000 grant. How can we 
justify those kind of grants, particularly to institutions like 
that?
    Mr. Landesman. I will try to answer most of them in not 
necessarily the right order. Taking the last one first, I 
happen to know about the Yale Rep because I was a professor at 
the Yale School of Drama for many years, so I am very familiar 
with the Yale Rep. The Yale Rep has to pay its own way and 
receives very little support from Yale University. And the 
School of Drama, likewise, has to raise a lot of its own funds. 
So the question was often asked while I was there is, you know, 
Yale is this incredibly rich institution. Why can they not pay 
for everything they are doing? But the drama school and the 
Repertory Theater, the professional theater there, has to raise 
its own funds and pay its own way. So an NEA grant to a 
production that they would be doing if the production is worthy 
and goes through the peer process, it seems to me is a very 
legitimate source of our funding.
    Among the other grants you named, I am not familiar with 
all of our grants. We give 2,700 grants each year. They go 
through a peer process where peers evaluate the validity of the 
grants. They are not made by the chairman. The first two that 
you mentioned I am guessing were grants to underserved 
communities. The third one, the San Francisco Mime Troupe, was 
not a grant that I had any participation in, but I happen to 
know something about that. The San Francisco Mime Troupe is a 
world-renowned, first-class theater organization that has made 
a significant contribution to the field of dramatic arts and 
from my perspective, as a theater professional, I would think 
would be very worthy of support from the NEA.

                         GRANTS TO UNIVERSITIES

    Mr. Flake. Back to these grants to universities, is it the 
case with the other institutions as well that they have to seek 
their own funding?
    Mr. Landesman. I am not aware of us making grants to 
universities per se at all. We may do a particular production 
that is done at a professional theater that is housed at a 
university. University grant-making is much more done by the 
NEH, National Endowment for the Humanities, than by the NEA.
    Mr. Flake. But still, I mean one could probably 
legitimately argue that if it did not have to go through the 
Federal Government or elsewhere, if it is a performing troupe 
at Yale University that they could seek funding from the 
university just as easily, could they not?
    Mr. Landesman. They seek money from as many sources as they 
can. In many of these organizations we are a small part of the 
budget, but for a particular production, we can play a 
significant role, and I am glad to see that we are supporting 
what are disciplined people and our peer-group reviews are 
important contributions to the art.
    Mr. Flake. Let me just say that it will be difficult when 
we get in the fiscal year 2012 budget when there are items like 
this in there. You understand that it is going to be tough. And 
for people who see other more essential programs that they feel 
are essential being cut, to justify giving $30,000 to a theater 
troupe at Yale, even if it is not Yale, so just that thought.
    Mr. Landesman. That is a true process.

                        REPEAT GRANT RECIPIENTS

    Mr. Flake. How do you feel about these grants that seem in 
perpetuity to a lot of these groups just every year, and in 
some cases, increasing. I think there is a theater probably in 
New York--it may be in Congressman Serrano's district--I have 
gone after them before so I will be careful here. There is a 
theater there I think that has received more than 513,000 in 
NEA grants and it seems every year an increase. How do you feel 
about these grants in perpetuity? It would seem to be a good 
principle that, hey, you go three years and out for a while.
    Mr. Landesman. Well, in the theater program, which I know a 
little about, the grants are made for particular productions so 
there is not a built-in perpetuity of that. Each production or 
each proposal is applied, you know, new each year. The appeal 
group makes a decision on that for that particular year. If an 
organization does a lot of work that they consider worthy, I am 
sure they are going to get repeat grants. But there are no 
grants that continue year to year. Each year that process comes 
up for the review process and the decision is made through our 
normal panel process.
    Mr. Flake. But have you not, in the Challenge America Fast-
Track program, stipulated that they cannot come back after 
three years?
    Mr. Landesman. But in the Challenge America program, there 
is that stipulation but that is just a small part of the whole 
NEA grant-making process.
    Mr. Flake. But even there they can come back, they can just 
switch categories and get funding for a different category, 
right?
    Mr. Landesman. Theoretically, they could, yeah.
    Mr. Flake. All right. Thanks.
    Mr. Simpson. Ms. McCollum.

                        GRANT SELECTION PROCESS

    Ms. McCollum. Thank you, Mr. Chair. And to kind of follow 
up on that, they could switch but the panelists know, the 
judges know somebody is trying to pull a fast one. And I say 
that as a member on the Council of Arts and Mr. Tiberi also 
serves and you get a booklet that is about this thick--and I am 
not involved in doing the judging.
    To the best of my ability, I kind of try to do a little bit 
of oversight as to what they are doing, where the grants are 
going, who did not get grants, and when you see all the 
wonderful, wonderful grants that are denied because there are 
not enough funds and the painstaking process in which they try 
to make sure that there is equity to the best of their ability 
throughout this country, large and small, that everyone gets a 
chance to participate, the judges in my opinion do a really 
good job.
    And if you would like--because I know you kind of see the 
finals, you know, when it kind of comes through here in 
Congress--the staff would go out of their way to make available 
anything, or to come in and just sit and listen to the judges' 
discussion on it.
    Now, having said that, I do not always agree with what they 
chose, but that is why I do not jury my own Congressional art 
show either and the five judges all came independently and 
picked out the same top three pieces of art. Which just goes to 
show that what I liked--two of them I had in my top ten; one I 
did not have at all, but after listening to the judges explain 
to the students why that one was chosen, I went wow. So if you 
want some more information on that, you might want to stop for 
a day when they are meeting next. It is in the spring, the next 
one, June?
    Mr. Landesman. June.

                     ARTS AND COMMUNITY DEVELOPMENT

    Ms. McCollum. Yes. I wanted to kind of make a couple of 
observations and then kind of generalize and then ask you a 
question. One of the things that I was very much involved in 
supporting was a Republican during the time I was on the city 
council in north St. Paul. We both got elected to the State 
House. He was from Lanesboro. They were trying to rehab an old 
theater. They were bringing in a bike trail, B and B's, all 
kinds of stuff. The economic development that they thought was 
just going to be in the spring and in the summer turned into 
the fall and into the winter for Lanesboro. And then they had 
local artisans and women doing quilts and all kinds of economic 
cottage industry growth from in and around the neighborhood. It 
was just phenomenal. So your point about the integration 
between HUD and transportation, how dollars are limited, but 
the need for sustainable, livable communities and getting the 
best investment for our federal dollars is critically 
important.
    We have a rail project going through Central Corridor, 
which is going to be very disruptive, but the community kind of 
came together and said how do we celebrate this disruption? 
They have done it with photographs of people that are living on 
the corridor, both old-timers from the days of statehood all 
the way through to the vibrant community with the new 
immigrants that have lived and established businesses on it. I 
was not able to get over there, but I caught it on the news, 
they decorated the hardhats. And I will tell you, some of them 
were pretty whimsical, but all ages were involved in doing 
that.
    But to the point of getting transportation stops in an 
urban core where there is art and something of pride put in the 
community, our police department sees less gang activity. There 
are some correlations in there. I think the Our Town project 
from our perspective and whether or not we even receive a 
nickel from it is that it is an opportunity for communities 
when they are planning to be mindful of how to build 
sustainability, joy, reflection. Part of that is the arts 
because that is who we are with being creative.
    So if you could maybe just talk a little bit more--I almost 
called you Rocco--Mr. Landesman----
    Mr. Landesman. Everyone else does.
    Ms. McCollum [continuing]. About kind of what you are 
hearing working with the Secretaries. As you are going through 
the planning stage, are they open to being mindful of the arts?

                   LEVERAGING EFFECT OF ARTS FUNDING

    Mr. Landesman. Well, with the limitations of our budget, we 
have to be creative. And I would like to tie to something that 
the chairman asked about before, which is why do we need Our 
Town to be in there working when a lot of this can happen 
spontaneously? And I think part of the answer is that the 
particular leverage that the NEA has. In Shreveport we put in--
you know, maybe this firehouse would have been renovated 
without the NEA, but what happened was the NEA put in $100,000 
toward their renovation of this firehouse. The Educational 
Foundation of America came in with $300,000. Another $5 million 
was raised privately and locally based largely on the 
imprimatur of the NEA, on the validation of a federal agency 
that came in and said this is something worth doing. This is 
something the Federal Government stands behind. And that 
100,000 became $5.4 million very quickly. And that is the value 
of the NEA seal, and it can have a tremendous leveraging 
effect.

                          CREATIVE PLACEMAKING

    The other part of the leverage is exactly what you just 
addressed, Congresswoman, that we need to find additional 
funding through our sister agencies where the limited resources 
we have can be leveraged when there is a coincidence of 
purpose. The Department of Transportation, for instance, is no 
longer just about engineering and road-building. It is also 
about quality of life. So if we encounter a beltway, a greenway 
around Greensboro, North Carolina that is going to be created 
out of old railroad beds or roads and there can be an aesthetic 
aspect to that--and we made a grant for decorative aesthetic 
work for the overpasses that you encounter along the roadway. 
This suddenly becomes also about the arts. And the arts have a 
role to play.
    One of the things that we found is that when we are dealing 
with the more public of the arts, things like, you know, 
decorative aspects to an overpass or to a bridge or public art, 
public sculpture or architecture in general, all design aspects 
of the cities, these affect everybody. Whether they ever enter 
any kind of arts emporium or not, whether they never go to a 
play or to a museum, these are aspects of art that people 
encounter every day in their normal life.
    The aesthetics of a town, of a place, we call it creative 
place-making because it is all about the place. And places need 
to have an aesthetic, need to have an aesthetic aspect. It 
affects how people feel about where they live, no less than the 
aesthetics in the Mayo Clinic affect the outcome of patients 
there. If you are in a nicer place, if you are in a place you 
enjoy encountering, the arts have a role. And we are connecting 
with the Department of Health and Human Services about this, 
too. We are finding the arts have a role to play clearly--I 
think everyone knows it--in childhood development, in mental 
health, in geriatrics, and where there is an intersection of 
the arts and the work of other agencies, we want to be a 
multiplier there. We want to help maximize those resources 
wherever we can. And I think it is a very healthy process.
    Mr. Simpson. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. Let me check 
something here a second.
    Mr. Simpson. You are just trying to show us you know how to 
use one of those things.

                     IMPORTANCE OF ARTS IN AMERICA

    Mr. Serrano. ``I am a poor, tattered wretch, like the back 
of this waistcoat. I ask for nothing. I am better than that. I 
was young once. I went to the university. I had dreams. I 
thought of myself as a man. But now, now I want nothing, 
nothing but peace. Peace.'' I read that, Mr. Moran, when I was 
12 years old. It is Chekov's on the harm of tobacco. And I grew 
up in a program called the South Bronx Community Action Theater 
where they took all these kids together and they put us on 
stage and they helped us build scenery and put on makeup and so 
on. And with my talent, I did not pursue it because it 
conflicts with my desire to eat. It has been at the center of 
my existence at who I am. It trailed down to my son who then 
ran for the city council and made sure that he became chairman 
eventually of the Cultural Arts Committee of the city council. 
And now he is the ranking member, was chairman. We lost the 
majority there, too--of the New York State Senate Cultural 
Arts. And so it was not strange to hear you say about the 
Russian immigrants because it was a Greek American who taught 
me how to read Chekov. And I was trying to get rid of my 
Spanish and Bronx accent at the same time when I was doing this 
so it was quite an experience.
    All that to say that even during difficult budget times, we 
have to preserve and save and grow the arts because it was a 
great Puerto Rican composer, pop song composer, who said what 
probably everybody else has said. He said, ``A people without 
the arts are a people without a soul.'' And it is at the center 
of who I am. I know it is at the center of who we are as 
Americans, and we just have to be very, very careful that as we 
make very difficult decisions we do not destroy that which is 
so important to us.
    Mr. Landesman. I did not anticipate encountering anyone 
today who was going to be referring to Chekov but since you 
did, Chekov said, ``We must take the theater out of the hands 
of the greengrocer.'' And what he meant by that was that the 
marketplace should not be the sole determinant of what art is 
allowed to flourish. And one of the important aspects of the 
NEA is that it supports art that we as a society consider 
valuable and worth supporting even if the marketplace does not 
support it.
    Mr. Serrano. Right.
    Mr. Landesman. The San Francisco Mime Troupe is a theater 
organization that has made a tremendous contribution to the art 
that I am very proud of, probably would not be supported just 
in the marketplace that needs subsidy from both private and 
public sources. And the NEA I think is there to do that.

           CONTINUATION OF THE NATIONAL HERITAGE FELLOWSHIPS

    Mr. Serrano. Let me, before I ask you my only question, 
tell you that I am not as courageous as you think. I only read 
that part on the harmfulness of tobacco when he speaks about 
himself and not the gist of his whole presentation, which is 
what a miserable marriage he is involved in. And he ends with 
his wife waiting in the wings, you know, waving to come over. 
It is really a wonderful--yeah, I know. That is too much 
information.
    Mr. Chairman, it is my understanding that the National 
Heritage Fellowship will be discontinued. As I understand it, a 
new fellowship that targets mid-career artists will be 
established. Several community organizations from my district 
as well as surrounding districts have reached out to me with 
their concerns that, in lieu of this reorganization, 
traditional cultural artists will be neglected. The National 
Heritage Fellowship has represented the NEA's commitment to 
underrepresented communities. I think that this commitment is 
an important one.
    What was the reasoning behind the discontinuing of the 
National Heritage Fellowship? Is there any chance of offering a 
similar program or fellowship that recognizes and supports 
underrepresented communities and traditional cultural artists, 
even as we deal with the dollar issue?
    Mr. Landesman. I recently met with the main players in the 
National Heritage field. We had a meeting at the NEA. They came 
in; they made a very articulate and passionate case to me. All 
I will say at this moment is I heard them and we are taking 
what they said under real consideration. The National Heritage 
awards are very important to us. They are part of the DNA of 
our Agency, part of our identity. I think they are extremely 
valuable and that is probably all I should say at this moment.
    Mr. Serrano. Okay. And as my colleague said, when we sit at 
these things, we do not make any judgments. So we are not 
making any judgments here, but keep in mind that there is one 
Member of Congress at least who is concerned that----
    Mr. Landesman. Let me just say to answer the other part of 
your question to address how this process started. Again, we 
are facing significant budgetary cuts. At the same time, we 
want to widen the arena for these awards a little bit so we can 
include other arts, the visual arts, the art that I am, of 
course, most familiar, the theater, the performing arts, to be 
able to give awards to people who have made significant 
contributions all through a lot of the arts. And under the 
budgetary constraints, this was one solution that we broached. 
And by the way, the other arts, some of which we are 
eliminating as stand-alone entities, will also be included in 
these what we are calling Artist of the Year awards at the NEA.

                  GRANTS TO UNITED STATES TERRITORIES

    Mr. Serrano. Yeah. Let me just end by saying something that 
I say at just about every hearing of any kind and something 
which has caught on in the last few years. In fact, Speaker 
Boehner, when he was minority leader, was very good on this 
issue and that is remembering that we have not only 50 states 
but we have territories where American citizens live who 
participate in every aspect. And as you know, in our federal 
budget, the territories are always sort of an afterthought or 
an addendum----
    Mr. Landesman. We fund in those areas.
    Mr. Serrano [continuing]. Or a rider.
    Mr. Landesman. We fund there.
    Mr. Serrano. Okay. Thank you so much.
    Mr. Landesman. Thank you.

                     ARTS AND COMMUNITY DEVELOPMENT

    Mr. Simpson. Thank you. You know, it was in your 
conversations that you were just having with Representative 
McCollum, what you are trying to do in Our Town, we have done 
some things using a program that is now defunct because it was 
unfunded last year, Save America's Treasures. We have done some 
things in restoring theaters and those types of things 
throughout Idaho, some of which we took some criticism for, but 
it is really the seed money that starts that and it is local 
effort--fundraising and work done by local people to restore 
some of these great old theaters that are then used as 
community theaters and other things in a lot of the rural 
communities around the country.
    Mr. Landesman. The Egyptian Theater was not funded by the 
NEA I do not believe.
    Mr. Simpson. Yeah. No, it was not.
    Mr. Landesman. It is a great example, though, of connecting 
to neighborhood and urban, you know, to a town's revitalization 
as a centerpiece for that. And in some cases it is done 
privately. Some cases, as in Shreveport, it can be jumpstarted 
with an NEA grant and then there is a tremendous multiplier 
effect.
    Mr. Simpson. There was a theater in Rupert, Idaho, town of 
about 3,500, the old Wilson Theater that had just been run 
down. If you looked at pictures of it, you wonder why they did 
not knock it down. We started with a couple hundred-thousand-
dollar grant as seed money to help them, and they raised 
incredible amounts of money and have gone in and restored it 
and it is beautiful. Once they did that, the other owners of 
the buildings around it said gee, maybe we ought to do 
something with our--and now the whole center around their 
center park is gorgeous with the restoration.
    And I will tell you just a quick story before I ask this 
question. I was with some of the old folks who were taking me 
through it during the renovation and they were telling me some 
stories, you know, like I met my wife up there, you know, and 
all that kind of stuff. But this guy said, you know, years ago 
there were three kids that snuck into the theater during some 
scary movie. They were up on the balcony, and one kid had a 
chicken under his coat, a live chicken, and in the middle of 
one of the scary parts, he took that out and threw it out in 
front of the projector so it is flapping on the screen and down 
on everybody. And we are all laughing. He says you know who 
that kid was? And I said who was that? Lou Dobbs. So I had 
LaTourette mention it to him when he was on his program one day 
and he just sat there in stunned amazement that anybody knew 
about that.

                          ADMINISTRATIVE COSTS

    Anyway, couple other questions. This comes not just for 
your Agency but what I am hearing about a lot of agencies that 
we are looking at budget reductions, that is the NEA's budget 
justification list five priorities for fiscal year 2012. Your 
first priority on page four is for the NEA to maintain its 
staff and to interact with the arts community and the public. 
Overall, your budget request returns funding levels to just 
about 2008 levels but does not reduce the number of staff to 
administer fewer funds. In fiscal year 2008, the NEA had 155 
FDAs. Today, it has 169 FTEs. And this is the question that I 
am receiving from a whole bunch of different organizations, 
whether it is within Fish and Wildlife Service or anybody else 
is that we are reducing budgets, staffs are staying the same, 
and we are reducing programs that actually go out and do the 
work on the ground.
    Mr. Landesman. Someone coming from the private sector as I 
have--this would be my first take on it, too, you know, what do 
you need all of this staff for?
    Mr. Simpson. Yeah.
    Mr. Landesman. I believe our request shows only a one 
percent increase from the 2011 to the 2012 administrative 
budget. It is very small. We are in a particular, I think, 
unique situation in that our funding was cut, as you know, in 
the mid-'90s almost in half. The staffing was cut commensurate 
to that, to reflect that. Since then, the number of grants we 
have been making in our funding has been increasing but our 
staff has not been. So our staff has been increasingly under 
pressure and duress to get out more and more grants with the 
same number of people. And believe me, I have some perspective 
on this coming from the private sector, but I think we are 
grossly understaffed. We are unable to make field visits--which 
the NEA used to routinely do--into the field to actually check 
out in person the grants. We really need more staff, I think, 
to do the work that needs to be done in the right way. We are 
making do with the staff we have. We think we are doing a 
tremendous amount with very, very little, and I think we are 
very, very efficient in how we operate and, you know, very 
lean. And if anything, we need more help, not less.

                        GRANTS TO INDIAN COUNTRY

    Mr. Simpson. Another question following up on what Mr. 
Serrano mentioned, and that is art in underserved areas. One of 
the areas that is of a great deal of concern to me--in fact, 
there is a whole lot of art out there that needs to be 
supported in Indian Country. What are we doing in Indian 
Country?
    Mr. Landesman. Well, I think we need to be there.
    Mr. Simpson. There at all now?
    Mr. Landesman. We are and we can provide you with the 
examples of that. We are. And one of the things, I think this 
has been a continuing theme at the NEA, not just with me but 
one of my immediate predecessors is to get our reach more and 
more out to the whole country and to rural areas and small 
towns and to make sure that the NEA is everywhere. And I have 
tried very hard personally to go out and around and show the 
flag everywhere we can. When we make a grant in Bethlehem, 
Pennsylvania in front of the big steelworks there, I want to 
make sure that I am there to commemorate that. And we try hard.
    Mr. Simpson. Well, we have got a unique and great culture 
in this country in Indian Country.
    Mr. Landesman. Yes.
    Mr. Simpson. And, in fact, it is different from tribe to 
tribe to tribe. And it is something we do not want to lose. And 
to the extent the NEA can help in making sure we preserve that 
and the great art, whether it is basket weaving or some of the 
silverworks done by the Navajos or other things, they are 
things that we need to make sure that we help them preserve.
    Mr. Landesman. Well, and we have a whole department of folk 
and traditional arts beyond the honorifics that we have just 
been talking about, and that division makes significant grants 
in that area. We are very proud of them. We can get you a list 
of what they are. But we feel we are very engaged with those.
    Another example of work that would not be necessarily 
supported in the marketplace that needs some kind of protection 
or subsidy and the NEA is an important part of that.

                            ARTS IN SCHOOLS

    Mr. Simpson. The NEA promotes arts in schools. Thousands of 
school-aged children have benefitted over the years from the 
toolkits and jazz in the schools, toolkits that the NEA has 
distributed free to thousands of teachers nationwide. How many 
of these toolkits were distributed last year to how many 
teachers and schools, and what are your plans to continue the 
distribution and use of this popular resource?
    Mr. Landesman. We are continuing that program. That will be 
free and I can give you the exact number. I do not know it 
offhand.
    Mr. Simpson. If you would submit that for the record, we 
would appreciate it.
    Mr. Landesman. Yes.
    Mr. Simpson. Mr. Moran.
    Mr. Moran. No, I am fine. I think, you know, I have heard 
enough and I do not really have any questions that have not 
already been answered. So I thank Mr. Simpson, the chairman.
    Mr. Simpson. Mr. Flake.

                         GRANTS TO UNIVERSITIES

    Mr. Flake. Yes. Let me get back to the universities. You 
mentioned that the one to Yale was on behalf of the Repertory 
Theater and it is listed as such. On the others, for example, 
Boston University to support the publication and promotion of 
the literary journal AGNI or Agni? I am not sure what that is. 
I am not literary, I guess, in that regard. But these grants 
are listed as going directly to the university, these 
universities with very large endowments. Another one, NTU with 
$2.43 billion endowment, support the publication and promotion 
of 10th anniversary edition of the Bellevue Literary Review. 
When you see grants going--when taxpayers everywhere see grants 
going to universities like this that are doing quite well, I 
can tell you it feeds the cynicism out there about everything 
we do here. And I just want your response to that.
    Mr. Landesman. We support the small presses. The small 
presses are a very important part of--particularly in the 
poetry world, but in scholarship certainly, the small presses, 
you know, their survival is always in doubt. They are usually 
not part of the university per se, even if though they may have 
some university support----
    Mr. Flake. But these grants----
    Mr. Landesman [continuing]. Generally these small presses 
are located at a university but they are, again, semiautonomous 
organizations that get support wherever they can, from 
foundations, from private donors, in some cases from the 
Federal Government. We feel that the world of the small press 
is a very, very important one in literature and scholarship.
    Mr. Flake. But the recipient listed is the university 
itself so the grant actually goes to the university.
    Mr. Landesman. Yeah, I am sure that is a re-grant. I am 
sure that flows ultimately to the small press in question.
    Mr. Flake. Okay.
    Mr. Moran. Would the gentleman yield to the chairman? Do we 
have any idea how much money we are talking about on these 
grants?
    Mr. Flake. Some of these are $25,000, $10,000, these are 
small grants, they are. It just begs the question of why, with 
these universities that are doing quite well relative to where 
we are here. It strikes me as not the best use of money, 
particularly if you are getting decreases in funding and some 
of the rural communities and the other places that it could be 
argued are in more need of these kinds of grants, to have 
grants to continue to flow to large universities with large 
endowments when the grant actually goes to the university, it 
just seems not right.
    Mr. Landesman. The small presses, we feel, are a very, very 
important part of the arts and scholarship ecosystem. They 
always struggle for support. Usually, their budgets are very, 
very small. Our grants number is small. We feel committed to 
their importance and to their support and hope we can continue 
it.
    Mr. Moran. If the chairman would yield further for just a 
moment. I guess the real issue is the peer-review process. I 
mean it is really not so much----
    Mr. Landesman. Yeah.
    Mr. Moran [continuing]. Mr. Landesman and his staff make 
these decisions. I think it was us, the Congress, that said 
this should all be done on a peer-reviewed basis and they make 
those actual decisions.
    Mr. Flake. Just back to the Accordion Festival----
    Ms. McCollum. Mr. Chair, on your other point, because I 
think we might be missing a key function here on the other 
point and that is if the University of Minnesota has a press 
and there is a gift given to the University of Minnesota press, 
the university bylaws might say that it has to go through them 
because of the university's name to make sure of all their 
accounting and everything at the end for the money. Maybe what 
we should do is find out how the rules work for the money going 
through. That may or may not answer your question because if 
there is an endowment at the university, but the university 
press cannot apply for it, then there is a nice endowment but 
they are excluded from it. Maybe that is something they should 
go back and see if they could change the endowment.
    But if the check has to be--and I am thinking like for the 
Rail Corridor, the Metropolitan Council is the fiscal agent, so 
they are in charge of doing some of the programming, they are 
in charge of making some of the decisions, but they are not in 
charge of everything. I am kind of wondering if it is not. But 
if that is it, then I think we are having a discussion that 
just goes around in a circle without really addressing your 
question.
    Mr. Landesman. The Accordion Festival, what town is that?
    Mr. Flake. In San Antonio.
    Mr. Landesman. In San Antonio?
    Mr. Flake. I was just going to make the point that whatever 
kills off the accordion, whether it is the market or somebody--
should get our applause and not our derision, so there are some 
things that just need to go extinct. I am sorry.
    Mr. Simpson. That is my 11-foot pole rule because I will 
not touch that with a 10-foot pole.
    Mr. Serrano. You are going to hear from Argentinean tango 
lovers, from Polish Americans, from Mexican musicians. I mean I 
could go on and on and on.
    Mr. Simpson. He is going to go after the bagpipes next.
    Mr. Flake. I will stop there.
    Mr. Simpson. Ms. McCollum.

                     ARTS AND COMMUNITY DEVELOPMENT

    Ms. McCollum. I was going to go back to the accordion, but 
you brought it up. I do not know what that exactly was about, 
but there are lots of different types of styles with accordion 
music and a lot of that goes to folk music and a lot of that 
goes to heritage which goes back to the whole preservation 
issue that we were talking about.
    But I just wanted to point out the International World 
Choral Symposium was held in the Twin Cities several years ago 
and what that did for our country, having all the individuals 
who came in and participated--this was shortly after 9/11--what 
it did to our economy, to even our university system with 
people looking to be international students after that, was 
just incredible. You talk about the multiplier effect with 
buildings. But what we have seen with the arts is that the 
multiplier effect in communities, both rural and urban, has 
been significant and businesses wanting to locate where there 
is creativity.
    Mr. Landesman. This is at the heart of what we are talking 
about the NEA. In Cincinnati, which is a city I know pretty 
well because my best friend grew up there, there is a section 
called Over-the-Rhine that used to be mainly drug addicts, 
prostitutes, mostly police actions, and a theater went in there 
and then an art gallery and then some artist housing. And the 
neighborhood was so completely transformed as to now be 
unrecognizable. And people bring their dates and walk around on 
the street there at night and that had been a place that nobody 
ever went. And we have a thousand examples like this in towns 
and cities across the country. Providence, Rhode Island is an 
example where the arts can jumpstart a complete redevelopment 
of a neighborhood. So the downtowns are not hollowed out but 
have a cultural life, an anchor. The Egyptian Theater as the 
center of town, and not just the theater itself, it is the 
activity that goes around it. It is the foot traffic; it is the 
cafes that open up nearby. And the arts are transformative in 
these places. This is all about changing the place and 
rehabilitating neighborhoods. And, you know, there is no 
question that this happens.
    And one of the interesting things--and you just referred to 
it--is we know that it is not that people follow businesses. 
Businesses follow people. They want to go where there is an 
educated, committed workforce. And the arts attract these 
people. The Knight Foundation in conjunction with Gallup just 
did a poll about why people choose to live where they live or 
what they like about where they live. And they did not say jobs 
interestingly enough. They said social offerings, openness, and 
aesthetics. And the arts have a role, a big role in making 
people like and appreciate where they are and where they will 
stay.
    When we look at small towns, one of the big issues in small 
towns all across the country is getting people to stay there, 
to commit to being there and not going off to the coasts or to 
a city. Arts, the aesthetics have a huge role to play in that. 
It is transformative of these communities. And it starts with 
the people and people are attracted to the arts. I like to 
subvert the expression from ``Field of Dreams.'' You know, I am 
now going around saying if you come, they will build it. If you 
have the right people, the businesses will follow. And the 
people are attracted to arts clusters and to arts activities 
and the arts have a tremendous role to play everywhere.
    Mr. Simpson. Mr. Serrano.
    Mr. Serrano. I have nothing further nor am I reading 
anything else.
    Mr. Simpson. Jeff, did you have something?

                         GRANTS TO UNIVERSITIES

    Mr. Flake. Just one thing. Universities, even if they are 
passed through grants, typically, when they get a grant, they 
take a portion off the top for administration. Can you assure 
us that that is not happening in the case with a $20,000 grant, 
$25,000 to Columbia University to support composer portrait 
series?
    Mr. Landesman. We will check into that. My guess is that it 
is nil or very small. But we will get you that information.
    Mr. Flake. Well, that would seem completely inappropriate 
if they have used a thing that hey, this is on its own but then 
they take a cut off the top.
    Mr. Landesman. It is not our intention to further enhance 
the endowment of Harvard University.
    Mr. Flake. Thank you.
    Mr. Simpson. Thank you, Mr. Landesman, for the work you do 
and thanks for being here today. We look forward to working 
with you on this coming year's budget, which will be difficult 
like it will for everybody. And thanks for the work you do.
    Mr. Landesman. Thanks for having me.

    [GRAPHIC] [TIFF OMITTED] T6897B.070
    
    [GRAPHIC] [TIFF OMITTED] T6897B.071
    
    [GRAPHIC] [TIFF OMITTED] T6897B.072
    
    [GRAPHIC] [TIFF OMITTED] T6897B.073
    
    [GRAPHIC] [TIFF OMITTED] T6897B.074
    
    [GRAPHIC] [TIFF OMITTED] T6897B.075
    
    [GRAPHIC] [TIFF OMITTED] T6897B.076
    
    [GRAPHIC] [TIFF OMITTED] T6897B.077
    
    [GRAPHIC] [TIFF OMITTED] T6897B.078
    
    [GRAPHIC] [TIFF OMITTED] T6897B.079
    
    [GRAPHIC] [TIFF OMITTED] T6897B.080
    
    [GRAPHIC] [TIFF OMITTED] T6897B.081
    
    [GRAPHIC] [TIFF OMITTED] T6897B.082
    
                                           Wednesday, May 11, 2011.

 NATIONAL ENDOWMENT FOR THE HUMANITIES, FISCAL YEAR 2012 BUDGET HEARING

                                WITNESS

JIM LEACH, CHAIRMAN, NATIONAL ENDOWMENT OF THE HUMANITIES

                     Opening Remarks of Mr. Simpson

    Mr. Simpson. Committee will come to order. Chairman Leach, 
it is great to see you again. Those of us on this side of the 
table miss you in Congress but appreciate your continued 
service at the National Endowment for the Humanities. We are 
well aware of the environment in which today's budget hearing 
is taking place. By the end of this week, the subcommittee, as 
I mentioned earlier, will have conducted two dozen oversight 
hearings to weigh the merits of many of the agency's budgets 
under this jurisdiction.
    As I said to the NEA Chairman Landesman earlier this 
morning, each of the endowments finds their budgets under 
intense pressure this year because of the fiscal challenges we 
are facing. Like the NEA's budget request, the NEH request, 
which is just slightly above the fiscal year 2008 funding 
level, reflects this reality. The success of the NEH in recent 
years has been a result of the endowment making a concerted 
effort to provide a selection of quality educational programs 
reaching a diverse cross-section of Americans without making 
overarching political statements.
    The work of the NEH has enjoyed strong bipartisan support 
in Congress in recent years and my hope is that that will 
continue. My home State of Idaho has benefitted from a close 
working relationship with the NEH for many years. I am an 
enthusiastic supporter of the Idaho Humanities Council, which 
has a long history of awarding grants to organizations 
throughout our state to develop humanities projects and 
programs on the local level. I am grateful for this ongoing 
successful collaboration.
    Our colleagues and I do have a number of questions to raise 
with you this morning and before receiving your testimony. I am 
happy to yield to Mr. Moran for any opening statement that he 
may have.

                      Opening Remarks of Mr. Moran

    Mr. Moran. Thank you, Chairman Simpson. Jim, I repeat 
Mike's welcome to you. It is great to have you with us and of 
course in the position you are in. As you know, I have been 
providing quotes relevant to our hearings. In terms of NEH the 
noted author and historian David McCullough was asked how he 
could attribute the success of his writing career to, and he 
said, ``I just thank my father and my mother, my lucky stars 
that I had the advantage of an education in the humanities. It 
is what made all the difference.'' He hits upon an important 
point. In what is becoming an increasingly technologically 
dependent world, where it seems that apps are being developed 
for every purpose imaginable, we still need the wisdom and the 
enlightenment that the humanities can offer, that cannot be 
replicated by machines or any form of technology. It can be 
repeated, but it cannot be created.
    In our schools, we place a great emphasis on math and 
science, but we place far less on the humanities. And in its 
own way, the National Endowment for the Humanities tries to 
correct this imbalance with support for programs that engage 
young people in the importance of history and of culture. Even 
in what are considered to be difficult fiscal times where we 
are engaged in two wars, our military leadership recognizes 
that it is not enough to just win on the battlefield. We also 
have to win the hearts and minds of the citizens in foreign 
lands--even with those that which we find ourselves in 
conflict.
    And that is why training and exposure to the history of 
culture of the society can play such an important role. NEH 
provides a national leadership role in advancing education and 
understanding the humanities. For this fiscal year the NEH like 
its sister agency the National Endowment for the Arts will face 
the prospect of doing more with less. And while there are some 
who would say these programs are expendable, I think when you 
look more closely at them, each of them has incredible reasons 
for being funded and are important in their own ways.
    The humanities have been described as the nourishment for 
the roots of our culture. We know what happens to a plant when 
it is starved of nourishment. It shrivels and dies, and we 
cannot afford to let that happen to the cultural life for our 
society. So thanks to our former colleague, Mr. Leach, I 
appreciate the fact that you are chairing the National 
Endowment for the Humanities. Thanks Mr. Chairman.
    Mr. Simpson. Mr. Chairman.

                  Statement of NEH Chairman Jim Leach

    Mr. Leach. Thank you. Mr. Chairman, Mr. Moran, Ms. 
McCollum, Mr. Flake, first I would like to request unanimous 
consent to put my full statement in the record. It is my 
intention to read from parts of it and expand somewhat on one 
of its central themes. Secondly, I would like to express my 
great honor in working with our Chairman of our sister 
institution the NEA, Rocco Landesman, and I concur with 
everything he said this morning.
    It is an honor to appear before this subcommittee once 
again to appear on behalf of the NEH and our budget request for 
this coming fiscal year. The justification we submitted to 
Congress in February describes in detail our current activities 
and plans. I would like to take a moment of the committee's 
time simply to discuss some of the key features of our fiscal 
2012 request and explain why I believe the humanities are 
critically important to the health and well-being of American 
society.
    First, let me emphasize the NEH recognizes its obligation 
to embrace budgetary restraint. The funding the administration 
has requested for fiscal year 2012 represents a 13 percent 
reduction from last year's appropriation. To do more with less 
is always a challenge, but we are appreciative of the fact that 
in the humanities even modest support can make a marked 
difference in sustaining America's cultural resources.
    Indeed we believe that few governmental institutions have 
had more impact at less cost than NEH. The Endowment's grants 
provide a margin of possibility that enables individuals, 
organizations, and institutions to undertake important work in 
the humanities. With annual spending that last year 
approximated 1/21,000th of the Federal Budget, barely more per 
capita than the cost of a postage stamp, NEH has made 
significant contributions to the democratization of ideas; 
stimulating research and the dissemination of knowledge through 
books, prize winning films and radio documentaries, and civic 
education programs ranging from those designed to help wounded 
veterans cope with physical and mental trauma to symposiums on 
the Islamic world.
    NEH is in the business of providing the perspective of 
studies in the humanities to the challenges facing American 
citizens in our country in these change-intensive times. We are 
convinced that the Endowment's investments in the realm of 
ideas pay dividends. Our grandparents understood the importance 
of support for the arts and the humanities during the country's 
most traumatic economic moment--the Great Depression--a vastly 
greater percentage of the Federal Budget was devoted to the 
arts and the humanities than today.
    Depression era public programs sustained such writers as 
John Steinbeck, Zora Neale Hurston, and Saul Bellow, and such 
artists as Grant Wood, Jacob Lawrence, and Louise Nevelson. In 
a similar tradition, the NEH since its inception in 1965 has 
supported research and scholarship that had resulted in over 
7,000 books of which 18 have been awarded Pulitzer and 20 
Bancroft Prizes and the editing of literary landmarks, such as 
the current best-selling autobiography of Mark Twain. The 
endowment has supported comprehensive, authoritative editions 
of papers of our nation's founders: presidents from George 
Washington to Dwight Eisenhower; military leaders like George 
C. Marshall; literary giants such as William Faulkner; 
scientists like Albert Einstein; social figures like Jane 
Addams; and civil rights pioneers such as Martin Luther King, 
Jr.
    During a time of rapid global change and persistent 
uncertainty about the future, the vitality of our 21st century 
democracy depends on a commitment to understanding the 
historical and cultural forces that have shaped and continue to 
shape our world. NEH's new agency-wide theme ``Bridging 
Cultures'' is designed to renew and reinforce the bridges 
between the different cultures and viewpoints that are part of 
the fabric of American life.
    These bridges of mutual respect have deep roots in the 
American tradition of civility dating back to the Founders' 
concerns about the destructive powers of what George Washington 
used to label ``factions'' in our democracy. Bridging cultures 
is also designed to strengthen bridges across international 
lines to enhance citizen understanding of the contemporary 
global context for economic, political, and cultural 
interactions among peoples.
    While bridging cultures will be a special emphasis of our 
activities in fiscal year 2012, the Endowment will continue to 
provide support for high quality projects in the full range of 
humanities programming from basic research to support for 
instruction at the high school level. Nevertheless, the 
endowment's $146.255 million budget request reflects a 
recalibration of the agency's programming mix.
    Notably the agency's We the People Initiative will be 
discontinued as an agency theme, although several of its most 
successful programs will be maintained. The National Digital 
Newspapers Program and Landmarks of American History and 
Culture Workshops for teachers, for example, have now been 
fully integrated into the regular operation of the Endowment's 
Programs divisions and will continue to be funded in fiscal 
year 2012.
    And a third We the People project--Picturing America--
enjoys the ongoing partnership support of the Verizon 
Foundation through its funding of the NEH's ``EDSITEment'' 
Website portal. As a further indication of this project's broad 
impact, we are pleased to note that the Picturing America 
materials have been translated into four languages--Arabic, 
French, Portuguese, and Spanish--for use by U.S. Embassies 
abroad.
    We are a small agency with a big mission. Our job is to 
help build an infrastructure of ideas and lead in their 
democratization, by providing as many citizens as possible 
access to new as well as old knowledge, and creative thought. 
We do this by funding basic research that leads to books and 
scholarly articles, documentaries, preservation of historic 
landmarks and languages, and even archeological finds.
    We complement knowledge and perspective development with 
programmatic outreach to colleges and universities, libraries 
and museums with interpretive exhibitions, ad-hoc teacher 
institutes, peer reviewed model course programs, and with State 
Council programming. Indeed in 2010, the State Humanities 
Councils conducted programs in 5,700 communities nationwide 
including 17,700 reading and discussion programs, 5,700 
literacy programs, 5,800 speakers bureau presentations, 5,800 
conferences, 2,300 Chautauquas, 7,120 media programs, 7,600 
technology, preservation, and local history events, and 4,600 
exhibitions on a wide variety of themes.
    The State Humanities Council programs reach millions each 
year, and tens of millions of Americans annually watch NEH 
supported documentary films on television and in classrooms, or 
listen to radio programs that make the humanities accessible 
and uplifting. Many of these productions have won the nation's 
most prestigious awards for context and artistic quality and 
have become invaluable historical and cultural resources for 
continual use over the years in classrooms.
    For example, recent programs, broadcast on PBS have 
included acclaimed documentaries on 20th Century U.S. 
Presidents, the Life of Robert E. Lee, and The Rape of Europa, 
a film about the theft, destruction, survival, and recovery of 
Europe's art treasuries during the Third Reich. Next week on 
May 16, PBS stations nationwide will broadcast the NEH 
supported documentary Freedom Writers, the story of the 
hundreds of civil rights activists, two of whom, by the way, 
are now members of Congress, who challenged segregation in 
interstate transportation in the American South during the 
spring and summer of 1961.
    The Freedom Riders project also includes an interactive 
website at which the documentary will be made available in 
streaming video; a series of panel discussions and screening 
events hosted by universities, museums, and State Humanities 
Councils around the country; and a traveling panel exhibition 
for libraries created in association with the Gilder Lehrman 
Institute of American History in New York. Even prior to its 
pubic unrolling, the Freedom Riders documentary has already won 
awards including that of the Best Documentary at the Sundance 
Film Festival.
    And, not incidentally, the NEH has earned a reputation in 
the United States and abroad for its leadership in one of the 
youngest fields of scholarship, the Digital Humanities. Its 
digital work, as that of our initiative with the Verizon 
Foundation in support of model lesson plans at the K through 12 
level, has become a model for the private sector and for 
emerging activities in a number of other nations.
    These are but a sampling of the projects and programs we 
offer as evidence of NEH's broad and constructive impact. 
Simply stated, NEH programming adds to the storehouse of 
knowledge enabling Americans to better understand and succeed 
in today's complex and interdependent world.
    Americans are understandably concerned about the high 
unemployment rate. We would submit that one of the myths of our 
times is that the Liberal Arts are impractical, unrelated to 
subsequent work environment. Actually, they are not only 
practical, but central to long term American competitiveness.
    It is true that many jobs such as building trades are skill 
centered, but job creation itself requires perspective and 
understanding of community and the world. Change and its 
acceleration characterize the time. With each passing year, 
jobs evolve, becoming more sophisticated. Training for one 
skill set may be of little assistance for another. On the other 
hand, studies that stimulate the imagination and nourish 
capacities to analyze and think outside the box suit well the 
challenges of change. They make coping with the unprecedented a 
manageable endeavor.
    What is needed in a world in flux is a new understanding 
and emphasis on the basics in education. Traditionally, the 
basics we have thought about is the three R's. They are 
critical. Nonetheless, they are insufficient. What are also 
needed are the studies that provide perspective in our times 
and allow citizens to understand their own communities, other 
cultures, and the creative process.
    To understand and compete in the world, we need a fourth R, 
which for lack of a precise moniker might be described as 
``reality,'' which includes not only relevant knowledge in the 
world near and far, but the imaginative capacity to put oneself 
in the shoes of others and creatively apply knowledge to 
discrete endeavors.
    Rote thinking is the hallmark of the status quo. 
Stimulating the imagination is the key to the future. To 
compete, the basics matter. And what better way is there to 
apply perspective to our times than to study history of prior 
times? What better way is there to learn to write well than to 
read great literature? What better way is there to think 
critically and to understand American traditions than to ponder 
Locke and Montesquieu and their influence on our constitutional 
system?
    How can we compete in our markets if we do not understand 
our own culture and its enormous variety of subcultures, or 
abroad if we do not understand foreign languages, histories, 
and traditions? How can we understand our own era and the place 
of our own values if we do not study the faith systems of 
others? And does not art making and art appreciation instill a 
sense for the creative process?
    The insights provided by the humanities and the arts 
disciplines and the capacity to analyze, correlate, and express 
developed in humanities studies are not dismissible options for 
society. They are essential to revitalizing the American 
productive engine.
    I would also note that jobs in our economy come in many 
varieties. Those in the education industry are workers just as 
those who are carpenters and machinists. It is our conviction 
that there are few more important roles that Government can 
play than to provide for an educated citizenry. Just as we need 
an infrastructure of roads and bridges to transport goods and 
people, we need an infrastructure of ideas to strengthen our 
social fabric, fortify our economy, and transmit the values of 
citizenship.
    As NEH's founding legislation affirms, ``Democracy demands 
wisdom and vision in its citizens.'' To pass on the American 
dream to future generations and lead the world on our own 
depends in no small measure on our ability to lead in the realm 
of ideas and of the spirit. In this endeavor, the NEH plays a 
modest but nonetheless central role. Thank you.
    [The statement of James A. Leach follows:]

    [GRAPHIC] [TIFF OMITTED] T6897B.083
    
    [GRAPHIC] [TIFF OMITTED] T6897B.084
    
    [GRAPHIC] [TIFF OMITTED] T6897B.085
    
    [GRAPHIC] [TIFF OMITTED] T6897B.086
    
    [GRAPHIC] [TIFF OMITTED] T6897B.087
    
    [GRAPHIC] [TIFF OMITTED] T6897B.088
    
    [GRAPHIC] [TIFF OMITTED] T6897B.089
    
    [GRAPHIC] [TIFF OMITTED] T6897B.090
    
                             CIVILITY TOUR

    Mr. Simpson. Thanks, Mr. Chairman. You took on a task few 
of us would take on the civility tour. You went to, I think, 50 
States. Have you been to every State?
    Mr. Leach. I have been to 49 and the 50th will be 
accomplished this weekend.
    Mr. Simpson. All right. How has that gone? What have you 
learned from it?
    Mr. Leach. Well, I like your reference of what I have 
learned because when you visit other places it is astonishing 
what perspective you get back. I will tell you that one of the 
clear things to me is that there is a sense in America that 
something has broken down and some of it we are all responsible 
for. I think the best and the brightest have let the country 
down a bit in business and in Government over the last couple 
of decades.
    Having said that, I also think the country wants to pull 
together, not apart. And everywhere I go I hear people 
expressing things in very profound ways about their own 
communities, about their own lives. And it is my own personal 
perspective that whether we are talking about a business, any 
kind of institution including governance that it is important 
to have great diversity and it is also important to pull 
together. And to the degree we cannot pull together, we are 
going to have difficulty leading our own society and leading 
the world.
    Now, pulling together does imply having lots of different 
views expressed and it also implies the capacity to make 
decisions and it is the decision-making aspect that is a little 
bit in doubt today.
    Mr. Simpson. It is an interesting dilemma that I think all 
of us in politics kind of wonder about. Everybody talks about, 
you know they have never seen Congress as an example. I do not 
know if that is true or not. Congress is one of those places 
where you expect, just as you said, diversity of opinion and 
active and passionate debate. We represent the diverse points 
of views of those we represent across this country. We have our 
differences of opinion and still respect other people's 
opinions.
    But as I sit and watch some of the--to tell you the truth I 
sit and watch some of the news media on some of the cable shows 
and stuff like that. I wonder how, if you watch that long 
enough, how you do not become uncivil. And I mean that bothers 
me as well as some other things. And I sense this just from 
reading emails and letters that we get now versus what we got 
10 years ago or 13 years ago when I first came to Congress. The 
tone of them is substantially different, and yet I have always 
considered one of our greatest strengths as a country is our 
diversity. But it is also the biggest challenge that we face.
    As I said, you have taken on a task that I am not sure many 
people would in trying to help address this problem, but it 
is--we all have to be part of that solution.
    Mr. Leach. Well, you have expressed it very well and you 
have concluded very wisely.

                      ``WE THE PEOPLE'' INITIATIVE

    Mr. Simpson. Let me ask you about--you mentioned in your 
testimony that you were discontinuing the We the People 
program, which has been very popular with bipartisan support. 
You are discontinuing it as a theme, but you are maintaining 
aspects of it. What are we doing with We the People?
    Mr. Leach. Well, it has always been more a theme than a 
program. That is, initiatives that might fit the theme that NEH 
normally would do would be brought into it and then several of 
the new parts were put back into the programs. And we are 
trying to keep the major ones and in particular the National 
Digital Newspapers Program which is a highly important project. 
There is the oft-stated assertion that I think is very 
thoughtful that newspapers are the first rough draft of 
history. They also in a very unique way cover the country and 
the world, but most of all the community. And so to have 
preservation of these documents is very important. This is 
going to be a long-term initiative. We are now dealing with 
about half the States and, to date, have digitized three and-a-
half million pages. We are of course working with the Library 
of Congress. It is a joint initiative. The three and-a-half 
million pages that have been digitized involve working through 
the years. And so in the next 10 to 15 years we will have all 
50 States represented with most of the years covered. But it is 
going to be a long-term project.
    We are also keeping the Landmarks of American History 
Workshops involving teacher training. And then the Picturing 
America project has been enveloped within our ``EDSITEment'' 
website. It has been highly successful and is being used in new 
ways, one of which is translation into four other languages. 
But also, there are some experimentations in using Picturing 
America in a language learning way for foreigners to learn 
English for instance, which is something that was not 
envisioned with the initiation of the program but has some hope 
of being followed through with. Frankly, it is one of those 
uncertainties, but it could occur.
    When the ``We the People'' initiative began, the initial 
proposal was that it would be a $100 million initiative over a 
period of years. We have now dedicated approximately $100 
million to it. As a thematic, the question is can you have too 
many thematics. The issue is how do you freshen perspective. 
And so, we are going to keep the best and move on.
    Mr. Simpson. I would hope that, I mean one of the aspects 
of it as I understand it, was to help students in the study of 
American History and the U.S. Constitution and those types of 
things. And I would hope that we would preserve that aspect of 
it, because when you look throughout, and surveys have shown, 
you know when they ask young people what we consider very 
simple questions about the Constitution and about our history, 
it is amazing the number of people that--especially young 
people--that do not know anything about that.
    Mr. Leach. Well, art is a good way to illustrate history 
and to give a sense for change. And we may have some new 
initiatives of a comparable dimension that we may be unrolling 
in the next year. This issue of how you teach is just a really 
central one. This particular program involves--at least the 
Picturing America dimension of it--involves art appreciation, 
history relevance, and now possibly language relevance. That is 
a very interesting set of combinations.

                    DOCUMENTING ENDANGERED LANGUAGES

    Mr. Simpson. One of your co-programs relates to preserving 
and increasing access to culture and intellectual resources 
including books, periodicals, and other historically 
significant items as you have mentioned. An interesting piece 
of work relates to the recording, documentation and archiving 
of an estimated 3,000 of the world's endangered languages, 
including hundreds of American Indian languages. Does the NEH 
collaborate with the Smithsonian or other organizations on 
common cultural goals like preserving the world's languages?
    Mr. Leach. Yes, we do. We also coordinate with the National 
Science Foundation and some of our programs are NSF and NEH 
funded together. We also coordinate in one sense 
internationally with UNESCO and partly with United States 
leadership, UNESCO has now become very concerned with languages 
that are considered vulnerable to extinction.
    In our country of course, we are particularly interested in 
Native American languages. Our concern relates less to the 
precept of ``maintaining the language as a dominant language'' 
than to trying to maintain the wisdom that the languages 
reflect. This becomes important particularly for those people 
that come from a tradition of speaking the language but also 
for others. And so, we do have a number of Native American 
programs of a variety of kinds. One of which relates to 
language.
    I might mention in the language area, we made recently what 
I considered the only courageous grant I know to an 
individual--not courageous from the NEH's perspective but from 
the individual's. We had a really exceptional proposal from a 
young American scholar living in Afghanistan who wants to study 
and create a dictionary for an Afghan language, a very narrowly 
spoken language. For the first time I insisted that the letter 
of NEH-approval for this proposal include a paragraph of a 
nature never done before. We said that finishing the project 
was not the key thing because he is living in an environment 
that is exceptionally dangerous. He might be an idealist, but 
idealism may be challenged by people there or he might not be 
viewed as an idealist. So we have instructed him that he does 
not have to finish his research and if he does finish, he might 
want to finish it in another environment; in this case, in Rep. 
Jeff Flake's State, Arizona, where the grantee is tied to the 
University of Arizona. For someone to take on a language 
preservation effort in that environment to me is pretty gutsy.
    Mr. Simpson. Trying to do a life preservation there.
    Mr. Leach. Exactly.
    Mr. Simpson. Mr. Moran.

                        TEACHING AND SCHOLARSHIP

    Mr. Moran. Thanks, Mr. Chairman. Chairman Leach, we talked 
about the increasing emphasis upon the science, technology, and 
engineering, and mathematics, which of course is terribly 
important for the globalization of our economy, but the 
corresponding diminution of emphasis on the humanities. Are you 
involved at all in supporting teaching positions at secondary 
or postsecondary institutions in the humanities?
    Mr. Leach. We support scholars and scholarship. We 
sometimes have applications that include support for positions 
and some of these are preservation positions at a museum, 
library, or archive for example. But as a basic function, 
teaching positions are the responsibility of universities, for 
instance. But supporting someone's scholarship can have an 
effect on a position.
    I will give a small example that is of symbolic 
significance. We have an annual Jefferson Lecture in the 
Humanities, which is our major lecture of the year. This year's 
lecturer was the President of Harvard University, Drew Faust. 
She indicated as a young scholar she got an NEH grant to do 
research in a very narrow field that was not in the mainstream 
of American History, nor in vogue at the time, studying women 
in the Civil War.
    This study resulted in a book, which in her judgment was a 
key to her receiving tenure at the University of Pennsylvania. 
In other words, this small step started her in a career that 
has ended up making her president of one of our emblematic 
universities. While we support scholarship, it is not our role 
to support an individual's position at a university.
    Mr. Moran. And that is understandable. I did not really 
expect that you would be doing that. The only concern is that 
it seems as though we need some advocacy for humanities staying 
within even elementary, but certainly secondary and post-
secondary institutions. In terms of their curricula, State 
Humanities Councils I guess might do that. I was wondering if 
there are ways you at least indirectly support humanities at 
the elementary and secondary school level?

                         ``EDSITEMENT'' PROGRAM

    Mr. Leach. State Councils do good work there but I want to 
point out a very unnoted aspect of NEH's work that is truly 
significant to literally millions of Americans is our 
``EDSITEment'' Program where with the Verizon Corporation--we 
doing the work and they doing much of the funding--we peer 
review model lessons for high schools. We get over 300,000 hits 
a month on these model lessons and it is absolutely an 
invaluable thing. We get emails all the time from teachers 
telling us that the greatest thing that ever happened to their 
teaching capacity is to be able to look at these model lessons 
and choose and pick any number of sources on a large number of 
themes.
    Mr. Moran. NEH has consistently gotten pleased.
    Mr. Simpson. How do teachers know to access this 
information?
    Mr. Leach. Well, I personally think most of it is word of 
mouth, but this particular program has won all sorts of 
national teaching awards, and so it is highly publicized within 
teaching journals and noted at many conventions that teachers 
go to. It is one of these real riches that is making a 
phenomenal difference. It is also, by the way, very much 
appreciated by people that home school. You can visualize if 
one is a father or a mother that is teaching their own kids at 
home how do they get lessons? This is really terrific rich 
stuff, and it is wonderful.
    Mr. Simpson. Well, the reason I ask the question is we do 
some great things whether it is the NIH, whether it is the 
Smithsonian or other things that can reach out to communities, 
particularly to the areas that do not have access. And I have 
often wondered how do we tell these people that this is 
available? How do we get that information out? So I appreciate 
that.
    Mr. Leach. That is a great question and that is one of the 
miracles of the Internet. I mean we do try to inform through 
the Internet in many kinds of ways. We obviously do not or have 
not to date done advertisements on TV or radio or whatever, but 
the Internet is great for getting the word out as well as great 
for having access come back. All I can tell you is the response 
level at the agency is just exciting.
    Mr. Simpson. Do you work with the Department of Education 
to get their stuff out?
    Mr. Leach. We do, but not to a grand extent. On the whole 
DOE (and I do not want to categorize because it would be 
unfair) is a little bit more into teaching methodologies and we 
are a little bit more into content. That does not mean they are 
not big into content, too, but we are exclusively about 
content.
    Mr. Simpson. Thank you.
    Mr. Moran. Well, thank you, Mr. Chairman. Those are very 
relevant questions to what I was getting at that you are 
exclusively about content and the content that you have 
produced has been extraordinarily good over the years. The 
problem is if we do not have courses in humanities related 
subjects in secondary schools there is no real audience. I mean 
there is an audience but it is a very limited audience. If 
there is a course in it where students need to access that kind 
of material then you certainly have it available and all the 
letters that have been accumulated over the years with regard 
to some of the great leaders of our nation and internationally. 
But you know it is just a concern that the humanities is 
becoming marginalized within our educational system.

            SUPPORT FOR HUMANITIES RESEARCH VS. THE SCIENCES

    Mr. Leach. I agree with you. Can I just make one comment 
and go further than that. It has also been marginalized in our 
research system. The humanities research supported at the 
federal level is less than one-tenth of one percent of support 
provided the sciences and technology. There is real reason to 
support the sciences and technology and we are at the NEH 
strongly supportive of it. But we worry that there is a 
humanities aspect to every advance in science. We are very 
concerned that exclusive emphasis in science or science and 
technology is awkward.
    If you take the Federal Budget in the last let's say couple 
of decades, science funding at the federal level has gone up 
three or four fold and humanities funding has gone down. That 
is a very significant relative circumstance.
    Mr. Moran. Well, I do not want to see humanities funding 
compete with science R&D Funding.
    Mr. Leach. Of course not.
    Mr. Moran. And I know you agree that investment should even 
be increased. But I do not want to see humanities fall by the 
side of the road. There needs to be some balance. The only 
other area of entry and is somewhat related is what you are 
doing to promote grants to underserved populations.
    Mr. Leach. Well, we have a surprisingly great emphasis on 
that and one aspect relates to special programs for 
historically black colleges and universities and other special 
emphases on tribal colleges and institutions with high Hispanic 
enrollment. And then we have a way of distributing information 
to the State Humanities Councils. But I would stress and it is 
a surprise to many people, that if you think of the academic 
humanities as contrasted with the public humanities, the 
academic humanities also get distributed widely. Unlike in 
strategic policy studies where you have a number of nonprofit 
organizations centered in Washington, D.C., all our academic 
communities are distributed outward.
    And if you take support for a university, for example, the 
universities might have a teacher's workshop bringing people in 
from all over the country. If you take technology as an 
example, one of the California State Universities is the center 
of technology for digitization of historical newspapers. That 
technology gets distributed to all the other States. So what 
often first goes to one State is soon distributed to other 
States.
    We are putting in virtually everything we do in efforts to 
try to establish distributive digital access. Now one might say 
in the first instance, the people who have the greatest access 
to digital technology will have the first grab. But one of the 
wonderful things about our society is how technologies are 
getting distributed. If one thinks of a television, the 
television is in poor and well-to-do houses. Now, increasingly, 
computers are being distributed in new ways. Kids in inner city 
schools are finally, a little bit later than higher income 
school districts, getting this technology. So some access is 
not because of any direct program that says we are going to 
target X place in some part of the country. It is that X place 
is going to have access to it without exactly being targeted.
    Mr. Moran. Very good. I agree with Chairman Simpson that 
our Native American population is a very good place to continue 
the emphasis on helping to maintain their culture and 
languages. Thank you, Mr. Chairman.
    Mr. Simpson. Ms. McCollum.
    Ms. McCollum. Thank you. My training is in Social Studies. 
I never got a full time class. I was a long term sub and I 
think being a substitute teacher at times has prepared me for 
Congress with the whole civility issue as you had pointed out.
    I know a lot of people who teach and Tim Walz had an 
opportunity to have his own full time classroom for many years 
and the word is out especially in the Social Studies community 
that this is out there as a tool. But the challenge that I see 
happening is Social Studies is the class and the one 
opportunity that if taught right, you bring in every aspect. 
You bring in science. You bring in geography. You bring in 
language. You bring in everything into the classroom because 
who we are is affected by everything that surrounds us and that 
is what shapes our history.
    So when you have Leave No Child Behind teaching to the 
test, two things happen. One, Social Studies is getting crowded 
out because it becomes where you get the information on prom 
and everything else, so there is less, less, and less and less 
history, Social Studies, Civics, humanities being taught in our 
K through 12 system.
    The second thing that happens when you start focusing on 
teaching to the test is, how many dates can you memorize? You 
could memorize every single big battle of the Civil War and not 
understand the Civil War. And if we do not understand the Civil 
War, we do not understand this bittersweet tension that still 
is much of an underpinning for some of the things that are 
going on in the country. If you do not understand the 
Depression, and people are talking about the Great Recession 
and we could have had a depression, you cannot make an informed 
decision whether or not that is true or not true if you have 
never studied the Depression. And part of studying the 
Depression is studying the music and the art and everything 
else with it.
    As you can tell, I am very passionate about the humanities. 
And one of the reasons why I am as passionate about the arts is 
the arts play a huge role in the humanities and the 
preservation of it. The word is definitely out there. If I was 
a teacher and I had a limited amount of time and I wanted to 
say okay, what is the best place to get first person histories 
of the Civil War, sermon or diary letters or something like 
that, one stop shopping there. You know you could do the 
Library of Congress. They would have the references but they 
would not have it packaged so that you could just kind of pick 
up and go with it.
    And especially now with teaching to the test from talking 
to instructors, when you have those precious opportunities that 
might arise, you might have to develop a lesson on the fly; not 
because you are not a good teacher, just because all of a 
sudden you realize I am going to have 15--I am going to have 20 
minutes to where I could really enhance this. These are the 
questions my students have been asking. How can I best pique 
their interest? So you now keep it up. The homeschoolers, too, 
I have a fair number of them in Minnesota and I know people are 
doing that as well.
    The thing about curriculum that all of you in the 
humanities have to stay away from is if you get too much into 
curriculum, then you are going to have the criticism from the 
other side that they are doing national curriculum. You kind of 
have to do a lesson plan where you are picking and choosing and 
it does not look like, a national curriculum although Texas 
gets to write all of our textbooks. So talk about having a 
curriculum.
    I wanted to just make an observation and then ask a 
question and I know we are going to get close to doing the 
markup. I have to say one other thing I like about 
Appropriations is we actually kind of discuss things amongst 
ourselves and this is my first full time year with being chair 
and I am----
    Mr. Simpson. There is no money.
    Ms. McCollum [continuing]. Yeah, I know there is no money. 
So that is--so I am not plugging for anything because I know 
there is no money. But thank you so much for the way in which 
your leadership and Jim's leadership and working together has 
made this a committee such a treasure to serve on.
    You know we will talk about cutting humanities. We will 
talk about cutting NEA, but there are hidden things that we 
support through our tax code: NASCAR, golf, professional 
sports, I could go on. But because they are hidden, we are not 
having a major discussion about whether or not they should be 
part of the sacrifices, we are making with these tough 
decisions. That is an editorial comment and I know we are not 
on Ways and Means.
    Rocco talked a little bit about this, too. Could you kind 
of talk about the gold standard for the attracting of money and 
the grant process because a lot of that goes into having staff. 
Lots of times people say well you have all those staff. But the 
staff is really there to do the due diligence on the grants. 
And then when you have the grants and major foundations, they 
still go through their grant process to see if it meets their 
goals.
    But if you have kind of been out there, it is kind of like 
you take a look. And I am sure you do the same thing vice versa 
with some of the major foundation work. Just talk about the 
importance of staff with that because without staff how do you 
review grants?

                              NEH STAFFING

    Mr. Leach. First let me talk about staff. And I want to 
take this from kind of a Republican perspective, Mike. I have 
heard many times friends tell me they have gone into a Federal 
agency noting how lousily organized it was and implying that 
they set it straight. But the fact of the matter is I walked 
into an agency where everyone knows more about the work than I 
do. The NEH has really terrific people. I am very proud of the 
staff, which numerically by the way is about where we were in 
2008.
    The staff is really critical to NEH. Most of our staff are 
quite professional, many with PhDs. Many have written scholarly 
books. Many have written novels. We just have a really diverse 
staff.

                   NEW APPROACHES TO STUDY OF HISTORY

    Now one of the things you said, I do want to slightly pick 
up on, because I think it is extremely wise of you to refer to 
the Civil War and the emphasis on knowing the battles. Earlier, 
I noted how Drew Faust had researched a book about women in the 
Civil War. Well, no one had ever looked deeply at women. One of 
President Faust's conclusions, and she perhaps overdrew it, was 
that women played a critical role in bringing the war to an 
end. Everyone talked about the battles. Everyone had talked 
about why the war started.
    One of the things we are grappling with now as a country is 
we are finding it is just as hard to figure out how and when to 
end a war is how and why to start one. And Faust came to the 
conclusion that women played a critical role in expressing 
exhaustion and bringing to families the perspective of ``let's 
bring this terrible toll of death to an end.'' And no one had 
really thought about that. They had overlooked the diaries and 
papers of women. When Faust first uttered this precept, people 
thought it was exaggerated. But more and more people now give 
it weight. That does not mean that women were the decisive 
decision makers, but they nevertheless played a decisive role. 
The study of women during war is of significance because it 
gives some feeling for what was happening off the battlefield.
    We have done various programs and studies in the Civil War. 
For example, we supported the study of a small town in Virginia 
and a northern town I believe in Pennsylvania about how the 
towns and their people evolved during the war.
    Scholars are moving away from the study of leaders to the 
study of people and their role in life. The reason I mention 
this is that you can take studies in the humanities and say 
they do not change. That is wrong. The word history, of course, 
may stay the same, but it is amazing how much change is 
occurring in the study of history. You refer to Social Studies 
which are taught at the high school and junior high school 
levels. At the university level social studies is the 
equivalent of what Oxford and Cambridge call politics, 
philosophy, and economics, which is a major that many people 
take at these two venerated institutions. It is basically a 
combination of disciplines.
    It is very important to give people a sense of perspective 
on our times, looking back at other times, especially reviewing 
the values that motivated people in other periods of time. 
Americans do not know very well the dates of battles, even 
wars. Studies show how many people cannot place when the Civil 
War occurred. This is a particular problem in the north. 
Southerners are a little deeper in Civil War history.
    Ms. McCollum. It is the way it is taught.
    Mr. Leach. It is the way it is taught and in Texas we know 
one of the great victories in American History was the Alamo. 
Victories is kind of in quotes, but it does tell you something 
about how people were thinking about the great expanse of the 
west and then all sorts of aspects of the southwest. But we as 
a country need to have these barometers.
    Ms. McCollum. I am just going to make a comment about the 
Civil War and women. When history was being recorded in 
Ireland, it was the women. It was the women in Ireland. The 
Protestant and Catholic women who did not necessarily have to 
like each other, but they did not want their kids dying 
anymore. It was the women who forced the Good Friday Accords, 
it was the women who kept everybody to the table, and we are 
seeing that in a lot of the conflicts in Africa.
    Mr. Leach. They were rewarded with a Nobel Prize. That is 
fabulous.
    Mr. Simpson. The reason the Civil War--I agree with you, 
but the reason the Civil War is taught differently in the south 
is because it is still going on. I was coming back on a plane 
with Charlie Norwood from South America--a good friend all of 
us knew. And it was like the week before the President's Day 
recess. And in Idaho I have like 12 Lincoln Day dinners and 
lunches to go to and everything. And I was lamenting you know 
jeez, I get so tired because I have all these banquets and 
lunches and everything. I looked at Charlie and said how many 
Lincoln Days do you have to go to? Not really thinking--he was 
from Georgia. You know, he said, looked at me and said, we do 
not celebrate Lincoln's birthday in Georgia. And me in my 
bright wisdom picked up on it right away. I said, why not? And 
then it hit me and I said, jeez Charlie. That was 135 years 
ago. When are you guys going to get over it? He just looked at 
me just as serious as could be and said it is not over yet.
    Mr. Leach. Well, Mr. Chairman, you might explain to the 
gentlelady from Minnesota what the great Civil War in your 
district is that is still going on. This is a Civil War in 
Spain with the Basques.
    Mr. Simpson. Yes, it is. I could tell you some stories 
there. Our State legislature--my first year here--passed a 
resolution for the separatists--to support the effort to break 
away from Spain. And of course, our Secretary of State and a 
lot of other people supported it because we have a huge Basque 
community within Southeast Idaho. So I am here, the next thing 
I know the Secretary of State, and the Spanish Ambassador are 
coming up to see me wondering what is going on in Idaho. I do 
not know. Anyway----
    Ms. McCollum. We have French in our State. That does not 
say anything about how we feel about speaking two languages in 
Montreal.
    Mr. Simpson. Let me--I appreciate your comments about your 
employees. I have seen the same thing you have. I can remember 
when I was in the State legislature and somebody would stand up 
on the floor and say you know I went over to the Department of 
Health and Welfare and by golly there were two employees 
standing around the water cooler talking, as if that was a 
discredit to the employees or something or they were not doing 
their job. That never happens if you go out to Micron 
Technologies or any private sector job I guess. I think we have 
great employees. I really do. And the question though, that is 
being asked--that I ask Rocco, and I am hearing it from all--
from different interest groups that receive funding or use 
funding to do fish and wildlife grants or other types of 
things. That when we see the reductions that are going to be 
coming down, that we are going to see reductions in the 
programs while the employees, number of employees, stays the 
same. And if the number of employees stays the same, that your 
programs are necessarily going to shrink.
    They are concerned about that. They are also concerned, a 
number of these different groups and the State Councils, are 
concerned that reductions will be foisted off on them, that 
they will not be able to receive as much of the grant, that it 
is not going to affect the NEH in Washington, D.C., if you 
will.
    Mr. Leach. Well, first we do try to keep balance. All I 
will express to you is that when I came into the agency I did 
not bring an army of new people and we have been very careful 
on not raising employment. In fact, we are now in a very 
marginal way seeing some natural reductions with retirements 
and that probably will continue. The other thing is, oddly, the 
workload has increased as we see a 25 percent increase in 
applications. We are going to do our best to share the burdens 
and keep the quality. And we know we are going to be doing 
more, possibly with fewer people and almost certainly with less 
resources. But as we approach decisions ahead we will try to 
keep in close contact with the committee. It is our hope to be 
able to maintain as much quality as we conceivably can.
    Mr. Simpson. Well, I appreciate that and we want to make 
sure that we maintain those relationships with the State 
Humanities Councils because they do some incredible work out 
there. I----
    Mr. Leach. They certainly do.
    Mr. Simpson [continuing]. Have been associated with the 
Idaho Humanities Council or worked with people on the council 
for many years, ever since I was in the State legislature, and 
they do a fantastic job. And we want to keep it coming. That is 
where oftentimes the rubber hits the road, where people see the 
results of their investments in the humanities.
    Mr. Leach. They do but please realize the work here in 
Washington also gets out----
    Mr. Simpson. I understand that. I understand that.
    Mr. Leach [continuing]. To the States as well.
    Mr. Simpson. Any other questions?
    Mr. Moran. I am all set. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you for being here, Chairman Leach.
    Mr. Leach. Thank you.
    Mr. Simpson. I appreciate it very much.
    Mr. Leach. Thank you.
                                            Thursday, May 12, 2011.

      HEARING ON SMITHSONIAN INSTITUTION, FISCAL YEAR 2012 BUDGET

                                WITNESS

WAYNE CLOUGH, SECRETARY, SMITHSONIAN INSTITUTION

                 Opening Statement of Chairman Simpson

    Mr. Simpson. Committee will come to order. Good morning, 
Dr. Clough. We appreciate you joining us this morning to share 
your vision of the future of the Smithsonian and to discuss 
your budget request for next year. Everyone around the table 
has a great deal of respect for you and the work you are doing 
to maintain the Smithsonian as the world's premiere education 
and research organization.
    Our challenge this year is to determine how to address the 
most urgent priorities of the Smithsonian, many of them 
contained in your 5-year strategic plan, while also recognizing 
that our funding allocation will be significantly lower than in 
recent years. In fact, those allocations just came out 
yesterday, and we are about $2 billion down in the total 
Interior budget from the year before.
    As you know, this is out of necessity. Federal spending has 
accelerated at an unsustainable pace, and efforts to reduce 
spending is a sacrifice that must be shared across many 
agencies under this subcommittee's jurisdiction.
    Addressing the Smithsonian's budget in this fiscal climate 
is going to be particularly challenging. Beyond meeting the 
needs and priorities of maintaining and preserving existing 
facilities and programs, your budget request contains a large 
increase of $100 million from the fiscal year 2011 enacted 
level for the construction of the next museum on the National 
Mall. This is an issue that I look forward to discussing with 
you in some detail today.
    As Congress works to tackle historic deficits and economic 
challenges, I believe it is time for an honest conversation 
about national priorities. Every agency across government needs 
to make a distinction between the need-to-do priorities and the 
nice-to-do priorities. Today this subcommittee is looking to 
you to help us make this critical distinction within the many 
important programs and priorities under the Smithsonian's 
jurisdiction. I look forward to hearing your testimony as we 
work together.
    Mr. Simpson. I would now yield to the gentleman from 
Virginia, but he is not here. So when he comes, we will let him 
make an opening statement if he would like to. The floor is 
yours.

                  Testimony of Secretary Wayne Clough

    Mr. Clough. Thank you, Mr. Chairman. We also appreciate 
Dave LesStrang's help, and he has really assisted us in many 
ways in the past.
    We thank you, Mr. Chairman and members of the committee, 
for this opportunity for me to testify about an institution 
that is very close to the heart of the American people, the 
Smithsonian. Before me you see two of our historic treasures 
that we keep in trust for the American people; Abraham 
Lincoln's watch and John Glenn's 1962 space camera. Each 
represents an important milestone in our history, and we 
fortunately have distinguished colleagues with me who will 
explain what I mean by that.
    Harry Rubenstein of the American History Museum and 
Jennifer Levasseur of our Air and Space Museum are here to tell 
the fascinating stories about these objects, and when I 
complete my testimony, they will do that.
    We have 137 million artifacts and specimens in our 
collections that span art, history, culture, and science, 
including the Star Spangled Banner, the Wright Flyer, the desk 
on which Thomas Jefferson wrote the Declaration of 
Independence, our national meteorite collection which we are 
charged by Congress to maintain, and 2,300 amazing live animals 
at the National Zoo.

                              COLLECTIONS

    We are steadily improving the care of these treasures so 
future generations will benefit from them just as we have. We 
are digitizing our collections and placing them on the web 
where they can be studied and used by anyone in their home or 
classroom.

                        VISITORS AND EXHIBITIONS

    Yet nothing compares to seeing the real thing, and last 
year we had more than 30 million visitors that came to be 
inspired by the exhibitions that we have, our best year since 
9/11. Our talented curators and scholars create 100 new 
exhibitions a year, which is stunning, and make sure visitors 
are provided with new and engaging experiences each time they 
come.
    Yet we know that many Americans cannot afford to make a 
pilgrimage to the Nation's capitol. I am a good example. When I 
grew up in rural Georgia, I never visited the Smithsonian until 
I was in my late teens. I think there is no excuse for that 
today.
    Mr. Lewis. Excuse me. Our former historian speaker did not 
take you to the Smithsonian sometime----
    Mr. Clough. No. Did not know about it. There is no excuse 
for that today, because we are determined to reach all 
Americans, wherever they may live with all we offer. We have 
created a new office of Smithsonian Education and Access and 
are developing a comprehensive approach to reach K through 12 
teachers and students around the Nation. So far we have 650 
web-based lesson plans available for free, ranging from science 
to art, and more are coming.

                               EDUCATION

    Science and math education faces, as we know, a particular 
challenge in our country. Fifteen year olds in the U.S. rank 
25th among peers from 34 countries on the last Program for 
International Student Assessment Test in 2009, and scored only 
in the middle in science and reading. We believe the 
Smithsonian can help with this.
    For 26 years the National Science Resources Center has 
leveraged the research of the Smithsonian and the National 
Academies of Science and Engineering to develop science 
programs for students and teachers. The center was recently 
awarded a $25 million grant in the competitive process by the 
Department of Education, and then they were required to and did 
raise $8 million in private funds to supplement the federal 
funds. We are helping three states particularly with rural 
areas and urban areas transform their approach to teaching 
science and math.
    Using technology our Smithsonian American Art Museum 
through a contract with the Department of Defense is delivering 
arts education to K through 12 schools around the world that 
are operated by the military for dependents and those who serve 
our military.

                   ON-LINE EDUCATION AND SOCIAL MEDIA

    We are using donor-sponsored online education conferences 
to deliver programs centered on our collections and our 
experts. More than 38,000 people from all 50 states last year 
participated in our programs. Millions of people are now 
accessing our work on Facebook, Twitter, and YouTube, and I am 
pleased to announce that we just won the 2011 People's Voice 
Webby Award for the best cultural institution website in the 
country.
    Mr. Lewis. Webby Award?
    Mr. Clough. Webby Award. We are very proud of that one.

                                OUTREACH

    Millions more watched the Smithsonian Network's Emmy Award-
winning HD channel, and it is slated to double the number of 
homes that we will reach this year. The Smithsonian Magazine, 
of course, reaches up to two million subscribers in every state 
and was recently named the most interesting magazine in the 
Nation ahead of all other magazines in the country. You can 
think of your own comparable magazines, but they were all 
there. Do not miss the April issue which is all about the 150th 
anniversary of the Civil War.
    We also have 166 affiliate museums in 39 states and we 
provide them with loans from our collections as well as expert 
advice when they need it, and our traveling exhibition service 
also offers programs that reach roughly another five million 
people around the country for those exhibitions.

                             STRATEGIC PLAN

    We believe this is a new era at the Smithsonian, one that 
builds on its traditions but uses new approaches to take its 
service to the American people to a new level. All of this is 
possible because of the work of our 6,000 employees and 6,500 
volunteers, who work on contract incidentally, who are very 
passionate about what they do. I could not be more proud of 
them, and last year we were named for the first time as one of 
the best places to work in the Federal Government, the fourth 
best among all large agencies.
    We are guided, Mr. Chairman, as you noted, by our new 
strategic plan. This provides focus, encourages cross-
disciplinary initiatives, collaborative partnerships so we do 
not duplicate, and calls for broadening access to our 
collections and expertise and excellence in mission operation. 
We have undertaken something we call Smithsonian Redesign to 
improve efficiency at the Smithsonian to use every dime we get 
better so our employees can focus their activity, their energy 
on important activities. Over 275 people have engaged in a team 
to help overhaul the way we do business.

                          PRIVATE FUNDRAISING

    As a federal trust, of course, we are working hard to 
leverage our federal dollars with privately raised funds. Last 
year we raised $158 million in private philanthropy. One of 
these I will cite, the $30 million gift from the Bill and 
Melinda Gates Foundation, which is an endowment specifically to 
help us reach youth audiences and audiences in rural areas and 
other areas that we do not traditionally reach.

                              FY12 REQUEST

    The Smithsonian's fiscal year 2012 request totals $861.5 
million. That is a lot of money in these days, and we 
appreciate that and the difficult times that you face. We give 
you our commitment that these funds, whatever comes to us, will 
go to the highest and best use. The Smithsonian has a crucial 
role to play in our civic, educational, scientific, and 
artistic life.
    At the American History Museum not long ago, historian 
David McCullough, who serves on one of our advisory boards 
said, ``never has an understanding of our story as a people, of 
who we are and how we came to be the way we are, and what we 
stand for, been of such importance as right now.'' We think 
these words hold true now more than ever, and we are determined 
to tell those stories.
    So thank you very much for the opportunity to testify, and 
now I will ask my colleagues to take a moment to explain the 
objects that I referenced.
    [The statement of Wayne Clough follows:]

    [GRAPHIC] [TIFF OMITTED] T6897B.091
    
    [GRAPHIC] [TIFF OMITTED] T6897B.092
    
    [GRAPHIC] [TIFF OMITTED] T6897B.093
    
    [GRAPHIC] [TIFF OMITTED] T6897B.094
    
    [GRAPHIC] [TIFF OMITTED] T6897B.095
    
    [GRAPHIC] [TIFF OMITTED] T6897B.096
    
    [GRAPHIC] [TIFF OMITTED] T6897B.097
    
    [GRAPHIC] [TIFF OMITTED] T6897B.098
    
    [GRAPHIC] [TIFF OMITTED] T6897B.099
    
    [GRAPHIC] [TIFF OMITTED] T6897B.100
    
    [GRAPHIC] [TIFF OMITTED] T6897B.101
    
    [GRAPHIC] [TIFF OMITTED] T6897B.102
    
    [GRAPHIC] [TIFF OMITTED] T6897B.103
    
    [GRAPHIC] [TIFF OMITTED] T6897B.104
    
    [GRAPHIC] [TIFF OMITTED] T6897B.105
    
    Mr. Simpson. Harry Rubenstein. Go ahead and grab the 
microphone if you would, sir, one of them.

                     ABRAHAM LINCOLN'S POCKET WATCH

    Mr. Rubenstein. My name is Harry Rubenstein. I am a curator 
at the National Museum of American History at the Smithsonian 
Institution. Thank you so much for inviting us to this and an 
opportunity to show one of our great treasures.
    This happens to be Abraham Lincoln's pocket watch. It was a 
watch he acquired we think in the late 1850s when he was a 
successful attorney in Springfield. My guess is after closing a 
successful railroad case he went out and bought the finest 
pocket watch he could in Springfield.
    But there is a second story behind this watch, and that is 
the story that takes place in Washington. As President he comes 
here, and his watch needs to be cleaned, and he sends it up to 
Galt Jewelry Store, which used to, I do not know if many of you 
remember the store, but it was a downtown institution, to have 
it cleaned.
    While it was being worked on, Mr. Galt rushes up into the 
workroom and says, the war has begun. At that moment the 
watchmaker who was working on the watch took off the hands of 
the watch and the faceplate and left a message, and it said 
basically, on this day Fort Sumter had been attacked, thank God 
we have a government. And then he closes the watch and returns 
it to Lincoln.
    We heard about this story through a relative. When we 
received the watch from the Lincoln family, the story never 
came with the watch, but we heard this story from a gentleman 
who said, my great-great grandfather used to work in Washington 
and was, in fact, the story true.
    So we opened up the watch, and lo and behold, there was 
that message on the watch. There also happened to be some other 
engravings in the watch as well. At a later date another 
watchmaker saw the earlier engraving, added his name to the 
watch, and then someone, I am assuming an unsigned someone, 
wrote the name, Jeff Davis, across the bar.
    Lincoln never knew about the messages in his pocket, but it 
is sort of both a statement of the support that he received 
from one enthusiastic member as well as a little bit of 
graffiti inside.
    We hold a large number of objects in our collection, and 
they all tell stories, not necessarily as good as this one, but 
I think what this watch does for me and what we try to do for 
the public is bring that moment in history alive, take the 
mythic and make it a little bit more tangible and real, and I 
think if you let yourself look at this watch, you can cast 
yourself back in that exciting moment of the Civil War and of 
Lincoln and of the Nation.
    Afterwards, as I understand it, if you have time to stay 
around, I will be more than glad to pass around the watch and 
give you a closer look.
    Thank you.
    Mr. Simpson. The Library of Congress had a display a couple 
years ago, I want to say, that had the objects that were in 
Lincoln's pocket the day he was shot. How did those come to be 
with the Library of Congress rather than Smithsonian versus 
other things? You know, I mean, some of this stuff is kind of 
spread around. Ford Museum has the derringer, and Walter Reed 
has the bullet, I guess. How did they get spread around?
    Mr. Rubenstein. I think basically they got spread around 
because they were spread around in their historical existence. 
I am not exactly sure. I know the story of the pocket, but 
almost all of our material comes directly from family members 
or friends associated with Abraham Lincoln so that a large part 
of our collections were held by the family and passed down 
through their grandchildren from Robert Todd Lincoln to his 
children, and that material came to the Smithsonian. The papers 
at the Library of Congress come largely through the secretaries 
that worked with Lincoln. The material at Ford's Theatre also 
came in different ways.
    I think there is value in having these collections around 
different institutions. It makes it just a lot easier to manage 
them. It makes it easier for their programs to have material 
that support them, and our material to support us.
    We work hard to coordinate our activities with these large 
institutions that hold these collections and cooperate with 
them in sharing information about each others', but there is an 
advantage I think for all of us to have our own rich 
collections.
    Mr. Clough. I have been working with Jim Billington and 
with David Ferriero and Rusty Powell on places where we can 
work together and share our collections. So we loan things to 
them, they loan things to us as we do the different types of 
exhibitions, and in some cases we are trying to find these 
places where we all intersect, and we would be able to do 
something in common.

                          JOHN GLENN'S CAMERA

    Ms. Levasseur. My name is Jennifer Levasseur. I am a museum 
specialist at the National Air and Space Museum, and I am here 
to speak about the John Glenn camera, and I want to thank 
everyone for giving me the opportunity to talk about the camera 
today.
    This year we are also celebrating the 50th anniversary of 
human spaceflight. Of course, we just passed the anniversaries 
of Yuri Gagarin and Alan Shepard's flights, and in February we 
will celebrate the 50th anniversary of the first American to 
orbit, and that is John Glenn.
    Senator Glenn tells a really wonderful story about this 
camera, and I want to relate a little bit of that to you today. 
In his preparations for flight then-Lieutenant Colonel Glenn 
was considering all of the different things he would be doing 
in space. He was, of course, only going to be up there for a 
short time, but he was very interested in giving people back on 
Earth an idea of what it was like to be in space, and of 
course, he felt the best way to do that was with a camera.
    So the suggestion was made that he carry a camera, and NASA 
did not really go along with that in part because the mission 
would be short, and there were lots of other things to still 
learn about spaceflight at that time. And so as he tells the 
story he was out getting a haircut in Cocoa Beach and decided 
to stop in at a drugstore to get a few things and noticed a 
display of cameras. Now, one of the problems that was faced 
when selecting a camera for spaceflight was finding something 
that was easy to use. They did not want to have to change the 
stops on a camera or make a lot of adjustments, and this 
particular camera that Glenn had found, which is an Ansco 
Autoset camera, had automatic settings on it, and he felt this 
would be an ideal candidate.
    He purchased the camera for $45, and he brought it back to 
NASA, and engineers at NASA and the machine shop actually 
modified the camera for use with his spacesuit. Of course, he 
has got a heavy inflated pressurized spacesuit, and they knew 
it would be difficult for him to operate the camera. So they 
added the pistol grip and added a shutter release and an 
advanced mechanism which you will see here, which was all 
machined out at NASA. It was all attached, and they laid out 
all of the different cameras that he could choose from, and he 
tried it out with the spacesuit glove on, and he picked his own 
camera, not surprisingly, for use in space.
    Over the years the story of this camera has gotten a bit 
confused because he actually carried two cameras in space. The 
famous Life photographer, Ralph Morris, had suggested a Leica 
camera, which was a very high-quality camera at the time. He 
carried that camera and this Ansco into space. This camera 
happened to also be modified for astronomical observations, 
making it the first scientific experiment, at least 
astronomical experiment performed in space.
    The front of it was modified with a special prism so that 
he could take photographs of Orion, a constellation commonly 
targeted by astronomers. The camera was very easy to use, he 
felt very natural using it in space, just letting it go and 
float around. He returned with the camera, and the camera's one 
roll of film was processed. There were six exposures of about 
15 seconds each.
    The interesting thing about this particular experiment, 
even though it was the first, it actually did not seem to go 
anywhere. There was never any big scientific paper to come from 
it, but he did, perform the task, and the Smithsonian then 
received this camera as part of the transfer of Friendship 7 
and all of the accompanying items in 1963.
    And I would say that this camera for our museum, especially 
in this anniversary year, really reminds us of that moment in 
the early 60s when there was an incredible excitement for space 
exploration and for innovation and ingenuity. I think this 
camera above anything shows the ingenuity of a place like NASA 
which would go through an incredible amount of creativity in 
coming up with a way for him to bring home images of space.
    Thank you.
    Mr. Simpson. What happened to the photographs that were 
taken?
    Ms. Levasseur. That is a very good question.
    Mr. Simpson. That is why I asked it.
    Ms. Levasseur. And I have been asking that question. In my 
research the only evidence I have seen of anything that came 
from it is that the films were processed, they were processed 
very early in one format. They were sent to Eastman Kodak for 
ultraviolet processing, and things seemed to disappear at that 
point. There was no scientific paper that was ever produced. 
There is no reproduction of those images.
    So it is a little disappointing to find out it did not seem 
to go anywhere. The Leica camera, on the other hand, he used 
that quite a bit and took some color and black and white 
photographs which are widely reproduced in newspapers and 
publications.
    Mr. Lewis. Mr. Chairman, if you would yield.
    Jennifer, do you spell your name with one N or two N's?
    Ms. Levasseur. Two N's.
    Mr. Lewis. Okay. Well, that is unfortunate but--my 
``nifer'' would have said that he forgot to put the film in the 
camera.
    Mr. Simpson. If it would have been me, I would have 
forgotten to put the film in the camera.
    Mr. Lewis. Sorry.
    Mr. Simpson. Well, thank you. That is very interesting. It 
is fascinating.
    Do you have an opening statement you would like to make, 
Jim, or----

                     OPENING STATEMENT OF MR. MORAN

    Mr. Moran. Well, I could make one, but I do not want to 
interrupt the----
    Mr. Simpson. You are not interrupting. They just got done 
testifying.
    Mr. Lewis. You have 30 seconds.
    Mr. Simpson. They just got done testifying, and we were 
going to go into questions.
    Voice. Do you have a quote from Teddy Roosevelt today?
    Mr. Simpson. He had a quote I know.
    Mr. Moran. Well, I do have a quote since you brought it up. 
I have a quote, and this is going to be a good one, and it is 
from a great American.
    Noted actress Audrey Hepburn. Okay. Did you not have a 
crush on her at Breakfast at Tiffany's?
    Mr. Simpson. Everybody had a crush on her. Spencer Tracey 
did.
    Mr. Moran. She never ate, but she was a wonderful actress. 
``Life is like tearing through a museum. Not until later do you 
really start absorbing what you saw, thinking about it, looking 
it up in a book, and remembering because you cannot take it in 
all at once.'' So while Audrey Hepburn was providing an analogy 
of life, she encapsulated a very important aspect of the 
Smithsonian as an institution of learning and enlightenment.
    Each year millions of our constituents and visitors from 
around the world visit the Smithsonian to see its exhibits and 
partake in its program. Ms. Hepburn was right about a quality 
museum. You cannot take it in all at once, but if the 
Smithsonian is successful in its presentation, what visitors 
take away is a quest to learn more about the subjects that they 
see. It is not by chance that the Smithsonian internet domain, 
its name ends in edu. It is an institution of learning, and it 
does it so right, and we as a society and a Nation benefit from 
the advancement of knowledge it provides its visitors and the 
public in general.
    So I know we are all struck by the scope of activities 
undertaken by the Smithsonian; science, history, art, culture, 
in addition to its work as stewards of significant aspects of 
America's heritage, and I understand that you are sharing some 
of that this morning. We will need to carefully review the 
budget with an eye towards any savings of perhaps initiatives 
that are not absolutely essential right now or that will 
require more federal money in the future. I think we have got 
to be careful of implied commitments, and we will get into that 
in a few minutes.
    But we have to make sure that the resources are there for 
the Smithsonian to carry out its most basic mission. The fiscal 
year 2012 budget request for the Smithsonian is basically flat. 
We are anxious to understand how you are going to be able to 
maintain that core mission with the quality that we have come 
to take for granted as Americans.
    So with that, there is my statement, Mr. Chairman. Thanks 
for giving me an opportunity. No thanks to you, Jerry, because 
you clearly knew it was going to take more than 30 seconds, but 
thank you, Mr. Chairman.
    Mr. Simpson. Thank you. I have to drive across that same 
bridge, and I was going to come in early this morning. It took 
me an hour and 15 minutes.
    Mr. Moran. That is what it took me.
    Mr. Simpson. It normally takes about 20 minutes.
    Mr. Moran. I had to do something in the district, and you 
know, what I normally can do in 10 to 15 minutes took an hour 
and 15 minutes. I do want everyone to know, though, that the 
construction delay on the bridge was not the result of one of 
my earmarks. It was a change in traffic pattern. My earmark was 
for the Humpback Bridge.
    Mr. Simpson. This is the bridge to somewhere.
    Mr. Lewis. Is your district that close by?
    Mr. Moran. That is it. Everything on the other side of the 
river and with the new redistricting as far as you can see 
north and south. It is all my district, Jerry, and I love it, 
you know that.
    Anyway, maybe we should get back on track, and thank you, 
Mr. Chairman.

                          JOHN GLENN'S CAMERA

    Mr. Simpson. I will just keep us off track just a little 
bit, but thank you for coming today, and thanks for bringing 
these artifacts that are very, very interesting. When I look at 
this camera that John Glenn used, what year was that?
    Mr. Clough. 1962.
    Mr. Simpson. 1962. It is one of those things that, I mean, 
people can generally remember where they were when that 
happened, or when man landed on the moon and that type of 
thing. You know, I had to give a speech, this is 20 years ago 
probably, when I was the Speaker of the Idaho House, and I had 
a bunch of people that were scientists that were presenting 
papers on, you know, black box theory of whatever, you know, 
and they wanted me to give a speech at one of their dinners, 
and I am sitting there, what do you tell these people?
    And so I tried to tell them the other side of technology, 
not just the advancement of it, and I used my grandfather as 
the example. He was born in 1900. He knew people that fought in 
the Civil War, and he died in 1988, so he lived 88 years. He 
moved to Southeast Idaho when he was a child. When he first got 
there, the male students would have to get up--they got 
assigned a week--and they would ride to the one-room 
schoolhouse to put logs on the wood burning stove to heat the 
one-room schoolhouse. Later on he saw the first automobiles 
come into the Cache Valley. Later on he saw the first airplane 
fly overhead. Later on he saw a guy take off, land on the moon, 
and come back to Earth.
    That was in the space of one lifetime, and I look back at 
this, and I say, boy, that is ancient technology, and you know 
what a child that is born now is going to see during the span 
of his lifetime is almost unbelievable, and it puts incredible 
pressures on all of our institutions--governmental, social, 
religious, everything--because we are animals that kind of like 
things to be the same tomorrow as they are today. I like to 
know the sun is going to come up over there, instead of over 
there.
    And, I mean, what was it in the Declaration when Jefferson 
wrote that men are more disposed to suffer, while evils are 
sufferable, than to right themselves and correct them, and I 
mean, that is kind of the way we are. What it is going to do to 
our educational institutions is going to be incredible.
    So, anyway, I appreciate you bringing these artifacts for 
us to take a look at. They make you think a little.

                                RESEARCH

    Mr. Clough. Not to plug my monograph on scientific 
literacy, mainly to point out the challenges we face but 
particularly that the growth of knowledge right now is so 
intense, and it is going to get more intense because there are 
so many people in the world doing research today that were not 
in the past, and so knowledge will continue to grow, and it 
will get even more complicated.
    And so how do we help our teachers keep up with that? I 
think it is a major challenge for our country.
    Mr. Simpson. You know, 30 years ago without the computers 
we have today, you would not have been able to do human genome, 
and what took them a year to do or longer can now be done in 
hours.
    Mr. Clough. High school students can do it now.

        NATIONAL MUSEUM OF AFRICAN-AMERICAN HISTORY AND CULTURE

    Mr. Simpson. Yes. It is amazing.
    Anyway, as you know, the dollars are tight as we have 
mentioned here today. Your budget request includes a total of 
$225 million for the Facilities Capital Programs for fiscal 
year 2012. The Smithsonian is requesting $125 million for 
construction of the National Museum of African-American History 
and Culture, as well as $100 million for repairs and 
revitalization of other Smithsonian assets and for planning 
future projects.
    Given the subcommittee is anticipating a very lean 
allocation, and as we have seen it is about $2 billion below 
what we had last year, are there any planned projects contained 
in the Facilities Capital Account, not including the new 
African-American Museum, that can be deferred or delayed? And 
with the African-American Museum, what is the total 
appropriation going to be, and what will be the impact of doing 
it multi-year if we cannot find all the money for it right as 
it is.
    Mr. Clough. Well, let me first just mention the National 
Museum of African-American History and Culture. Of course, 
Congress asked us to take on this, and we willingly accepted 
the challenge, and the task was set forth for the design and 
construction of that facility would be $500 million, that 
Congress and the Executive Branch would provide $250 million of 
federal funding, we would raise $250 million.
    And so a big part of my job is being on the road trying to 
raise that money from corporations, foundations, and 
individuals. We have made great success in the private 
fundraising, and the credit really goes to Lonnie Bunch, who is 
an absolutely outstanding director for that museum. He was 
absolutely the right person to pick for that, because he not 
only has to go through the process of designing and ultimately 
construction of the museum, but he has to build up collections.
    Now, we had collections to begin with, but he has 
significantly increased the number of collections that he will 
need to open the museum. The intent was to open the museum in 
2015. That would be a historic date, because it is the 150th 
anniversary of the ending of the Civil War. The intent is to 
have a museum that speaks to the African-American contributions 
to us as a people, not for this to be a museum just for 
African-American individuals who are American citizens but for 
all of us to speak to that larger history.
    And I have seen the collections that he is building. It 
starts with a powder horn from a free Black who fought in the 
Revolutionary War who inscribes his own personal history on 
that powder horn, and there were 5,000 free Blacks who fought 
in the Revolutionary War, and so you can see how you expand and 
tell the story as you work your way from that to the present.
    So we are well on our way in terms of raising the money. I 
have worked with Lonnie and Richard Kurin, who is here as the 
Undersecretary of History, Art, and Culture, on the pipeline, 
if you will. Do we have the donors out there who can get us 
from $100 million to $250 million, and we think definitely. We 
have had tremendous success, a positive reception of this 
project from the corporate side, the foundation side, and from 
individuals.
    So we are confident we will raise the private money. I hope 
we will raise more because as we know, it is going to be tough 
to operate museums in the future, and we want to build an 
endowment for it. So I want to go blast right past that and try 
to raise the endowment.
    So the federal side of it is the commitment that was made 
for the other $250 million, and so far $45 million has been 
committed to the project, and so that is underway. The project 
is designed, the site is almost prepared at 14th and 
Constitution. We have to be careful not to damage the view line 
for visitors for the Washington Monument. That is almost 
complete, and it is one of those things that we have had to go 
through with some very careful deliberations on it. And it is 
going to be a beautiful project, very subtly placed, very 
subtly designed, and it will be a magnificent experience for 
the American people.
    So we have now reached the point where if we are going to 
do this in 2015, it is time for the bigger increments to be 
applied to the project for actual construction. That is where 
the $125 million comes in. OMB realized that there are actually 
$205 million yet to be applied, there is $45 million that we 
have gotten so far, and so they plan in fiscal year 2013, to 
ask for the next $85 million, which would complete the project, 
and we would be able to finish it in 2015. That is our intent.
    Mr. Simpson. If we do not do the 125 this year, we would 
essentially be setting off the 2015 date?
    Mr. Clough. You start delaying the project, and to go back 
to my other life, I am a civil engineer. Any time you delay a 
project of that size, even though the economy may be down 
today, we are getting great bids right now, that by 2016, the 
economy may heat up and you would end up with inflation really 
taking a chunk out of the project.
    So it is important that we try to keep it on track.

                      ARTS AND INDUSTRIES BUILDING

    Mr. Simpson. Where are we with the Arts and Science 
Building?
    Mr. Clough. The Arts and Industries Building?
    Mr. Simpson. Arts and Industries Building.
    Mr. Clough. Arts and Industries Building. We are going 
through what we call phase one of that building. Actually, 
there was a first small phase. Thank goodness that we got $5 
million out of the Recovery Act which we, in fact, used and 
applied to that project well. We got $25 million all total, and 
we did obligate all those. I think we are ahead of any federal 
agency in obligating our federal funds.
    But thanks to the Legacy Fund the Senate and the House both 
helped create for us there was a $30 million Legacy Fund that 
was created that we had to develop a match for, and we worked 
hard to get that match. We had a marvelous gift by Bob Kogod 
and Arlene Kogod, of $10 million that completed the match. We 
actually had $40 million in private money for program and 
building.
    So also good news. When we did the project we probably 
gained about $8 million on it because now is the time to build, 
and so it is underway, about a $55 million project to stabilize 
that building. I was very concerned as a civil engineer, I was 
here when the snow loads were the heaviest and went through 
that building, and it was kind of creaking and groaning at that 
point, a lot of corrosion on the wrought iron structure, and so 
we needed to fix that.
    So fortunately we have the money now to take the entire 
roof off, which needs to be done, and to replace the wrought 
iron with structural steel and to replace the windows which are 
not historic windows, and that will be what we call phase one.
    Phase two will be where you actually start programming. We 
need to move the mechanical plant underground. It should not be 
in the building. The building is a very small building actually 
and we would probably turn it into what we think would be a 
very exciting place for learning to allow what we were just 
talking about, students come in and learn about science, 
current events where most of our museum activities are about 
past events, but really about current events.
    And so we are well on our way. The project will take 2 
years to complete this so-called phase one.

                           SMITHSONIAN STAFF

    Mr. Simpson. One other question before I turn it over to 
Jim. We may, you know, congratulate our staff here and thank 
them for all their great work, but I also want to thank your 
staff for the great work that they have done in helping us as 
we have tried to make a budget that makes sense, that you can 
live with, and your staff has been great to work with. So we 
appreciate that very much.
    You mentioned in your opening testimony that the 
Smithsonian ranked fourth in best places to work, best places, 
I guess, within the Federal Government, best agency or 
whatever.
    Mr. Clough. Large agencies.
    Mr. Simpson. Talk about that just a minute, because I think 
that is very important.
    Mr. Clough. Well, when I came to the Smithsonian, I think 
there was a morale problem. I think people had felt beaten down 
a little bit over some of the activities that occurred in the 
last Administration. We think about budget cuts today, but 
because of what was called base erosion, the budget had been 
going up slightly over the years, but because of inflation and 
mandated salary increases, we are actually losing ground.
    And so over a period of 10 years we lost 600 people at the 
Smithsonian, by retirements, resignations, and no replacements. 
And so there was sort of a feeling that, you know, how do you 
get out of this cycle, and we created a strategic plan by 
getting over 1,000 people engaged in it, so this was not a top-
down deal. This was a joint consensus vision. We got people 
from outside the Smithsonian, people from the Hill actually 
participated in helping us put this together, and it was a 
shared vision, and I think that has worked.
    It was also based on what I call scenario-based planning. 
That is, we considered a scenario where the budget might be 
better than that day, that was two years ago, or steady or 
worse. Now it turns out that that third is where we are, and so 
we have actually planned for this kind of environment that we 
can keep our progress and momentum going, and we also agreed to 
do everything we could to increase the private funding of the 
Smithsonian, but we had to have great ideas if we were going to 
do that.

                          PRIVATE FUNDRAISING

    We have had success in philanthropy and private 
fundraising. We are very proud of that. We are looking at 
having a national campaign, which would be an even more 
organized way to do that. So people are working on really 
productive things, and I think the folks at the Smithsonian 
came together in a way they had not come together before, using 
what we call interdisciplinary approaches. We were able to 
raise funding, the Gates Foundation is a good example there, 
that allows us to do things we had not done before by combining 
our assets.
    And our goal is to be more inclusive about telling 
America's story and not to try to do it in just one museum but 
to think of all of our museums, telling a comprehensive story. 
And so we are working hard on trying to do that, and people are 
getting together and talking to each other. I was at an 
education meeting that we had called STEAM, where we add arts 
to STEM. So using arts to help people learn science is a very 
exciting way to do it, and we had 80 people there, and I asked 
how many of them had met someone they never met before at the 
Smithsonian. They have all worked at the Smithsonian many 
years. They all raised their hands. They are now meeting each 
other, and they are really excited.
    And this is a joint effort. It is something that I think is 
joyful. The Smithsonian folks are passionate about what they 
do. They need to be respected for what they do, and they have 
been in essence under-funded for a long time, and so we are 
finding ways to take care of these big problems.
    Mr. Simpson. Appreciate that.
    Mr. Moran.

                    NEW MUSEUMS ON THE NATIONAL MALL

    Mr. Moran. Thank you, Mr. Chairman.
    The line of questioning I am going to bring up I know is 
going to be mischaracterized, and my motivations are going to 
be questioned, and it is probably going to bring me into 
conflict with some of my best friends in this body, but I think 
we need to pursue it.
    You talked about the inclusivity of our Nation, the fact 
that we are such a strong society of such a strong fabric 
really because it is a whole host of different fabrics 
interwoven together. E pluribus unum.
    But I am concerned about the direction we are taking on the 
Smithsonian. The Administration just released a report on the 
National Museum of the American Latino. It recommends that this 
new museum be a part of the Smithsonian and occupy a spot on 
the National Mall.
    Two concerns. One, of course, is that the Mall is becoming 
a very private place, monuments, memorials, museums, there are 
160 monuments and memorials in the Mall. I mean, basically we 
have gone from two in the beginning to where we have 13 museums 
today. We are losing open space, and of course, future 
generations are going to have virtually no space to honor their 
heroes, their iconic figures.
    The Congress back about 8 or 9 years ago said that the Mall 
is a substantially completed work of civic art and imposed a 
moratorium on any further construction there. I do not think 
that is going to be sustained.
    The second issue is, you know, perhaps less pragmatic but I 
think nevertheless a serious one. I voted for the National 
Museum of African-American History and Culture. Obviously I 
support it. I think it is a wonderful thing that we would tell 
the full story, but I am concerned that we are breaking up the 
American story into separate narratives based upon specific 
ethnicities.
    And virtually every indigenous or immigrant community, 
particularly those who were brought here enslaved, has a story 
to tell, and it should be told, and it should be part of our 
history. The problem is that as much as we would like to think 
that all Americans are going to go to the African-American 
Museum, that all Americans will go to the museum of American 
History, that all will go to the Latino Museum, I am afraid 
that is not going to happen, that the Museum of American 
History is where the white folks are going to go, and the 
American Indian Museum is where Indians are going to feel at 
home, even though I think it is a disappointment. Up until now 
it has been largely a glorified arts and crafts fair, very 
disappointing.
    And African-Americans are going to go to their own museum, 
and Latinos are going to go to their own museum, and that is 
not what America is all about, and I am bringing this up 
because I greatly respect not just your management ability but, 
you know, your understanding of the concept of what the 
Smithsonian is all about.
    And I would like you to address this concern. It is a 
matter of the overcrowding of the Mall, it is a matter of 
future financial commitments, which are very substantial and 
are going to crowd out the quality I fear of the museums that 
we have, but it also a matter of how we depict the American 
story and where do we stop. The next one is going to be Asian 
Americans, and then God help us it will probably be Irish 
Americans or, you know, who knows.
    Do not forget who?
    Voice. The Norwegians.
    Mr. Moran. The Norwegians. Gosh, no, but I think it is a 
legitimate concern. I know it is a serious concern of mine, and 
one I would like you to address if you would not mind, Mr. 
Secretary.
    Mr. Clough. Sure. Well, there were two questions or 
comments. I think one about the Mall itself, and I think we all 
share concerns. This is America's front yard. It is the place 
where democracy happens. You need to have green space, people 
need to be able to enjoy that, they need to be able to gather. 
That is all part of the process, and so I think we all share 
concerns about that. I am not sure what we can do about some of 
these things other than, of course, there is a master plan to 
expand the Mall, and that would take it down towards Southwest. 
Since I live in Southwest, I would kind of welcome a little bit 
of new development over there.
    So I think that is one possible solution. I think you 
raised a serious question, and it needs to be asked to the Park 
Service and others and the planners who really think this thing 
through, but it is a very serious challenge for us with all the 
monuments as you describe and so forth. For the Smithsonian, of 
course, our property ends at the curb, and so the Mall itself 
is actually part of the Park Service.
    On the question then of the ethnic approach to museums, 
that is an interesting philosophical question. I think the 
Smithsonian frankly did not do what it should have done in the 
'60s, '70s, and '80s, to really broaden its reach to tell the 
more inclusive story, honestly, in a more inclusive way, and I 
think it is important for everyone to realize when we say we 
have 19 museums and galleries overall, that throughout those 
museums you should be able to tell anybody's story. Through the 
Smithsonian American Art Museum there is art for everybody, art 
that tells all American stories. In the National Portrait 
Gallery they have worked hard to be more inclusive at what they 
are doing. In the American History Museum they have worked hard 
to be more inclusive, but we were not there at a timely point 
where people, I think, felt themselves left out.
    And I have talked to a lot of different groups that feel 
they are not seen, and so our new strategic plan really calls 
for us to take this more inclusive approach to things, and when 
we say we have 100 exhibitions a year, to think about how those 
represent the fabric of this country as opposed to just a 
singular vision from one museum and one set of collections.
    So we are going to work on that. You will certainly see the 
way we present ourselves on the web and the way we present 
materials out in the K through 12 in a much more inclusive way 
in approaching the American story in that way.
    And when we say, for example, we want to reach new 
audiences, that is an audience we are not reaching. For 
example, we are not reaching the Hispanic, Latino audience, and 
we need to, and I spoke to the Latino Commission myself and 
indicated that we were going to be very aggressive about that 
in the future.
    And I think the Smithsonian some time in the past maybe 
missed this boat. Now, we are where we are with the present set 
of circumstances, and I think that Lonnie Bunch's approach in 
the African-American museum, I think we will all be positively 
surprised. Lonnie has studied other museums to understand how 
this one can be more inclusive in its story, and I think you 
will find that he has really worked hard at that.
    Mr. Moran. I think he is terrific. He won me over, and I 
fear that the creator of the Latino Museum is going to win me 
over, and you know, they know what they want to do. I think it 
is very valuable, but we need to see it in context as well.
    A member of this subcommittee, Maurice Hinchey, has 
introduced a bill for the National Museum of the American 
People to tell the story of, you know, how each wave of 
immigrants became Americans. I dismissed it at first as just 
one more idea, but he wants to put it over in the Banneker 
plot. I talked to Eleanor Holmes Norton, she thought that was a 
great idea because that extends the Mall, gets it out into 
Southwest, other places. You know, maybe something like that 
works. I do not know. I suspect that, you know, we are too far 
down the line to, you know, to really change direction.
    But with the Latino Museum, and this will be my last 
question, do they have to raise the money and then we match 
what they raise so that we do not start construction and as you 
suggested wind up in a situation where we cannot complete it 
unless the Congress pays all? I mean, that is what we did with 
the Capitol Visitors' Center, you know. We were told it was not 
going to cost anything, you know, $670 million later, and I 
still cannot find my way around the darn thing, but, you know, 
is it going to be controlled by the level of contributions that 
initially are made by the private sector and then we match 
those dollars after they are raised, or is it a matter we start 
and then the taxpayer has to complete it?
    Mr. Clough. No. I think that the Smithsonian has always 
lived up to its commitments in these types of partnerships, and 
we have had many of them where, for example, the Legacy Fund 
was a great one. We actually raised more money than was needed 
for the match. For African-American History I am confident we 
are going to raise more private funding than is necessary for 
the match.
    So what needs to be done with the Latino Museum if Congress 
decides to go ahead with it would be to develop this concept of 
a partnership and a commitment in both parties to get it done 
and hold everybody to their commitments, and we will live up to 
our commitments.
    Now, having said that, there is no way, I believe, that you 
could successfully build a museum, whatever the name would be, 
without a substantive base of federal funding. I do not think 
you can make it work. You do not want to embarrass either 
Congress or the constituents you are trying to represent in 
this museum. That would not be fair to anybody.
    And to build collections, to raise money costs money. You 
have to go out and start developing that. I think there is a 
strong base of people who would support the programmatic 
initiative, maybe even a museum in the Latino community. But 
you need money to do that, and so it is not a good way to 
proceed to assume somehow that you could do all this with 
private funding. You simply cannot do it.
    Mr. Moran. Do you have any thoughts on the preferred 
location which is basically on the Capitol grounds, an 
extension on the Senate side there?
    Mr. Clough. Well, I think they did a great deal of work to 
look at alternative sites, and as you suggest, the problem is 
there are not many alternatives, and so I think they chose a 
site where they felt they could build a new museum where the 
architecture would be reflective of their culture and their 
history, as opposed to trying to adapt an older building, which 
fundamentally could never be a good museum to begin with, like 
Arts and Industries, and one that could serve their purposes.
    I do believe in the future we will all ask the question and 
should ask the question, how big a building do you really need 
physically when you can do so much digitally. In other words, 
you can reach a far larger audience, we will reach 300 million 
people digitally, and that experience is going to get better 
and better.
    Now, that will never replace the personal visit, but it is 
a question of designing those things together in today's era.
    Mr. Moran. Thank you for your very responsive answers, and 
it is an ongoing issue, but I appreciate you addressing it. 
Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Lewis.
    Mr. Lewis. Thank you very much, Mr. Chairman. Thank you, 
Director, Secretary Clough, for your presentation and your 
colleagues' presentation. You reminded me of something a 
chairman did as well when we looked at the John Glenn camera. I 
remember shaving in the morning listening to television down 
the hall, walking into the family room, and my children who 
were then, you know, much younger than David LesStrang when we 
first met him, and they were talking about the apogee and the 
epogee of that flight like it was yesterday's cornflakes and 
just kind of sparked one's imagination about this explosive 
future that the chairman talks about.

                        OVERCROWDING OF THE MALL

    Crowding out the Mall with museums is a very legitimate 
question, and I thank Mr. Moran for raising the question the 
way he did. We had a gathering adjacent to the Appropriations 
Committee Chairman's office on the balcony last evening, and 
you can look down the Mall. It is a fabulous view. I mean, 
really incredible view looking to the west.
    And I must say that I do not know who actually signed off 
on the design on that very sizable and impressive Indian 
Museum, but some way it does not fit in my head to that Mall 
that we have all grown to love, and not speaking to the final 
design but I do know in my own territory where there are like 
14 Indian tribes, just one of them from the gaming reserves, 
each member of the tribe takes home tax free over $100,000 a 
year. I mean, that is an incredible reflection of one of the 
designs of our history, and I hope that museum reflects the 
best in mix and otherwise, and so far there is some doubt in 
the minds. I have many a person who has visited, including some 
friends.
    Mr. Lewis. It might very well pay for the overhead, indeed, 
but that is separate from the question. I have done some 
controversial things in my life. I mentioned David LesStrang 
being a right wing kook when I first met him, and we do change 
our view as we go forward, and the liberal Democrats in our 
life do have those influences as his wife has him.
    My mother has had a significant influence on me, and she, 
as I was a youngster, talked a lot about the Depression Era, 
indeed, the New Deal Era, and she would be very proud of the 
fact that I served on that commission that eventually led to 
the FDR Museum.
    Now, within the more conservative sides of my broader 
family, that was not necessarily the most popular thing to do. 
There is room without any question to recognize our history in 
many a way, but I think we should be very cautious as we take 
those steps, and Jim raises very much the point. We do not want 
groups in our country to visit our history by way of singular 
kinds of channels of review, and I am very concerned about 
that.
    Now, just one more mention, if you will be patient.
    Mr. Clough. Sure.
    Mr. Lewis. That mother that I mentioned, my great great 
grandfather, Jasper O'Farrell, laid out the streets of San 
Francisco according to my Irish mother. She also told me she 
was born on March 17, and we found that she was actually born 
on the 22nd. In the meantime, we ought to consider an Irish 
museum because what they did for the development of the East 
Coast, especially around Boston, is, you know, it is 
incredible. So one of those museums, too, ought to be in 
somebody's mind's eye.
    Thank you, Mr. Chairman.
    Mr. Clough. Can I respond quickly?
    Mr. Simpson. Surely.
    Mr. Clough. My wife is a Burke on her mother's side, and 
they came here in the late 1800s. We got married on St. 
Patrick's Day, so I can never forget my anniversary, but my 
mother and father are like your mother and father. They went 
through the Depression. Their whole goal in life was to see 
their kids go to college because they did not get to go to 
college. So that was the generation that was a great, great 
generation for all of us.
    And I do get letters frequently from the Irish American 
folks saying, where is our museum, but, again, one quick thing, 
coming back to both of the comments that you have made, in our 
new strategic plan we talk about coming up with big ideas that 
capture the American experience, and one of these big ideas, 
certainly Congressman Moran referred to that, is immigration 
and migration.
    And so we are going to focus a big part of our effort on 
telling the story of migrants and immigrants, and that is 
coming from this new idea of how do we use all these museums 
together to tell a bigger story? And you will see a big push 
placed because some people migrated here and others immigrated 
here.
    And that captures the people who came to this new world 
18,000 years ago and have created a culture before the 
Europeans got here. So that shows you a different kind of 
approach, I think, that we hope will begin to address some of 
these concerns.
    Mr. Simpson. Mr. Dicks.

                              SOCIAL MEDIA

    Mr. Dicks. Well, we want to welcome you back, Mr. 
Secretary, and in reading through your biography I am just 
amazed at all the different things that you have done and done 
very well, and we are very glad you are here.
    Mr. Simpson. Checkered career.
    Mr. Dicks. The highlight was being the provost at the 
University of Washington, I am sure, but we are glad to have 
you here at the Smithsonian. You came into a very difficult 
situation. I think you stabilized the organization and are 
leading it in a very good way.
    You mentioned in your statement that we have more than 400 
web and social media accounts, and that number is growing every 
day. On our main Facebook account we have more than 85,000 
fans. On our main Twitter account we have 320,000 fans, and our 
YouTube offerings have been viewed nearly a million times. And 
our refreshed website has a more modern look, and it is easier 
to use, to navigate. It just won the 2011 People's Voice Webby 
Award for best cultural institution website.
    Well, tell us about this. Tell us what your kind of vision 
is of how you want this to interrelate with the American 
people.
    Mr. Clough. We were just discussing that, the way young 
people think today is different than the way we think, 
different in the way we communicate, and different in the way 
we learn, and we have to adapt as an institution to help 
communicate and capture the imagination and inspire those young 
people. You know, no one is required to go to the Smithsonian 
or go to our website, and so we have to engage them and make 
them want to actually be part of the Smithsonian, to learn from 
us.
    We have worked on these new processes to try to engage 
people, and we have Twitter sites. For example, when this watch 
was opened, we Tweeted about it, and all of a sudden millions 
of people around the country knew that we are going to do that, 
and they would not have known it otherwise.
    YouTube: what we are trying to do there is to show how 
people like Harry and Jennifer do this marvelous work, because 
otherwise it is hidden, but one of the wonderful stories about 
the zoo was the chef at the zoo prepares 2,300 meals a day for 
different appetites, widely different appetites, and we did a 
YouTube Video on the chef, and he became enormously popular. He 
appeared on food shows all over the place, but, you know, the 
point was----
    Voice. What do the tigers like?
    Mr. Clough. You and me. But it got people thinking about 
what goes on behind the scenes, you know, the work that goes on 
to sustain these great creatures and the science behind it. 
That is really the purpose of these things, and to some extent 
it is just an enabling thing that we have done, and that is to 
say it is okay for the different museums to have their own 
Twitter sites as they have events and they want to engage 
people in their next activity.
    A simple other approach was the Smithsonian American Art 
Museum next year will host an exhibition on the idea of 
computer games as art. I mean, some of them are very artful, 
some of them are a little dangerous for young people, but they 
offered up 240 of them for a vote. Six million people voted.
    Voice. That is amazing.
    Mr. Clough. Now they will all want to come and see what is 
in the Smithsonian American Art Museum, and so it is a means to 
engage and to connect and to deepen people's understanding. I 
think the quote that Congressman Moran was using by Audrey 
Hepburn, what we want to do is we want to help people before 
they get there to understand what they are going to see and 
then after they leave we want them to be able to do their deep 
dive through the web materials that we have.
    So we call it a journey, not just a visit, and today, for 
example, you can, if you have your iPhone, you can download a 
number of Smithsonian apps, and one that I love that just came 
out, it is called LeafSnap, and if you have an iPhone it is 
free. This was done with funding from the National Science 
Foundation, Columbia University, and the Smithsonian, and if 
you would like to seem intelligent when you are in the woods 
and you want to identify a tree, LeafSnap will identify any 
tree for you based on the leaf shape that it sees.
    You have to have a little white background for it, but you 
can do that. And in June we will issue our first Smithsonian-
wide app, which will be free for visitors, and so visitors can 
plan their visits on their own iPhone or their Android, 
whatever they have got, and when they get here after they are 
getting a little worn out, they can say, where is the 
restaurant or where is the restroom or whatever, and it will 
all be on the app.
    So it is a way of connecting the people, deepening their 
experience, and then making them hopefully want to access the 
next level of our educational materials.
    Mr. Dicks. Good. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Lewis. Mr. Chairman.
    Mr. Dicks. I yield to Mr. Lewis.

                          SMITHSONIAN MAGAZINE

    Mr. Lewis. You raised the Smithsonian Magazine.
    Mr. Clough. Yes.
    Mr. Lewis. And the 150th anniversary of the Civil War.
    Mr. Clough. Yes.
    Mr. Lewis. That magazine is available by way of 
subscription I am assuming?
    Mr. Clough. Yes, it is.
    Mr. Lewis. It occurred to me when you were providing this 
testimony that what a fabulous Christmas gift for children and 
others. I mean, it really truly is an interesting----
    Mr. Clough. We encourage that.
    Mr. Lewis. Yes. Thank you.
    Mr. Clough. That does provide revenues for the Smithsonian, 
but the thing I really enjoy about this group is that they are 
very mission focused, so you will not find extraneous articles 
in here. The articles will be very much in and around the 
Smithsonian mission, so they have really bought into our 
strategic plan, and for those people who read every last page, 
there is a Secretary's column in there.
    Mr. Simpson. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I own a copy of 
Breakfast at Tiffany's. I bet you guys do not. But I did not 
have a crush on her.
    And, you know, I hear what Mr. Moran is saying, but at the 
same time I sit here and, you know, everybody was kind of 
talking about their mother or their grandmother, and of course, 
I have mothers and grandmothers and a great aunt who is still 
alive who did not have the right to vote when she born, and now 
she has her greatest niece serving in Congress.
    So there are so many stories to tell.
    Mr. Clough. Yes. Very rich.
    Ms. McCollum. And everybody wants to share their story that 
at some point we need to be mindful of the fact that 
everybody's story is important, and so I wish you luck, and I 
still hope that you are trying to make sure as we go through 
these major important museums that everybody's story continues 
to be told on a journey.
    And Mr. Lewis, I want you to think of me the next time you 
look at the Native American Museum. It is Minnesota sandstone, 
and it is now your favorite rock. That is what that is made 
from out there, and when you go, I think part of the reason----
    Mr. Lewis. Minnesota sandstone?
    Ms. McCollum. Minnesota sandstone and there is Minnesota 
pipestone, which was traded by a lot of the tribes, but, you 
know, I know that the architecture is kind of shell, but that 
was to reflect all Native Americans, not one tribe, one nation 
over another, and I have spoken with tribal members outside, 
and some will say I see an igloo in here, and other people say 
I see this in here. And so it does not have anything that is a 
gotcha moment, and I think the architects probably had a 
struggle with that a lot, and that would probably be very 
interesting reading, I think, for people going in, how the 
design and the shape came to be.

                               ADMISSIONS

    When you make a decision on what to cut or what to do, and 
I have been here when the bills, and I am sure we are going to 
have amendments on the Floor to charge admission to the 
Smithsonian, because they are going to pop up.
    If you could maybe, you know, know of refresh the committee 
your understanding of that, and then, you know, you do not 
charge admission and then just keep all the money. You charge 
admission, you have got a contractor taking a cut, you have got 
maintenance doing things, and so it is not like the Smithsonian 
would get a dollar for every dollar that got charged.
    Mr. Clough. Absolutely not.
    Ms. McCollum. You know, because people say, well, if 
everybody just does a dollar, I mean, you have got accounting, 
you have got to start worrying about internal theft. I mean, 
there is all kinds of things that go on with that. So that is 
probably going to come up on the Floor, and so talk to us a 
little bit about that.
    Mr. Clough. Okay. First, let me just back up a second and 
one of the other things about social media that helps us a 
great deal in terms, as you said, everybody has a story to 
tell. We can now let them tell those stories and share those 
stories with other people, and so many of our exhibitions now 
encourage people to tell us what they think and to tell what 
they saw of themselves and their family story in that 
exhibition.
    And we are gathering that information. We are going to use 
that information to enrich what we are doing. We just did 
something on freedom riders, and we were able to go all over 
the country with it to have the freedom riders who were still, 
John Lewis does a great story, but to have kids and young 
people participate in that and then to blog about it and then 
to talk amongst themselves about it. Sharing is a big thing, 
and we are trying to encourage that.
    Just a little bit on the American Indian Museum. Kevin 
Gover is the director there. He is a fabulous man. He has got 
great experience. He has been a university faculty member. He 
is a member of I think the Pawnee Tribe. He is a real 
intellect. He is trying to really get that museum to do what it 
was expected to do and that was to tell the story of all the 
cultures that existed here before Europeans came here, and so 
that takes you back to 18,000 years ago possibly and to speak 
to that entire development. And then the impact of the cultures 
that came together and then what is the next part of that 
story.
    One of the exhibitions they will do, for example, in 2012, 
is about the Inca Road, which is an engineering marvel, 26,000 
kilometers, that was built. It was an amazing technological 
development, still is used today. It is an amazing thing.
    Kevin is really working hard to put more exhibitions in, we 
could lose a little money but take one of the stores out so we 
can have more exhibition space to tell a broader and a richer 
story about that.
    There is an app also called the Infinity of Nations. I 
would encourage you to get it. It is free.
    Ms. McCollum. I have a flip phone, so this app stuff is 
like disappointing to me.
    Mr. Clough. Okay, but it is a marvelous exhibition. Out of 
the George Gustav Heye Center, which is part of the American 
Indian, that tells that richer story. It is an amazing app, and 
it is free for all folks.
    Now, coming to the question of charging admissions. You are 
exactly right.
    Mr. Serrano. Could you yield? Could I make a suggestion? 
That you send a note to Members of Congress when the apps are 
available?
    Mr. Clough. Sure. I will be glad to.
    Mr. Serrano. Because I do not know. I cannot keep up.
    Mr. Clough. We will definitely do that.
    But coming to the question of charging admissions, you are 
exactly right. It is not a free lunch by a long stretch. To 
even break even you would have to charge $3 or $4 because you 
are going to have to pay for all the infrastructure to collect 
it, plus we get 30 million visits a year to our museums, and 
you see huge lines of people trying to get through, paying 
admissions, using credit cards, slowing things down enormously. 
So there would be a real price to pay.
    I love it. I live close by. I walk up on the Mall every 
weekend, and I love seeing the families up there and seeing the 
families go from one museum to the other. A lot of them have 
saved for years to get here. They want to have a rich 
experience, and if you charged admission, it would diminish 
that experience. I think we should not charge admission. The 
people have already paid for these museums. They paid through 
their tax dollars. They paid for the collections and the 
collections' care through their tax dollars.
    And so just on that philosophical basis I do not think we 
should charge admission. A lot of people will say, well, okay. 
You get 30 million visits a year. Well, that is actually not 30 
million visitors, because that may be one person who went to 
the Natural History on one day and went to American History on 
the second day. They get counted. And so the numbers quickly 
diminish as non-workable as a way actually to make much 
revenue, and it is not the good way to do it, I do not think, 
because folks have already paid for this museum through their 
tax dollars.
    Ms. McCollum. Mr. Chair, I happen to agree, but I am 
mindful of the fact that I would be surprised if it did not 
come up on the Floor, and I think it is always good to be able 
to say that the committee recently asked, and so thank you for 
that.
    Mr. Simpson. I have to agree with you. I think one of the 
great things about it is that it is free.
    Mr. Clough. Right. Absolutely.
    Mr. Lewis. Mr. Chairman, I do not remember when there was 
an amendment proposing that we charge. I guess we have seen 
them in the past. I just do not remember one, but I think you 
would get very broadly-based, almost non-partisan support 
opposing that idea.
    Mr. Clough. There are many other ways for us to try to 
raise money before you ever get to that point.

                             LATINO MUSEUM

    Mr. Simpson. Mr. Serrano.
    Mr. Serrano. Thank you so much, and thank you for your 
testimony and for the work that you do. You are one of my 
favorite institutions, federal agencies, if you will.
    Let me just touch a little bit on some of the comments made 
by my brother, Mr. Moran, and some other folks. In a perfect 
world Latinos I can tell you for sure and I dare speak for some 
African-Americans would rather be part of rather than separated 
and apart in exhibitions.
    But that is not our fault. That is trying to make up for 
400 years of not being included, and so what you see today is 
trying to remedy that, and it upsets some people, and some 
carry it either in jocular fashion or in a serious fashion 
about the Irish and the Italians and others. Well, to ethnic 
minorities those were the folks in charge, and it seems that 
everything was about their story and none about ours. It did 
not get specific perhaps at times, but I knew, for instance, in 
school I was taught that the subway system was built by the 
Irish in New York City, and I was never told that the trains 
out west were built by the Chinese. I was always told that the 
police department was set up by the Irish, and the sanitation 
department was set up by the Italian or for the Italian 
Americans, and that was a fact. I knew that. I saw it.
    No one told me about Puerto Ricans in 1899, coming to New 
York and joining up with Cubans on the Spanish American War and 
that the Puerto Rican flag was designed in New York City, not 
in Puerto Rico by the Cuban Revolutionary party against Spain. 
We are left out of that story.
    So in a perfect world we do not want, I personally do not 
want the Latin Grammies, but there was never any recognition of 
another music that was making a lot of people, non-Latinos, 
rich in this country by recording it and selling it and so on.
    And so I repeat, in a perfect world we want to walk into a 
museum and see the history of our country, but for 400 years 
people were not included, and even at times the story we tell 
may not be related to what we are talking about, and I look at 
Mr. Lewis, because he has been very strong, and Mr. Lewis has 
done some things of dealing with my monture of included 
territories, and he even did it on an area that satisfied his 
need but satisfied mine, which was if you are not going to try 
people from Guantanamo somewhere else, do not try them in the 
territories either, and a lot of people were saying, well, we 
can always try them in the territories since we are not 
bringing them to the states.
    But I will give you a related incident that speaks to the 
need to have these kinds of situations, be they at the 
university level or the Smithsonian. A prominent member of the 
New York State legislature came to my father's funeral some 
years ago, in the 1980s, and asked me, Joe, why is the American 
flag on your father's coffin? And I said, because he was a 
member of the Armed Services, in the Army, and he always wanted 
the flag, and we wanted the American flag to be there. About 
half an hour later this prominent, and I will not mention names 
because you know him, came to me and said, you know, I learned 
something tonight. I never knew that the Puerto Rican Army uses 
the American flag.
    A prominent member of Congress about 15 years ago asked me 
if I would get him currency from Puerto Rico for his 
collection, so I took a dollar out of my pocket, and I think he 
is still embarrassed.
    Mr. Simpson. He ought to be.
    Mr. Serrano. But that is part of what we are dealing with 
here. Yes, there is a concern about another museum and another 
museum and another museum, but it is because this generation 
has been called on to remedy a lot of stuff that happened in 
the past, and in that we should not get upset about what is 
happening but feel proud of the fact that we have come up and 
stepped up to the plate and said, you know something? That 
happened, and we have to take care of it.
    So that is my take on it. Do I want a Latino Museum? Yeah, 
because for 400 years I did not know inclusion. Which brings me 
to my first question, my only question really, and my comment, 
and that is that I have always pushed for the territories to be 
included, and I hope that the Smithsonian continues to be 
aggressive in seeing the territories as Americans that need 
their artifacts and their things included.
    What happens in Puerto Rico on a daily basis, what has 
happened in Puerto Rico since 1898, is part of American 
history. It is part of American history. What happens in the 
Northern Mariana Islands and in Guam and American Samoa is part 
of American history, and we forget that at times.
    But I tell you how frustrating it gets. Do you remember 
Bobby Bonilla, the baseball player? Okay. Baseball listed him, 
major league baseball as American born, and it listed Roberto 
Clemente as foreign born. It lists Jose Cheo Cruz from the 
Houston Astros as foreign born, and it lists his son, who was 
born in Houston as American born. And a few years ago National 
Journal listed foreign-born members of Congress, Tom Lantos, 
Nydia Velazquez, Jose Serrano. Hello! That is the problem, and 
that is why the Latino museum and the African-American museum 
are both things that are necessary until we reach that point 
where it is not necessary any longer. But until then it has to 
be because there is a lot of story that has not been told.
    We are now in my community documenting the history of the 
65th regiment, which was an old Puerto Rican regiment that 
fought in World War II, much to the amazement of that member of 
the New York State Legislature; they were not fighting their 
own war. They were fighting the American War, you know, against 
the Nazis and the Japanese and so on.
    So to my colleagues, I know it presents a space problem, 
and I am not being sarcastic, and I know from the goodness of 
your heart you would rather that we have one America, but that 
is not the reality of our history, and so let's keep working, 
and in closing, again, what I said before, rather than feel bad 
about it, let's be proud of the fact that we are the first 
generation to tackle it and to do the right thing.
    Mr. Clough. Well, your comments are heartfelt and very 
important. I have been to Puerto Rico quite a few times because 
I was President of Georgia Tech, and we had a great stream of 
wonderful students who came to Georgia Tech, and the families 
there are so loyal, once a family member comes, you get more 
family members, and it was a fantastic experience, and the 
brightness of the young people from there were remarkable.
    We do have a Latino Center, I want to mention that, at the 
Smithsonian. We have an Asian American Center. These are both 
working hard with us to help develop this inclusivity approach. 
As I said, frankly, I do not know if you heard my first 
remarks, we missed the boat. The Smithsonian was not there when 
it should have been there to reach out, and so, yes, we have a 
lot of work to do to rectify this thing.
    We have a lot of stories to tell right there in front of 
us. Two of the most prominent statues for our Art Museum and 
our American History Museum were designed by a Latino artist--
Vaquero and the beautiful Infinity sculpture. We need to tell 
those stories.
    Our traveling exhibition service is working with American 
History to put on an exhibition called Bittersweet Harvest, so 
speaking of a story that has not been told, and this is about 
the Bracero Program, where guest workers were invited to this 
country because there was not enough manpower during World War 
II to mount the war effort, and people came to this country and 
did remarkable things. They were in all states but four. They 
helped this country mount the war effort, and that was a great 
story to tell.
    Hilda Solis, who is Secretary of Labor, had tears in her 
eyes. She said, my father was a bracero, and people realized 
how important that was, and to tell you how, again, the untold 
story, to be able to see it. The traveling exhibition means it 
travels, and so we were going to travel I think originally to 
about 15 cities, and we had one version of it. It turned out to 
be enormously impactful, and so as a result now we have 
multiple versions of it, and it is going to 100 cities because 
people see themselves in this, and they see their story.
    Mr. Serrano. Very briefly, Mr. Chairman, in closing, also 
if for 400 years for African-Americans and 100 years for Puerto 
Ricans in my case, you are told basically by the society, by 
the media, by TV stations you are not part of us, there reaches 
a point where you say, okay. I have a chance to be part of you, 
but first as I become part of you let me tell you what happened 
during that period of time when you were not including us, let 
me tell you what you missed out on, what we did, what we 
accomplished, everything from African-Americans inventing the 
traffic light to whatever happened. You know, those are little 
things that people may not pay attention to.
    Mr. Simpson. Constructing the Capitol.
    Mr. Serrano. Constructing the Capitol. Absolutely.
    Voice. The traffic light?
    Mr. Serrano. The traffic light. Not very popular thing. 
Maybe I should not have mentioned that on behalf of the 
community. But, you know, what happens is it is almost like a 
catch up, catching up to tell that story first and then moving 
on, but it does not in any way, shape, or form make us feel 
less Americans. On the contrary. When our story is told, then 
we become even deeper into this, you know. We are who we are, 
and we are a country of people. It is wonderful, all of the 
color and cultures, and so somehow we all come together on July 
4 and every other day of the year as Americans, and no one 
should fear it. It is diversity, but it is not division.
    Mr. Clough. I have one quick comment, and then I will close 
on this issue, but Richard Kurin is here, and he helped create 
our Folkways Division, and Folkways has a marvelous collection 
of music and spoken words, and a lot of that is Latino music, 
and it has won more Emmys for us than any other source of 
music. And so it is a very rich and diverse source of history 
and culture.
    Mr. Serrano. Thank you, Mr. Clough.
    Mr. Simpson. Thank you. I appreciate your comments, Mr. 
Serrano. I said in our testimony one the Humanities, Mr. Leach, 
that our diversity in this country is actually our greatest 
strength.
    Mr. Serrano. Of course.
    Mr. Simpson. It also presents our greatest challenges, but 
it is something that, as you said, we ought to celebrate.
    Mr. Serrano. Yes. There are those who fear it but I 
celebrate it. I mean----
    Mr. Simpson. Yes.
    Mr. Lewis. Mr. Chairman, if you would just give me a 
moment----
    Mr. Simpson. Sure.
    Mr. Lewis [continuing]. To respond to some of this. I could 
not feel more strongly and positively about this line of 
discussion. I am flying out this weekend to celebrate my oldest 
brother's 85th birthday. The first time I remember seeing him 
as a youngster in uniform, he was in the Marine Corps uniform, 
spent most of his time in the Pacific, I was chatting with him 
about the 85th birthday and his experience and that which his 
generation contributed to our ability to enjoy what we enjoy. 
And talked with him out loud about the problems, the challenges 
of the Japanese right now with this horrendous earthquake and 
the tsunami, et cetera, and to hear him almost with tears say 
that, Jerry, I never really thought I would have the day when I 
felt sorry for the Japanese.
    I was the chairman of the Defense Subcommittee of 
Appropriations for only 2 weeks when I went to the swearing in 
of a new chief of the U.S. Army, and the fellow being sworn in 
I learned when he was born was a foreign alien born in Hawaii, 
Eric Shinseki, all these years later becomes the chief of the 
U.S. Army, now the Director, the Secretary of Veterans' 
Affairs.
    It is an incredible story and lest we forget we are all a 
part of it.

                           THE NATIONAL MALL

    Mr. Simpson. Just a final question, for me anyway, is that 
while we talk about the people that come out here, the visitors 
from Idaho and around the country that love the Smithsonian, 
their biggest disappointment that they talk to me about is the 
Mall and the shape of the Mall, and we have been trying to 
restore the Mall with the National Park Service and so forth 
and so on. Folk Life Festival has been an issue with that, and 
you have been working with the Park Service to try to remedy 
that because it is kind of like some of our national parks. You 
know, we love them to death. And somehow we have got to find a 
way so that we do not destroy the Mall just because of all the 
people that want to see it.
    What have you been doing, and how is that working with the 
Park Service now?
    Mr. Clough. We have met a number of times with the head of 
the Park Service, and particularly Eva Pell, who is here in the 
audience who is our Undersecretary for Science, is working 
closely with the head of their science program, because it 
really is a science issue. It is a question of how to maintain 
access to the Mall by so many people who love it to death as 
you say, and at the same time have a robust infrastructure so 
it continues to restore itself.
    One of the things we want to do is to green the 
Smithsonian, and one of the ways we do that is we have a lot of 
flat roofs out there on the Mall, and so we are building 
cisterns to collect water, big cisterns to collect water off of 
our roofs. The Park Service has no irrigation equipment out 
there, and we have offered to provide the water to the Mall as 
they experiment with different kinds of grasses, some of them 
are more successful than others. It is not a terribly rich soil 
because it is basically the sediment basin for Washington, DC, 
the old Tiber River was there.

                           FOLKLIFE FESTIVAL

    And so we are working with them, and as far as the Folk 
Life Festival itself is concerned, it is designed specifically 
to have minimal impact based on their recommendations for us. 
So we have worked closely with them. We provided them with 
comments on their report. We are meeting with their chief 
scientists and doing everything we can to offer assistance and 
to form a partnership to do this.

                              NATIONAL ZOO

    Mr. Simpson. Appreciate that. I enjoyed our trip with the 
staff out to National Zoo. Do we have anybody here from the 
National Zoo? If not, just pass on they have invited me, being 
a former dentist, to watch several dentistry programs on 
animals. I was always kind of interested in that, and several 
other things. So far I have not been able to fit it in my 
schedule, but I appreciate the invitation and have them keep 
asking me because I will do it eventually.
    Mr. Clough. I did see a root canal performed on a tiger. 
That is quite an interesting process.
    Mr. Simpson. Yes. I would not want to do that.
    Mr. Dicks. Mr. Chairman.
    Mr. Simpson. Yes.
    Mr. Dicks. One quick question here. We are looking at your 
staffing chart, and you have come down from about 4,400 to 
3,701 in '10.

                                STAFFING

    Mr. Dicks. How has that affected the Smithsonian?
    Mr. Clough. It has had a dramatic impact on the 
Smithsonian. Now, those are our federal employees, not our 
trust employees but our federal employees, and it affects us in 
those basic kind of things that we must do, collections care, 
the exhibitions that we put on, the scholarship and research 
that has to be done behind the scenes, the maintenance of the 
buildings, those kind of basic functions that I believe the 
Federal Government is responsible for funding for the 
Smithsonian. We can only do so much with private funding. These 
are the kind of things that you cannot do with private funding. 
No one is going to give us funding just for collections care. 
It is fundamentally crucial to us because we have these 
wonderful collections that we try to maintain.

                          SMITHSONIAN REDESIGN

    So we are trying to develop a strategy to best use our 
resources. For example, you may not have been here when I 
mentioned that we are doing something called Smithsonian 
Redesign, and that is to try to better use the people we have, 
because we know we are not going to get a lot more in the 
future, to use technology wherever we can to improve.
    And I will give you one example of that. If we can digitize 
our collections, number one, it allows us if we have good web 
systems to let people see the thing that we own and tell the 
stories that we tell behind them. But it also cuts down on 
handling of the objects because if someone wants to see them, 
most likely we can show them the digital image. If it is a 
high-quality three dimensional image, that may be enough. So 
you do not have to go get it and bring it out and show it to 
someone and handle it and then maybe not get it back to the 
right place where it went in the first place.
    And so we will try to use technology where we can, but 
ultimately it comes down to the expertise and the skills of our 
curators, and that is where we are hurting. We have collections 
that, I hear this over and over again, our curators will say 
there used to be five people in here. Now we are down to two. 
What happens when we are down to one or zero?
    And so you see a little stabilization going on. Congress 
helped us. We recognized the problem, we asked for help, you 
helped us in the past few years, and so we stabilized that 
thing, but my concern now is we are going into a period where 
we may go into another downturn, and that is a hard place to 
be.
    So thanks for recognizing it. It is a big problem for us. 
Six hundred people gone at the Smithsonian in the last 10 
years.
    Voice. Do you have stuff that the Baseball Hall of Fame has 
or vice versa?
    Mr. Clough. Well, we do have a few things, but nowadays 
everyone----
    Voice. Who has got Babe Ruth's bat?
    Mr. Clough. I do not think we have his bat. I know we have 
five of his baseballs because I lust after one of those for my 
office, but they will not let me have it.
    Mr. Simpson. Put it in a vault.
    Mr. Clough. Well, they told me my office lights are not the 
right lights, and you will lose----
    Mr. Simpson. It will hurt the ball.
    Mr. Clough. It will hurt the signature and so----
    Mr. Simpson. Change the lights.
    If there are no further questions----

                          RECOVERY ACT FUNDING

    Mr. Lewis. Mr. Chairman, if you would bear with me, as we 
talked about the Stimulus Package which added a trillion 
dollars to the mix here and then we have gone forward from 
there with some pretty significant levels of funding from the 
appropriations process for non-defense discretionary monies, 
one of our early concerns was that many an agency would find 
the pipeline so clogged with money that it would hardly know 
what to do with it, and some, indeed, have had some stumbling 
in connection with that.
    Did the Smithsonian receive significant flows? I think the 
answer to that is yes, but the question is did the Smithsonian 
try to go about getting prepared for the cliff. You answered 
almost yes to that. Eventually if the Stimulus money runs out, 
then there is a cliff if you expanded your funding flows.
    The personnel question that you are raising is a really, 
really important one.
    Mr. Clough. On the facility side the answer is, no, we did 
not get a lot of Stimulus money. We only got $25 million for 
various reasons. We used it well in some of our most critical 
projects.
    If you go by industry standards we should be getting about 
$100 million a year in maintenance and about $150 million a 
year in facility revitalization. And as was pointed out, $125 
million for African-American History and Culture and only $100 
million for the other facilities at the Smithsonian, which is 
not enough to do it.
    We have I think one of the very best track records, I am 
proud of our people, in the Federal Government of obligating 
our facilities funding. We are always around 90 percent in 
obligating our facilities' money, and we----
    Mr. Simpson. We better keep that because they are going to 
be looking around for change.
    Mr. Lewis. Yes, they are.
    Mr. Clough. So we will stay on top of that. Thank you for 
reminding us.
    Mr. Lewis. Yeah. Thanks for bringing that up.
    Mr. Clough. So the answer is, no, we do not have a cliff. 
We would like to have a cliff to look at. We do not have that 
right now.
    Mr. Simpson. Other questions? Thank you for being here 
today, and thank you for bringing the items and stuff. We 
appreciate it. The hearing is adjourned.

[GRAPHIC] [TIFF OMITTED] T6897P3.001



                               I N D E X

                              ----------                              

       Subcommittee on Interior, Environment and Related Agencies
                     2012 Volume 7--Hearing Indices
          Major Management Challenges at the US Forest Service
                           March 10, 2:00 PM

                                                                   Page
Aerial Firefighting Resources....................................73, 88
Albuquerque Service Center.......................................34, 50
Biography: Anu K. Mittal.........................................    19
Biography: Phyllis K. Fong.......................................    33
Border Patrol....................................................    37
Climate Change...................................................    46
Cohesive Strategy for Fuels and Wildfire.........................54, 79
Deferred Maintenance Backlog.....................................57, 81
Duplicative Inspections for Contracted Fire Crews................75, 94
Fire Program Analysis Tool.......................................    45
Fire Suppression.................................................    36
History of Management Challenges at USFS.........................48, 77
Implementation of OIG Recommendations............................    34
Integrated Resource Restoration Program..........................    35
Invasive Species.................................................    46
Inventory of Resources...........................................    38
Land Exchanges...................................................    38
Law Enforcement on Federal Lands.................................55, 80
Law Enforcement Technology.......................................    40
Management & Performance Issues..................................58, 82
Opening Remarks: Chairman Simpson................................     1
Opening Remarks: Mr. Moran.......................................     1
Performance Measurement..........................................51, 77
Personnel Turnover...............................................    41
Questions for GAO from Chairman Simpson..........................    48
Questions for GAO from Mr. Flake.................................    75
Questions for GAO from Mr. Moran.................................    58
Questions for the Record: GAO....................................    48
Questions for the Record: USDA IG................................    77
Questions for USDA IG from Chairman Simpson......................    77
Questions for USDA IG from Mr. Flake.............................    94
Questions for USDA IG from Mr. Moran.............................    82
Recovery Act--ARRA...........................................90, 39, 44
Risk Management..................................................    81
Special Use Permits..............................................36, 91
Stewardship Contracting Program..................................    36
Testimony of GAO Director Anu K. Mittal..........................     2
Testimony of USDA Inspector General Phyllis K. Fong..............    20
Wildland Fire Management Issues..............................64, 84, 89
Work on Forest Legacy............................................    92

            US Forest Service FY12 Budget Oversight Hearing
                           March 11, 9:30 AM

Additional Integrated Resource Restoration (IRR) Questions.......   157
Air Tankers......................................................   145
Albuquerque Centralized Business Center..........................   156
Alternative Energy...............................................   138
America's Great Outdoors.........................................   150
American Reinvestment and Recovery Act...........................   156
Bark Beetles.....................................................   147
Biography: Kathleen Atkinson.....................................   111
Biography: Tom Tidwell...........................................   110
Climate Change............................................104, 137, 155
Cohesive Strategy................................................   145
Community Forest and Open Space Program..........................   153
Continuing Resolution Impacts....................................   115
Continuing Resolutions and Management Difficulties...............   150
Cost Recovery....................................................   114
Cost Recovery Fees...............................................   140
El Yunque........................................................   128
Employee Retention...............................................   119
Fire Fighting Contract Crews.....................................   162
Forest Conservation..............................................   149
Forest Restoration Projects......................................   141
Forest Service Planning Rule.....................................   155
Fuel Reduction Funds.............................................   159
Gas Drilling--Hydro Fracking.....................................   124
Government Accountability Office & Inspector General.............   144
Grazing Allotments...............................................   112
Hazardous Fuels................................................118, 154
HR1--House Passed--Forest Service Transportation Planning 
  Stoppage.......................................................   150
Idaho Grazing Permits............................................   140
Integrated Resource Restoration...........................129, 142, 152
Interagency Cooperation on the Border............................   162
International Forestry.........................................121, 152
Land Acquisition.................................................   117
Land Exchanges...................................................   160
Law Enforcement--Interagency Cooperation.........................   120
Legacy Road and Trail Remediation................................   152
Litigation.......................................................   144
Opening Remarks: Chairman Simpson................................    97
Opening Remarks: Mr. Moran.......................................    98
Questions for the Record.........................................   140
Questions from Chairman Simpson..................................   140
Questions from Mr. Calvert.......................................   159
Questions from Mr. Flake.........................................   162
Questions from Mr. Lummis........................................   163
Questions from Mr. Moran.........................................   150
Recreation--Forest Management Plans..............................   126
Recreation, Visitation and Economic Impact.......................   156
Reducing Deferred Maintenance Backlog............................   157
Secure Rural Schools......................................132, 141, 151
Testimony of Chief Tidwell.......................................   100
Travel Management..............................................116, 135
U.S. Border Security.............................................   160
Urban and Community Forestry...................................127, 153
USFS Staffing....................................................   159
Wildfire Suppression.............................................   113
Wildland Fire Management.......................................109, 147
Wildland Fire Suppression and FLAME Fund.........................   153

        Fish and Wildlife Service FY12 Budget Oversight Hearing
                           March 16, 1:00 PM

Adaptive Science...............................................174, 202
Adaptive Science and Refuge Inventory and Monitoring.............   239
Administrative Cost Savings......................................   249
American Recovery and Reinvestment Act (ARRA)....................   250
America's Great Outdoors.........................................   229
Arizona Wildlife Conservation Organizations as Stakeholders......   270
Asian Carp and Lacey Act.........................................   193
Asian Carp: Status of Bighead Species Under Lacey Act............   194
Asian Carp: Use of Funding.......................................   194
Bay Delta Conservation Plan......................................   263
Biography of Christine L. Nolin..................................   181
Biography of Daniel M. Ashe......................................   179
Biography of Rowan Gould.........................................   178
BP Transocean Deepwater Horizon Oil Disaster in Gulf of Mexico...   237
Chesapeake Bay...................................................   186
Chesapeake Bay Efforts...........................................   233
Climate Change...................................................   230
Climate Change Impacts...........................................   185
Coastal Impact Assistance Program................................   176
Continuing Resolution Impacts....................................   184
Cooperative Landscape Conservation.............................174, 210
Deer Flat National Wildlife Refuge...............................   218
Delta Smelt......................................................   263
Endangered Species...............................................   175
Endangered Species Act.........................................195, 247
Endangered Species Act Consultations.............................   271
Endangered Species Lawsuits......................................   197
Endangered Species Listing and Recovery..........................   201
Endangered Species Petitions Cap.................................   196
Environmental Contaminants--Ecological Services..................   234
Everglades.......................................................   192
Fisheries and Aquatic Resource Conservation......................   176
Fisheries Program................................................   192
Gray Wolf........................................................   198
Grizzly Bears....................................................   217
HR1--House Passed Full Year Continuing Resolution................   229
Idaho Bull Trout Decision........................................   215
International Affairs............................................   176
Ivory Billed Woodpecker..........................................   257
Lake Lowell......................................................   208
Land Acquisition...............................................206, 213
Landscape Conservation Cooperatives..............................   200
Law Enforcement..................................................   175
Law Enforcement and International Trade in Wildlife and 
  Endangered Species.............................................   243
Lawsuits Rather Than Science.....................................   271
Mexican Gray Wolf Recovery Population............................   270
Migratory Birds..................................................   176
Mississippi River..............................................188, 267
Mitigation Hatcheries............................................   182
Multinational Species Conservation Fund..........................   256
National Fish Hatchery Operations--Decrease for Mitigation.......   249
National Wildlife Refuge Fund.............................206, 214, 241
National Wildlife Refuge System..................................   174
North American Wetlands Conservation Fund........................   244
Opening Remarks of Congressman Simpson...........................   165
Opening Statement of Rowan Gould.................................   171
Overnight Accommodations at Marinas..............................   259
Questions for the Record from Chairman Simpson...................   210
Questions for the Record from Committee Chairman Hal Rogers......   259
Questions for the Record from Congressman Calvert................   260
Questions for the Record from Congressman Flake..................   270
Questions for the Record from Congresswoman McCollum.............   267
Questions for the Record from Ranking Member Moran...............   229
Santa Ana Sucker...............................................186, 261
Spotted Owl Recovery Plan........................................   219
State and Tribal Wildlife Grants.................................   246
State and Tribal Wildlife Grants (Competitive).................191, 203
Tribal Programs..................................................   189
Western Riverside County MSHCP.................................260, 266
White Nose Syndrome in Bats......................................   252

           US Geological Survey FY12 Budget Oversight Hearing
                           March 17, 9:30 AM

Administrative Cost Savings......................................   325
Asian Carp.......................................................   327
Biography for Carla M. Burzyk....................................   283
Biography for Marcia K. McNutt...................................   281
Biography for Suzette Kimball....................................   282
BP Transocean Deepwater Horizon Disaster.........................   318
Budget Summary by Budget Activity................................   279
Climate Change.................................................288, 321
Climate Science..................................................   299
Endocrine Disruptors and Contaminants in Streams.................   310
Facilities Maintenance Reduction.................................   326
Great Lakes Restoration and Ecosystem Restoration................   326
Hazards Program...........................................285, 301, 306
International Role of the USGS...................................   292
Land Remote Sensing and New Rocket Costs.........................   314
Landsat..........................................................   287
Landsat Taking Up Future Budgets.................................   304
Major Changes....................................................   278
Mineral Resources Program......................................293, 297
National Biological Information Infrastructure...................   317
National Land Imaging (LandSat)..................................   297
National Minerals Information Center.............................   328
Opening Remarks of Chairman Simpson..............................   272
Opening Remarks of Congressman Moran.............................   273
Opening Remarks of Marcia K. McNutt, Director....................   274
Outyear Costs of Landsat.........................................   284
Program Quality and Performance..................................   284
Questions for the Record from Congressman Simpson................   295
Questions for the Record from Congresswoman McCollum.............   331
Questions for the Record from Ranking Member Moran...............   304
Reductions to Core Science at USGS...............................   304
Streamgages......................................................   289
Water Resources Cuts.............................................   295
Water Resources Program........................................286, 290
Water Shortages..................................................   291
WaterSMART Initiative and Reductions to key Water Science 
  Programs.......................................................   308

Bureau of Ocean Energy Management, Regulation and Enforcement (BOEMRE) 
 and Office of Natural Resources Revenue (ONRR) FY12 Budget Oversight 
                                Hearing
                           March 17, 1:00 PM

Alaska Oil Drilling..............................................   406
Arctic Drilling..................................................   388
Arctic Offshore Drilling.........................................   437
Auditing and Compliance..........................................   377
Biography of Deborah Gibbs Tschudy...............................   370
Biography of Gregory Gould.......................................   369
Biography of Michael R. Bromwich.................................   357
Chukchi Sea......................................................   439
Civil Penalties..................................................   380
Deep Water Royalty Relief........................................   375
Division of BOEMRE to BOEM & BSEE................................   395
Encouraging Lease Development....................................   382
Expand State and Tribal Audit Program............................   435
FY 12 BOEMRE Budget Request......................................   391
Gas Prices and Demand............................................   405
General Accountability Office: High Risk Report................374, 412
Geothermal Revenue Sharing with Counties.........................   436
Goals for Domestic Energy Production.............................   400
Human Capital Deficiencies in Oil and Gas Management.............   426
Inspection Fee to Offset Cost of Industrial Review...............   431
Investigations and Review Unit...................................   385
Leases with Viable Resources...................................387, 390
Legislative Proposal on Non-Producing Oil and Gas Leases.........   433
Marine Minerals Reduction........................................   430
New Fees.........................................................   402
Non-Producing Lease Fee..........................................   379
OCS Permits......................................................   442
Office of Natural Resources Revenue..............................   407
Oil and Gas Production...........................................   404
Oil and Gas Royalty Collection...................................   408
Opening Remarks of Chairman Simpson..............................   333
Opening Remarks of Congressman Maurice Hinchey...................   381
Opening Remarks of Congresswoman Cynthia Lummis..................   378
Opening Remarks of Director Gregory Gould........................   359
Opening Remarks of Director Michael Bromwich.....................   336
Opening Remarks of Ranking Member Moran..........................   334
Permitting.....................................................378, 384
Permitting Delays................................................   448
Production Measurement/Inspection at ONRR........................   434
Questions for the Record from Chairman Simpson...................   391
Questions for the Record from Congressman Calvert................   442
Questions for the Record from Congressman Flake..................   447
Questions for the Record from Ranking Member Moran...............   412
Reform of Offshore Oil and Gas Regulation........................   419
Renewable Energy and Strengthening Resource Protection...........   433
Reorganization...................................................   373
Retaining Personnel..............................................   371
Royalty Collection...............................................   371
Royalty in Kind Program Transition...............................   410
State Audit Program..............................................   386
Stopping the Use of Categorical Exclusions.......................   447
Transitional Programs............................................   411
Tribal Royalties.................................................   387
Well Containment.................................................   378

         Bureau of Indian Affairs FY12 Budget Oversight Hearing
                           March 30, 1:00 PM

Advancing Indian Nations.........................................   453
Alaska Lands.....................................................   479
Appraisals.......................................................   478
BIA Construction Program.........................................   506
BIA Website......................................................   475
Biography of Keith Moore.........................................   465
Biography of Larry Echo Hawk.....................................   463
Biography of Michael S. Black....................................   464
Carcieri.........................................................   472
Carcieri Decision................................................   479
Catawba Tribe....................................................   480
Coal-Fired Power Plants..........................................   472
Cobell Settlement................................................   478
Consultation with Indian Tribes..................................   506
Contract Support...............................................467, 491
Detention Operations.............................................   468
Detention Operations and Staffing................................   469
Detention/Corrections............................................   493
Domestic Violence and Substance Abuse............................   501
Education........................................................   486
Education Annual Criteria........................................   482
Education Assistance.............................................   476
Education Construction....................................477, 481, 497
Education Construction Backlog...................................   477
Education Facility Maintenance...................................   482
Education Funding................................................   487
Elimination of BIA...............................................   475
ESEA Reauthorization.............................................   483
Facilities Negotiated Rulemaking.................................   477
Facility Space...................................................   476
Federal Agencies Shared Responsibilities.........................   475
Federal Summit...................................................   474
Fort Hall........................................................   470
FY 2012 Budget...................................................   453
H.R. 1...........................................................   453
Head Start.......................................................   487
Improving Trust Land Management..................................   454
Indian Affairs...................................................   453
Indian Education.................................................   454
Indian Guaranteed Loan Program.................................470, 480
Indian School Construction and Safety............................   503
Interagency Law Enforcement......................................   473
Juvenile Detention/Educational Services Cut......................   503
Land and Water Claims Settlements................................   507
Land Into Trust..................................................   478
Land Into Trust Database.........................................   502
Law Enforcement..................................................   507
Lease Compliance.................................................   471
Legal and Moral Obligations......................................   452
NAGPRA...........................................................   485
Nation-to-Nation Relationships...................................   508
Native American Artifacts Issues.................................   502
New Mexico School................................................   481
OMB..............................................................   467
Opening Remarks of Chairman Simpson..............................   451
Opening Remarks of Mr. Moran.....................................   452
Performance Measurement..........................................   495
Program Reductions...............................................   470
Protecting Indian Country........................................   454
Public Safety and Justice Construction...........................   495
Questions for the Record from Chairman Simpson...................   490
Questions for the Record from Mr. Cole...........................   509
Questions for the Record from Ranking Member Moran...............   506
Regional Detention Centers.......................................   494
Residential Placement............................................   471
Rights Protection................................................   501
School Contributions.............................................   476
Small and Needy Tribes...........................................   454
Sullivan County..................................................   480
Testimony of Mr. Echo Hawk.......................................   453
Tribal Conflicts.................................................   473
Tribal Courts....................................................   496
Tribal Distribution..............................................   454
Tribal Input.....................................................   488
Tribal Interior Budget Council...................................   467
Tribal Law and Order Act.......................................468, 491
Tribal/Interior Budget Council (ITBC)............................   490
Tribal-State Law Enforcement Agreements..........................   484
Trust Asset and Accounting Management System.....................   506
Violent Crime....................................................   483

          Indian Health Service FY12 Budget Oversight Hearing
                           March 31, 9:30 AM

Aberdeen, SD Regional Office...................................552, 561
Biography: Dr. Yvette Roubideaux.................................   521
Biography: Randy Grinnell........................................   522
Childhood Obesity................................................   537
Contract Health Services.......................................533, 548
Contract Support...............................................547, 560
Coordination with HUD and DOI....................................   553
Dental Services................................................523, 543
Diabetes.........................................................   536
Domestic Violence..............................................526, 549
Early Childhood Carries Initiative...............................   524
Electronic Dental Records........................................   524
Equal Employment Opportunity.....................................   539
Head Start.......................................................   534
Health Care Costs................................................   560
Health Professional Vacancies....................................   546
HIV/AIDS.........................................................   550
IHCIA--Facilities Provision......................................   536
Improving Patient Care Initiative................................   532
Indian Health Care Improvement Act.............................547, 559
Indian Health Care Reauthorization Act...........................   525
Inventory Accountability.........................................   557
Joint Ventures.................................................528, 557
Loan Repayment...................................................   546
Opening Remarks: Acting Chairman Cole............................   511
Opening Remarks: Mr. Moran.......................................   511
Per Capita Health Care...........................................   547
Questions for the Record.........................................   543
Questions from Acting Chairman Cole..............................   543
Questions from Mr. Moran.........................................   559
Recovery of Costs................................................   560
Sanitation.....................................................526, 552
Small Grant Program............................................533, 558
Testimony of Dr. Roubideaux......................................   512
Tribal Consultation..............................................   559
Urban Program....................................................   529
Youth Suicide....................................................   549

     National Endowment for the Arts FY12 Budget Oversight Hearing
                            May 11, 9:30 AM

Administrative Costs.............................................   590
Applicants vs. Awards............................................   607
Arts and Community Development............................585, 589, 593
Arts in Rural America............................................   580
Arts in Schools..................................................   591
Big Read.........................................................   578
Biography: Rocco Landesman.......................................   577
Blue Star Museums................................................   572
Challenge America................................................   578
Clarifying State Matching Requirements...........................   571
Collaborations with Other Agencies...............................   572
Conflict of Interest.............................................   605
Continuation of the National Heritage Fellowship.................   588
Creative Placemaking.............................................   586
Grant Selection Process..........................................   584
Grants for Individual Artists....................................   601
Grants to Indian Country.........................................   590
Grants to Organizations and Universities.........................   582
Grants to United States Territories..............................   588
Grants to Universities...............................583, 591, 594, 604
Honoring Artists of All Disciplines..............................   571
Importance of Arts in America....................................   587
Leveraging Effect of Arts Funding................................   586
NEA Partnerships.................................................   596
NEA Promoting the Arts in the Schools............................   603
NEA Reauthorization..............................................   602
NEA Staffing Levels..............................................   601
Opening Remarks: Chairman Simpson................................   567
Opening Remarks: Mr. Moran.......................................   568
Our Town..................................................569, 579, 595
Proposed Reductions..............................................   570
Quality of Art Programs..........................................   581
Questions for the Record.........................................   595
Questions from Chairman Simpson..................................   595
Questions from Mr. Flake.........................................   604
Reductions to Underserved Communities............................   582
Repeat Grant Recipients........................................584, 604
Role of the National Council on the Arts.........................   580
Salaries and Expenses............................................   602
Shakespeare in America...........................................   578
Testimony of Chairman Landesman..................................   569

  National Endowment for the Humanities FY12 Budget Oversight Hearing
                            May 11, 11:00 AM

Opening Remarks: Chairman Simpson................................   609
Opening Remarks: Mr. Moran.......................................   609
Testimony of Chairman Leach......................................   610
Biography: Jim Leach.............................................   622
Civility Tour....................................................   623
``We the People'' Initiative.....................................   624
Documenting Endangered Languages.................................   625
Teaching and Scholarship.........................................   625
``EDSITEment'' Program...........................................   626
Support for Humanities Research vs. The Sciences.................   627
NEH Staffing.....................................................   630
History, New Approaches to the Study of..........................   630

         Smithsonian Institution FY12 Budget Oversight Hearing
                            May 12, 9:30 AM

Opening Remarks: Chairman Simpson................................   635
Opening Remarks: Mr. Moran.......................................   657
Testimony of Secretary Clough....................................   636
Biography: Wayne Clough..........................................   650
Collections......................................................   636
Visitors and Exhibitions.........................................   636
Education........................................................   637
On-line Education and Social Media...............................   637
Outreach.........................................................   637
Strategic Plan...................................................   637
Private Fundraising..............................................   638
FY12 Request.....................................................   638
Abraham Lincoln's Pocket Watch...................................   654
John Glenn's Camera............................................655, 658
Research.........................................................   659
National Museum of African American History and Culture..........   659
Arts and Industries Building.....................................   661
Smithsonian Staff................................................   662
Private Fundraising..............................................   662
New Museums on the National Mall.................................   663
Overcrowding of the Mall.........................................   666
Social Media.....................................................   668
Smithsonian Magazine.............................................   669
Admissions.......................................................   670
Latino Museum....................................................   672
The National Mall................................................   676
Folklife Festival................................................   677
National Zoo.....................................................   677
Staffing.........................................................   677
Smithsonian Redesign.............................................   678
Recovery Act Funding.............................................   678

                                  <all>

</pre></body></html>
